<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-177]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-177
 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2016

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2250

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2016, AND FOR OTHER PURPOSES

                               __________

                        Architect of the Capitol
                      Congressional Budget Office
                    Government Accountability Office
                      Government Publishing Office
                          Library of Congress
                       Nondepartmental Witnesses
                          Office of Compliance
                      United States Capitol Police
                  U.S. Senate Office of the Secretary
              U.S. Senate Sergeant at Arms and Doorkeeper

                               __________

         Printed for the use of the Committee on Appropriations
         
         
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations
        
        
               
        

                               __________
                        U.S. GOVERNMENT PUBLISHING OFFICE
  91-148 PDF                    WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                               
                               
                               
                               
                               
                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman

MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland, 
RICHARD C. SHELBY, Alabama               Vice Chairwoman
LAMAR ALEXANDER, Tennessee           PATRICK J. LEAHY, Vermont
SUSAN M. COLLINS, Maine              PATTY MURRAY, Washington
LISA MURKOWSKI, Alaska               DIANNE FEINSTEIN, California
LINDSEY GRAHAM, South Carolina       RICHARD J. DURBIN, Illinois
MARK KIRK, Illinois                  JACK REED, Rhode Island
ROY BLUNT, Missouri                  JON TESTER, Montana
JERRY MORAN, Kansas                  TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            JEANNE SHAHEEN, New Hampshire
JOHN BOOZMAN, Arkansas               JEFF MERKLEY, Oregon
SHELLEY MOORE CAPITO, West Virginia  CHRISTOPHER A. COONS, Delaware
BILL CASSIDY, Louisiana              BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
STEVE DAINES, Montana                CHRIS MURPHY, Connecticut

                      Bruce Evans, Staff Director
              Charles E. Kieffer, Minority Staff Director

                                 ------                                

                 Subcommittee on the Legislative Branch

            SHELLEY MOORE CAPITO, West Virginia, Chairwoman

MARK KIRK, Illinois                  BRIAN SCHATZ, Hawaii, Ranking 
JERRY MORAN, Kansas                      Member
THAD COCHRAN, Mississippi, (ex       CHRIS MURPHY, Connecticut
    officio)                         BARBARA A. MIKULSKI, Maryland, (ex 
                                         officio)

                           Professional Staff

                           Rachelle Schroeder
                            Courtney Stevens

                      Melissa Zimmerman (Minority)
                          Jean Kwon (Minority)
                          
                                (II)
                          
                          
                            C O N T E N T S

                              ----------                              

                                hearings

                        Tuesday, March 10, 2015

                                                                   Page

Congressional Budget Office......................................     1
Government Accountability Office.................................     9

                        Thursday, March 12, 2015

United States Capitol Police.....................................    72
U.S. Senate:
    Office of the Secretary......................................    39
    Sergeant at Arms and Doorkeeper..............................    59

                        Tuesday, March 17, 2015

Architect of the Capitol.........................................   125
Library of Congress..............................................    95
                              ----------                              

                              back matter

Departmental Witnesses:
    Government Publishing Office.................................   151
    Office of Compliance.........................................   160
List of Witnesses, Communications, and Prepared Statements.......   171
Nondepartmental Witnesses........................................   162
Subject Index:
    Architect of the Capitol.....................................   173
    Congressional Budget Office..................................   173
    Government Accountability Office.............................   173
    Government Publishing Office.................................   175
    Library of Congress..........................................   175
    Office of Compliance.........................................   176
    United States Capitol Police.................................   176
    U.S. Senate:
        Office of the Secretary..................................   177
        Sergeant at Arms and Doorkeeper..........................   178
        
        
        
                                      (III)
        
        
        


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                        TUESDAY, MARCH 10, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:04 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Shelley Moore Capito (chairman) 
presiding.
    Present: Senators Capito, Schatz, and Murphy.

                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DR. DOUGLAS W. ELMENDORF, PH.D., DIRECTOR


           opening statement of senator shelley moore capito


    Senator Capito. Good afternoon, everybody. The subcommittee 
will come to order. I would like to welcome everyone to the 
first of our fiscal year 2016 budget hearings for the variety 
of agencies under the jurisdiction of the Legislative Branch 
Appropriations Subcommittee.
    I would like to welcome my ranking member. This is our 
first run at this show, and I think I speak for myself and for 
the Senator, that we are excited about having this 
responsibility.
    We are going to begin today with the Director of the 
Congressional Budget Office (CBO), Dr. Douglas Elmendorf, and 
the head of the Government Accountability Office (GAO), Mr. 
Gene Dodaro. I appreciate the willingness of the witnesses to 
appear before the subcommittee today.
    I would like to start by thanking Dr. Elmendorf for his 6 
years of service as the Director of the Congressional Budget 
Office. As we talked just briefly, I know you are going to be 
welcoming a breath of fresh air in your life, a time to reflect 
and figure what you want to do for the rest of your life, but 
you have been a stellar public servant.
    Your tenure has assured that the CBO provided this 
committee with objective, non-partisan information that is 
necessary for us to do our job, and I speak for the rest of 
Congress as well.
    We appreciate the manner in which you have approached this 
with the very, very difficult task that you have had. We wish 
you well.
    As many of you already know, on February 27, the Speaker of 
the House, John Boehner, and the President Pro Tempore, Orrin 
Hatch, jointly appointed Dr. Keith Hall to be the next Director 
of the Congressional Budget Office, after consideration of the 
recommendation made to leadership by the chairmen of the House 
and Senate Budget Committees.
    Dr. Hall's term will begin on April 1. Maybe he should 
start on April 2. It will expire on January 3, 2019, in 
accordance with the guidelines set forth in the Congressional 
Budget and Impoundment Control Act of 1974.
    The total Congressional Budget Office request is $47.27 
million, a $1.57 million or 3.4 percent increase over the 2015 
enacted level. This funding request supports the current full-
time equivalent (FTE) level of 235 plus an additional three 
FTEs necessary for health related work and developing a 
specific structure within the existing Macroeconomic Division, 
in order to comply with the new House rule requirement.
    The total GAO request for fiscal year 2016 is $553.1 
million, a $31.1 million or 6 percent increase above the fiscal 
year 2015 enacted level. This funding request supports an 
increase in FTEs from 3,015 to 3,055, which would continue 
progress on GAO's multi-year plan to achieve an optimal level 
of 3,250 FTEs.
    I look forward to exploring these needs with you and the 
other members of the subcommittee today and over the next 
several months as we move forward through this fiscal year 2016 
process.
    Again, I would like to thank you, and I would like to turn 
it over to the ranking member, Senator Schatz, for any opening 
remarks he might have.


                   statement of senator brian schatz


    Senator Schatz. Thank you, Chair Capito. It is an honor to 
serve on the Senate Appropriations Committee and especially to 
be serving as your ranking member. I look forward to working 
with you on this subcommittee, and we are fortunate to have you 
and your 14 years of experience in the Federal legislative 
context.
    I am anxious today to get started on our work together 
examining the budgets of agencies funded in this bill and 
making sure that the taxpayers' money is being spent wisely.
    I would like to welcome Director Elmendorf and Comptroller 
General Dodaro to this hearing. CBO and GAO play a vital role 
in supporting the Congress' legislative and oversight 
responsibilities by providing objective and authoritative 
information to the Congress. CBO and GAO ensure that policy and 
funding debates are based on sound factual and independent 
information.
    Recent policy and funding decisions are being considered 
within a challenging fiscal climate, making CBO's cost 
estimates, budget projections, and economic forecasts 
especially important.
    Within GAO, one key component of their work is the agency's 
high risk list published at the start of each new Congress to 
identify areas at high risk for waste, fraud, abuse, or 
mismanagement. The high risk list provides Congress and the 
committee a clear and informed set of oversight priorities.
    I look forward to working with our two agencies today and 
throughout the year to ensure that both have the resources 
needed to fulfill your responsibilities.
    I am also interested in learning how your agencies may have 
to adjust their operations if current Budget Control Act (BCA) 
spending caps remain in place.
    Dr. Elmendorf, after 6 years, you will soon finish your 
service as CBO Director. I understand CBO has produced more 
than 3,000 written cost estimates under your leadership, and 
that this is your 50th and perhaps last congressional hearing.
    I want to thank you for your service to Congress and wish 
you the best in your future endeavors.
    Thank you, Chair Capito.
    Senator Capito. Thank you. Now, I would like to ask the 
witnesses, beginning with Dr. Elmendorf, to give a brief 
opening statement of approximately five minutes. The written 
testimony of each witness will be printed in full in the 
hearing record. Dr. Elmendorf.


             summary statement of dr. douglas w. elmendorf


    Dr. Elmendorf. Thank you, Madam Chairman, and Ranking 
Member Schatz, for your kind words. I appreciate the 
opportunity to present CBO's budget request for fiscal year 
2016.
    We are asking for appropriations of $47.3 million, which 
will be an increase of $1.6 million or 3.4 percent from the 
$45.7 million provided to CBO for 2015.
    About one-quarter of our requested increase, roughly 
$440,000, would fund three additional full-time equivalent 
positions. We aim to boost our staffing from the 235 FTEs 
contemplated for this year to 238 next year.
    The additional FTEs would be devoted, as the chair said, to 
analyze the economic effects of Federal tax and spending 
policies, including conducting so-called ``dynamic analysis'' 
of certain legislation under the new House rule, and probably 
on occasion for the Senate as well, and to analyze healthcare 
issues.
    The remaining $1.1 million of the increase, about 2.4 
percent, will be devoted to our ongoing operations. That figure 
is the net increase of an increase of $1.7 million in pay and 
benefits, and a decrease of about $550,000 in non-pay 
expenditures.
    The proposed increase in pay and benefits reflects small 
increases in average pay and rising costs of benefits, 
including a marked increase in contribution rates for the 
Federal Employees Retirement System that took effect this year 
but was not anticipated in our budget request for this year. We 
are meeting this year's costs within our appropriations because 
the pay of some new employees has turned out to be less than we 
anticipated.
    We continue to face considerable competitive pressure in 
attracting and retaining the highly educated and skilled 
employees that we and the Congress need. Talented economists 
and budget analysts are highly sought by other Government 
agencies, private analytic organizations, and private 
companies.
    Indeed, the gap between the compensation that CBO can 
provide and the compensation that people with such backgrounds 
can receive elsewhere is increasing.
    The decrease in non-pay expenditures in our request is 
mostly related to information technology, and it is possible 
because funding provided last year and this year allowed us to 
catch up on IT purchases that had been deferred from previous 
years.
    In various other areas, we expect to contain non-pay costs 
so it will be less than or equal to this year's expenditures, 
despite rising prices.
    Our goal with this funding request is to continue to 
provide the Congress with a timely, carefully thought out, non-
partisan budgetary and economic analysis that you and your 
colleagues expect from us.
    As you know, our work encompasses a wide array of subjects 
and appears in many different forms. We write reports on the 
outlook for the budget and the economy, long term budget 
outlook, and options for reducing budget deficits.
    We issue more than 500 formal cost estimates in a year and 
provide thousands of preliminary informal estimates as 
committees seek to have a clear picture of the budgetary impact 
of proposals before they formally consider legislation.
    We release more than 100 scorekeeping tabulations each 
year, including account level detail for individual 
appropriation acts at all stages of the legislative process.
    We publish roughly 85 analytical reports and other 
publications each year, generally as required by law, or in 
response to requests from the chairman and ranking members of 
key committees.
    A common thread running through all of that work is that 
the demand from you and your colleagues exceeds the quantity 
that the 235 of us at CBO can supply. The enactment of major 
healthcare legislation in 2010 has been followed as you know by 
a high level of congressional interest in analysis of that 
legislation and numerous proposals for further changes in 
Federal healthcare programs.
    In addition, the slow recovery of an economic down turn has 
spurred interest in our economic forecasts, and in policies 
that might boost economic growth and opportunity in both the 
near term and the longer term.
    Moreover, the surge in Federal debt and the high level of 
projected deficits over the long term have led to ongoing 
consideration of fundamental changes in spending and tax 
policies, from changes in benefit programs to defense policy, 
infrastructure, energy policy, and much more.
    Despite the very hard work of CBO's highly dedicated staff, 
we simply cannot keep up with the volume of requested estimates 
and other analyses. Of course, we regularly consult with the 
leadership of the key committees of the House and the Senate as 
a whole to ensure that our limited resources are focused on the 
work that is of highest priority to the Congress.
    Even so, if we have to reduce our staffing below the 
current level, the mismatch between the demand for and the 
supply of our work would become even more acute.
    I want to close by thanking this committee for the support 
it has supported CBO over many years. I have had the 
extraordinary privilege to lead a terrific organization and 
work with its very talented people for the past 6 years. I know 
CBO will continue to provide the Congress with careful 
objective analysis as you and your colleagues grapple with the 
many challenges the Nation faces.
    Thank you.
    [The statement follows:]
             Prepared Statement of Dr. Douglas W. Elmendorf
    Madam Chairman, Ranking Member Schatz, and members of the 
subcommittee, thank you for the opportunity to present the 
Congressional Budget Office's budget request. CBO requests 
appropriations of $47.3 million for fiscal year 2016. That amount 
represents an increase of $1.6 million, or 3.4 percent, from the $45.7 
million provided to CBO for 2015.
    About one-quarter of the requested increase, roughly $440,000, 
would fund three new full-time-equivalent positions (FTEs): The agency 
aims to boost its staffing from the 235 FTEs contemplated in the 2015 
appropriation to 238 for 2016. The additional FTEs would be devoted to 
analyzing the economic effects of Federal tax and spending policies 
(including conducting ``dynamic analysis'' of certain legislation 
pursuant to a new House rule) and healthcare issues.
    The remaining $1.1 million increase (about 2.4 percent) would be 
devoted to ongoing operations--the result of an increase of nearly $1.7 
million in pay and benefits, which would be partly offset by a decrease 
of about $550,000 in nonpay expenditures. The proposed increase in pay 
and benefits reflects small increases in average pay and rising costs 
of benefits, including a marked increase in contribution rates for the 
Federal Employees Retirement System (FERS) that took effect in 2015 but 
was not anticipated in CBO's 2015 budget request. The decrease in 
nonpay expenditures, mostly related to information technology (IT), is 
possible because funding provided in 2014 and 2015 allowed CBO to catch 
up on IT purchases deferred from previous years. In various other 
areas, CBO expects to contain nonpay costs so they will be less than or 
equal to this year's expenditures, despite rising prices.
    Of the requested funding for 2016, 91 percent would support pay and 
benefits, 6 percent would be for IT, and 3 percent would go toward 
purchases of data, training, office supplies, and other items.
      cbo's funding history and its effects on staffing and output
    Because such a large share of CBO's budget represents compensation, 
the contours of the agency's budget and staffing levels have been and 
will continue to be closely linked.
    Between fiscal years 2002 and 2008, the number of authorized FTEs 
at CBO held between 232 and 235 (see Figure 1). During that period, 
CBO's budget generally rose slowly, as Federal employees received 
salary increases and the cost of Federal benefits increased. For fiscal 
years 2009 and 2010, the Congress approved larger increases in CBO's 
budget to support a step-up in staffing. That step-up was intended 
primarily to increase the agency's ability to analyze potential changes 
in Federal healthcare policy while maintaining its capacity to provide 
cost estimates and reports on other topics. CBO had sufficient funding 
for 254 FTEs in 2010.
    The increase in staffing enabled CBO to engage in analyses of 
particularly complex issues and to provide substantially more estimates 
and other analyses to the Congress. Among the accomplishments that were 
facilitated by the larger staff were a significant expansion of 
healthcare analysis, substantial enhancement of financial analysis, 
considerable improvement in modeling the economic effects of Federal 
tax and spending policies, issuance of several reports with options for 
changing Federal benefit programs, significant gains in the 
transparency of CBO's analysis, and continued high quality of the 
agency's cost estimates and analyses of numerous other topics.
    However, constraints on CBO's funding (following from constraints 
on discretionary appropriations as a whole) caused the agency's 
staffing to shrink in fiscal years 2011 through 2013. The agency's 
appropriation for 2013 was well below the amounts provided to the 
agency during the preceding years (see Figure 2). Those cuts, combined 
with small increases in average pay and rising costs of benefits and 
other items during those years, required a drop in the number of FTEs 
to only 225 in 2013, the lowest level in more than a dozen years. In 
addition, the agency had to defer critical purchases of IT equipment 
and services and other items.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    CBO's appropriation for 2014 was significantly larger than its 
appropriation for 2013, and the appropriation for 2015 equaled the 
amount provided in 2014. Accordingly, the agency sharply increased its 
recruiting efforts in order to return its staffing to the traditional 
level of 235 FTEs as quickly as possible and to catch up on deferred IT 
purchases. As a result, staffing now stands at 234 FTEs, and the number 
is expected to be slightly higher by the end of this fiscal year.
   cbo's funding request and its consequences for staffing and output
    In fiscal year 2016, CBO will continue its mission of providing 
objective, insightful, timely, and clearly presented budgetary and 
economic information to the Congress. To fulfill that mission, CBO 
requests $47.3 million in funding--an increase of $1,570,000 from the 
$45.7 million provided for 2015. The requested amount of funding would 
allow CBO to provide the following estimates and other analyses to the 
Congress:
  --Reports presenting the outlook for the budget and the economy, 
        analyses of the President's budget, long-term budget 
        projections, and options for reducing budget deficits;
  --More than 500 formal cost estimates, most of which will include not 
        only estimates of Federal costs but also assessments of the 
        cost of mandates imposed on State, local, and tribal 
        governments or the private sector;
  --Thousands of preliminary, informal cost estimates, the demand for 
        which is very high as committees seek to have a clear picture 
        of the budgetary impact of proposals and variants of proposals 
        before they formally consider legislation;
  --About 120 scorekeeping tabulations, including account-level detail 
        for individual appropriation acts at all stages of the 
        legislative process and summary tables showing the status of 
        discretionary appropriations (by appropriations subcommittee) 
        and running totals on a year-to-date basis; and
  --Roughly 85 analytical reports and other publications--generally 
        required by law or prepared in response to requests from the 
        Chairmen and Ranking Members of key committees--on a broad 
        range of topics, including healthcare, policies for increasing 
        economic growth and opportunity, changes in benefit programs, 
        defense policy, infrastructure, energy policy, and the 
        Government's role in the financial system.
    Those products would be the result of very hard work by CBO's 
highly dedicated staff. Nevertheless, the agency expects that the 
anticipated volume of estimates and other analyses will fall 
considerably short of the number of Congressional requests. The demands 
on CBO remain intense: The enactment of major healthcare legislation in 
2010 has been followed by a high level of congressional interest in 
analysis of that legislation and numerous proposals for further changes 
in Federal healthcare programs. In addition, the slow recovery from the 
economic downturn has spurred interest in the agency's economic 
forecasts and in policies that might boost economic growth and 
opportunity in both the near term and the longer term. Moreover, the 
surge in Federal debt and the high level of projected deficits have led 
to ongoing congressional efforts to enact fundamental changes in 
spending and tax policies. Analyzing the possibilities and proposals 
has strained the agency's resources in many areas. CBO regularly 
consults with committees and congressional leadership to ensure that 
its limited resources are focused on the work that is of highest 
priority to the Congress.
    The requested funds would be used as follows:
  --$32.1 million for pay of personnel--an increase of $1.6 million (5 
        percent) over the amount that will be spent in fiscal year 
        2015. The increase would cover $0.3 million in pay for the 
        additional FTEs, as well as performance-based salary increases 
        for current staff and an across-the-board increase of 2.2 
        percent for employees making less than $100,000 (if such an 
        increase is authorized for executive branch agencies).
  --$11.1 million for benefits of personnel--an increase of $0.5 
        million (5 percent) relative to the amount projected to be 
        spent in 2015, to fund an increase in the cost of Federal 
        benefits as well as the benefits for the added staff members. 
        The increase in the FERS contribution rate (about 1.7 
        percentage points for most of the affected employees) took 
        effect in 2015 but was not anticipated in the 2015 budget; 
        those costs are being met within the 2015 appropriation because 
        the pay of some new employees turned out to be lower than 
        anticipated. The higher FERS contribution rate accounts for 
        about $0.5 million of the proposed 2016 funding.
  --$4.1 million for other purposes--a decrease of $0.5 million (12 
        percent) from the amount appropriated in 2015. The funds would 
        go toward purchases of IT, data, training, and other items. The 
        decrease for 2016 is made possible primarily by the fact that 
        the 2014 funding allowed CBO to catch up on deferred IT 
        purchases and to make some purchases that reduced future needs.
    In closing, I would like to thank the Committee for the support it 
has provided CBO over many years, enabling the agency to provide 
timely, carefully thought-out nonpartisan budgetary and economic 
analysis to the Congress as it addresses the critical issues facing the 
Nation.

    Senator Capito. Comptroller General.

                    GOVERNMENT ACCOUNTABILITY OFFICE

STATEMENT OF HON. GENE L. DODARO, COMPTROLLER GENERAL
    Mr. Dodaro. Good afternoon, Madam Chairman, Senator Schatz. 
I am very pleased to be here this afternoon to discuss GAO's 
budget request.
    First, I would like to add to the compliments that both of 
you have provided to Doug Elmendorf. He has been a tremendous 
colleague to work with over the years. I want to wish him well 
in his future endeavors.

                               GAO BUDGET

    With regard to GAO's budget request, I just want to make 
three basic points. First, GAO provides an excellent return on 
investment in supporting the Congress and improving the 
performance and accountability of the Government.
    Second, our ability to make an impact and help the Congress 
is dependent on having a highly skilled and experienced 
workforce to carry out our responsibilities.
    Finally, we have advanced a prudent request that will 
enable us to meet the highest priority needs of the Congress 
and provide the greatest impact on achieving financial 
benefits.

                        GAO RETURN ON INVESTMENT

    First, on GAO's return on investment. Last year as a result 
of implementing our recommendations, there were over $54 
billion in financial benefits identified to the Congress and 
the country. This is about a $100 return for every dollar 
invested in GAO. There were also about 1,200 documented 
improvements in agency operations that addressed public health 
and safety issues or helped improve the performance and 
efficiency of Government programs.
    The Bipartisan Budget Act recently incorporated 
recommendations from GAO to save over $23 billion which helped 
in avoiding the sequestration process for fiscal years 2014 and 
2015. The Consolidated Appropriations Act for 2015 was replete 
with references to GAO's work. We made contributions to 
numerous authorizations and reauthorizations on everything from 
defense to agriculture programs.
    We also helped advance major management reforms that the 
Digital Accountability and Transparency Act will now improve, 
if properly implemented, such as the accuracy and searchability 
of all information on Federal spending.
    Our work also led to the Federal Information Technology 
Reform Act, which will improve IT acquisitions across 
Government. We have made a number of recommendations to five 
different pieces of legislation that were passed last year, 
addressing the Federal Government's response to cybersecurity 
issues going forward.
    I think the record of investing in GAO is very clear and 
demonstrates that you get good results.

                             GAO WORKFORCE

    With regard to our workforce, 82 percent of our request is 
for people. We need highly skilled and experienced people. 
Right now, we face succession planning challenges. Like many 
other public sector and private sector organizations, our 
workforce is aging.
    Right now, 40 percent of our Senior Executives are eligible 
to retire and 20 percent of our Senior Managers are eligible to 
retire. As I look ahead to 2018, those numbers go to well over 
50 percent of our Senior Executives and over 30 percent of our 
Senior Managers.
    We need to keep replenishing our pipeline. For people to 
make improvements across the breadth of the Federal 
Government's operations, they need to be experienced. We need 
to bring them in and train them not only on how GAO does its 
work, but also train them to become specialists in subject 
areas, since we serve about 94 percent of the full committees 
of the Congress, standing committees of the Congress, and 70 
percent of the subcommittees. We need experts in many different 
areas across the Federal Government.
    Finally, I would mention our request this year is for a 5.9 
percent increase. That would increase our number of FTE 
positions by 40. We believe this is a prudent increase. As you 
mentioned, Madam Chairman, in your opening comments, the 
optimal level, I believe, for GAO is 3,250 full-time equivalent 
positions. I am not asking to get to that level as a part of 
this request.
    As the auditor of the Federal Government's financial 
statements, I understand our fiscal position right now in terms 
of the deficit and debt. The 40 additional positions will 
enable us to tackle very important issues ranging from $124 
billion in improper payments that went out last year, as well 
as the $385 billion tax gap. We are losing money that we are 
paying that we should not be paying, and not collecting as much 
as we should be collecting.
    We can make a big difference in those areas and other high 
risk areas across the Government.
    Thank you very much for the opportunity to be here today. I 
look forward to responding to your questions.
    [The statement follows:]
               Prepared Statement of Hon. Gene L. Dodaro
    Chairman Capito, Ranking Member Schatz, and members of the 
subcommittee:

    On behalf of the U.S. Government Accountability Office (GAO), I 
appreciate the opportunity to discuss our fiscal year 2016 budget 
request. I also appreciate the confidence this subcommittee has shown 
in GAO by supporting our efforts to serve Congress and improve 
Government performance, accountability, and transparency.
    The fiscal year 2015 funding of $522 million will allow GAO to have 
a staff capacity of 3,015 full-time equivalent (FTE) positions. This is 
a positive step forward in rebuilding our staff capacity, which in 
recent years had dropped to its lowest level since 1935 due to funding 
constraints. GAO remains committed to quality, focusing on meeting the 
highest priorities of Congress, and assisting in improving Government 
efficiency and effectiveness.
    GAO's fiscal year 2016 budget request of $553.1 million will 
support 3,055 FTEs, continuing progress towards achieving an optimal 
level of 3,250 FTEs. The requested funding also provides the resources 
to maintain current operations and make limited investments in 
information technology (IT) and building infrastructure. Costs will be 
offset with $33.4 million in reimbursements, primarily from financial 
audits and rental income.
                             gao highlights
    Highlights of GAO-15-417T, a testimony before the Subcommittee on 
Legislative Branch, Committee on Appropriations, Senate.
                               background
    GAO's mission is to support Congress in meeting its constitutional 
responsibilities and to help improve the performance and accountability 
of the Federal Government for the benefit of the American people. GAO 
provides nonpartisan, objective, and reliable information to Congress, 
Federal agencies, and to the public and recommends improvements, when 
appropriate, across the full breadth and scope of the Federal 
Government's responsibilities.
    GAO's work supports a broad range of interests throughout Congress. 
In fiscal year 2014, GAO received requests for our work from 94 percent 
of the standing committees of Congress and almost 70 percent of their 
subcommittees. Additionally, senior GAO officials testified 129 times 
on a wide range of issues that touched virtually all major Federal 
agencies.
    GAO remains one of the best investments in the Federal Government, 
and GAO's dedicated staff continues to deliver high quality results. In 
fiscal year 2014 alone, GAO's work yielded $54.4 billion in financial 
benefits--a return of about $100 for every dollar invested in GAO. 
Since fiscal year 2003, GAO's work has resulted in:
  --over \1/2\ trillion dollars in financial benefits; and
  --about 15,800 program and operational benefits that helped to change 
        laws, improve public services, and promote sound management 
        throughout Government.
    These results are a reflection of the dedication and hard work of 
GAO's staff. GAO has again been recognized as an employer of choice, 
and continues to be ranked near the top on ``best places to work'' 
lists. In December 2014 the Partnership for Public Service ranked GAO 
second among mid-size agencies as one of the best places to work in the 
Federal Government.
                  fiscal year 2016 performance budget
    GAO's fiscal year 2016 budget request of $553.1 million supports 
3,055 full-time equivalent (FTE) staff and continues progress towards 
achieving an optimal level of 3,250 FTE. The request also provides the 
resources to maintain current operations and make limited investments 
in GAO's information technology (IT) and building infrastructure. Costs 
will be offset with $33.4 million in reimbursements, primarily from 
financial audits and rental income.
    The Congress used GAO's work extensively in 2014 to identify 
legislative solutions to emerging problems, achieve cost savings, and 
find efficiencies in Federal agencies and programs. GAO's work helped 
Congress achieve some of the billions in savings and revenue 
enhancements needed to avoid sequestration in fiscal years 2014 and 
2015. In addition, GAO's work was cited repeatedly in the Consolidated 
and Further Continuing Appropriations Act, 2015, and contributed to 
over a dozen key authorizations and reauthorizations, including, among 
others, the Department of Defense, the Coast Guard, workforce programs, 
and agriculture programs. GAO's work also contributed to bills intended 
to improve veteran's healthcare, Federal acquisitions of information 
technology and weapons systems, and transparency of Federal programs.
    In addition to the $54.4 billion in financial benefits from GAO's 
work, during fiscal year 2014, we recorded over 1,200 program and 
operational improvements in numerous areas affecting public safety and 
security and the efficient and effective functioning of Government 
programs, including:
  --cybersecurity governance;
  --oversight of international food aid;
  --security of diplomatic facilities and personnel overseas;
  --sharing of terrorism-related information with Federal and non-
        Federal partners; and
  --the future of nanomanufacturing, including research and 
        development, U.S. competitiveness, and environmental, health, 
        and safety concerns.
    Workforce and succession planning also remain a priority for GAO. 
In fiscal year 2015, GAO plans to achieve a staffing level of 3,015 
FTEs through a targeted recruiting strategy to address critical skills 
gaps. This is a positive step forward in rebuilding staff capacity 
which in recent years had fallen to the lowest level since 1935. The 
additional staff will help ensure GAO has the resources to assist 
Congress in improving Government performance, effectiveness, and 
accountability, as well as support GAO's commitment to service and 
quality. GAO's limited investments in IT and building infrastructure 
will allow GAO to further streamline business operations, increase 
staff productivity, as well as improve access to information. 
Implementation will be done through a phased approach to reduce risk 
and ensure effective implementation.
                   assisting congress and the nation
    GAO provides an exceptional investment, a return of about $100 for 
every dollar invested in GAO. In fiscal year 2014, our work resulted in 
$54.4 billion in financial benefits and 1,288 program and operational 
improvements across the Federal Government.
    The program areas where these benefits have been realized include 
public safety and security, program efficiency and effectiveness, 
public insurance and benefits, acquisition and contract management, tax 
law administration, and business process and management.
    GAO is recognized for its non-partisan, first-hand, objective, 
fact-based, and reliable analyses across the full breadth and scope of 
the Federal Government's responsibilities and the extensive interests 
of Congress.
    In fiscal year 2014, we responded to requests from 94 percent of 
the standing full committees of the Congress, and almost 70 percent of 
the standing subcommittees. Our analyses and testimony inform debate 
and decisions by providing facts and supporting documentation. We 
provide program and technical expertise to support Congress in 
overseeing the executive branch, evaluating spending priorities, and 
assessing information from outside parties.
    GAO remains steadfast in our financial stewardship responsibilities 
by providing high quality work identifying cost-savings and revenue 
enhancements as Congress and the administration deliberate on both the 
Federal Government's immediate priorities and the Nation's long-term 
fiscal path. Through sound analysis and advice, GAO recommends 
solutions across a vast array of areas to foster Government efficiency, 
effectiveness, and responsiveness on high priority challenges facing 
Congress and the Nation. In fiscal year 2014, we issued 693 reports and 
made 1,619 new recommendations. On average about 80 percent of GAO's 
recommendations have been implemented over a 4 year period.
GAO's Work Helps Congress Avoid Sequestration
    Our findings are often cited in House and Senate deliberations and 
committee reports supporting congressional action, including improving 
Federal programs on our High Risk list and addressing fragmentation, 
overlap, and duplication in Government. Congress used our work on a 
broad range of issues to inform its decisions on important legislation, 
which also resulted in financial and other benefits for the Government.
    For example, some of the key decisions adopted by Congress on the 
fiscal year 2014 and 2015 budget (the Bipartisan Budget Act of 2013) 
were linked to our work.
    Specifically, our efforts helped Congress achieve some of the 
billions in savings and revenue enhancements needed to avoid 
sequestration in fiscal years 2014 and 2015, including:
  --improving the cost-effectiveness of filling the Strategic Petroleum 
        Reserve resulting in estimated savings of $3.2 billion over 10 
        years;
  --reducing overpayments for unemployment insurance by $159 million 
        over 10 years by identifying fraud or failure to report 
        earnings;
  --expanding the risk-based element of the Pension Benefit Guaranty 
        Corporation's premium rate structure to increase revenues and 
        offset direct spending by $7.9 billion over 10 years;
  --reducing improper payments to inmates for disaster relief and other 
        assistance resulting in savings of $80 million over 10 years; 
        and
  --increasing aviation security fees to cover 43 percent of aviation 
        security costs in 2014, saving $12.6 billion over 10 years.
    Other contributions to mitigating the sequester related to our work 
included capping compensation costs for Federal contractors.
GAO Contributes to a Wide Range of Key Appropriations and Authorization 
        Legislation
    The Congress used GAO's work in 2014 to identify legislative 
solutions to emerging problems, achieve cost savings, and find 
efficiencies in Federal agencies and programs. For example, GAO's work 
was cited repeatedly in the Consolidated and Further Continuing 
Appropriations Act, 2015 (2015 Appropriations Act), and contributed to 
over a dozen key authorizations and reauthorizations, including for the 
Department of Defense, the Coast Guard, workforce programs, and 
agriculture programs.
    GAO's work also contributed to bills intended to improve veteran's 
healthcare, Federal acquisitions of information technology (IT) and 
weapons systems, and transparency of Federal programs, among others. 
Examples include:
  Cost savings and efficiencies
  --In the 2015 Appropriations Act, Congress rescinded funds or reduced 
        administration proposals for weapon systems, including the 
        Amphibious Combat Vehicle, Joint Tactical Radio System, and the 
        Kiowa Warrior helicopter program for an estimated total of over 
        $500 million.
  --To improve accountability, the Act also withheld funds from 
        agencies, including the Departments of Defense and Energy, 
        until problems identified by GAO were addressed.
  --The Agricultural Act of 2014 reflected billions of dollars in 
        savings through the end of the direct payment program and 
        clarification of eligibility for farm program payments.
  --The Workforce Innovation and Opportunity Act reauthorization 
        realigned and streamlined employment and training programs, and 
        the Water Resources Reform and Development Act directed the 
        Army Corps of Engineers to realign projects according to 
        priority.
  --The Carl Levin and Howard P. ``Buck'' McKeon National Defense 
        Authorization Act for fiscal year 2015 (2015 NDAA) required the 
        Department of Defense to periodically reassess their 
        headquarters requirements to address growth in headquarters 
        bureaucracy.
  Increasing Government transparency
  --The Digital Accountability and Transparency Act required the 
        Federal Government to set government-wide data standards for 
        financial data intended to result in consistent, reliable, and 
        searchable government-wide spending data available to the 
        Congress, agency managers, and the public.
  --The 2015 Appropriations Act and numerous authorization acts 
        required Federal agencies to report on how they would respond 
        to GAO's findings and recommendations.
  Services for veterans
  --The Veterans Access, Choice, and Accountability Act reflected GAO's 
        recommendations regarding changes in the procedures for which 
        VA will pay for healthcare for veterans outside of the VA 
        system. It also addresses concerns about coordination between 
        VA and the Indian Health Service on veteran's healthcare.
  --The Act takes measures to improve IT and staff training related to 
        appointment scheduling.
  --The fiscal year 2015 Appropriations Act instructs DOD to improve 
        cemetery and burial operations, including implementing GAO's 
        recommendations regarding better serving rural veterans.
  Responding to emerging security issues
  --Five new laws addressing emerging cybersecurity challenges 
        reflected GAO's recommendations, including provisions related 
        to security standards, improving the Federal cybersecurity 
        workforce, promoting public and private collaboration regarding 
        cybersecurity, and to clarify and strengthen cybersecurity 
        roles among Federal agencies.
  --With regard to chemical facility security, GAO's work was reflected 
        in the Protecting and Securing Chemical Facilities Act of 2014, 
        which should result in improved risk assessment procedures.
  Improvements to Federal acquisitions
  --In addition to the savings from weapon systems mentioned above, 
        GAO's work was reflected in the Federal Information Technology 
        Acquisition Reform Act, which addresses cost and performance 
        issues in Federal IT acquisitions by improving the transparency 
        of major IT investments, expanding the Chief Information 
        Officer's authorities, eliminating duplication, and identifying 
        cost savings opportunities.
  --Similarly, the Transportation Security Acquisition Reform Act of 
        2014 requires the Transportation Security Agency (TSA) and the 
        Department of Homeland Security (DHS) to reform their approach 
        to identifying technology investments and monitoring cost, 
        schedule and performance of these acquisitions.
  Protecting workers and consumers
  --In the 2015 Appropriations Act the Congress addressed the severe 
        financial difficulties of multiemployer pension plans and the 
        Pension Benefit Guaranty Corporation's Multiemployer Insurance 
        Program.
  --The Cooperative and Small Employer Charity Pension Flexibility Act 
        also reflected GAO's recommendations regarding these pensions.
  --The 2015 Appropriations Act also limits the ability of the National 
        Technical Information Service, within the Department of 
        Commerce, to charge consumers for reports from the Legislative 
        Branch offices that can be obtained from those offices for 
        free.
  --It also required the Department of Education to report on how it 
        would implement GAO's recommendations to improve management of 
        the District of Columbia's Opportunity Scholarship Program and 
        ensure that administrative funds can be used to implement them.
  --The Coast Guard reauthorization required that information about 
        crime on cruise ships be made easily available on the 
        Department of Transportation's Web site.
Program and Operational Benefits due to GAO's Work
    Many of the benefits resulting from our work cannot be measured in 
dollars, but led to program and operational improvements across the 
Government. During fiscal year 2014, we recorded 1,288 of these other 
benefits.\1\
---------------------------------------------------------------------------
    \1\ GAO's performance results can be found at: http://www.gao.gov/
about/perfaccountreport.html. Our Web site includes a summary of GAO's 
fiscal year 2014 Performance and Accountability Report as well as the 
complete report. The annual report informs Congress and the American 
people about what we have achieved on their behalf with the funds 
entrusted to us.
---------------------------------------------------------------------------
    GAO's work led to improvements in numerous areas affecting public 
safety and security and the efficient and effective functioning of 
Government programs. Examples of actions taken by Government agencies 
in response to our work include:
  --better guidance and oversight to ensure complete documentation of 
        investigations into abuse allegations at immigration detention 
        facilities;
  --an improved cyber security governance structure to ensure that 
        Federal agencies' efforts to educate the Nation's cyber 
        security workforce are effective;
  --strengthened oversight of international food aid to ensure that 
        targeted assistance reaches vulnerable groups, such as children 
        and pregnant women, in other countries;
  --enhanced security of diplomatic facilities and personnel overseas, 
        including improvements to security standards and efforts to 
        mitigate vulnerabilities;
  --better sharing of terrorism-related information with Federal and 
        non-Federal partners and enhanced efforts to identify and 
        narrow gaps in information sharing;
  --informed decisionmaking on the future of nanomanufacturing, 
        including research and development, U.S. competitiveness, and 
        environmental, health, and safety concerns; and
  --improved transparency regarding how sequestration decisions were 
        implemented so that agencies can better plan for such events if 
        they occur in the future.
    This past fiscal year, GAO also issued revised internal control 
standards for the Federal Government and made significant contributions 
to international auditing standards. These standards can help agencies 
achieve effective internal control systems to safeguard public 
resources, report reliable information about their operations, and 
comply with applicable laws and regulations.
    Through the products we issued in fiscal year 2014, we continued to 
build on bodies of work under our three broad strategic goals:
    (1)  address current and emerging challenges to the well-being and 
financial security of the American people;
    (2) respond to changing security threats and global 
interdependence; and
    (3) help transform the Federal Government to address national 
challenges.

    Work completed in these areas included:
  --Protection of children--we reported on the need for improvements to 
        school lunches, guidance for states on the use of psychotropic 
        drugs for children in foster care, and preventing sexual abuse 
        of students by school personnel;
  --Veterans--we reported on out-patient medical care, purchasing and 
        tracking of surgical implants, cost increases and schedule 
        delays in constructing and leasing VA medical facilities, and 
        the accuracy and quality of processing disability claims for 
        veterans;
  --Healthcare--we continued to report on the implementation of the 
        Patient Protection and Affordable Care Act (e.g., 
        HealthCare.gov), drug shortages, Internet pharmacies selling 
        counterfeit drugs, Medicare fraud, Medicaid financing, and 
        nursing home care; and
  --Financial literacy--we reported on retirement security, managed 
        retirement accounts, student loans, college debit cards, and 
        lump sum payment pension scams.
Testimonies
    Senior GAO officials testified 129 times before 70 separate 
committees or subcommittees on issues that touched virtually all major 
Federal agencies. Figure 1 shows examples of topics GAO testified on in 
fiscal year 2014 organized by strategic goal.
    Additional information on selected testimonies can be found in Part 
II of the 2014 Performance and Accountability Report at: http://
www.gao.gov/products/GAO-15-1SP.

       FIGURE 1: EXAMPLES OF FISCAL YEAR 2014 TESTIMONIES BY GOAL

Goal 1: Address Current and Emerging Challenges to the Well-being and 
        Financial Security of the American People
Processing Veterans' Disability Benefits
Early Learning and Child Care
Social Security Disability Programs
Timely Outpatient Medical Care for Veterans
Federal Fiscal Exposure from Climate Risks
Export-Import Bank Management
Airport Development and Financing
Oil and Gas Management
U.S. Postal Service's Unfunded Benefit Liabilities
Oversight of Student Loans
Public Transit Challenges
Expectations of Government Support for Large Bank Holding Companies
Federal Efforts Supporting Financial Literacy
VA Construction of Major Medical Facilities Face Cost Increases and 
Schedule Delays
Medicare Fraud
Goal 2: Respond to Changing Security Threats and the Challenges of 
        Global Interdependence
Arizona Boarder Surveillance Technology Plan
Personnel Security Clearances
DOD's POW/MIA Mission and Challenges
Enhancing Federal Response to Information Security Breaches
Space Launch Acquisitions
Nuclear Nonproliferation
Defense Acquisition Management Reforms
DHS Chemical Security Program
DHS's Progress Addressing High Risk Issues
DOD Acquisition Risks
F-35 Joint Strike Fighter
NASA Export Controls
DHS Research and Development Oversight
Defense Health Reform
USAID Support for Haiti's Reconstruction
HealthCare.gov Security and Privacy Controls
TSA's Screening Partnership Program
Goal 3: Help Transform the Federal Government to Address National 
        Challenges
Biosafety Lapses in High Containment Labs
Use of Psychotropic Medications for Foster Children
IT Reform
Patient Protection and Affordable Care Act Enrollment Control
Leveraging Best Practices for IT Acquisitions
Monitoring Improper Payments
Government-wide Challenges to Efficiency and Effectiveness
Reducing Fragmentation, Overlap, and Duplication in Federal Programs
DOD Financial Management
----------
    Source: GAO.

    In addition, to better serve our clients and the public, we 
expanded our presence in digital and social media, releasing GAO iPhone 
and Android applications, and launching streaming video web chats with 
the public. More than 31,300 people now get our testimonies, reports, 
and legal decisions daily on Twitter, and our blog was just named one 
of the five best across the Federal Government.
    Building on our efforts in fiscal year 2013 to improve the GAO 
Watchdog website, available exclusively for members and their staff, in 
fiscal year 2014 we added drop-down menus, videos, and other features 
to enhance the user-friendliness of the site; improved functionality by 
allowing users to more easily find information on completed and ongoing 
GAO engagements; and feature new content such as descriptions of the 
full range of products and services GAO provides, including briefings 
by subject matter experts, comments on legislation, and assistance in 
drafting requests for work.
High Risk Program
    GAO maintains a list for Congress of High Risk areas, which focuses 
on Government operations that are at high risk of fraud, waste, abuse, 
and mismanagement, or need transformation to address economy, 
efficiency, or effectiveness challenges, organized by six broad areas 
that touch on every aspect of Government operations:
  --Strengthening the Foundation for Efficiency and Effectiveness, 
        including management of Federal oil and gas resources, 
        modernizing the U.S. financial regulatory system and the 
        Federal role in housing finance;
  --Transforming DOD Program Management;
  --Ensuring Public Safety and Security, including mitigating gaps in 
        weather satellite data and protecting public health through 
        enhanced oversight of medical products;
  --Managing Federal Contracting More Effectively, including at DOD, 
        NASA and DOE;
  --Assessing the Efficiency and Effectiveness of Tax Law 
        Administration; and
  --Modernizing and Safeguarding Insurance and Benefit Programs.
    In February 2015, GAO released its latest update of the list. The 
report noted that solid, steady progress has been made in the vast 
majority of the high-risk areas. Eighteen of the 30 areas on the 2013 
list at least partially met all of the criteria for removal from the 
High Risk List. Of those, 11 met at least one of the criteria for 
removal and partially met all others. Sufficient progress was made to 
narrow the scope of two high-risk issues--Protecting Public Health 
through Enhanced Oversight of Medical Products and DOD Contract 
Management. Overall, progress has been possible through the concerted 
actions of Congress, leadership and staff in agencies, and the Office 
of Management and Budget.

    This year GAO added 2 areas, bringing the total to 32:
  --Managing Risks and Improving Veterans Affairs (VA) Health Care.--
        GAO has reported since 2000 about VA facilities' failure to 
        provide timely healthcare. In some cases, these delays or (VA's 
        failure to provide care at all) have reportedly harmed 
        veterans. Although VA has taken actions to address some GAO 
        recommendations, more than 100 of GAO's recommendations have 
        not been fully addressed. The recently enacted Veterans Access, 
        Choice, and Accountability Act included provisions to help VA 
        address systemic weaknesses. VA must effectively implement the 
        Act.
  --Improving the Management of Information Technology (IT) 
        Acquisitions and Operations.--Congress has passed legislation 
        and the administration has undertaken numerous initiatives to 
        better manage IT investments. Federal IT investments too 
        frequently fail to be completed or incur cost overruns and 
        schedule slippages while contributing little to mission-related 
        outcomes. GAO has found that the Federal Government spent 
        billions of dollars on failed and poorly performing IT 
        investments which often suffered from ineffective management, 
        such as project planning, requirements definition, and program 
        oversight and governance. Over the past 5 years, GAO made more 
        than 730 recommendations; about 23 percent had been fully 
        implemented as of January 2015.

    GAO is also expanding two areas due to evolving high-risk issues:
  --Enforcement of Tax Laws.--This area is expanded to include IRS's 
        efforts to address tax refund fraud due to identify theft. IRS 
        estimates it paid out $5.8 billion (the exact number is 
        uncertain) in fraudulent refunds in tax year 2013 due to 
        identity theft. This occurs when a thief files a fraudulent 
        return using a legitimate taxpayer's identifying information 
        and claims a refund.
  --Ensuring the Security of Federal Information Systems and Cyber 
        Critical Infrastructure and Protecting the Privacy of 
        Personally Identifiable Information (PII).--This risk area is 
        expanded because of the challenges to ensuring the privacy of 
        personally identifiable information posed by advances in 
        technology. These advances have allowed both Government and 
        private sector entities to collect and process extensive 
        amounts of PII more effectively. The number of reported 
        security incidents involving PII at Federal agencies has 
        increased dramatically in recent years.

       Solving these high risk problems has the potential to save 
billions of dollars, improve service to the public, and strengthen the 
performance and accountability of the U.S. Government. For example, 
since our last update in 2013, we issued 317 reports, delivered 78 
testimonies to Congress, and prepared numerous other products such as 
briefings related to our high risk work. We documented more than $40 
billion in financial benefits and 866 other improvements related to 
high-risk areas. The complete list of high-risk areas is included as 
Appendix I. Details on each high-risk area can be found at http://
www.gao.gov/highrisk/overview.
Fragmentation, Overlap, and Duplication
    GAO issued the fourth annual report in 2014 identifying 26 new 
areas and 64 actions that could reduce fragmentation, overlap, and 
duplication, as well as other cost savings and revenue enhancement 
opportunities across the Federal Government. To date, we have 
identified 188 areas where opportunities exist for executive branch 
agencies or Congress to reduce, eliminate, or better manage 
fragmentation, overlap, or duplication; achieve cost savings; or 
enhance revenue. These areas span a broad range of Government missions 
and functions.
    Within these 188 areas, we've identified approximately 440 actions 
that executive branch agencies and Congress could take to address these 
opportunities for greater efficiency and effectiveness. Although 
Congress and executive branch agencies have made notable progress 
toward addressing the actions we have identified, further steps are 
needed to fully address the remaining actions.
    As of November 2014, of the recommended actions identified in 2011, 
2012, 2013, and 2014, 29 percent have been addressed; 44 percent have 
been partially addressed; and 23 percent have not been addressed.\2\ 
More specifically, of the actions directed to executive branch 
agencies, 30 percent have been addressed, 49 percent partially 
addressed, and 18 percent not addressed.\3\ Of the actions directed to 
Congress, 26 percent have been addressed, 16 percent partially 
addressed, and 51 percent not addressed.\4\
---------------------------------------------------------------------------
    \2\ Eighteen actions (or 4 percent) have been assessed as 
``consolidated or other'' due to additional work or other information 
that we considered.
    \3\ Of the 18 actions assessed as ``consolidated or other,'' 13 
relate to executive branch actions (or 3 percent of the actions 
directed to the executive branch).
    \4\ Of the 18 actions assessed as ``consolidated or other,'' five 
relate to congressional actions (or 7 percent of the actions directed 
to Congress).
---------------------------------------------------------------------------
    We estimate that executive branch and congressional efforts to 
address actions identified by GAO have resulted in over $10 billion in 
realized savings with an additional $60 billion in financial benefits 
to be accrued over the next 10 years. Implementing other suggested 
actions could result in tens of billions of dollars more in cost 
savings and enhanced revenues. For example, in 2012, GAO reported that 
the military's approach to acquiring combat uniforms was fragmented, 
which could increase battlefield risk and increase costs. As a result 
of a provision to the National Defense Authorization Act for fiscal 
year 2014, the Army did not field new camouflage uniforms, avoiding 
$4.2 billion in costs over 5 years.
    To assist congressional oversight of these issues, we maintain 
GAO's Action Tracker, a publicly accessible Web site containing the 
status of actions suggested in this series of reports. The Web site 
allows Congress, executive branch agencies, and the public to track the 
progress the Government is making in addressing the issues we have 
identified.
Legal Work
    In fiscal year 2014, GAO published 22 appropriations decisions, 
opinions, and letters on wide-ranging issues such as DOD's transfer of 
individuals from Guantanamo Bay, and the District of Columbia's budget 
autonomy. GAO attorneys also provided ongoing appropriations law 
assistance to various congressional committees and Federal agencies 
navigating the Government shutdown.
    GAO also assisted Congress on a number of other matters, including 
continuing advice on the implementation of sequestration. Finally, 
GAO's Office of General Counsel handled more than 2,500 bid protest 
cases during fiscal year 2014, issuing more than 500 decisions on the 
merits.
    The Consolidated Appropriations Act, 2014, directed GAO to develop 
an electronic bid protest filing system. The statute also authorized 
the collection and use of fees to offset the costs of that system. We 
conducted outreach with Congress and small business and veterans groups 
identified by congressional stakeholders regarding the implementation 
of a filing fee. Periodic updates are provided on our progress to the 
House and Senate Committees on Appropriations.
    We are making progress in developing the system. After considering 
the functional requirements for an electronic filing system, with an 
emphasis on IT security issues, we conducted market research through a 
Request for Information. We invited several vendors to provide 
demonstrations of their capabilities, and we developed a prototype bid 
protest electronic filing system as a proof of concept. We currently 
expect to complete development and launch the system by the end of 
calendar 2015.
                  strategic plan for serving congress
    In February 2014, GAO released its updated Strategic Plan: Serving 
the Congress and the Nation 2014-2019 (GAO-14-1SP). The plan describes 
our proposed goals and strategies for supporting Congress and the 
Nation as the country continues through this period of challenge and 
opportunity. Our strategic plan framework (Appendix II) summarizes the 
global trends, as well as the strategic goals and objectives that guide 
our work.
    While summarizing trends shaping the United States and its place in 
the world, the strategic plan reflects the areas of work we plan to 
undertake, including science and technology, weapons systems, 
healthcare, homeland security, the environment, and energy.
    GAO will also increase collaboration with other national audit 
offices to ensure sound collaboration and coordination on global issues 
that directly affect the United States, including international 
financial markets.
  managing workload by focusing resources on congressional priorities
    To manage our congressional workload, we continue to take steps to 
ensure our work supports the highest congressional legislative and 
oversight priorities while focusing on areas where there is the 
greatest potential for results, such as cost savings and improved 
Government performance.
    We actively coordinate with congressional committees in advance of 
new statutory mandates \5\ by identifying mandates real time as bills 
are introduced; participating in ongoing discussions with congressional 
staff; and collaborating to ensure that the work is properly scoped and 
is consistent with the committee's highest priorities.
---------------------------------------------------------------------------
    \5\ Congressional mandates include requirements directed by 
statutes, congressional resolutions, conference reports, and committee 
reports.
---------------------------------------------------------------------------
    In fiscal year 2014, 33 percent of our audit resources were devoted 
to mandates and 63 percent to congressional requests. I regularly meet 
with Chairs and Ranking Members of committees and subcommittees to hear 
firsthand feedback on our performance. Their priorities help ensure we 
maximize the return on your investment in us.
    As a matter of routine, GAO also reviews its list of recurring 
mandates (i.e., those that have repeating requirements over time) on an 
annual basis, and works with the appropriate committees to revise or 
repeal, as appropriate, those mandates on topics or programs which have 
already been fully analyzed, thereby freeing up resources for higher 
congressional priorities.
    During the second session of the 113th Congress, we collaborated 
with the Congress to revise or repeal GAO's mandated reporting 
requirements which had, over time, lost relevance or usefulness. 
Specifically, GAO worked with responsible committees to have six 
mandates repealed or revised as part of the 2014 National Defense 
Authorization Act. In addition, HR 4194, Government Reports Elimination 
Act repeals or revises an additional 11 mandates, and the National 
Defense Authorization Act for fiscal year 2015 included provisions to 
modify or repeal 4 reporting requirements for GAO. Both of these were 
passed by the Congress and signed by the President in November 2014.
                     fiscal year 2016 requirements
    GAO's fiscal year 2016 budget request seeks an appropriation 
increase of $31.1 million, or 5.9 percent, to support a modest increase 
in our staffing level to 3,055 FTE and continue critical improvements 
in our IT, building, and security infrastructures. Costs will be offset 
with $33.4 million in reimbursements, primarily from financial audits 
and rental income.
    The requested resources provide the funds necessary to ensure that 
GAO can meet the highest priority needs of Congress and produce results 
to help the Federal Government deal effectively with its serious fiscal 
and other challenges. A summary of GAO's resources for our fiscal year 
2010 baseline and fiscal years 2014 to 2016 is shown in Figure 2.

        FIGURE 2: FISCAL YEAR 2010 BASELINE AND FISCAL YEAR 2014 TO FISCAL YEAR 2016PSUMMARY OF RESOURCES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                       Fiscal Year 2010   Fiscal Year 2014   Fiscal Year 2015   Fiscal Year 2016
                                            Actual             Actual           Estimated           Request
           Funding Source            ---------------------------------------------------------------------------
                                        FTE     Amount     FTE     Amount     FTE     Amount     FTE     Amount
----------------------------------------------------------------------------------------------------------------
Salaries and ExpensesPAppropriation.  ......   $556,325  ......   $505,293  ......   $522,000  ......   $553,058
Non-legislative-branch appropriation  ......     21,804  ......         70  ......  .........  ......  .........
Reimbursements......................  ......     10,214  ......      2,330  ......      8,405  ......      7,955
Offsetting receipts.................  ......     10,892  ......     20,898  ......     25,000  ......     25,000
Bid protest user fees...............  ......  .........  ......  .........  ......  .........  ......        450
                                     ---------------------------------------------------------------------------
      Total budget authority........   3,347   $599,235   2,891   $528,591   3,015   $555,405   3,055  $586,463
----------------------------------------------------------------------------------------------------------------
Source: GAO.

                             staff capacity
    Our talented, diverse, and high-performing workforce is essential 
in fulfilling our mission of supporting Congress. While progress has 
been made, we still face challenges in addressing critical human 
capital management issues, including preparing for retirements of key 
subject matter experts, senior executives, and other key leaders; 
maintaining a performance-based and inclusive culture that helps 
motivate and retain a talented and diverse staff; and maintaining 
workplace and work-life practices that meet the needs of an evolving 
workforce in an equitable manner.
    A significant proportion of our employees are currently retirement 
eligible. Presently, about 40 percent of our senior executive staff and 
21 percent of our supervisory analysts are retirement eligible. In 
fiscal year 2015, through a targeted recruiting strategy to address 
critical skills gaps, we plan to hire entry-level staff and student 
interns to achieve a staff capacity of 3,015 FTEs. This will allow us 
to continue to reverse the downward trend in our FTEs and achieve some 
progress in reaching our optimal staffing level of 3,250 FTEs. Our 
fiscal year 2016 budget seeks funding for a 3,055 FTE level to help us 
continue to replenish the much needed pipeline of entry-level and 
experienced analysts to meet future workload challenges.
Priority Areas for Increased Staffing
    GAO has identified areas that merit increased review and attention 
as additional staffing is made available including:
  --Continued Identification and Reduction in Improper Payments.--In 
        fiscal year 2014 improper payments made in Federal programs 
        were estimated to be over $124 billion, nearly $19 billion 
        higher than reported for fiscal year 2013. Moreover, much of 
        this increase is in two of the fastest growing programs in 
        terms of Federal expenditures--Medicare and Medicaid. GAO will 
        continue to be vigilant in identifying improper payments and 
        providing recommendations to prevent this wasteful situation.
  --Science and Technology.--Congress increasingly asks GAO to review 
        multi-billion dollar Federal investments in science and 
        technology areas, such as cybersecurity, satellite and space 
        programs, sophisticated weapons systems, as well as the 
        environmental and energy sectors. GAO has also developed the 
        capability to do science and technology assessments, and will 
        continue to replenish our staff capacity to maintain a strong 
        position in this area.
  --The tax gap.--The net gap between taxes owed and taxes paid is an 
        estimated $385 billion each year. There is about an 84 percent 
        compliance rate on taxes owed to the Federal Government. GAO 
        has identified a number of opportunities for the Internal 
        Revenue Service to get better data to do the necessary 
        comparisons and increase collections. GAO will continue to 
        devote resources to this area. The additional resources will 
        enable us to expand our work in finding ways to further close 
        the tax gap.
                        operational efficiencies
    In addition to addressing critical staffing needs, the fiscal year 
2016 budget request also focuses funding on two other areas, 
information technology and building and security.

  --Information Technology

          GAO's IT systems are an essential component in ongoing 
        efforts to maintain efficient and effective business operations 
        and to provide timely data needed to inform management 
        decisions.
          Improvements to our aging IT software will streamline 
        business operations, reduce redundant efforts, increase staff 
        effectiveness and productivity, improve access to information, 
        facilitate a more agile and mobile workforce, and improve 
        operational efficiency.
          We continue to implement many of these actions in a phased 
        approach to promote efficiencies and monitor effectiveness. In 
        fiscal year 2016, we plan to:
    --complete implementation of the first phase of a new content 
            creation system, which will automate the creation, 
            indexing, referencing, review, approval, and publishing of 
            GAO products via a standard workflow;
    --increase the availability of our core network wireless 
            infrastructure at both headquarters and the field offices; 
            and
    --strengthen our cellular signal with a new antenna capability, 
            which will allow GAO to change providers without needing to 
            upgrade internal antennas.
          These efforts will strengthen GAO's technology infrastructure 
        and support an array of engagement management, human capital, 
        and financial management systems.

  --Building and Security

          GAO plans to upgrade critical aging building systems to 
        ensure more efficient operations and security. To support these 
        requirements our fiscal year 2016 budget request includes 
        resources to:
    --make general structural and architectural repairs, including the 
            elevator shafts, interior walls, auditorium walls, 
            projection booth, and the handicapped lift;
    --continue addressing priority items identified in the asset 
            management plan for critical repairs, end-of-life 
            replacements, and energy saving investments in the 
            headquarters building, including replacement of the first 
            floor heating and air conditioning system and the overhaul 
            and retrofit of two chillers;
    --complete the headquarters lockdown project, which would provide 
            building guards with the capability to lock all street exit 
            doors more quickly in the event of an emergency or threat; 
            and
    --install Joint Worldwide Intelligence Communication System 
            capabilities to facilitate access to DOD's Top Secret/SCI 
            Internet.
Telework/Workspace-Sharing Pilots Reduce Costs and Improve Operational 
        Efficiency
    GAO remains committed to sound operational efficiency and 
effectiveness. Our telework/workspace-sharing pilot has provided an 
opportunity for staff to work remotely while maintaining quality and 
productivity. This strategy has allowed GAO to reduce our physical 
footprint in the field and achieve cost savings of over $2 million.
    GAO is presently assessing the prospect of telework/workspace-
sharing pilots in our Washington, DC headquarters. Implementation in 
headquarters may provide opportunities to streamline space usage and 
release space for lease to a future tenant, resulting in additional 
revenue. Results of the pilot will be critical to determining the 
potential for space reductions.
          gao recognized as one of the ``best places to work''
    On December 9, 2014, the Partnership for Public Service announced 
that GAO placed second among mid-size agencies in the best places to 
work in the Federal Government, and ranked number one in its support of 
diversity in that same category. GAO has consistently placed among the 
top five on the Partnership's list since 2005.
    We continuously strive to be the employer of choice in the public 
sector. Our ranking results from the dedicated efforts of the entire 
GAO team and leadership for their commitment in continuing to make GAO 
one of the Best Places to Work. GAO management remains committed to 
work with our union (IFPTE, Local 1921), the Employee Advisory Council, 
and the Diversity Advisory Council to continue to make GAO a preferred 
place to work.
                      center for audit excellence
    The Consolidated and Further Continuing Appropriations Act, 2015, 
enacted in December 2014, authorized GAO to establish a Center for 
Audit Excellence to build institutional auditing capacity and promote 
good governance by providing training and assistance to qualified 
personnel and entities, and permitted GAO to charge fees for the 
Center's products and services.
    The Center's mission is to enhance good governance and build the 
institutional auditing capacity of domestic and international audit 
organizations by providing high quality training, technical assistance, 
and related services that leverage GAO's position as a global leader in 
auditing. A business plan will be provided to the Appropriations 
Committees that will outline several key principles to help ensure 
effective operation of the Center.
                           concluding remarks
    In conclusion, GAO values the opportunity to provide Congress and 
the Nation with timely, insightful analysis on the challenges facing 
the country. GAO's fiscal year 2016 budget request is a fiscally 
responsible approach that will better position GAO to continue to 
support Congress and foster Government accountability, address long-
standing challenges, and keep a watchful eye on the Nation's future.
    Our budget request includes funds to increase our staffing level 
and provide employees with the appropriate resources and support needed 
to effectively serve Congress. The requested funding will also allow us 
to continue efforts to promote operational efficiency, and begin 
addressing long-deferred investments and maintenance.
    This concludes my prepared statement. I appreciate, as always, your 
continued support and careful consideration of our budget. I look 
forward to discussing our fiscal year 2016 request with you.

                 APPENDIX I: GAO'S 2015 HIGH RISK LIST

Strengthening the Foundation for Efficiency and Effectiveness
  --Limiting the Federal Government's Fiscal Exposure by Better 
        Managing Climate Change Risks
  --Management of Federal Oil and Gas Resources
  --Modernizing the U.S. Financial Regulatory System and the Federal 
        Role in Housing Finance \a\
  --Restructuring the U.S. Postal Service to Achieve Sustainable 
        Financial Viability \a\
  --Funding the Nation's Surface Transportation System \a\
  --Strategic Human Capital Management
  --Managing Federal Real Property
  --Improving the Management of IT Acquisitions and Operations (new)
Transforming DOD Program Management
  --DOD Approach to Business Transformation
  --DOD Business Systems Modernization
  --DOD Support Infrastructure Management \a\
  --DOD Financial Management
  --DOD Supply Chain Management
  --DOD Weapon Systems Acquisition
Ensuring Public Safety and Security
  --Mitigating Gaps in Weather Satellite Data
  --Strengthening Department of Homeland Security Management Functions
  --Establishing Effective Mechanisms for Sharing and Managing 
        Terrorism-Related Information to Protect the Homeland
  --Ensuring the Security of Federal Information Systems and Cyber 
        Critical Infrastructure and Protecting the Privacy of 
        Personally Identifiable Information \a\
  --Ensuring the Effective Protection of Technologies Critical to U.S. 
        National Security Interests \a\
  --Improving Federal Oversight of Food Safety \a\
  --Protecting Public Health through Enhanced Oversight of Medical 
        Products
  --Transforming EPA's Processes for Assessing and Controlling Toxic 
        Chemicals \a\
Managing Federal Contracting More Effectively
  --DOD Contract Management
  --DOE's Contract Management for the National Nuclear Security 
        Administration and Office of Environmental Management
  --NASA Acquisition Management
Assessing the Efficiency and Effectiveness of Tax Law Administration
  --Enforcement of Tax Laws \a\
Modernizing and Safeguarding Insurance and Benefit Programs
  --Managing Risks and Improving VA Health Care (new)
  --Improving and Modernizing Federal Disability Programs
  --Pension Benefit Guaranty Corporation Insurance Programs \a\
  --Medicare Program \a\
  --Medicaid Program \a\
  --National Flood Insurance Program \a\
----------
    Source: GAO.
    \a\ Legislation is likely to be necessary to effectively address 
this high-risk area.

              APPENDIX II: GAO'S STRATEGIC PLAN FRAMEWORK
              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        EXPLANATION FOR THREE NEW FULL-TIME EQUIVALENT POSITIONS

    Senator Capito. Thank you. I want to thank both of you. I 
will begin the questions. Dr. Elmendorf, you mentioned and you 
highlighted in your statement the fact that the demand exceeds 
the supply in terms of your workforce. You have asked for three 
more FTEs.
    I am wondering, is this part of a gradual build up that you 
believe is necessary for the CBO in order to meet the demand 
you talked about? Or do you think this is because of the 
healthcare issue, and maybe some of the macroeconomic issues 
that need to be addressed?
    Dr. Elmendorf. Madam Chairman, I think the Congress would 
benefit from higher staffing levels at CBO. A few years ago, we 
had more than 250 FTEs. That was an increase relative to the 
235 that we had in the first part of the last decade, and that 
increase was designed by the Appropriations Committee, the 
Budget Committee, and CBO, so that CBO could serve the Congress 
better, and in particular, by being able to do more analysis of 
healthcare issues without cutting back on the analysis we do 
across the whole range of other topics.
    We put those extra resources to good use. We hired people 
and we produced more estimates of pending legislative 
proposals. We produced more reports, studying areas of the 
Federal budget. We did more building of models to give you and 
your colleagues more accurate estimates of the effects of 
proposals.
    If it were up to me and money was freely available, I would 
certainly have requested a larger increase for CBO, but we 
understand the constraints you operate under, and we view this 
as a small step in a direction that would be useful to you.

                       USE OF CONTRACTORS AT CBO

    Senator Capito. I appreciate that. Do you use contractors 
at all?
    Dr. Elmendorf. Very little. We have a few contractors. We 
look for expertise outside of CBO when we do not have it, but 
the vast majority of our expertise is in-house, and we have 
just a few contractors in particular areas, some in support 
areas, in IT, and some in substantive areas of economic and 
budgetary analysis, but it is very limited.

               HIRING EMPLOYEES WITH NON-IMMIGRANT VISAS

    Senator Capito. You mentioned the skills gap, trying to 
find the highly skilled economists in terms of competition with 
both the private and public sector agencies. In the 2016 
budget, you include language that you have asked for for the 
last several years authorizing the hiring of employees with 
non-immigrant visas.
    I understand this is not the first time, but why do you 
believe that hiring of employees with non-immigrant visas is 
critical to the workforce, to your workforce? Is it because we 
do not have the talent here at all or you cannot compete for 
that talent?
    Dr. Elmendorf. I think we are always trying to attract and 
retain the best people we can, and I am very proud of the 
people we have at CBO, but we find the recruiting and retention 
processes to be difficult.
    On the recruiting side, about 35 percent of CBO staff have 
Ph.D.'s in economics, and two-thirds of the people who are 
obtaining Ph.D.'s in economics in this country are foreign 
nationals.
    If we can only look at the other third, we have just taken 
off the table two-thirds of the people who might have the 
skills that we need, and we cannot settle for people who do not 
have the right skills, but we end up looking harder and longer. 
We have larger gaps between when somebody leaves and before we 
can fill that slot. We sometimes hire people who then need more 
training from us, which is fine, but it slows our work for 
Congress.
    If we could broaden the field of people whom we could hire, 
at least in cases where we have a particular shortage of those 
skills in U.S. citizens, we think that would help us.
    We had some of that authority until 2010, and we hired a 
small number of foreign nationals. At that point, our authority 
was limited to countries that were allies of the United States, 
and there was a well defined list of such countries. We found 
at the time that helped us fill some crucial niches, and that 
is the authority that we are requesting to have restored.

                       GAO EDUCATION DEMOGRAPHIC

    Senator Capito. Just curious, Mr. Dodaro, what percentage 
of your workforce are Ph.D. economists, approximately?
    Mr. Dodaro. About 75 percent of our people have advanced 
degrees, Master's and Ph.D.'s.

                      CENTER FOR ADULT EXCELLENCE

    Senator Capito. There are probably not too many Ph.D. 
economists, not as many as maybe we need. Let me ask you, at 
GAO, you created the Center for Audit Excellence, authorized in 
the 2015 bill. Can you give us an update on that and what your 
plans for the Center are?
    Mr. Dodaro. The purposes of the Center are really to help 
advance U.S. interests abroad. The United States spent money 
along with others in the donor community. USAID and 
multinational lending organizations are moving to rely more on 
country systems.
    We would build the auditing capacity in other countries so 
there is better accountability over U.S. funds and other funds.
    Also, this would improve the global marketplace. Right now, 
for example, in the global financial markets it is important to 
have international regulations implemented properly. We get 
most of our drugs now, 80 percent ingredients for prescription 
drugs, from other countries, and 40 percent of finished drugs. 
More of our food is now being imported.
    If we can build the audit capacities in other countries, 
there will be better protections for U.S. consumers and U.S. 
interests.
    We have developed a business plan for the Center. Just in 
the last couple of months alone, the State Department 
approached us about providing training to an African country to 
help fight corruption. The Millennium Challenge Corporation has 
asked for help in providing training in South America and other 
areas.
    We get requests all the time. We are considered one of the 
global leaders in auditing in the world.
    Senator Capito. Quick question on that, and then I will go 
to my colleagues. When you are aiding another country, are you 
charging a consulting fee or anything like that?
    Mr. Dodaro. Right now, we have to have the committees 
approve our business plan before we can actually start 
operations. The idea is to charge a fee. The Center would be 
self financing. We need money for start up, like any other 
small business. Our plan is to use retired GAO people. That way 
it will not affect our service to the Congress.
    Senator Capito. Thank you. Senator Schatz.

ENERGY SAVINGS PERFORMANCE (ESPCS) AND UTILITY ENERGY SERVICE CONTRACT 
                                (UESCS)

    Senator Schatz. Thank you. Dr. Elmendorf, CBO recently 
released a report that had great things to say about the 
taxpayer benefits of using energy savings performance contracts 
and utility energy service contracts to make long term 
investments to reduce energy costs.
    You report that by law under Energy Savings Performance 
Contracts (ESPCs) and Utility Energy Service Contracts (UESCs), 
energy efficiency upgrades are paid back exclusively from 
realized energy savings. These contracts never result in a 
penny of new spending, and agencies do not need to make a 
meaningful upfront investment.
    CBO also reports that beyond having a guarantee of no cost 
to the taxpayer, ESPCs and UESCs save taxpayer spending on 
energy. CBO estimates that after a contract is repaid using 
energy savings, the taxpayer typically retains at least 25 
percent of the savings produced by the energy efficient 
equipment over its useful life.
    I think the report confirms ESPCs and UESCs are a sound 
strategy. Again, they do not require one penny of spending, 
typically produce savings well beyond their costs, and isolate 
the taxpayer from risk that the equipment will under perform or 
fail.
    As you know, the CBO's budgetary treatment of ESPCs and 
UESCs prevent Congress from enacting policies that will allow 
for more deployment across the Federal Government. This is 
because the score of the legislation to expand the use of ESPCs 
and UESCs only reflects the cost of the investments but not the 
savings that flow back over time.
    We need a clear picture of which programs are saving money 
and CBO's scoring hides the true financial benefits of these 
types of instruments. CBO has reported several times that the 
budget rules constrain the agency from reflecting the 
cumulative net costs and savings from expanding the use of 
ESPCs and UESCs.
    Dr. Elmendorf, why does CBO show any cost for entering into 
a contract when the contracts themselves guarantee no cost?
    Dr. Elmendorf. Senator, I appreciate your careful read of 
our report. Let me try to make a few points. The first is that 
in our analysis of the effects of ESPCs on the Federal 
Government's energy costs, we rely on analyses of other 
agencies, including the Government Accountability Office.
    Our summary does report that on balance, the energy savings 
performance contracts that have been entered into recently have 
reduced Federal energy costs. That is not true necessarily with 
every single contract. As we explained, there can be a wide 
variation in the return across contracts, but on average, that 
is what other agencies have determined has happened.
    In our cost estimates for legislation involving ESPCs, we 
provide the Congress with the same sort of information that we 
do for other legislation. We provide an assessment of effects 
of the legislation on the discretionary spending, the 
appropriations that are determined by this committee and the 
rest of the Congress every year, and we provide estimates of 
effects on mandatory spending.
    We do show as a cost in mandatory spending the commitment 
that the Federal Government is making when it enters into a 
contract of that sort. That is not a matter of scoring rules. 
That is just a matter of basic budget principles, which is to 
show the up front costs.
    We also show the savings that can accrue in subsequent 
years. I think one challenge is that the budget window goes 10 
years, and many of the savings, the largest savings in energy 
costs come well outside that window.
    Senator Schatz. Sure. There are a couple of issues here. 
One is the scoring window, and I kind of understand how 
constrained you may be because frankly it is a difficult 
challenge, and my view is if most of the savings occur outside 
of the scoring window, it becomes a policy and an 
appropriations question more so than a question of how it gets 
scored.
    To be precise about UESCs and ESPCs, the way these 
contracts are written, at least some of the time, is that the 
contract is written so that the Government pays no money.
    In other words, it is a deal that a State government or a 
county government has often made private sector companies do 
this all the time, the company says we will retrofit your 
building, and whatever savings there is, some will be remitted 
to the performance contractor and some will be remitted back to 
the client.
    I guess I am having a difficult time understanding how 
there is any costs at all that goes on the books. I understand 
there are technical details here.
    Try to explain to me in plain English why this would cost 
the Government anything, forgetting the window. Why would this 
be an obligation on the books, if this were a private sector 
company and this was under GAAP procedures or wherever you 
were, why in the world does this look like an expenditure in 
anyone's world?
    Dr. Elmendorf. I think part of the answer, Senator, as you 
say, is the 10 year budget window. This is a transaction where 
much of the savings occurs outside a 10 year window. If you 
truncate what is reported--our study goes out 25 years to try 
to show the full lifetime effects of a contract of this sort, 
but for the 10 year budget window, if the savings are outside 
the window and you truncate the numbers at that point, then you 
will not see the full savings that you are discussing.
    The other point is----
    Senator Schatz. That is the saving side. What about the 
expenditure side? Am I misunderstanding what an energy savings 
performance contract is? My understanding over the last 12 odd 
years in State government and 2 years in the Federal Government 
is at least some of these are written such that the Government 
has no obligation at all to expend a penny.
    What are you marking down? What are you recognizing as an 
expenditure there?
    Dr. Elmendorf. What we are recognizing as an expenditure is 
the commitment the Government makes, it is acquiring equipment, 
lighting or insulation or what have you, and it is making a 
commitment to pay for that over a period of a number of years, 
but the commitment occurs up front.
    It is true that on the year by year basis going forward, 
the Government will get some savings that will offset those 
payments so that----
    Senator Schatz. Just to be clear, even from the first year, 
it is not like you are paying a little more in the beginning 
and then you get your savings back. You are starting at----
    Dr. Elmendorf. Yes, in a standard contract, there is a 
little bit of savings for many years and then larger savings 
beyond that once the equipment has been essentially paid off.
    Senator Schatz. You are saying acquiring the commitment is 
what has to be recognized essentially on the spending side?
    Dr. Elmendorf. Yes, that is right. I think that is really a 
very important principle, that if the Government takes an 
action that commits it to spending money, then that cost should 
be recorded, we think, and very long-standing budget principles 
say it should be recorded at the time that commitment is made.
    The savings will be realized later in many cases, and we 
try to show those as well. The distinction, again, I think is 
partly the 10 year cutoff and partly the distinction between 
discretionary spending and mandatory spending.
    There is a very deep distinction in how the Congress thinks 
about money. The discretionary spending is now controlled by 
the Congress through caps and is controlled through annual 
appropriations. The mandatory spending is limited by PAYGO 
rules.
    It is really not our place to combine those two different 
sorts of flows that the Congress treats very differently. We 
try to provide information in a contract. You mentioned in your 
statement that we prevent the Congress from doing something. I 
want to emphasize we do not prevent the Congress from doing 
anything.
    Senator Schatz. Fair enough.
    Dr. Elmendorf. If the information we provide in these costs 
estimates does not explain the full picture that we see, then 
we should do a better job in the cost estimate, but I do not 
think it is by adding up budget categories that the Congress 
has really set very much apart for decades now.
    I am happy to talk to you about ways we can make the 
estimates express more clearly the point that you want to make.
    Senator Schatz. Thank you very much.
    Senator Capito. Senator Murphy.

                            KING V. BURWELL

    Senator Murphy. Thank you very much, Madam Chair. It is a 
pleasure to sit on this committee with both of you, and let me 
add my appreciation to you, Dr. Elmendorf, for your service.
    I think this is the first time you have been before any of 
the committees I have served on while I have been in the 
Senate, but while I was a member of the Energy and Commerce 
Committee during the healthcare debate and the energy debate, 
we got a lot of chances to speak to each other.
    One of the great frustrations to members of Congress is 
CBO's independence, and you really truly are an independent 
body. That means you do your own interpretation, your own read 
of the statutes that we pass. We do not tell you what they 
mean. You do your own derivation and analysis and then attach 
numbers to it.
    I wanted in that context to ask you a question about 
probably the most important pending case before the Supreme 
Court right now, which is King v. Burwell.
    This is a pretty simple question as to whether the 
Affordable Care Act posits and allows for subsidies to go to 
states with Federal exchanges and State exchanges, or whether 
subsidies are allowable only to states that have set up their 
own State exchanges.
    I guess my question is pretty simple. How did CBO read the 
law as to this question of whether subsidies would go to 
Federal and State exchange participants or as the petitioners 
in this case believe, only to State exchange participants?
    What was CBO's read? What did you base your numbers off of 
when you did your analysis of the law?
    Dr. Elmendorf. Senator, our estimates for the Affordable 
Care Act have always included subsidies flowing to people 
buying insurance through those exchanges whether the exchanges 
were being run by the Federal Government or State governments.
    We wrote in a letter to Chairman Issa a few years ago, and 
I quote ``To the best of our recollection, the possibility that 
those subsidies would only be available in States that created 
their own exchanges did not arise during the discussions CBO 
staff had with a wide range of congressional staff when the 
legislation was being considered.''
    Senator Murphy. When CBO comes to a place in which they may 
have questions about the interpretation of a statute, how do 
you deal with those questions? Do you just ask congressional 
staff or do you do your own interpretation of the totality of 
the statute and the totality of the record?
    Dr. Elmendorf. Senator, we read legislation and apply our 
judgment about its effects, but we did not conduct a full legal 
analysis of the Affordable Care Act of the sort some people may 
have then and certainly have since then.
    CBO has three attorneys on our staff. They read legislation 
with our analysts. They also handle all of the legislative 
needs of the agency as an operating organization.
    We do try to read the legislation that we see carefully, 
but we are not pouring over it with sort of a full legal 
analysis that you may be suggesting.
    Senator Murphy. Your analysis was that the Affordable Care 
Act allowed for subsidies to go to State and Federal exchanges, 
thus, you priced it based on those----
    Dr. Elmendorf. Our estimates included the subsidies being 
provided to people in exchanges, whether they were operated by 
the State governments or by the Federal Government.

       TWENTY PERCENT REDUCTION IN AFFORDABLE CARE ACT SUBSIDIES

    Senator Murphy. One other question on generally the same 
topic. You just released an updated cost analysis on the 
Affordable Care Act where you estimate that the overall cost 
will be about 10 percent less but the cost of the subsidies 
will be 20 percent less.
    Can you just speak for a moment as to the driver for 
specifically that 20 percent reduction? That is a pretty large 
decrease in terms of the estimate over the course of 10 years 
as to how much the subsidy is going to cost. It was very 
welcome news.
    There are a couple of factors, right, that figured into 
your change in an analysis of the rest of the window of the 
law.
    Dr. Elmendorf. Senator, we released an analysis of the 
costs of the coverage provisions of the Affordable Care Act. 
That sort of analysis comes as a natural course of us doing 
updated baseline projections, because that coverage expansion 
is so recent, and it is not so much in the existing flow of 
data. We look at it separately still.
    For the other parts of the Affordable Care Act, the big 
change is Medicare and the big revenue increases. We do not 
update those separately as private baseline projections because 
they are woven into current law.
    For these coverage provisions, our new estimate of the 
costs of those provisions is 11 percent less over the next 
decade than our previous estimate, and as part of that, there 
was a down revision in the costs of the subsidies provided 
through insurance exchanges of about 20 percent.
    The larger factor there was continued slow growth in 
private health insurers' spending. We have been expecting some 
bounce back, and that has not occurred. In fact, the latest 
data show slower growth than the years preceding that. We now 
have a number of years of quite slow growth, so we marked down 
our projection of growth in that spending going forward.
    A second factor was we now think there will be slightly 
fewer people who will take up coverage in the exchanges. That 
is from a combination of data about the sources of insurance 
coverage actually before the Affordable Care Act's big 
insurance expansion. We now have more recent data than we had 
when we did these estimates some time ago.
    There were slightly fewer uninsured people, so less take up 
of those people into exchanges, and more of the people with 
employer sponsored health insurance or at large firms that are 
less likely to drop their coverage because of the Affordable 
Care Act, and therefore, less flow from employers into the 
exchanges as well.
    Those factors together caused us to mark down our 
projection of coverage in the exchanges by about one million 
people in most years going forward.
    Senator Murphy. Just one last quick question. Is part of 
that reason for increased numbers of people being on employer 
based coverage because your estimate of cancellations, policy 
cancellations, has decreased, or the trend line in the number 
of cancelled policies has decreased?
    Dr. Elmendorf. We think there will be fewer cancellations 
because of the creation of the exchanges and other features of 
the Affordable Care Act.
    Senator Murphy. Thank you, Madam Chair.
    Senator Capito. I am going to go for a second round. Just a 
clarification. When you said fewer people are projected to be 
on the exchanges than were originally, which was the cause of 
your projections going down by a certain percent, did you say 
you were predicting one million less people? Is that in 1 year 
or over 10 years?
    Dr. Elmendorf. Yes, it is about one million fewer people in 
each of the next 10 years roughly.
    Senator Capito. Ten million less?
    Dr. Elmendorf. Yes, well, we put it carefully as being 
number of people in a given year, because people can turn up 
the following year and are or are not covered in various years.
    Senator Capito. In a given year, I get that.
    Dr. Elmendorf. We had been projecting on the order of 27 
million people in the exchanges in 2025, and now we think it 
will be 25 million. That difference may look like two, but 
there is some rounding, so the difference actually rounds to 
one million fewer people in 2025. Also, one million fewer in 
most of the years, each of the years of the coming decade.
    Senator Capito. Just curiosity wise, the last year that we 
have full data for would be 2013, that we have actual data of 
how many people are on the exchanges?
    Dr. Elmendorf. The exchanges were not in place in 2013. We 
know how many people were in the exchanges last year.
    Senator Capito. Okay, 2014.
    Dr. Elmendorf. That number we have. Some data we get pretty 
much right away, and for some data, we have a lag.
    Senator Capito. What was that number? Do you have it?
    Dr. Elmendorf. That was, I think, six or seven million 
people.
    Senator Capito. Right. What were you projecting? I am just 
curious.
    Dr. Elmendorf. We had been projecting, I think, somewhat 
more people a year or two or three ago. I think it came in a 
little below what we had been expecting a few years before 
that, but I am not 100 percent sure. We have been expecting a 
gradual ramp up in enrollment.
    We have actually knocked down our projection of enrollment 
for this year by a million people now, and I think a million 
people in January. We have come down a little bit for this 
year. We still think there will be much more enrollment in the 
future, but not quite as much more than we had thought.
    Senator Capito. As you had originally thought.
    Dr. Elmendorf. In our last projections.

                            DYNAMIC SCORING

    Senator Capito. Thank you. Since I have you here and the 
House has changed their rule 13, clause 8, the dynamic scoring 
rule. You hear a lot of controversy about this. I just came out 
of the House 14 years. Subject of great discussion.
    If you would not mind and my colleagues do not mind, would 
you just take a short period of time and tell in layman's terms 
what the difference between the way you score and a dynamic 
score would be?
    Dr. Elmendorf. Yes, of course, I am happy to do that. In 
CBO's cost estimates, we take on a whole variety of behavioral 
responses by individuals, by firms, by State governments. What 
we do not do in our estimates is to incorporate changes in 
people's behavior that would affect the size of the overall 
economy. We hold overall employment, overall GDP fixed in our 
estimates.
    We do a substantial amount of work in providing 
information/analysis of the macroeconomic effects of policy 
proposals. We do this every year in the analysis of the 
President's budget. We do this for proposals that Chairman Ryan 
put forward the last few years as chairman of the Budget 
Committee.
    We do those analyses for major pieces of legislation, major 
proposals, and we do them separately from our basic cost 
estimates.
    What the House rule does, as you know, is to require CBO to 
include that sort of macroeconomic feedback in our regular cost 
estimates for certain pieces of legislation, and in particular 
for major pieces of legislation, legislation that would have 
effects on spending or revenues that exceed a quarter percent 
of GDP in any era of the 10 year budget window at the threshold 
of $40 to $45 billion now.
    We will follow that rule in our estimates for the House. We 
will include those sorts of feedback effects in our estimates 
for large pieces of legislation.
    The closest thing we have done, I think, that has been 
prominently seen in the Senate was our analysis of immigration 
legislation the Senate took up a few years ago. A number of 
years before I arrived at CBO and considering comprehensive 
immigration legislation, people at CBO decided to assume there 
would be no change in the labor force or employment when the 
legislation was designed to increase the number of people in 
the country in some ways would have forced the estimate to be 
too distorted, so for the immigration legislation, we actually 
allowed for some macroeconomic consequences a number of years 
ago and then again a few years ago when this came up.
    We also did a separate analysis a few years ago as part of 
our analysis of immigration. We had a cost estimate and we had 
this extra analysis to look at even broader macroeconomic 
effects on productivity and saving behavior and so on.
    Under the current House rule, if that legislation were to 
come up in the House, we would include all those effects in the 
cost estimate for the legislation.
    Senator Capito. For the Senate, you were just asked to do 
that in sort of an advisory capacity? Is that correct? Or there 
is no requirement at all in the Senate?
    Dr. Elmendorf. There is no specific requirement. Of course, 
the chair or the ranking member of the Budget Committee or 
other key committees can ask us to do that sort of analysis, 
and we are happy to do that.
    We spent a good deal of effort in the past several years 
improving our modeling of the macroeconomic effects of changes 
in fiscal policy. We understand Congress' interest in this. The 
fact that we had not included it in cost estimates has not 
relieved us in our minds of the responsibility to be able to do 
that sort of analysis and to do it for major pieces of 
legislation of the sort I described.
    We have done a lot of modeling work, and we have tried to 
be very transparent about that. There is a collection of 
working papers essentially, maybe eight or nine separate 
reports, that as a collection explain how we do that sort of 
analysis, so that you and your staff can understand it and so 
we can receive the scrutiny of outside experts, many of whom we 
have consulted in the course of building these models, but to 
continue to receive scrutiny in the way that we do that sort of 
modeling so you can understand where it is coming from.

                 DYNAMIC SCORING IMPACT ON CBO'S STAFF

    Senator Capito. Assuming this is going to be a larger part 
of what the CBO is going to be asked to do, how do you think 
that is going to affect your workforce? Do you see that as you 
are going to need more people or different types of staff?
    Dr. Elmendorf. The increase in FTEs, the small increase 
that we have asked for, is partly to build up our staffing in 
that area. We have an excellent staff now. We have done this 
modeling work. It is not that it comes entirely out of the 
blue.
    We do expect there will be more demand for this sort of 
work and additional resources would help us to meet that demand 
in a quick and efficient way. Part of the challenge here is 
this sort of analysis takes a good deal of time, and if we had 
even a few more people who could do it, then we could respond 
more quickly to Congress' needs.
    Senator Capito. We always want everything yesterday, too.
    Dr. Elmendorf. Yes, ma'am.

                    GAO REPORTS AND RECOMMENDATIONS

    Senator Capito. I understand. Mr. Dodaro, one last question 
for you. I really appreciate the high quality reports the GAO 
generates and the money savings that have resulted from this. I 
think there is a gap between what we have actually enacted or 
been able to move forward with and what you all have uncovered, 
so to speak, where there could be greater savings.
    Would you have any suggestions for us, either House or the 
Senate, to be able to look at your recommendations and really 
achieve more cost savings and more efficiencies that your 
agency has brought forward? How would you recommend that we go 
about being better at responding?
    Mr. Dodaro. First, I would suggest more oversight hearings. 
Senator Schatz mentioned our high risk list, which has 32 areas 
on it right now. There is a very significant potential for 
saving billions of dollars by addressing those issues. More 
oversight hearings should be guided by the high risk list.
    We also produce a report every year on overlap, 
duplication, and fragmentation in the Federal Government. We 
add cost savings suggestions and revenue enhancements to that 
list.
    I just testified last week before the Senate Budget 
Committee. I think there could be more attention by the budget 
committees. I mentioned the Bipartisan Budget Act for 2014 and 
2015 to avoid sequestration. A number of GAO's recommendations 
were adopted to help avoid sequestration. There were over $23 
billion in contributions there.
    I also reach out to the Executive Branch Cabinet officials 
and encourage them to implement all the recommendations, they 
can voluntarily. We are going to send letters to all the agency 
heads in the coming months on the top recommendations that are 
outstanding. I anticipate providing that information to the 
Congress as well so they can use it in appropriation and 
authorization decisions.
    Right now we have about 6,000 outstanding GAO 
recommendations. On the whole, over a 4 year period, 80 percent 
of our recommendations are adopted. There are certain areas, 
like IT acquisitions, we put on the high risk list.
    In that area in the last 5 years we made 737 
recommendations, and only 23 percent have been implemented. On 
the Veterans Affairs (VA) healthcare issue, we have over 100 
outstanding recommendations. Those are two, VA and IT 
acquisitions, that we added to the high risk list.
    I also thank the subcommittee for looking carefully at our 
request for 40 FTEs. Many would be used to do more work and 
provide additional recommendations on how to close the tax gap 
and how to get on top of the improper payment issue.

                           IMPROPER PAYMENTS

    I am very concerned. Last year's estimate for 2014 was $125 
billion in improper payments. These are payments that should 
not have been made or were made in the wrong amounts. That is 
an increase of $19 billion from the prior year. Most of the 
increase is in Medicaid and Medicare. These are the two fastest 
growing challenges in the Federal Government's budget. This 
problem will get worse before it will get better.
    I have been saying that for a while, and the additional 
resources would help.

                                TAX GAP

    The tax gap is $385 billion. We have many outstanding 
recommendations that Congress could implement that would result 
in increased revenue collection. These are revenues that are 
due under the current structure. We are not talking about tax 
increases. We are just collecting what should be collected.
    Senator Capito. Right.
    Mr. Dodaro. Those are a few of my suggestions.
    Senator Capito. I appreciate that. I think there is nothing 
more grinding on a taxpayer than to realize improper payments 
are going in the wrong way, either through fraud, waste, abuse 
or whatever. It really is an insult to the hard working people 
in this country who are paying their taxes and doing the right 
thing. I appreciate that.
    Senator Schatz.
    Senator Schatz. Thank you for your leadership in this 
space. Chairman Capito, I would be happy to work with you in 
any way to try to help the Senate and Congress overall to try 
to implement all of the recommendations from your high risk 
list.
    I think this is an opportunity for us to find savings, find 
revenue, and find bipartisan cooperation.

            DYNAMIC SCORING (UNCERTAINTY OF CBO'S ESTIMATES)

    Dr. Elmendorf, on the question of dynamic scoring, I am not 
one of those Democrats as allergic to the dynamic scoring 
approach as others. I just have a technical question with 
respect to how it may or may not increase the kind of 
variability in your cost estimates.
    I have to believe that for your analysts and for you and 
your successor, it may give you a little bit of heartburn to 
try to imagine macroeconomic impacts of policy and to try to 
quantify that in a way that is not just hazarding a guess.
    I am just wondering how you see this increasing the 
likelihood that you are going to get something badly wrong in 
the future.
    Dr. Elmendorf. Senator, we are acutely aware of the 
uncertainty that surrounds many of our estimates. This is a 
hard business that we are engaged in. The estimates of the 
macroeconomic effects of legislation certainly have substantial 
uncertainty around them, and in recognition of that, when we 
report those sorts of macroeconomic estimates, we generally do 
so with explicit ranges.
    We provide a central estimate and a higher level and a 
lower level. I would not say higher and lower bounds because 
the outcomes could be even outside that range. We try to show 
you and your colleagues the range.
    I would emphasize our estimates that do not include 
macroeconomic feedback also often have a great deal of 
uncertainty. I think it is important for you and your 
colleagues to understand that.
    We put down numbers because the budget process really 
requires numbers that add up, but we always think of them as 
being in a range of some sort, and I would urge you and your 
colleagues to remember that.
    I would urge you and your colleagues to continue to press 
us to try to be clear with you and to quantify where we can 
that uncertainty as we try to do in these macro estimates.
    Again, I want to say it is not entirely new to us. This 
analysis of the President's budget each year and our long term 
budget outlook each year, they look at alternative scenario's 
with this sort of macroeconomic feedback.
    We draw on the best thinking in the economics profession to 
do that, both in our reading of the papers and in our direct 
consultation with members of our panels, advisors, and other 
people.
    We have some confidence that we are giving you the best 
information that can be provided, but you and we need to 
remember that there is a lot of uncertainty and the uncertainty 
gets greater the further out in time we are asked to look, and 
it gets greater the more stark are the changes in Federal 
policies.
    Senator Schatz. Thank you, both. I really want to say that 
you both represent the best in public service, and I know your 
agencies work very hard and are sometimes criticized. I just 
want to say how much I appreciate both of your public service.
    Thank you, Madam Chair.
    Senator Capito. Thank you. I, too, would like to thank both 
of you. I think I have learned a lot and I appreciate you 
taking the time to be here with us today.
    This concludes the Legislative Branch Appropriations 
Subcommittee hearing regarding fiscal year 2016 funding for the 
CBO and GAO. I want to again thank both of you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Our hearing record will remain open for seven days allowing 
members to submit statements and/or questions for the record, 
which will be sent to the subcommittee by close of business on 
Tuesday, March 17.
    [The following questions were not asked at the hearing, but 
were submitted to the agency for response subsequent to the 
hearing:]
            Questions Submitted to Dr. Douglas W. Elmendorf
          Questions Submitted by Senator Shelley Moore Capito
    Question. I understand that the fiscal year 2016 budget request 
includes funding for three additional full-time equivalents (FTE's). 
Knowing that the salaries and benefits associated with FTE's continue 
to increase over time, would upgraded, or additional, information 
technology systems be a more cost-efficient means of increasing CBO's 
output, rather than hiring new people?
    Answer. In CBO's view, hiring the additional people would provide 
the greatest value to the Congress. The additional employees would be 
devoted to analyzing the economic effects of Federal tax and spending 
policies (including ``dynamic'' effects, as required by a new House 
rule) and healthcare issues.
    Certain needs for information technology were addressed by CBO's 
2014 appropriation: The agency acquired greater storage capacity and 
advanced servers designed for sophisticated statistical analysis and 
modeling undertaken by an increasingly wide swath of the agency. At 
this time, to analyze the ever-changing proposals considered by the 
Congress, CBO's most pressing need is for talented analysts who can 
determine the modeling approaches that are appropriate for a particular 
proposal, can develop new models or understand and manipulate existing 
models, can translate legislative language into a set of parameters for 
use in modeling, and can make other adjustments for features of the 
legislative language that are not amenable to standard modeling.
    Question. What would be the impact to the agency if the committee 
was not able to provide funding for these three additional FTE's in 
fiscal year 2016?
    Answer. With its current staffing, CBO cannot meet all of the 
Congress's requests for estimates and analyses, particularly in the 
area of healthcare, and there is an increasing desire for the agency to 
analyze the economic effects of Federal tax and spending policies, as 
evidenced by the new House rule and a similar provision in the Senate-
passed budget resolution. Without funding for three additional 
positions in fiscal year 2016, fewer of those requests would be 
fulfilled, and some such analyses would be less timely than desired. 
For instance, CBO would anticipate preparing fewer reports with policy 
options than hoped and being able to complete fewer informal estimates 
of the effects of bills before markup by committee. Even with the 
additional staffing, the volume of analyses and estimates that CBO 
could provide would fall far short of the total number of congressional 
requests.
    Question. I understand that CBO's budget request for fiscal year 
2016 includes an additional full-time equivalent (FTE) for the purpose 
of conducting dynamic scoring analysis of certain legislation pursuant 
to the new House rule XIII, clause 8. Why is an additional FTE 
necessary to help fulfill this requirement when CBO already has a 
Macroeconomic Analysis Division? Are any other changes required within 
the Macroeconomic Analysis Division in order to comply with the new 
House rule? If so, what are the costs associated with those changes?
    Answer. The agency has excellent analysts in its Macroeconomic 
Analysis Division, who have built--and continue to build and refine--
sophisticated models used as part of such dynamic analyses. Those 
analyses also involve contributions from analysts in other divisions. 
Although CBO has done a good deal of work to develop the tools 
necessary to estimate the macroeconomic effects of legislation, such 
estimates can be quite complicated and time-consuming because bills can 
affect a number of key economic variables and each piece of legislation 
can affect those variables in different ways. Under the House rule, CBO 
will have to do more such analyses. Because all of the analysts in the 
Macroeconomic Analysis Division were fully engaged in work for the 
Congress before the House imposed this new requirement, CBO expects 
that one additional analyst in its Macroeconomic Analysis Division 
would be very valuable in helping the agency to meet its additional 
responsibilities under the House rule in a timely way.
    CBO will continue to evaluate whether it has sufficient resources 
to implement the House rule and any further requirements that may be 
imposed by the budget resolution. At this point, the agency is 
uncertain whether additional resources, beyond those already requested, 
will be needed.
    Question. If enacted into law, would any of the provisions in the 
Senate bill S. 200 require CBO to make further adjustments to its 
Macroeconomic Analysis Division? Would additional FTE's be necessary, 
would upgraded software systems be required, or would it be necessary 
to purchase additional data? If so, what are the costs associated with 
those changes?
    Answer. The analyses required under S. 200--to prepare, to the 
extent practicable, macroeconomic analysis of major revenue 
legislation--would generally be prepared by the staff of the Joint 
Committee on Taxation (JCT). However, analyses of major legislation 
affecting the revenue provisions of the Affordable Care Act and certain 
other tax legislation affecting healthcare would probably be undertaken 
jointly by JCT and CBO because the two agencies usually work together 
on such analyses. Such work would affect multiple divisions within CBO, 
not just the Macroeconomic Analysis Division. The additional full-time-
equivalent positions that CBO has already requested would be helpful in 
meeting the requirements of S. 200, although, as mentioned, the agency 
is uncertain whether resources beyond those would be needed.
    Question. The House rule requires these estimates to cover the 
current 10-year budget window and the following 20-year period; while 
the Senate bill requires the estimates to cover the current 10-year 
window and the following three 10-year periods. Will it be more 
difficult to provide this analysis for 30 years beyond the first 10-
year window as opposed to just 20 years beyond the first 10-year 
window?
    Answer. The House rule requires a qualitative assessment of 
budgetary effects in the 20-year period beyond the usual 10-year 
window; S. 200 would require quantitative estimates of changes in 
economic output, employment, interest rates, the capital stock, and tax 
revenues over the 30-year period beyond the current 10-year budget 
window. (S. 200 would also require estimates of changes in employment 
during the 10-year budget window, which would involve additional 
analysis beyond that needed to fulfill the requirements of the House 
rule.) Providing qualitative estimates is not as difficult as preparing 
quantitative ones. The ability to do the latter will vary depending 
upon various factors, such as the time horizon involved, the amount of 
time available to conduct the analysis, the complexity of the 
legislation being considered, the capability of the tools that the CBO 
has to assess the legislation's effects, and the agency's judgment 
about the uncertainty of the analysis.
    Providing estimates that look farther into the future would be more 
difficult and time-consuming. To undertake analyses of effects between 
30 and 40 years in the future, CBO would need to assess various 
additional factors, such as how different trends affecting estimates 
for components of legislation that were projected for the previous 
decade might change and how aspects of the legislation that were not 
binding in previous periods might begin to have effects. Estimates that 
extend beyond 10 years are generally quite uncertain, and the farther 
out they go, the more uncertain they become and the more difficult that 
uncertainty is to evaluate. Hence, when quantifying budgetary effects 
beyond the first decade, CBO often presents them as a percentage of the 
size of the economy (in part because economic growth itself is a source 
of uncertainty).
    Question. The House rule requires that this analysis be made part 
of the standard CBO cost estimate, but the Senate bill only requires 
these estimates to be part of a supplemental analysis. Practically 
speaking, is there a difference in the work performed by CBO to provide 
this analysis as part of the standard cost estimate vs. providing it as 
a supplemental analysis?
    Answer. In either case, CBO will provide all of the typical 
information provided today plus additional information about 
macroeconomic effects. The way CBO presents the budgetary impact of the 
macroeconomic effects of a proposal--either as part of a cost estimate 
or as a supplemental analysis--would not fundamentally change the work 
performed by the agency. However, when dealing with similar 
legislation, meeting two different requirements for presentation would 
have the practical effect of adding some effort and time.
    Question. I understand that CBO is again requesting authorizing 
language that would allow no more than 50 percent of its unobligated 
balances to remain available for a second fiscal year beyond the year 
in which it was appropriated. Why is this necessary? What is CBO unable 
to do with its funds in the year in which they are appropriated that 
requires carrying them forward?
    Answer. To ensure that the agency does not obligate more funds than 
have been appropriated, CBO sets aside funds to cover unexpected 
expenses late in the year. When such expenses do not arise, some funds 
remain unobligated at the end of the year. The authorizing language 
would provide the agency the flexibility of using a portion of those 
unobligated balances in the following year to pay for data or other 
goods or services--such as additional information technology services--
that are critical but unforeseen and therefore not included in the 
budget.
    In addition, some obligations made at the end of the year do not 
result in outlays--when costs turn out to be lower than the maximum 
obligated amounts. The authorizing language would allow CBO to obligate 
a portion of those funds again so that they could be used, as 
originally intended, to sustain CBO's operations. The flexibility that 
CBO is seeking is based on general provisions that appear in the 
Financial Services, Homeland Security, and Transportation, Housing and 
Urban Development appropriation bills.
    Question. What would be the consequences to CBO of not providing 
this authorizing language in fiscal year 2016?
    Answer. If the requested flexibility regarding unobligated balances 
is not provided, CBO will have to use fiscal year 2016 funding to pay 
for any critical but unforeseen needs--perhaps additional data about 
healthcare--and then defer other activities included in the budget, 
such as the maintenance or replacement of information technology 
equipment. Moreover, obligated funds in excess of costs would continue 
to be unavailable to the agency.

                          SUBCOMMITTEE RECESS

    Senator Capito. The next hearing of this subcommittee will 
be on Thursday, March 12, at 9:45 in Dirksen 124, where we will 
hear testimony from the Secretary of the Senate, the Senate 
Sergeant At Arms, the Chief of the Capitol Police, regarding 
the fiscal year 2016 budget request for those agencies.
    Until then, the committee stands adjourned. Thank you.
    [Whereupon, at 3:56 p.m., Tuesday, March 10, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]



         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                        THURSDAY, MARCH 12, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:34 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Shelley Moore Capito (chairman) 
presiding.
    Present: Senators Capito and Schatz.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF HON. JULIE E. ADAMS, SECRETARY OF THE 
            SENATE
ACCOMPANIED BY:
        MARY SUIT JONES, ASSISTANT SECRETARY
        ILEANA GARCIA, FINANCIAL CLERK

           OPENING STATEMENT OF SENATOR SHELLEY MOORE CAPITO

    Senator Capito. The subcommittee will come to order.
    And I would like to welcome everyone to the second of our 
fiscal year 2016 budget hearings for the various agencies under 
the jurisdiction of the Legislative Branch Subcommittee of the 
Appropriations Committee.
    We have before us today the Secretary of the Senate, Julie 
E. Adams. We have the Senate Sergeant at Arms, Frank Larkin, 
and we have the Chief of the U.S. Capitol Police, Kim Dine. 
Welcome to all of you.
    I would like to start by welcoming, first of all, Julie 
Adams and Frank Larkin, into their new positions in the Senate, 
as they were just sworn in when we were sworn in--when I was 
sworn in on January 6 of this year. And I hope you are settling 
into your critical roles that you play with this historic 
institution. I look forward to any initial assessments of your 
office that you may be able to share with only 8 weeks on the 
job.
    And, of course, the subcommittee welcomes back the Chief 
who, after a little over 2 years on the job, now has the most 
seniority on the table.
    Thank you for being here with us today for this important 
discussion on how the agencies you represent are planning to 
move forward in the next fiscal year.
    I would also like to thank you for hosting the ranking 
member and I both over at your headquarters, Chief, with the 
Sergeant at Arms and then the Secretary of the Senate Office to 
really see where you work, how you work, and meet a lot of the 
folks that you work with. So I appreciate that. That is very 
useful.
    The Secretary of the Senate's office is requesting a total 
of $34 million, which is $3 million, or 9 percent, above the 
fiscal year 2015 enacted level. Of the total requested, $25 
million is for salaries and benefits, which would maintain 
current services at a full-time equivalent (FTE) of 225. The 
request for the expenses is increased by $2.5 million above the 
enacted level due to the modernization of the financial 
management information system.
    The Sergeant at Arms total request is $206 million, an 
increase of approximately $8 million, or 4 percent, above the 
fiscal year 2015 enacted level. The request includes $72 
million for salaries and benefits, which would maintain the 
current FTE of 892. The request for the expenses account is an 
increase of $5.7 million over the enacted level of 2015. The 
requested increases and offsets within the Sergeant at Arms 
budget support the need for a major information technology 
refresh of hardware and software and increased storage capacity 
for members and committees and a constituent mail system 
upgrade. There is a consistent theme here and it is called IT.
    Finally, the Capitol Police request totals $379 million, an 
increase of $31 million, or 9 percent, above the fiscal year 
2015 enacted level. Of the funding requested, $307 million is 
for salaries and benefits to maintain the current sworn officer 
level of 1,775 and the current civilian staff of 370. The 
request for the expense account is an increase of $10 million 
above the 2015 level. This increase would restore full annual 
funding to previous functions and existing needs that have been 
put off in recent years due to significant budget constraints 
such as lifecycle replacement of information technology 
systems, equipment, and training.
    I noticed a theme in all three of your budgets, which is 
holding personnel flat and prioritizing funding increases for 
the IT systems and equipment. I look forward to exploring these 
needs with you and the other members of the subcommittee today 
and over the next several months as we move through the fiscal 
year 2016 process.
    So I would like to turn this over to my ranking member, 
Senator Schatz, for any opening remarks he would like to make.

                   STATEMENT OF SENATOR BRIAN SCHATZ

    Senator Schatz. Thank you, Chair Capito.
    And thank you, all of you, for being here for this hearing. 
And I want to thank you, and I think it is fair to speak for 
all members to thank all of you personally for making this 
institution run so well. You are all institutionalists. You 
keep us safe. You keep the place running. You make the Senate 
the Senate, and we are all very, very appreciative of the work 
that you do even as we conduct our oversight responsibilities.
    It has already been a pleasure working with Chair Capito as 
her ranking member, and I am looking forward to this 
conversation.
    Your three agencies work closely to make sure that the 
Senate can operate safely, openly, and efficiently. They play a 
critical role in assuring the continued operation of an open 
and democratic Congress. The funding we provide to the Capitol 
Police, the Sergeant at Arms, and the Secretary of the Senate 
makes sure that the American people have safe and reliable 
access to our buildings, our proceedings, and our records.
    I look forward to examining your budgets closely today and 
working with you throughout the year as we conduct ongoing 
oversight. I would like to discuss how we can combat evolving 
threats to our open Capitol campus, like drones that could be 
used by criminals or terrorists and cyber attacks. I am also 
interested to learn how the agencies testifying today may have 
to adapt if the current Budget Control Act spending caps remain 
in place.
    Thanks very much.
    Senator Capito. Thank you.
    And now I would like to ask the witnesses, beginning with 
Secretary Adams, to give a brief opening statement of 
approximately 5 minutes. As you all know, the written testimony 
of each witness will be printed in full in the hearing record. 
Secretary Adams.

                SUMMARY STATEMENT OF HON. JULIE E. ADAMS

    Ms. Adams. Thank you, Chairman Capito and Senator Schatz, 
for the opportunity to testify on behalf of the Office of the 
Secretary and its dedicated employees.
    I ask that my full statement, which includes our department 
summaries, be submitted for the record.
    Senator Capito. Without objection.
    Ms. Adams. Thank you.
    With me today are Mary Suit Jones, the Assistant Secretary, 
and Ileana Garcia, the Financial Clerk, who have worked closely 
with your subcommittee over the years. I am also joined by many 
of our department heads.
    Before turning to my formal remarks, I want to take a 
moment to thank my predecessor, Nancy Erickson, Assistant 
Secretary Sheila Dwyer, and other members of the executive team 
for their assistance during my transition. Their graciousness 
is a testament to the strength and traditions of the Office of 
the Secretary.
    Since taking the oath of office 2 months ago, I have had 
the distinct privilege of meeting the staff that comprise the 
26 departments of the Secretary's Office. It is a truly 
remarkable group of people and one with whom I am honored to be 
associated. Their institutional knowledge, devotion to public 
service, and expertise serve the Senate well, and they provide 
remarkable continuity in times of change.
    In the last year, some department heads retired from the 
Secretary's Office after dedicating nearly 130 years of 
combined service to the Senate. Among them, Chris Doby, the 
Financial Clerk, and Kathie Alvarez, the Legislative Clerk. The 
Senate is a better place because of their many contributions. I 
am proud that our departments continue to be led by seasoned 
professionals who also have lengthy Senate service.
    I would also like to note our strong and continuing 
partnership with the Senate Sergeant at Arms. From continuity 
programs to procurement, I am proud of our friendly and 
collaborative working relationship.
    Our budget request for fiscal year 2016 is $31,327,000. The 
request includes $25,077,000 in salary costs and $6,250,000 for 
the operating budget of the Office of the Secretary. The salary 
budget represents an increase of $305,000 over the fiscal year 
2015 budget as a result of the costs associated with the 
potential cost-of-living adjustment. The operating budget of 
the Office of the Secretary remains flat at $6.25 million, of 
which $4.35 million is firewalled for the administration of the 
Senate Information Services program. That was assumed by this 
office in 2011 and has not changed.
    In addition, I am requesting $2.5 million in no-year funds 
to begin the modernization of the Senate Disbursing Office's 
Financial Management Information System, also known as FMIS. 
This is a 6-year phased project that will require additional 
no-year funding requests. To promote transparency, I am 
requesting that this funding be firewalled.
    FMIS is a collection of financial applications used by 
Senate offices to submit and pay bills, manage office funds, 
and report to both internal and external agencies. It is used 
by approximately 140 Senate offices and has over 4,000 users. 
The current FMIS, implemented over 15 years ago in preparation 
for Y2K, utilizes a complex architecture, increasingly 
expensive mainframe technologies, and a variety of software 
that may only be enhanced through costly and time-consuming 
custom development. The first phase of the project will focus 
on budget and reporting modernization. The majority of changes 
will happen behind the scenes as improvements are made to the 
FMIS infrastructure.
    One piece of the budget modernization that Senate offices 
will see is an improved module to perform payroll projections, 
enabling offices to better forecast and plan their budgets. 
This is something that I, as a former Senate administrative 
director, would have greatly benefited from. So I hope office 
managers will find it useful.
    Throughout the process, user input will be important to 
ensure that the modernized system fully meets the needs of the 
Senate community, and I have stressed the importance of this to 
my team. While the modernization project is underway, the 
current FMIS platform will be maintained and operational.
    FMIS is significant, but just one component of the office's 
vast mission. Since 1789, the Office of the Secretary has 
provided support to the Senate in three areas: legislative, 
administrative, and financial. I would like to highlight some 
of our staff's accomplishments in each area.
    In December of last year, the Parliamentarian and the 
Office of Web Technology debuted the electronic Senate 
precedents database on Webster. The system currently contains 
approximately 275 precedents from seven of the most frequently 
used chapters of ``Riddick's Senate Procedure.'' This will 
continue to be a big task as the parliamentarians make updates 
and additions for the database.
    The Senate Stationery Room continued working with Member 
offices to establish accounts for the online flag ordering 
system, using pay.gov. This is a convenient service that 
Members can provide to their constituents interested in 
purchasing American flags. Forty-three offices were using 
pay.gov at the end of 2014, up from 13 offices a year ago, and 
usage is expected to expand even further this year.
    The Disbursing Office continues to move offices away from a 
paper voucher submittal process to one where imaging and 
electronic signatures are utilized. Forty-four offices were 
using the technology at the end of last year, and more offices, 
including new Member offices, will be included moving forward. 
Implementation of the new technology has also led to a decrease 
in the volume of paper and the time it takes for vouchers to be 
approved.
    The Historical Office commemorated the 50th anniversary of 
the passage of the Civil Rights Act of 1964. Senate historians 
developed an extensive multi-media exhibit on Senate.gov, 
authored articles describing the Senate's role in the passage 
of the landmark legislation, and presented specialized talks 
and tours. The four public talks drew capacity crowds and the 
final two discussions were broadcast by C-SPAN.
    And finally, before the start of every new Congress, the 
Secretary's Office is responsible for reviewing certificates of 
election for compliance with Senate rules, and planning and 
implementing an orientation for newly elected Members and their 
designated staff. Last year's orientation lasted 3 days, and 
Senators-elect and their spouses became familiar with the 
Senate procedure and history, participated in question and 
answer sessions with current Members, and were provided ethics 
and security briefings.
    I am honored to serve in this position, and I look forward 
to working with you and your staff in the coming year. I 
appreciate your support for the Office of the Secretary and 
welcome any questions you may have. Thank you.
    [The statement follows:]
               Prepared Statement of Hon. Julie E. Adams

                             BUDGET REQUEST

    I would first like to thank the subcommittee for their ongoing 
support of the Office of the Secretary of the Senate's budget and 
mandated systems. I am requesting a fiscal year 2016 budget of 
$31,327,000. The request includes $25,077,000 in salary costs and 
$6,250,000 for the operating budget of the Office of the Secretary. The 
salary budget represents an increase of $305,000 over the fiscal year 
2015 budget as a result of the costs associated with a cost of living 
adjustment. The operating budget of the Office of the Secretary remains 
flat at $6,250,000, of which $4,350,000 is for the administration of 
the Senate Information Services Program (SIS) that was assumed by this 
office in 2011 and has not changed.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount          Budget
                                                                     available       estimates
                              Items                                 fiscal year     fiscal year     Difference
                                                                       2015            2016
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................        $500,000        $500,000  ..............
    Administrative services.....................................       1,251,600       1,251,600  ..............
    Senate Information Service (SIS)............................       4,350,000       4,350,000  ..............
    Legislative services........................................         148,400         148,400  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................       6,250,000       6,250,000  ..............
----------------------------------------------------------------------------------------------------------------

    In addition, I am requesting $2.5 million in no year funds for the 
modernization of one of the critical Senate systems, the Financial 
Management Information System (FMIS). This is a 6-year phased project 
that will require additional no year funding requests.

                                                 PROJECT REQUEST
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                              Item                                     2015            2016         Difference
----------------------------------------------------------------------------------------------------------------
FMIS Modernization Project......................................  ..............      $2,500,000      $2,500,000
----------------------------------------------------------------------------------------------------------------

  financial management information system (fmis) modernization project
    The Financial Management Information System (FMIS) is used by 
approximately 140 Senate offices and has over 4,000 active users. FMIS 
is a collection of financial applications used by Senate offices to 
submit and pay bills, manage office funds, and report to both internal 
offices and external agencies. The current FMIS, implemented over 15 
years ago, utilizes a complex architecture, increasingly expensive 
mainframe technologies, and a variety of software that may only be 
enhanced through costly and time consuming custom development.
    During 2014, the Disbursing Office updated FMIS applications to the 
extent possible. However, these efforts are quickly being outpaced by 
newer versions of operating systems, browsers and other end user 
software, which are not compatible with current FMIS applications. The 
Disbursing Office has planned an FMIS Modernization Project that will:
  --Improve financial system supportability and flexibility;
  --Address business requirements not met by the existing system; and
  --Continue to bring the Senate closer to realizing its vision of an 
        integrated, auditable, paperless financial system.

    The first phase of the FMIS modernization, scheduled to begin in 
fiscal year 2016, includes two major steps:
  --Budget Modernization.--This step will replace multiple budget 
        applications and manual processes with a single Senate-wide 
        modern budget application used by many Federal agencies. Also, 
        it includes the replacement of one of the existing payroll 
        modules, which is used to perform payroll projections and which 
        is expected to retire in April 2018.
  --Reporting Modernization.--This step will streamline and transition 
        financial reports to a consolidated data warehouse to include 
        minimizing end user impacts during the FMIS modernization.
    The FMIS modernization project is a major endeavor for the Office 
of the Secretary of the Senate. For fiscal year 2016, a total of $2.5 
million in no year funding is requested to initiate the first two steps 
in the FMIS modernization project. The flexibility provided by no year 
funding is important to the success of the modernization project due to 
its complexity, and the unique Senate technical environment and 
business requirements. In addition, no year funding provides greater 
flexibility for contracting options. Further, unobligated funds can be 
utilized to offset any further funding requests. To promote 
transparency in the FMIS Project, the requested funding will be fire-
walled from the office's operating budget.
    The Disbursing Office's business case outlines the full scope of 
the FMIS Modernization Project. The major phases and timeline of the 
proposed modernization effort are outlined in the table that follows:

------------------------------------------------------------------------
                                                 Modernization Approach
            Date               Business Area         and Rationale
------------------------------------------------------------------------
Fiscal year 2016-2017.......  Budget.........  Replace multiple existing
                                                budget applications and
                                                manual processes with a
                                                commercial software
                                                package widely used by
                                                Federal Agencies to:
                                                  --Allow for more
                                                efficient and effective
                                                budget planning and
                                                budget execution
                                                tracking;
                                                  --Enable what-if
                                                budget analyses at the
                                                Senate and individual
                                                office levels; and
                                                  --Facilitate direct
                                                integration between the
                                                payroll and financial
                                                system.
Fiscal year 2016-2021.......  Reporting......  Streamline and modernize
                                                the reporting
                                                infrastructure to
                                                prepare for and minimize
                                                impacts of the financial
                                                system modernization,
                                                and:
                                                  --Reduce the volume of
                                                reporting data;
                                                  --Eliminate unused and
                                                redundant reports;
                                                  --Consolidate
                                                numerous, disparate
                                                report processes;
                                                  --Ensure the
                                                consistency and accuracy
                                                of historic data; and
                                                  --Provide greater
                                                flexibility for users to
                                                customize the data they
                                                view and receive.
Fiscal year 2017-2018.......  Accounting.....  Replace the mainframe-
                                                based general ledger
                                                system with a commercial
                                                software package, which
                                                will:
                                                  --Allow the Senate to
                                                retire the expensive and
                                                increasingly difficult
                                                to support mainframe
                                                hardware and software;
                                                  --Implement a modern
                                                general ledger which is
                                                consistent with all
                                                current Federal
                                                financial standards and
                                                reporting requirements;
                                                and
                                                  --Enhance the Senate's
                                                ability to maintain the
                                                core component of the
                                                financial system and the
                                                source of the statutory
                                                semi-annual Report of
                                                the Secretary of the
                                                Senate.
Fiscal year 2018-2019.......  Procurement to   Replace the highly
                               Payment.         customized procurement
                                                to payment applications
                                                with commercial
                                                software, where
                                                possible, subject to a
                                                thorough alternatives
                                                analysis. This will
                                                allow the Senate to:
                                                  --Continue to meet
                                                unique Senate business
                                                needs while also
                                                addressing a number of
                                                business requirements
                                                not currently met by the
                                                existing applications;
                                                  --Enhance the Senate's
                                                ability to administer
                                                and support financial
                                                system applications;
                                                  --Enable more rapid
                                                deployment of user-
                                                requested changes; and
                                                  --Facilitate tighter
                                                integration of all
                                                procurement to payment
                                                applications to enhance
                                                Senate financial
                                                statement production.
Fiscal year 2019............  Data Sharing...  Automate interfaces with
                                                outside Agencies, such
                                                as the U.S. Treasury,
                                                to:
                                                  --Reduce errors in
                                                Senate reporting; and
                                                  --Eliminate the manual
                                                effort required to
                                                support daily and
                                                monthly external
                                                reporting.
Fiscal year 2019-2021.......  Asset            Replace the existing
                               Management.      Asset Management
                                                application with a
                                                commercial software
                                                module that will:
                                                  --Enable direct
                                                integration with
                                                financial system; and
                                                  --Eliminate redundant
                                                processes and data,
                                                increasing the
                                                efficiency and accuracy
                                                of the Senate's asset
                                                tracking.
Fiscal year 2019-2021.......  Archival Tools.  Implement data archival
                                                tools to:
                                                  --Reduce the costs and
                                                potential application
                                                performance issues
                                                associated with
                                                maintaining large
                                                volumes of financial
                                                data; and
                                                  --Ensure that all
                                                relevant data is
                                                archived together and
                                                may be restored together
                                                as needed to support
                                                Senate financial
                                                operations
------------------------------------------------------------------------

    In addition to the $2.5 million funding requested for fiscal year 
2016, the table below outlines the additional funding required for 
software and implementation services for this project.

----------------------------------------------------------------------------------------------------------------
                         Funding                           2016    2017    2018    2019    2020    2021    Total
----------------------------------------------------------------------------------------------------------------
Implementation/Acquisition..............................    2.5M      4M    3.5M      3M    2.5M    2.5M     18M
----------------------------------------------------------------------------------------------------------------

    Because of the scope and complexity of this project and best 
practices for system implementations, an FMIS Project Office within the 
Office of the Secretary will be established to oversee and manage the 
effort to ensure the project remains on schedule and within the budget 
established for the project.
    The FMIS Project Office will work in collaboration with Sergeant at 
Arms (SAA) functional and technical staff, as well as representatives 
from FMIS stakeholder groups, including Member Offices, Committees, the 
Committee on Rules and Administration audit staff, and Disbursing 
Accounts Payable and Accounting staff, throughout the modernization 
effort to ensure financial applications are supportable and 
maintainable in both the near and long term. This will ensure that the 
modernized system fully meets Senate user requirements throughout the 
implementation period, and that end user impacts are minimized.
                     implementing mandated systems
    Two systems critical to our operation are mandated by law, the 
Financial Management Information System (FMIS) and the Legislative 
Information System (LIS), and I would like to spend a few moments on 
each to highlight recent progress.
Update on current status of Financial Management Information System 
        (FMIS)
    During calendar year 2014, Disbursing implemented the following 
releases:

  --FMIS 13.3, April 2014: Modernized office, SAA, Committee on Rules 
        and Administration audit staff, and Disbursing document 
        inboxes, moving functionality from an outdated legacy framework 
        to a standardized framework, correcting over 85 user reported 
        defects related to these functions, and implemented imaging 
        support for additional document types including invoices and 
        Expense Summary Reports (ESRs); and
  --FMIS 13.3.1 through FMIS 13.3.3, May-November 2014: Implemented 
        performance enhancements, and defect corrections to support 
        imaging and new versions of Oracle's java client to facilitate 
        continued Senate-wide rollout of paperless workflow.

    In addition, work continued related to document imaging and 
electronic signatures in FMIS, in the following phases:
  --Phase 1: Imaging-only pilot (completed in 2011);
  --Phase 2: Office imaging and signatures pilot (completed in 2012); 
        full rollout beginning with new offices (completed rollout to 
        44 offices, Committee on Rules and Administration audit staff, 
        and Disbursing's accounts payable and accounting staff through 
        2014); and
  --Phase 3: Planning and development to support imaging and signatures 
        for SAA and staffer users, including:
    --Imaging to support invoices and associated vouchers for SAA and 
            the Secretary (completed development in 2014; pilot planned 
            for the Fall of 2015); and
    --Imaging to support staffers creating ESRs (completed development 
            in 2014; pilot planned for the Summer of 2015).

    In October 2014, we implemented FMIS changes to support in-house 
printing of payroll checks to meet Disbursing requirements not met by 
Treasury and to standardize Senate payment processing procedures.
    During 2014, the Disbursing Office continued to work with the SAA 
to extend the life of existing FMIS applications to ensure ongoing 
support of Senate business processes. This included upgrades to the 
WebSphere application server to support WebFMIS and digital signing 
applications and eliminating or repurposing underutilized regions in 
the mainframe to streamline support and associated costs.
    During the remainder of fiscal year 2015 and beyond, the following 
FMIS activities are anticipated:
  --Imaging and digital signatures.--Continue with Senate-wide rollout 
        of imaging and digital signatures for the remaining Member 
        Offices and Committees;
  --Implement two FMIS Releases--
    --FMIS 14.1 (planned for the Summer of 2015).--Modernization of 
            voucher creation and review functions used by Member 
            Offices, Committees, Leadership, the Office of the 
            Secretary of the Senate, SAA, Committee on Rules and 
            Administration, and Disbursing to address user requested 
            changes, enhance supportability and ensure compatibility 
            with modern browsers; and
    --FMIS 14.2 (planned for the Winter of 2015).--Modernization of 
            additional document types, such as requisitions, purchase 
            orders, invoices and receiving reports used by the Office 
            of the Secretary of the Senate and the SAA to address user 
            requested changes, enhance supportability and ensure 
            compatibility with modern browsers;
  --Treasury reporting requirement.--Implement required changes to 
        support Treasury Account Symbol (TAS) and Business Event Type 
        Code (BETC) reporting;
  --Senate Payroll System (SPS).--Continue to work with the SAA 
        technical staff and SPS Contracting Office Technical 
        Representative (COTR) on the implementation of a self-service 
        pilot and upgrade PeopleSoft to version 9.2; and
  --Disaster recovery.--Conduct a multi-day test of FMIS failover and 
        failback.

    We continue to prioritize requirements to extend the life of 
existing FMIS applications and their platforms to allow time to 
implement FMIS modernization in phases.
Update on current status of Legislative Information System (LIS) 
        Project
    The Legislative Information System (LIS) is a mandated system (2 
U.S.C. 6577) that provides desktop access to the content and status of 
legislative information and supporting documents. In addition, pursuant 
to 2 U.S.C. 181, a program was established to provide for the widest 
possible exchange of information among legislative branch agencies. The 
long-range goal of the LIS Project is to provide a ``comprehensive 
Senate Legislative Information System" to capture, store, manage, and 
distribute Senate documents. The project is currently focused on a 
Senate-wide implementation and transition to a standard system for the 
authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies.
    Extensible Markup Language (XML) has been accepted as the primary 
data standard to be used for the exchange of legislative documents and 
information. Following the implementation of the LIS, the LIS Project 
Office shifted its focus to the data standards program and established 
the LIS Augmentation Project (LISAP). The overarching goal of the LISAP 
is to provide a Senate-wide implementation and transition to XML for 
the authoring and exchange of legislative documents.
    The LIS Project Office continued to provide support to the Office 
of the Senate Legislative Counsel (SLC); the Committee on 
Appropriations; the Committee on Commerce, Science, and Transportation; 
and the Senate Enrolling Clerk in their use of the XML authoring 
application, Legislative Editing in XML Application (LEXA) for 
drafting, engrossing, and enrolling. With the addition of the Commerce 
Committee drafters, all Senate measures in the 113th Congress were 
produced in XML. In addition, the Government Publishing Office (GPO) 
uses LEXA to complete measures for printing. Several new features and 
fixes were added in LEXA releases to improve the drafting process.
    The LIS Project Office has been working with staff from GPO and the 
Legislative Computer Systems (LCS) in the Office of the House Clerk to 
create and print committee reports in XML. This office released a LEXA 
committee report application to the Commerce Committee in 2013, and the 
committee drafters were able to create several sections of their 
committee reports using the LEXA application. In 2014, additional LEXA 
enhancements allowed the committee drafters to create almost all 
committee report sections in XML by using direct input, copy/paste from 
Word documents, and copy/paste from Lexis/Nexis. The office will next 
work with the editorial and printing staff of the Committee on 
Appropriations to begin creating committee reports in XML.
    Other enhancements to LEXA in the past year included new features 
for drafting amendments, improvements in drafting and printing for the 
Appropriations Committee, and new templates for the Enrolling Clerk.
    Two other group projects with GPO and LCS include participants from 
the Law Revision Counsel and the Senate and House Legislative Counsels. 
The first project with the Law Revision Counsel will result in 
applications to convert and maintain the U.S. Code in an XML format. 
The second project with the Legislative Counsels continues work toward 
the editing and printing of the compilations of existing law in their 
XML format. As of early December 2014, all compilations are now edited 
and maintained in XML. Printing of XML compilations continues to 
improve.
    The LIS Project Office is also monitoring and participating in 
GPO's project to replace Microcomp with a new composition system that 
can directly ingest XML data without having to convert it to another 
format before printing.
    The LIS Project Office will continue to support all Senate offices 
using LEXA and will continue to work with the House, GPO, and the 
Library of Congress on projects and issues that impact the legislative 
process and data standards for exchange. The office will continue to 
produce enhancements to LEXA and to seek out new technologies to 
improve the production of legislative documents.

                          LEGISLATIVE SERVICES

    The Legislative operations of the Office of the Secretary of the 
Senate provide support essential to Senators in carrying out their 
daily Chamber activities as well as the constitutional responsibilities 
of the Senate. Legislative Services consists of the following 
departments: Bill Clerk, Captioning Services, Daily Digest, Enrolling 
Clerk, Executive Clerk, Journal Clerk, Legislative Clerk, Official 
Reporters of Debates and Parliamentarian. The average length of Senate 
service among the Secretary's Legislative Department heads is more than 
20 years.
    The Secretary's Office maintains an exceptionally good working 
relationship with the Government Publishing Office (GPO) and seeks to 
provide the best service possible to meet the needs of the Senate. GPO 
continues to respond in a timely manner to the Secretary's request, 
through the Legislative staff, for the printing of bills and reports, 
including the expedited printing of priority matters for the Senate 
Chamber.
                               bill clerk
    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's Office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices via the Legislative Information System 
(LIS) and the Amendment Tracking System (ATS). The Bill Clerk records 
actions of the Senate with regard to bills, resolutions, reports, 
amendments, cosponsors, public law numbers, and recorded votes. The 
Bill Clerk is responsible for preparing for print all measures 
introduced, received, submitted, and reported in the Senate. The Bill 
Clerk also assigns numbers to all Senate bills and resolutions. All the 
information received in this office comes directly from the Senate 
floor in written form within moments of the action involved, so the 
Bill Clerk's Office is generally regarded as the most timely and most 
accurate source of legislative information.
                          captioning services
    The Office of Captioning Services provides real-time captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate Floor proceedings to Senate 
offices on Webster.
    Captioning Services strives to provide the highest quality closed 
captions and is comprised of seasoned and respected captioners. The 
overall accuracy average rate for the Office is above 99 percent, the 
21st year in a row the Office has achieved that level. Overall caption 
quality is monitored through daily translation data reports, monitoring 
of captions in real-time, and review of caption files on Webster. In an 
effort to decrease paper consumption and printing costs, accuracy 
reviews and reports were primarily completed in electronic form.
    The real-time searchable Closed Caption Log, available to Senate 
offices on Webster, continues to be an invaluable tool for the entire 
Senate community. Legislative Floor staff, Cloakroom staff, and member 
offices in particular continue to depend upon its availability, 
reliability, and contents to help them in the performance of their 
everyday duties. In conjunction with the Senate Recording Studio, a 
complete overhaul of the Caption Log was designed in 2012-2013. Roll-
out of this new digital version occurred in 2014 and is available 
through the Senate Recording Studio VideoVault Browser. In addition, 
Captioning Services purchased new hardware, which increased the 
efficiency of the office.
                              daily digest
    The Office of the Daily Digest is responsible for publication of a 
brief, concise and easy-to-read accounting of all official actions 
taken by the Senate in the Congressional Record section known as the 
Daily Digest. The Office compiles an accounting of all meetings of 
Senate committees, subcommittees, joint committees and committees of 
conference.
    The Office enters all Senate and Joint committee scheduling data 
into the Senate's Web-based scheduling application system. Committee 
scheduling information is also prepared for publication in the Daily 
Digest in three formats: Day-Ahead Schedule; Congressional Program for 
the Week Ahead; and the extended schedule which actually appears in the 
Extensions of Remarks section of the Congressional Record. The office 
also enters all official actions taken by Senate committees on 
legislation, nominations, and treaties into LIS.
    The Office publishes a listing of all legislation which has become 
public law, as well as a ``Resume of Congressional Activity'' which 
includes all Congressional statistical information, including days and 
time in session; measures introduced, reported and passed; and roll 
call votes. The ``Resume'' is published on the first legislative day of 
each month in the Daily Digest.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Daily Digest and 
are published in the Congressional Record, on the Digest's Web site on 
Senate.gov, and in LIS. Meeting outcomes are also published by the 
Daily Digest in the Congressional Record each day and continuously 
updated on the Web site.
    The Office of the Daily Digest publishes a ``20-Year Comparison of 
Senate Legislative Activity'' which can be found at: http://
www.senate.gov/reference/resources/pdf/yearlycomparison.pdf.
                            enrolling clerk
    The Office of the Enrolling Clerk prepares, proofreads, corrects, 
inputs amendments and prints all legislation passed by the Senate prior 
to its transmittal to the House of Representatives, the National 
Archives, the White House, the United States Claims Court, and the 
Secretary of State. Electronic files of all measures engrossed and 
enrolled in the Senate are transmitted daily by the enrolling clerks to 
GPO for overnight distribution and public Web access.
    The Enrolling Clerk's Office keeps the original official copies of 
bills, resolutions, and appointments from the Senate Floor through the 
end of each Congress.
                            executive clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepares the daily Executive Calendar as well as 
all nomination and treaty resolutions for transmittal to the President. 
Additionally, the Executive Clerk's Office processes all executive 
communications, presidential messages, and petitions and memorials.
    The online historical archive of Senate Executive Calendars was 
completed, with all available issues from 1943 to the present now 
digitized and made publicly available on Senate.gov through the 
collaborative efforts of the Executive Clerk, the Library, the Office 
of Web Technology, and the LIS Project Office.
    A nightly report of executive nominations was developed and 
automated by Web Technology in conjunction with staff from member 
offices and the SAA. This included mapping individual nominations with 
their assigned calendar numbers. Previously, this information was 
unavailable in a machine readable format. The new report provides a 
user friendly and machine readable version in Extensible Markup 
Language (XML) that is updated nightly.
                             journal clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, Section V of the 
Constitution. The content of the Senate Journal is governed by Senate 
rule IV, and is approved by the Senate on a daily basis. The Senate 
Journal is published each calendar year.
    The Journal staff take 90-minute turns at the rostrum in the Senate 
Chamber, noting the following by hand for inclusion in the Minute Book: 
(i) all orders entered into by the Senate through unanimous consent 
agreements, (ii) legislative messages received from the President of 
the United States, (iii) messages from the House of Representatives, 
(iv) legislative actions as taken by the Senate including motions made 
by Senators, points of order raised, and roll call votes taken, (v) 
amendments submitted and proposed for consideration, (vi) bills and 
joint resolutions introduced, and (vii) concurrent and Senate 
resolutions as submitted. These notes of the proceedings are then 
compiled in electronic form for eventual publication of the Senate 
Journal. Compilation is efficiently accomplished through utilization of 
the LIS Senate Journal Authoring System. The Journal Clerk completed 
the production of the 2013 volume of the Senate Journal in 2014. It is 
anticipated that work on the 2014 volume will conclude by August 2015.
                           legislative clerk
    The Legislative Clerk sits at the Secretary's desk in the Senate 
Chamber and reads aloud bills, amendments, the Senate Journal, 
presidential messages, and other such materials when so directed by the 
presiding officer of the Senate. The Legislative Clerk calls the roll 
of members to establish the presence of a quorum and to record and 
tally all yea and nay votes. The office staff prepares the Senate 
Calendar of Business, published each day that the Senate is in session, 
and prepares additional publications relating to Senate class 
membership and committee and subcommittee assignments. The Legislative 
Clerk maintains the official copy of all measures pending before the 
Senate and must incorporate into those measures any amendments that are 
agreed to. This office retains custody of official messages received 
from the House of Representatives and conference reports awaiting 
action by the Senate. The office staff is responsible for verifying the 
accuracy of information entered into LIS by the various offices of the 
Secretary.
    During the second session, the Legislative Clerk requested GPO to 
make available online Senate publications produced by the legislative 
staff. The publications include the Committee and Subcommittee 
Assignments of Senators and the Class List prepared and printed by the 
Legislative Clerk and the Senate Journal prepared and printed by the 
Journal Clerk. These publications are also now available on Webster.
                     official reporters of debates
    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
Floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief and oversees the production 
of the Senate portion of the Congressional Record to ensure its 
accuracy and consistency to Senate parliamentary rules and procedures.
    When the Senate is in session, the electronic and paper transcripts 
of the Floor proceedings of the Senate begin to go to GPO in the early 
evening, and the last delivery occurs approximately 3 hours after the 
Senate adjourns or recesses for the day. The Congressional Record is 
published in paperback form and online, and is available to the public 
on the next business day.
    In 2014, the Office purchased new software for the official 
reporters and expert transcribers and new steno writers for the 
reporters in the Office, which has increased the Office's efficiency in 
the production of the Congressional Record.
    The Morning Business Editor sits in the Chamber, recording daily 
Floor activity of the Senate for the Official Reporters of Debates. The 
work includes compiling all materials printed in the Morning Business 
section of the Congressional Record.
                            parliamentarian
    The Office of the Parliamentarian continues to perform its 
essential institutional responsibilities to act as a neutral arbiter 
among all parties with an interest in the legislative process. These 
responsibilities include advising the Chair and Senators and their 
staff, as well as committee staff, House members and their staffs, 
administration officials, the media, and members of the general public, 
on all matters requiring an interpretation of the Standing Rules of the 
Senate, the precedents of the Senate, and unanimous consent agreements, 
as well as provisions of public law affecting the proceedings of the 
Senate.
    The parliamentarians work in close cooperation with the Senate 
leadership and their Floor staffs in coordinating all of the business 
on the Senate Floor. A parliamentarian is always present on the Senate 
Floor when the Senate is in session, ready to assist the Presiding 
Officer in their official duties, as well as to assist any other 
Senator on procedural matters. The parliamentarians work closely with 
the staff of the Vice President of the United States and the Vice 
President when performing duties as President of the Senate.
    The parliamentarians monitor all proceedings on the Floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the Floor, and advise all Senators as to what is 
appropriate in debate. The parliamentarians keep track of time on the 
Senate Floor when time is limited or controlled under the provisions of 
time agreements, statutes, or standing orders. The parliamentarians 
keep track of amendments offered to the legislation pending on the 
Senate Floor, assess them for germaneness and other possible points of 
order, and review countless other amendments that are never offered in 
the same regard.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees all legislation introduced in the Senate 
and all legislation received from the House, as well as all 
communications received from the executive branch, State and local 
governments, and private citizens. In order to perform this 
responsibility, the parliamentarians do extensive legal and legislative 
research. The office worked extensively with Senators and their staffs 
to advise them of the jurisdictional consequences of countless drafts 
of legislation, and evaluated the jurisdictional effect of proposed 
modifications in drafting.
    Following the Senate elections in 2014, the Parliamentarian's 
Office was heavily involved in the review of certificates of election 
and appointment for Senators in the class of 2015.
    In December of 2014, the parliamentarians debuted the Electronic 
Senate Precedents database, which can be found on Webster. This system 
currently contains approximately 275 precedents from 7 of the most 
frequently used chapters of Riddick's Senate Procedure. Those chapters 
are: Amendments Between the Houses, Appropriations, Cloture, 
Conferences and Conference Reports, Recommit, Reconsideration and 
Suspension. The precedents on the database augment and update the 
material found in Riddick's, which was published 23 years ago. The 
existing chapters will be added to from time to time to keep the 
material current, and new chapters will be added as updates are 
completed by the parliamentarians. This new Web site is the result of a 
great deal of research, writing, and editing on the part of the 
Parliamentarian's Office in conjunction with Office of Web Technology.

                          FINANCIAL OPERATIONS

                           disbursing office
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information, and advice to the offices, members, and employees of the 
Senate. The Disbursing Office manages the collection of information 
from distributed accounting locations within the Senate to formulate 
and consolidate the agency level budget, disburse the payroll, pay the 
Senate's bills, and provide appropriate counseling and advice. The 
Disbursing Office collects information from members and employees that 
is necessary to maintain and administer the retirement, health 
insurance, life insurance, and other central human resource programs, 
and provides responsive, personal attention to members and employees on 
an unbiased and confidential basis. The Disbursing Office also manages 
the distribution of central financial and human resource information to 
the individual member offices, committees, administrative offices, and 
leadership offices in the Senate while maintaining the confidentiality 
of information for members and Senate employees.
    This past year the Disbursing Office continued to work on several 
projects that required a significant level of staff resources and 
presented challenges. Among these projects were: (1) the testing of 
system changes to the Senate Payroll System (SPS) due to the 
implementation of the Affordable Care Act (ACA), the fixes to the final 
pay period of 2013, and a retroactive COLA payment adjustment, (2) 
moving the printing of the payroll checks in-house and (3) visiting 
several Federal agencies to develop the Senate's FMIS modernization 
project. In addition, Disbursing implemented the legislative change of 
extending health benefits coverage to certain temporary excluded 
employees and we continue to work with Sergeant at Arms (SAA) staff on 
the implementation of a self-service pilot and the planning of an 
upgrade.
    In addition, the Disbursing Office is responsible for the 
compilation of the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations and for the 
formulation, presentation, and execution of the budget for the Senate. 
On a semiannual basis, this group is also responsible for the 
compilation, validation, and completion of the Report of the Secretary 
of the Senate. The Report continues to be issued electronically, 
concurrent with the printed version.

                ADMINISTRATIVE AND EXECUTIVE OPERATIONS

                  senate chief counsel for employment
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act, which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), as amended, Senate 
offices became subject to the requirements, responsibilities and 
obligations of 12 employment laws. The CAA also established the Office 
of Compliance (OOC). Among other things, the OOC accepts and processes 
legislative employees' complaints that their employer has violated the 
CAA.
    The SCCE is charged with the legal defense of Senate offices in all 
employment law cases at both the administrative and court levels. The 
SCCE attorneys also provide legal advice to Senate offices about their 
obligations under employment laws. Accordingly, each of the clients of 
the Senate is an individual client of the SCCE, and each office 
maintains an attorney-client relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories: litigation (defending Senate offices in courts 
and at administrative hearings); mediations to resolve potential 
lawsuits; court-ordered alternative dispute resolutions; Occupational 
Safety and Health Act compliance; union drives, negotiations, and 
unfair labor practice charges; Americans with Disabilities Act 
compliance; layoffs and office closings in compliance with the law; 
management training regarding legal responsibilities and employee 
rights; employee and intern training regarding prohibited harassment, 
including sexual harassment; and preventative legal advice.
                     conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory and other authority. Initiatives include 
deacidification of paper and prints, phased conservation for books and 
documents, replacement of Congressional Serial Set maps (the Serial Set 
contains all House and Senate documents and reports), collection 
surveys, exhibits, and matting and framing for Senate leadership.
    The Office of Conservation and Preservation continues to 
participate in book repair training sessions and has made significant 
progress in the preservation of the Library's bound book collection. 
The training program preserves the bound materials in the Library's 
collections and reduces the need for the Library to contract support 
for bookbinding and repair.
                                curator
    The Office of the Senate Curator, on behalf of the Senate 
Commission on Art, develops and implements the museum and preservation 
programs for the Senate.The Curator collects, preserves, and interprets 
the Senate's fine and decorative arts, historic objects, and specific 
architectural features; and the Curator exercises supervisory 
responsibility for the historic chambers in the Capitol under the 
jurisdiction of the Commission.Through exhibitions, publications, and 
other programs, the Curator educates the public about the Senate and 
its collections.
    In keeping with scheduled procedures, all Senate collection objects 
were inventoried in 2014, noting any changes in location in the 
database. As directed by S. Res. 178 (108th Congress, 1st session), the 
Curator submitted a list of the art and historic furnishings in the 
Senate to the Senate Committee on Rules and Administration. The list, 
known as the Historic Furnishings Inventory, documents the history of 
acquisition, use, and manufacture for each object. Items on the 
inventory list are prohibited from removal or purchase. The inventory, 
which is submitted every 6 months, is compiled by the Curator with 
assistance from the Senate Sergeant at Arms (SAA) and the Architect of 
the Capitol's (AOC) Superintendent of Senate Office Buildings.
    The office continues to advance the preservation and documentation 
of the historic Russell Senate Office Building furnishings by 
conducting a yearly inspection of the use and location of the remaining 
63 flat-top partner desks, and through educational initiatives aimed at 
informing Senate staff about the history of the furnishings.
    The Curator continued to maintain and interpret the Old Senate and 
Old Supreme Court Chambers and coordinated use of both rooms for 
special occasions.The Curator is presently developing a plan for 
repairs and restoration in the Old Supreme Court Chamber and is 
conducting extensive primary source research into the original 
construction, configuration, and decoration of the room.
    Sixty objects were accessioned into the Senate Collection this 
year. A number of the items catalogued include objects used by the 
Senate in the course of conducting its legislative business, such as a 
pen set used by the Presiding Officer in the Senate Chamber. The most 
significant addition to the collection this year was the gift of an oil 
sketch executed by Constantino Brumidi. The oil sketch was created in 
ca. 1872 in preparation for a mural in the Senate Reception Room's 
south wall lunette. It depicts President George Washington with cabinet 
members Thomas Jefferson and Alexander Hamilton.
    In 2014, the Curator published To Make Beautiful the Capitol: 
Rediscovering the Art of Constantino Brumidi. The publication features 
scholarship made possible by fresh examination of Brumidi's restored 
murals and by a closer study of preliminary sketches recently added to 
the Senate collection.
    The Curator installed a new exhibit outside the Dirksen SDG-50 
Hearing Room, in conjunction with the Senate Library and Senate 
Historical Office. The exhibit, which highlights the Senate's role in 
the Civil Rights Act of 1964, was installed in showcases built into the 
walls of the room's vestibule.
    The Curator's Office reduced costs this year by having staff pack 
items for shipping, when possible, instead of hiring professional art 
handlers. This included paintings and small sculptures on loan and 
retrofitting crates for reuse. The office was also able to consolidate 
several shipments with professional art handlers, for more economical 
shipping/transportation rates and lowered the overall transportation 
and fuel costs billed to the Office of Senate Curator.
                         education and training
    The Joint Office of Education and Training provides development and 
training for Senate members, committees and staff in Washington, DC, 
and the State offices via video teleconferencing and Webinars. The 
office provides training in areas such as management and leadership 
development, human resources management, legislative and staff 
information, new staff and intern orientation, and health promotion. 
The office also provides much of the training for approved software and 
equipment used at the Senate. Technical offerings include System 
Administration, MS Office Suite, Photoshop and digital photography, and 
Senate specific applications training.
    The office partners with other training providers, both inside and 
outside of the legislative branch, to ensure Senate staff have the 
skills they need to perform their jobs. In 2014, these partnerships 
included the Library of Congress, Congressional Research Service, 
Senate Library, Government Accountability Office, Capitol.net, the 
Office of Protective Services and Continuity, Senate Historian Office, 
Office of Attending Physician, Employee Assistant Program, Chief 
Counsel on Employment, Office of Congressional Accessibility, SAA Human 
Resources, Senate Disbursing Office, Senate Ethics Committee, and 
others.
    The office also coordinates orientation for the Aides to the 
Senators-elect and new office Administrative Directors training after 
every election. This post-election orientation consists of multiple 
sessions. After swearing-in, there are additional sessions for the 
office management.
    In 2014, two State training conferences were held: the Constituent 
Services Staff Conference and the State Directors Forum.
                               gift shop
    Since its establishment in 1992 (2 U.S.C. 6576), the Gift Shop 
serves Senators and their spouses, staff, constituents, and the many 
visitors to the U.S. Capitol complex. The products available include a 
wide range of fine gift items, collectables, and souvenirs, many 
created exclusively for the Senate.
    In addition to providing products and services from two physical 
locations, the Gift Shop has an online presence on Webster. The Capitol 
kiosk temporarily closed at the end of January 2013 to accommodate 
continued restoration of the Brumidi Corridors. Along with offering 
over-the-counter and walk-in sales, as well as limited intranet 
services, the Gift Shop administrative office provides mail order 
service as well as special order and catalogue sales.
    Consistent with past practice, a transfer of $40,000 to the Senate 
Employees Child Care Center was made based on the annual sales of the 
Congressional Holiday Ornament (see 2 U.S.C. 6576(c)(3)).
    A new shared position, Inventory Control/System Specialist, was 
created to assist with IT matters for both the Stationery Room and the 
Gift Shop. While inventory and accounting are maintained separately by 
the Gift Shop and the Stationery Room, the software architecture is the 
same. This position was instrumental for the smooth and successful 
installation of upgrades to the inventory and accounting software. The 
inventory software is used to transfer merchandise electronically 
between store locations, receive merchandise from vendors on purchase 
orders, and ring up sales on the cash registers. By minimizing the 
outside vendor's involvement in the Gift Shop upgrade, there was a 
savings of $6,000 over the initial estimate to complete the upgrade. 
Expectations are that this position will continue to benefit the Gift 
Shop, in both technical advice and savings, in the coming year.
                           historical office
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The historians keep extensive biographical, 
bibliographical, photographic, and archival information on the nearly 
2,000 former and current senators as well as all vice presidents. The 
staff edits for publication historically significant transcripts and 
minutes of selected Senate committees and party organizations, and 
conducts oral history interviews with former Senators and staff. The 
historians offer special talks and tours to inform senators and Senate 
staff about important historical events, the history of the Capitol, 
and the Senate's institutional development. The photo historian 
maintains a collection of approximately 40,000 still pictures that 
includes photographs and illustrations of Senate committees and nearly 
all former Senators. The office staff also develops and maintains all 
historical material on the Senate Web site and provides educational 
outreach through email and Twitter.
    In commemoration of the 50th anniversary of the passage of the 
Civil Rights Act of 1964, Senate historians developed an extensive 
multimedia online exhibit for Senate.gov, presented specialized talks 
and tours, and authored articles describing the Senate's role in the 
passage of this landmark legislation.
    During 2014, the Senate transferred a multitude of records to the 
National Archives. The Senate Archivist also met with staff in all of 
the closing offices, compiled a closing Senate offices handbook, and 
acted as a liaison between members' offices and their designated 
archived repositories. In addition, the Archivist has evolved to meet 
e-records preservation changes. Principal among them is enhanced 
collaboration with the Senate IT and systems administrator community, 
pro-active archiving of legislative records and building a solid core 
of expertise within the Senate.
    The Advisory Committee on the Records of Congress was established 
in 1990 by Public Law 101-509, and meets semiannually to advise the 
Senate, the House of Representatives, and the Archivist of the United 
States on the management and preservation of the records of Congress. 
By law, the committee is required to report to Congress every 6 years 
on the status of Congress' and members' archival records. The most 
recent report was published December 31, 2012. The next report will be 
December 31, 2018. The Secretary of the Senate will chair the committee 
during the 114th Congress.
                            human resources
    The Office of Human Resources was established in June 1995 by the 
Office of the Secretary as a result of the CAA. The office focuses on 
developing and implementing human resources policies, procedures, and 
programs for the Secretary's employees.
                          information systems
    The Department of Information Systems provides technical hardware 
and software support for the Office of the Secretary. Emphasis is 
placed on creating and transferring legislative records to outside 
departments and agencies, fulfilling Disbursing Office financial 
responsibilities to the member offices, and complying with office-
mandated and statutory obligations.
    The staff interfaces closely with the application and network 
development groups within the SAA, GPO, and outside vendors on 
technical issues and joint projects. The department provides computer-
related support for all local area network servers within the Office of 
the Secretary. Information Systems staff also provides direct 
application support for all software installed workstations, initiate 
and guide new technologies, and implement next generation hardware and 
software solutions.
                      interparliamentary services
    The Office of Interparliamentary Services (IPS) is responsible for 
administrative, financial, and protocol functions for special 
delegations authorized by the Majority and/or Minority Leaders, for all 
interparliamentary conferences in which the Senate participates by 
statute, and for interparliamentary conferences in which the Senate 
participates on an ad hoc basis. The office also provides appropriate 
assistance as requested by other Senate delegations.
    The statutory interparliamentary conferences are: the NATO 
Parliamentary Assembly; the Mexico-United States Interparliamentary 
Group; the Canada-United States Interparliamentary Group; the British-
American Interparliamentary Group; the United States-Russia 
Interparliamentary Group; the United States-China Interparliamentary 
Group; and the United States-Japan Interparliamentary Group.
    On behalf of the Senate Majority and Minority Leaders, the staff 
arranges official receptions for heads of state, heads of government, 
heads of parliaments, and parliamentary delegations. Required records 
of expenditures on behalf of foreign dignitaries under authority of 
Public Law 100-71 are maintained by IPS.
    IPS receives and prepares for printing the quarterly consolidated 
financial reports for foreign travel from all committees in the Senate. 
In addition to preparing the quarterly reports for the Majority Leader 
and the Minority Leader, IPS staff also assists staff members of 
Senators and committees in filling out the required reports.
          legislative information system (lis) project office
Update on current status of Legislative Information System (LIS) 
        Project
    The Legislative Information System (LIS) is a mandated system (2 
U.S.C. 6577) that provides desktop access to the content and status of 
legislative information and supporting documents. In addition, pursuant 
to 2 U.S.C. 181, a program was established to provide for the widest 
possible exchange of information among legislative branch agencies. The 
long-range goal of the LIS Project is to provide a ``comprehensive 
Senate Legislative Information System" to capture, store, manage, and 
distribute Senate documents. The project is currently focused on a 
Senate-wide implementation and transition to a standard system for the 
authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies.
    Extensible Markup Language (XML) has been accepted as the primary 
data standard to be used for the exchange of legislative documents and 
information. Following the implementation of the LIS, the LIS Project 
Office shifted its focus to the data standards program and established 
the LIS Augmentation Project (LISAP). The overarching goal of the LISAP 
is to provide a Senate-wide implementation and transition to XML for 
the authoring and exchange of legislative documents.
    The LIS Project Office continued to provide support to the Office 
of the Senate Legislative Counsel (SLC); the Committee on 
Appropriations; the Committee on Commerce, Science, and Transportation; 
and the Senate Enrolling Clerk in their use of the XML authoring 
application, Legislative Editing in XML Application (LEXA) for 
drafting, engrossing, and enrolling. With the addition of the Commerce 
Committee drafters, all Senate measures in the 113th Congress were 
produced in XML. In addition, the Government Publishing Office (GPO) 
uses LEXA to complete measures for printing. Several new features and 
fixes were added in LEXA releases to improve the drafting process.
    The LIS Project Office has been working with staff from GPO and the 
Legislative Computer Systems (LCS) in the Office of the House Clerk to 
create and print committee reports in XML. This office released a LEXA 
committee report application to the Commerce Committee in 2013, and the 
committee drafters were able to create several sections of their 
committee reports using the LEXA application. In 2014, additional LEXA 
enhancements allowed the committee drafters to create almost all 
committee report sections in XML by using direct input, copy/paste from 
Word documents, and copy/paste from Lexis/Nexis. The office will next 
work with the editorial and printing staff of the Committee on 
Appropriations to begin creating committee reports in XML.
    Other enhancements to LEXA in the past year included new features 
for drafting amendments, improvements in drafting and printing for the 
Appropriations Committee, and new templates for the Enrolling Clerk.
    Two other group projects with GPO and LCS include participants from 
the Law Revision Counsel and the Senate and House Legislative Counsels. 
The first project with the Law Revision Counsel will result in 
applications to convert and maintain the U.S. Code in an XML format. 
The second project with the Legislative Counsels continues work toward 
the editing and printing of the compilations of existing law in their 
XML format. As of early December 2014, all compilations are now edited 
and maintained in XML. Printing of XML compilations continues to 
improve.
    The LIS Project Office is also monitoring and participating in 
GPO's project to replace Microcomp with a new composition system that 
can directly ingest XML data without having to convert it to another 
format before printing.
    The LIS Project Office will continue to support all Senate offices 
using LEXA and will continue to work with the House, GPO, and the 
Library of Congress on projects and issues that impact the legislative 
process and data standards for exchange. The office will continue to 
produce enhancements to LEXA and to seek out new technologies to 
improve the production of legislative documents.
                                library
    The Senate Library provides legislative, legal, business, and 
general information services to the Senate. The Library's collection 
encompasses legislative documents that date from the Continental 
Congress in 1774; current and historic executive and judicial branch 
materials; an extensive book collection on American politics and 
history, including biographies; a popular collection of audiobooks; and 
a wide array of online resources. The Library also authors content for 
three Web sites--LIS.gov, Senate.gov, and Webster.
    Senate Information Services (SIS) program service contracts for 
fiscal years 2015 and 2016 were renegotiated with existing program 
vendors to continue services for the Senate community. SIS staff worked 
with the vendor to complete a major enhancement of site features. 
Senate staff may now easily browse and search newspapers.
    The Library continues to meet the Senate's increasing demand for 
information through the creation of new Web-based content, judicious 
selection and investment in online resources, expanded outreach and 
training opportunities, and use of technology to support alternative 
means for information delivery.
                              page school
    The Senate Page School provides students with a sound program, both 
academically and experientially, during their stay in the Nation's 
capital.
    In 2013 the Middle States Commission on Secondary Schools awarded 
accreditation renewal which continues until May 1, 2018. The Page 
School is among schools throughout the world that meet the 
internationally recognized standards of quality.
    Faculty and staff provided extended educational experiences to 
pages, including field trips, guest speakers, opportunities to play 
musical instruments and vocalize, and world languages study. The 
community service project embraced by pages and staff continues. Pages 
collected, assembled, and shipped items for gift packages to military 
personnel serving in various locations and included letters of support 
to the troops.
                     printing and document services
    The Office of Printing and Document Services (OPDS) serves as 
liaison to the GPO for the Senate's official printing, ensuring that 
all Senate printing is in compliance with Title 44, U.S. Code as it 
relates to Senate documents, hearings, committee prints and other 
official publications. The office assists the Senate by coordinating, 
scheduling, delivering and preparing Senate legislation, hearings, 
documents, committee prints and additional publications for printing, 
and provides printed copies of all legislation and public laws to the 
Senate and the public. In addition, the office assigns publication 
numbers to all hearings, committee prints, documents and other 
publications; orders all blank paper, envelopes and letterhead for the 
Senate; and prepares page counts of all Senate hearings in order to 
compensate commercial reporting companies for the preparation of 
hearings.
    During fiscal year 2014, the OPDS prepared 2,471 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record. In addition to processing 
requisitions, the Printing Services Section coordinates proof handling, 
job scheduling and tracking for stationery products, Senate hearings, 
Senate publications and other additional printed products, as well as 
monitoring blank paper and stationery quotas for each Senate office and 
committee. Examples of major printing projects are: the Report of the 
Secretary of the Senate; the 113th Congress Congressional Directory; 
the Authority and Rules of Senate Committees; and the Journal of Senate 
Proceedings, 113th Congress 1st Session.
    During 2014 over 10,000 requests for legislative material were 
received at the walk-in counter, through the mail, by fax, and 
electronically. Online ordering of legislative documents and the 
Legislative Hot List Link, where members and staff can confirm arrival 
of printed copies of the most sought after legislative documents, 
continued to be popular. The site is updated several times daily as new 
documents arrive from GPO to the Document Room. In addition, the office 
handled thousands of phone calls pertaining to the Senate's official 
printing, document requests and legislative questions.
                             public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate that involve the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act (LDA) of 1995, as amended; the Senate Code of 
Official Conduct; Rule 34, Public Financial Disclosure; Rule 35, Senate 
Gift Rule filings; Rule 40, Registration of Mass Mailing; Rule 41, 
Political Fund Designees; and Rule 41(6), Supervisor's Reports on 
Individuals Performing Senate Services; and Foreign Travel Reports. The 
office works closely with the Federal Election Commission (FEC), the 
Senate Select Committee on Ethics, and the Clerk of the House 
concerning the filing requirements of the aforementioned acts and 
Senate rules.
    From October 2013 through September 2014, Public Records staff 
assisted over 10,000 individuals seeking information from or about 
reports filed with the office, responding to walk-in inquiries and 
inquiries by telephone or e-mail. Further, the office provides 
assistance to individuals attempting to comply with the provisions of 
the LDA.
    Implementation of the Stop Trading on Congressional Knowledge Act 
(STOCK Act) continued into fiscal year 2014. The STOCK Act, as amended, 
required the Secretary to collaborate on the development of an 
electronic filing system for member and employee financial disclosure 
reports. Working in coordination with the SAA and the Ethics Committee, 
the Public Records office participated in the planning and development 
of the electronic filing system which was successfully launched on 
January 1, 2014.
    The LDA requires semiannual contribution reports, and quarterly 
financial and lobbying activity reports. To continue implementation of 
the LDA, the Public Records Office conducted two LDA Guidance reviews 
in coordination with the Clerk of the House. As of September 30, 2014, 
there were 4,443 registrants representing 16,163 clients. The total 
number of individual lobbyists disclosed on fiscal year 2014 
registrations and reports was 11,950. The total number of lobbying 
registrations and reports processed was 108,414. The office referred 
949 cases of potential noncompliance to the U.S. Attorney for the 
District of Columbia.
    The Federal Election Campaign Act requires Senate candidates to 
file quarterly and pre- and post-election reports with the Secretary of 
the Senate. Filings for the fiscal year totaled 4,722 documents 
containing 439,745 pages, which were scanned, processed, and 
transmitted to the FEC, as required by law. During the calendar year 
2014, an election year, the office processed 5,921 reports containing 
718,827 pages, an all-time record for total number of pages processed.
    The filing date for Public Financial Disclosure Reports was May 15, 
2014. The reports were made available to the public and press as soon 
as they were filed and processed, and in most cases, the same day. 
Public Records staff provided copies to the Ethics Committee and the 
appropriate State officials.
    Senators are required to file mass mailing reports on a quarterly 
basis. The number of pages submitted during fiscal year 2014 was 582. 
In addition, the Public Records Office received 454 Gift Rule/Travel 
reports during fiscal year 2014.
                            stationery room
    Since it was formally established in 1854, the Senate Stationery 
Room has evolved into a diversified retail outlet serving the needs of 
the Senate community by providing a wide range of office and 
administrative supplies, communication and computer accessories, and 
special order items for official Government business. Additionally, the 
Stationery Room provides U.S. flags flown over the Capitol for 
constituent requests.
    The Stationery Room fulfills its mission by: utilizing open market, 
competitive bid, or General Services Administration schedules for 
supply procurement; maintaining sufficient in-stock quantities of 
select merchandise to best meet the immediate needs of the Senate 
community; developing and maintaining productive business relationships 
with a wide variety of vendors to ensure sufficient breadth and 
availability of merchandise; maintaining expense accounts for all 
authorized customers and preparing monthly activity statements; and 
managing all accounts receivable and accounts payable reimbursement.
    The Stationery Room, with the assistance of the Office of Web 
Technology, maintained an online Web ordering portal through Webster. 
The Web site offers an up-to-date Stationery Room catalog with product 
description, price, and pictures. Customers can place a stock order 
online and request direct delivery to a location of their choice. 
During fiscal year 2014, the Stationery Room received and processed 
more orders than fiscal year 2013. Use of the Web site helps reduce 
order time, increases customer convenience and order accuracy, and 
reduces the use of paper through reduced reliance on hard copy orders. 
Moving forward, the Stationery Room anticipates increased use of this 
Web site as customers discover the benefits of its use.
    Utilizing the Pay.gov service offered by the U.S. Department of the 
Treasury, the Stationery Room has been accepting online flag requests 
and payments from constituents through member Web sites. At the end of 
fiscal year 2014, 43 member offices were offering this payment option 
and most of the new member offices are in the beginning stages of the 
program. The benefits include a reduced wait time for constituents, 
elimination of payment inaccuracies, and greatly reduced workload for 
office representatives. The Stationery Room will continue to expand the 
service.
    The Stationery Room prepares activity statements for approximately 
300 customer accounts on the last business day of each month. One 
upgrade most requested by our customers is for the Stationery Room to 
post the account statements directly to TranSAAct, the online business 
services portal for Senate offices. The inclusion of Stationery in the 
latest TranSAAct release occurred in early fiscal year 2014, enabling 
customers to print statements, current and historical, and research 
transaction details directly from their desktop. The Stationery Room 
expects to save over $500 a year in paper costs and, most importantly, 
reduce paper use by 45,000 individual sheets.
    The Stationery Room will be replacing older, outdated handheld 
scanners with new tablets and scanners to interact more efficiently 
with the SAA upgraded wireless infrastructure. The Stationery will save 
over $5,250 annually by eliminating all paper receipts using the 
signature capture feature on the tablets. The Stationery Room will save 
over $5,250 annually by eliminating all paper receipts using the 
signature capture feature on tablets. When an office inquires about the 
status of their order, the Stationery Room will be able to respond 
immediately by accessing the information from the tablet.
                             web technology
    The Office of Web Technology is responsible for: Senate.gov; the 
Secretary's Page on Webster; and other portions of Webster--available 
to Senate staff, along with the Web-based systems, servers, and 
technologies supporting these Web sites that fall under the purview of 
the Secretary of the Senate.
    Senate.gov content is maintained by over 30 contributors from seven 
departments of the Secretary's Office and three departments of SAA. All 
content is controlled through the Secretary's Web content management 
system, managed by the Office of Web Technology.
    Five oral histories, 30 Senate Stories, and five featured 
biographies authored by the Senate Historical Office were added to 
Senate.gov this year. In addition, a new style for displaying roll call 
votes was deployed on Senate.gov. The new modern display makes scanning 
and in depth reading of votes easier and utilizes Library of Congress 
Handles for linking to legislation.
    In preparation for the start of the 114th Congress, the office 
built individual member pages for the 13 newly sworn Senators. Web 
Technology coordinated with the individual designees to attain 
necessary materials, answer questions, and acquire approval so all 
members had a presence online when sworn in for the 114th Congress. 
Much education was provided to designees for options to replace the 
temporary Web page with more permanent solutions, along with 
facilitating domain redirects to ensure constituents are always able to 
easily find their members' Web sites.
    The eDear Colleague site was launched and built to automatically 
update daily. In conjunction with the Senate Library the newly 
developed system allows for full-text searches of letters and 
attachments that were distributed via email starting in 2012 and some 
legacy documents provided by the Senate Rules Committee starting in 
2011. The site allows for sorting by title, data, Congress, bill 
number, and person through leveraging advanced coding techniques and a 
customizable enterprise search engine. The automated system makes 
previously difficult to find information easily available. The site was 
built using existing resources.
    In 2014 an average of 28,370 visits occurred per day to the central 
site of Senate.gov. The Office responded to approximately 423 emails 
from the general public regarding Senate.gov sites. This is a 66 
percent decrease from the previous year which is due to advances in 
information architecture, search results, and custom error pages to 
help users resolve issue on their own.

             EMERGENCY PREPAREDNESS AND CONTINUITY PLANNING

    Throughout 2014, the Office of the Secretary continued to build 
upon a comprehensive emergency preparedness and continuity program 
initiated in 1997. The program extends from continuity of operations 
(COOP) planning within every department of the Office of the Secretary; 
to coordination with Leadership and the Sergeant at Arms on Senate-wide 
continuity plans; joint planning with the House of Representatives on 
bicameral programs; and inter-branch coordination with the executive 
and judicial branches. The objective of these programs is to provide 
Leadership the tools needed to ensure that the Senate can meet its 
constitutional obligations under any circumstances.
    Within the Office of the Secretary, the primary objective is the 
continuity of the legislative process. The Legislative Staff and 
supporting offices maintain and regularly exercise plans to ensure that 
the Senate can convene and conduct legislative business under any 
conditions in various locations. Departments responsible for the 
execution of statutory obligations, such as the Disbursing Office and 
the Office of Public Records, maintain plans to carry out those 
functions, either locally or elsewhere, depending upon conditions. All 
Departments within the Office of the Secretary maintain individual 
plans to ensure that each Department can carry out its minimum 
essential functions during an emergency, until full operations can be 
restored. All Departmental plans are supported by emergency supply kits 
stored in multiple locations within and outside the District of 
Columbia. Across the Office of the Secretary, monthly drills, annual 
exercises, and flyaway kit updates are conducted in order to ensure 
that plans and supply kits are current, and that staff understand their 
continuity responsibilities. A cross-training program in the 
Legislative Departments ensures that staff with the skills required to 
support Floor operations will be available during an emergency.

    Senator Capito. Mr. Larkin, Sergeant at Arms.

                              U.S. SENATE

                    Sergeant at Arms and Doorkeeper

STATEMENT OF HON. FRANK J. LARKIN, SERGEANT AT ARMS
ACCOMPANIED BY JIM MORHARD, DEPUTY SERGEANT AT ARMS

    Mr. Larkin. Chairman Capito and Ranking Member Schatz, 
thank you for the honor of testifying before you today in this 
subcommittee.
    I have a formal record that I ask be submitted for your 
further review.
    Senator Capito. Without objection, it is submitted. Thank 
you.
    Mr. Larkin. Thank you.
    As the new 40th Sergeant at Arms, 10 weeks on the job, this 
has been an active time since we have come into office. We have 
hosted the State of the Union, a number of congressional off-
sites, joint sessions of Congress, dealt with challenges from 
mother nature and other issues that related to security and 
some of the dynamic threats that challenge this Nation today.
    The transition into the office has been made with very 
little distraction, and I thank my predecessor, Drew Willison, 
and the prior Sergeants at Arms, Terry Gainer, and Bill Pickle 
for a lot of that assistance, along with my Sergeant at Arms 
senior staff seated behind me today. And I particularly point 
out my deputy, Jim Morhard, who is a longtime Hill associate, 
and very much thankful for his presence on the team and the 
knowledge that he brings to the staff, along with the other 
exceptional professionals who are truly dedicated to supporting 
the Senate and the success of what we do in this legislative 
branch.
    Additionally, I would like to thank your professional 
staff. They have also been of great assistance in this 
transition.
    In order to maximize time for your questions, I would just 
like to cover five main points that I have been focusing on as 
the Sergeant at Arms since coming into office.
    The first is the safety and security of this institution. 
And certainly the attention has been to place the appropriate 
security measures in place to be effective against the dynamic 
threats, as I alluded to earlier, that challenge this Nation, 
and we can talk about that a little bit more in detail as we go 
on. This Senate needs to be able to legislate free of 
distraction, and again, that is the charge of the Sergeant at 
Arms Office, along with my partnership with the U.S. Capitol 
Police and the Secretary of the Senate. And again, we will stay 
very much focused on that task.
    The second point I would like to make is regarding our 
cyber health and network defense, again another major effort 
underway within my department to validate that our information 
systems are as strong as they can be, that in fact we are on 
top of our equipment refresh efforts to minimize any failures 
within the system from what we have experienced in the past 
from our operations forward and also to be able to evaluate 
ourselves using both internal resources and external resources 
to evaluate network defense, to truly grade ourselves on our 
ability to protect our information systems.
    The third point of focus is truly customer relations, our 
ability to support the Senate and all the member offices 
effectively with the wide spectrum of components that make up 
the Sergeant at Arms. As you know, the Sergeant at Arms is 
responsible for printing services, mail screening, mail 
delivery, some maintenance aspects for the U.S. Capitol. We 
also handle the support services associated with parking, 
transportation, et cetera. So it is not just the safety and 
security that very much draws the attention of the Sergeant at 
Arms but is a lot of the other working parts, components that 
keep the trains running, so to speak, for the Senate.
    The fourth area is the continuity preparedness. As the 
Secretary of the Senate alluded to, again, a very serious 
responsibility that involves significant planning and effort, 
that in fact if we have to consider relocation and standing up 
the Senate in alternate type scenarios, that we can do that 
seamlessly and effectively, minimizing any time shortage.
    And the final area that, again, is of particular focus is 
in the partnerships and relationships. As we have talked, it is 
critical that within the Senate here that not only the 
Secretary of the Senate and U.S. Capitol--that we have a 
seamless and truly transparent relationship with each other 
just because of the way the different issues crosswalk into our 
areas of responsibility, but also that effort needs to 
transcend over to the House Sergeant at Arms, the 
Administrative Officer in the House and the Clerk--especially 
for the joint programs where we are looking to gain 
efficiencies and increase the level of communications with the 
other side. It is very important that we have those 
relationships and that they are as tight as possible.
    Externally it is the relationships with our law enforcement 
partners, the intelligence community, our defense assets and 
other agencies that come into play especially as we talk about 
continuity operations.
    As the Sergeant at Arms, I very much pay attention to how 
my various components can increase our efficiency and 
effectiveness with the appropriate funding and that I provide a 
level of accountability to you that, again, reaches your 
expectations and, finally, to be able to justify that with 
measurable results, again, that demonstrate that the 
appropriations that you have afforded us in fact are being 
applied properly and are having the effect that successfully 
supports the Senate.
    And with that, Madam Chairman, I yield my time.
    [The statement follows:]
               Prepared Statement of Hon. Frank J. Larkin
                              introduction
    Madam Chairwoman, Ranking Member Schatz, and members of the 
subcommittee, thank you for allowing me to testify today. I am pleased 
to report on the progress the Office of the Senate Sergeant at Arms 
(SAA) and our plans to enhance our service to the Senate.
    For fiscal year 2016, the Sergeant at Arms respectfully requests a 
total budget of $205,974,000. This request represents a 4.4 percent 
increase from the current enacted budget, but is nearly identical to 
our budget level from fiscal year 2008. Today, our organization has 
approximately 70 fewer employees than we did in 2010.
    As someone new to the Sergeant at Arms organization, I am both 
fortunate and grateful to have the support of an outstanding senior 
management team. It includes my Deputy, Jim Morhard; Chief of Staff, 
Mike Stenger; Assistant Sergeants at Arms Dick Attridge (Intelligence 
and Protective Services), Vicki Sinnett (Chief Information Officer), 
Bret Swanson (Operations), and Kevin Morison (Capitol Operations); 
General Counsel Terence Liley; Legislative Liaison Mason Wiggins; 
Democratic Liaison Scott Rodman; and Chief Financial Officer Chris Dey. 
The many goals and accomplishments set forth in this testimony would 
not have been possible without this team's leadership and commitment, 
as well as the dedication of the women and men who work for the Senate 
Sergeant at Arms office.
                   protective services and continuity
Emergency Preparedness
    Our emergency plans and procedures are designed to ensure the life 
safety of Senators, staff, and visitors within our facilities by 
equipping them with the necessary tools to respond to emergency 
situations. Our plans are also designed to ensure the Senate can 
continue its essential functions following an emergency event.
    Over the past year, our office worked with Senate offices to update 
188 Emergency Action Plans using guidelines set forth by the 
Occupational Safety and Health Administration as part of the 
Congressional Accountability Act. As part of this process, we look at 
the lessons learned from exercises and real world events to improve 
life-safety procedures for the Senate community.
    We conduct a robust training program to ensure the Senate community 
is prepared to respond to a variety of emergency events both at work 
and at home. Over 4,000 staff members were trained during 180 classes 
covering a variety of emergency preparedness topics. The ``Responding 
to an Active Shooter'' class continues to be one of our most popular. 
The course is taught in conjunction with the United States Capitol 
Police (USCP) and is invaluable for educating staff on what to expect 
from law enforcement throughout an active shooter event.
    We also work with USCP to execute annual evacuation, shelter in 
place, and internal relocation drills to ensure staff understand the 
correct life-safety responses to emergency events that may occur on 
Capitol Hill. We supported 26 evacuation drills that included Senate 
office buildings, the Postal Square building, Senate Page School, and 
Employee Child Care Center. We upgraded our accountability tools this 
year and provided assistance in gathering accountability information 
from offices, which is ultimately shared with USCP to track potentially 
missing staff.
    To ensure staff have the necessary equipment to respond to 
emergency situations, we supply offices with victim rescue units, 
supply kits, and annunciators. We have inventoried over 270 offices and 
27,000 pieces of emergency equipment to ensure operability and expired 
items are replaced.
    To improve our alert messaging capability, we initiated a project 
with USCP, the House of Representatives, Architect of the Capitol 
(AOC), and Library of Congress to acquire a joint emergency mass 
notification system. This project aims to reduce the number of alert 
notification systems needed to transmit critical life-safety messages 
to the Senate and Capitol complex, and eliminate outdated systems that 
are difficult to use. The goal is to reduce the time it takes to 
broadcast messages over numerous platforms, providing Senators, staff, 
and visitors with additional time to respond to emergency situations.
    We assist member offices and committees in writing their Continuity 
of Operations (COOP) plans, which are critical to the Senate's ability 
to perform its essential functions. The SAA office continues to ensure 
existing continuity plans and capabilities are regularly maintained, 
updated, and exercised. In 2014, a contingency facilities multi-day 
exercise was conducted involving four separate facilities and over 300 
participants. This was the largest exercise to date and validated plans 
that call for the capability to quickly set up and operate contingency 
facilities in support of the Senate's constitutional obligations.
    Communication among Senate staff responsible for executing plans 
during and following emergencies is critical to ensuring a successful 
outcome. Staff who have responsibilities during special events and 
emergencies were issued USCP digital radios with dedicated talk groups 
allowing for rapid communications independent of the cellular network. 
The radios were successfully utilized during numerous exercises, 
providing a valuable command and control tool.
Contingency Programs
    Sergeant at Arms staff collaborated with the Joint Continuity 
Office to further develop and refine contingency transportation and 
relocation site plans in 2014. Staff detailed to the Joint Continuity 
Office supported the planning process from developing policy guidance 
to coordinating directives from Senate leadership and finalizing Joint 
Congressional Continuity Plans. We are continually refining leadership 
evacuation sites, transportation operations, and embarkation point 
plans. These Continuity of Government (COG) plans are then coordinated 
with our congressional planning partners and supporting agencies, and 
all are continuously validated and exercised. A major accomplishment in 
2014 was the development and finalization of joint House and Senate 
space allocation breakdowns.
    To support our COG mission, we continued to refine the Senate 
Emergency Relocation Group (ERG), addressing the Senate's unique 
staffing requirements during contingency operations. Skilled SAA staff 
have been identified and trained to support Senate continuity 
operations during an emergency event requiring relocation. This program 
provides information, training, supplies, and support to 70 SAA staff 
members who will deploy during a contingency event. A functional 
exercise utilizing ERG support was conducted in 2014 and will be 
repeated this year.
    During 2014, we conducted several joint exercises with the 
Secretary of the Senate, USCP, Architect of the Capitol, Office of 
Attending Physician, party secretaries, and other congressional 
stakeholders. We completed over 20 exercises, tabletops, tests, and 
guided discussions in 2014 covering all aspects of emergency response 
including emergency operations centers, transportation, contingency 
staffing, evacuation, shelter in place, and Chamber media operations. 
This past year, we conducted the first ever functional exercise of our 
leadership evacuation plan and validated our ability to notify, 
transport, and safely relocate leadership should the need arise.
Security Planning and Police Operations
    The Security Planning and Police Operations (SPPO) program 
coordinates security and law enforcement support for the Senate 
community. The Senate community includes Senate committees, offices 
(including Senate State offices), and support offices on Capitol Hill. 
Provided support includes coordinating Senate campus access, working 
with the Committee on Rules and Administration to identify and publish 
Senate office building door and barricade openings, conducting office 
security sweeps, and installing proximity card readers and duress 
buttons. In 2014, SPPO received and processed 214 committee security 
assistance requests. They also processed 982 special requests for 
vehicle clearances, deliveries, and bus access to Capitol Hill.
    The SPPO program provides staffing for the USCP Command Center 
support program, which ensures SAA representation during all hours the 
Senate is in session, and during normal business hours during recesses. 
This ensures immediate communication among the USCP, SAA, and Senate 
community during special events, emergency incidents, and routine 
operations.
    The SPPO staff collaborated and provided support to the USCP and 
external law enforcement agencies during several special events in 
2014, including the State of the Union address, multiple Joint Sessions 
of Congress, and the U.S. Capitol summer concert series.
    The SPPO also includes the SAA's State Office Readiness program, 
which provides security and preparedness resources to State offices 
mirroring programs currently available to Capitol Hill Senate offices. 
Participating offices receive a variety of security enhancements at no 
cost to the Senate office. The program also assists State offices with 
completing an Emergency Action Plan to identify unique security and 
emergency preparedness procedures and provides emergency life safety 
equipment to State offices.
                         information technology
Senate IT Network Security and Response
    The Senate is considered a prime target for cyber security 
breaches. Operational IT security activities appear to support this 
assertion. In the first few weeks of 2015, the Senate has received an 
average of 173,000 e-mail messages per day. Of these daily totals, an 
average of 24,000 messages, or 14 percent, are being immediately 
flagged as spam or malicious.
    Many of our efforts to secure the Senate IT infrastructure are 
proactive. The Senate Secure Web Gateway prevents an average of 72,000 
connections to 1,200 different potentially malicious Web sites each 
week. The vast majority of the Secure Web Gateway prevention activity 
occurs in the background, transparent to Senate staff, so that their 
computers are automatically protected from common attacks without 
requiring them to take any direct action.
    IT Security staff continually evaluate our stewardship of Senate 
network protection responsibility based on the three-legged table of 
security, functionality, and taxpayer value. Near-term initiatives will 
allow the SAA to apply even more advanced technologies to mitigate 
cyber threats, which will reduce the Senate's overall IT cost of 
operation. Investment in new IT security technologies will further 
strengthen our malware intrusion prevention capabilities. This will 
leverage commercially available systems that have proven effective in 
many other organizations at reducing systemic IT operational risk. We 
have also begun developing the Senate's first comprehensive 
cybersecurity strategy. This 5-year strategy will cover key strategic 
focus areas and include identified critical elements of each area. This 
strategy will drive our tactical and operational IT security planning.
    In 2014, we proved the Senate mobile communication vehicles (ATLAS) 
were able to successfully support an Alternate Chamber at an offsite 
location. This allows the Senate to continue operations at a location 
where a connection to the Senate network is nonexistent.
Network Operations
    In 2014, the Network Operations Center received and serviced 2,278 
Service Center ``incident'' tickets, and processed almost 1,200 change 
requests and more than 900 LAN drop requests. From a security 
perspective, as part of the authentication process, wireless clients 
will undergo an assessment of their laptops that will verify their 
devices are compliant with up-to-date virus software and definitions, 
and operating system updates. Laptops will not be allowed onto the 
wireless LAN until they have met these criteria, further enhancing the 
overall security of the Senate network. Full implementation of 
Discovery will be complete in the next few months.
    A multi-year project that has progressed in 2014 is the use of 
broadband Internet service to support Senate State office locations. 
Using broadband Internet service significantly increases the amount of 
bandwidth at each of the 460-plus locations, increasing the performance 
at each site for both intranet and Internet services. The increased 
bandwidth also affords the ability to support emerging technologies 
such as increased video conferencing capabilities between DC and a 
State office.
Replacing Switches
    In January 2015, the Senate experienced a significant network 
outage that impacted e-mail, mobility services, the virtual 
infrastructure, senate.gov Web sites, and most Enterprise applications. 
This was the result of a hardware failure on a major distribution 
switch at the Primary Computing Facility (PCF). The hardware module was 
replaced and the switch was stabilized. A replacement switch and its 
partner at the Alternate Computing Facility (ACF) are now installed at 
both locations, and the network is scheduled to be cutover to the new 
hardware as soon as a remaining implementation issue is resolved. The 
new equipment allows us to improve on the original design, providing 
additional redundancy and eliminating the single point of failure.
Senate Payroll System (SPS)
    We are working in collaboration with the Secretary of the Senate to 
support and enhance the new PeopleSoft Senate Payroll System. This new 
system replaced a 20-year-old mainframe system and provides a state-of-
the-art technological platform that should serve the Senate well over 
the coming years. During the next quarter, we plan to begin a self-
service pilot that will allow individuals online access to view their 
pay advances, W-2s, benefits summaries, and other personal information.
Data Center Management
    We are currently modernizing the management of our two data centers 
with the addition of a centralized software system, new server rack 
smart Power Distribution Units (PDUs), and new environmental sensor 
systems. The software will allow for the bridging of information across 
organizational domains in order to provide a single holistic view of a 
data center's performance so that energy, equipment, and floor space 
are used as efficiently as possible. It will include collecting and 
monitoring of detailed power usage and environmental statistics from 
the new hardware equipment, inventory, capacity planning, workflow, as 
well as dashboards, allowing us to improve efficiency and reduce the 
risk of failures and outages.
Evaluating New Technologies
    One of our core missions is to evaluate new technologies and tools 
based on customer needs and their fit in the Senate environment. This 
includes numerous laptops, desktops, printers, mobile devices, software 
(including security patches and updates), and services.
Office Application Manager
    A new version of the Office Application Manager was released in 
November 2014. The new application has a significantly improved user 
interface and functionality, including direct upload of constituent 
checklist items (eliminating the e-mail intermediary step), ability to 
have an outside individual submit a recommendation on behalf of an 
applicant, and Active Directory authentication. The new functionality 
incorporated in this version of the application makes it the most fully 
featured and secure release to date. Currently, there have been over 
14,000 individual submissions and over 16,000 constituent accounts 
created.
Systems Management Service (SMS)
    Our Systems Management Service remains state-of-the-art by 
completing upgrades to the backend systems that provide for 
distribution of software and security patches to Senate Microsoft 
Windows and Apple Mac computers.
    We are researching the use of a new capability in the main 
application that provides the Systems Management Service software 
patching solution to Senate offices, which can provide automated 
security patches to Apple Macintosh computers as well as Windows-based 
computers. Providing Macintosh patches from this one application will 
potentially allow us to decommission the second separate system for 
Macintosh patching, producing a cost savings.
Microsoft Lync 2013
    Our unified communication capability has been enhanced by 
completing the platform upgrade to Microsoft Lync 2013. Efforts are 
underway to integrate with other legislative branch agencies. More than 
6,000 Senate accounts are enabled for Lync, with over 2,000 users 
logged in on a daily basis for instant messaging and presence. This 
year, we will further extend communication and collaboration 
capabilities of the unified client by integrating with our 
videoconferencing infrastructure and by making a new shared chat 
feature available.
Active Directory--ID System Integration and Photo Display
    A process has been developed to synchronize Active Directory 
accounts with ID System records. This process positions the Active 
Directory to be leveraged for unified identity management and 
authentication services. This means that Senate users are now able to 
manage a single set of credentials for access to a rapidly increasing 
number of resources. With a single password to manage, users are more 
likely to frequently change their password and are less likely to write 
it down or otherwise store credentials insecurely. This also better 
facilitates removal of access to systems as users depart from the 
Senate. By disabling departing users' Active Directory accounts, we 
automatically disable access to all other systems to which the users 
had access. We also used the process to deliver a new optional photo 
display service to publish ID photos in e-mail and IM.
Senate Messaging and Authentication Services (SMAS)
    We commenced activities to complete major upgrades to the Senate 
Messaging and Authentication Services environment. The upgrades to 
Microsoft Active Directory and Exchange will assure the system remains 
secure, stable, and capable of supporting current operating systems and 
applications. Deployment of Exchange Server 2013 will further improve 
the reliability of the e-mail messaging environment, reduce overall 
costs, and increase mailbox capacity.
TranSAAct--Our Platform for Doing Business Online
    Functionality continues to be added to TranSAAct, our platform for 
doing business online, eliminating paper-based manual processes and 
addressing the requirements of offices and the Committee on Rules and 
Administration. Built on an extensible modern database framework, 
TranSAAct allows indefinite expansion as new requirements are 
identified.
    In addition, we worked with the Rules Committee and the SAA parking 
office to simplify the parking request forms, improve features based on 
customer feedback, update business rules, modernize the technology, and 
improve the integration with the parking systems.
    We are currently planning a technology refresh, upgrading 
infrastructure components, migrating the platform to virtual servers, 
simplifying the architecture by eliminating a third party product, and 
migrating user and group management into TranSAAct. That effort will 
lay the groundwork for providing users the ability to create profiles 
to reduce some data entry on request forms and customize communication 
preferences. We also have plans to make the home page more useful by 
presenting consolidated information on open service requests.
Telecommunications
    Our voicemail system has been upgraded to the new software level 
10.1 and we now have 16 redundant servers. This helps support our 
continuity of operations, and we continue to look at making this 
platform more mobile and redundant. With this upgrade, we will be 
offering more voicemail features and better integration with Microsoft 
software, and we now have an Interactive Voice Response (IVR) system 
that we are preparing to assist the Capitol Operators during heavy call 
periods. We will be offering these new features in fiscal year 2016.
    In 2014, we started a multiyear process to upgrade the telephone 
system (CS2100) in Washington, DC. Once this project is completed, we 
will support session initiated protocol (SIP), which is a standard 
unified communication platform allowing us to integrate easily with 
multiple vendors including Cisco, Microsoft, and Polycom. This will 
provide the backbone to voice, video, chat, and conferencing services. 
The upgrade provides more phone features, a higher level of security, 
reduction of costs, and reduction of equipment. It also provides us the 
capability to use SIP for our phones and trunk lines to Verizon. 
Currently, our old trunks to Verizon are costly and we need more of 
them compared to the technology of SIP. In addition, we will be able to 
offer SIP phones to our customers, which allows for more mobility and 
more choices of phone types. We will have this project completed and 
begin offering these new features in fiscal year 2016.
    We have also started our State office upgrade project for 460-plus 
offices, a multiyear project that will modernize the State office 
communications systems and bring more features and security to our 
State offices at a lower cost. These systems are old and costly, and 
maintenance is becoming more difficult. Most offices will be seeing 
some of these benefits in fiscal year 2016.
    We are currently modernizing both of our telecom switch rooms and 
providing more power backup and physical security to both rooms. This 
includes relocation of some equipment to a more secured area; more 
secured access into these areas; cameras, temperature, and water 
monitors; power monitors for safety purposes; and computer monitoring 
of activity in these rooms. This project will be completed in fiscal 
year 2016.
Constituent Correspondence Services
    Over the past decade, Constituent Correspondence Services funding 
remained at the same level up until the last 2 years, when funding was 
reduced. The fund appropriation is no longer keeping up with the 
allotments to member offices and has required a requested increase to 
ensure that the fund has appropriations equal to the prescribed 
allotments. Because of cost savings throughout the CIO organization, 
this increase is achievable while having no impact to the overall SAA 
budget request.
                               operations
Central Operations
    The Senate ID Office issues Smart Cards and standard IDs using two 
different Card Management Systems (CMS). The ID Office is in the 
planning phase of simplifying this process by using one CMS, which can 
issue both types of IDs. In addition, the ID Office is planning to 
implement an Identity Management System (IDMS) in order to better 
manage Senate staff credentials across all systems supported by the 
Sergeant at Arms. A consolidated IDMS will help streamline the creation 
of user accounts and facilitate access throughout the Senate 
Enterprise. During each Congress, the Senate ID Office issues over 
35,000 IDs to Senators, staff, liaison personnel, and designated 
members of the media.
Parking Operations
    Parking Operations is adopting social media as an additional method 
of communication to the Senate community. Disseminating information 
about area and street closures, especially those due to special events 
or emergency situations, continues to be a focus of improvement.
    Monitoring renovations of underground garages scheduled for fiscal 
year 2016 and the projects' impact to Senate parking areas will be a 
primary focus of Parking Operations. The Architect of the Capitol is 
planning renovations of the Russell Legislative Garage and the Thurgood 
Marshall Judiciary Office Building Garage. The Russell Legislative 
Garage renovation will displace our parking permit issuance booth and 
over one hundred spaces under the control of the Committee on Rules and 
Administration. Parking Operations will work closely with the 
Committee's staff and AOC personnel to ensure customer service can be 
maintained and displaced garage permit holders are accommodated in 
other Senate areas. The renovation of the Judiciary Office Building 
Garage will present another set of challenges. Although we will not 
lose any spaces due to the renovation, we will be relocating our permit 
holders to different and unfamiliar spaces throughout the renovation.
Transportation and Fleet Operations
    Transportation and Fleet Operations procures and maintains Senate 
vehicles, provides transportation information to offices, and maintains 
and operates the Senate Daily Shuttle and Parking Shuttle services. The 
SAA fleet includes trucks, vans, buses, SUVs, electric vehicles, 
handicapped-accessible vehicles, and Segways.
Photography Studio
    The Photography Studio provides photography and photo imaging 
services for Senate offices and committees. The studio manages and 
maintains the Photo Browser Application, which provides Senate offices 
a secure location to upload, organize, download, and place orders for 
their photos through a Web interface. All photos in a Senator's 
collection are archived in the Photo Browser system and are accessible 
during their time in office.
Printing, Graphics, and Direct Mail
    The Printing, Graphics, and Direct Mail (PGDM) department provides 
support to the Senate community through graphic design, printing, 
mailing, document preservation, photocopying, logistics and security--
producing over 59 million items during fiscal year 2014. We continue to 
modernize processes and applications to expand our product offerings 
and enhance efficiency to meet the evolving demands of Senate offices.
    As a good steward of fiscal resources, PGDM garnered notable 
savings for the Senate. More than $1.1 million was saved in postage 
costs by pre-sorting and discounting 5.4 million pieces of outgoing 
Senate franked mail. Another $34,000 in postage was saved by using 
software to identify over 69,000 undeliverable addresses before they 
were introduced into the United States Postal Service mail stream. 
Since fiscal year 2000, the Postal Service increased the cost of a 
First Class mail piece from $.33 to $.49, which makes PGDM's mission to 
maximize discounts increasingly important. With the recent acquisition 
of state-of-the-art sorting equipment, PGDM has trained employees to 
perform routine maintenance, which generates an annual savings of 
$43,000 and ensures our equipment continues to run at an optimal level 
of performance.
    For more than a decade, PGDM has been digitizing daily letter mail 
for member offices, making it easier to provide a quicker reply to 
constituents through traditional letters, social media sites, and 
digital e-mail systems. PGDM has kept pace with the latest technology 
by implementing high-speed digital scanners, document file management 
systems, and devices that convert obsolete media to useable files. The 
implementation of PGDM's document management system, OnBase, has 
contributed to member offices gaining efficiency by going paperless and 
providing them the ability to perform searches for specific dates, 
legislative issues, or individual constituent correspondents throughout 
their entire document collection.
    Since the acquisition of our wide-format digital printing systems 
in fiscal year 2009, PGDM has printed 42,000 charts and generated a 
cost savings of approximately $3.8 million compared to having these 
charts done by an outside entity.
    PGDM maintains several high-volume production printers that have a 
combined copy count of more than 7.5 million impressions. Soon, PGDM 
will be acquiring a new high-volume digital press to replace two 
outdated printers. This action will save PGDM $40,000 in annual 
maintenance costs, and will also generate cost saving in consumable 
supplies.
Senate Post Office
    The Senate Post Office's dedicated workforce tests and delivers 
mail and packages to over 180 mail stops within the Capitol complex, 
while providing a messenger service to multiple locations within the 
Washington metropolitan area.
    We recently procured a new mail sorter that was engineered to meet 
our mail screening specifications and replaced an outdated, less 
efficient machine. This sorter has duplex imaging technology to 
facilitate easy lookup of captured images in the event of a mail 
incident or database queries on specific addressees. This will enhance 
the Senate's security by augmenting the investigative capabilities of 
the USCP in response to a threatening mail event. The maintenance 
contract for the new sorter will net a 50 percent reduction compared to 
our current costs.
Capitol Facilities
    Capitol Facilities supports the Senate community by providing a 
clean and professional work environment in the Capitol. Our 
Environmental Services division cleans Capitol spaces, moves Capitol 
furniture, and provides special event setups in the Capitol--including 
10 event spaces in the Capitol Visitor Center. The Capitol Facilities 
Furnishings division provides furniture, carpeting, and window 
treatments to Capitol offices, and framing services for offices and 
committees throughout the Senate.
    Focus continues to be on realizing cost savings while not 
sacrificing service. Salary costs in the department were reduced by 
nearly 12 percent in fiscal year 2014, resulting in savings of 
$443,000. To efficiently meet cyclical customer demands during peak 
event setups and furniture moves, Capitol Facilities supplements the 
full-time workforce with contracted labor. Using the contract workforce 
for addressing ``surge related'' events has allowed us to reduce those 
costs by 45 percent. With a reduced workforce, Capitol Facilities has 
combined job specialties and engaged in cross-training employees to 
ensure that services are maintained at the high level expected. In 
addition, we are planning an upgrade to the Capitol Facilities Online 
Request System (CapFOR) to give more information online to offices so 
that they can identify furniture that more readily meets their needs.
Office Support Services
    The State Office Liaison staff serve as the conduit between Senate 
offices and commercial or Federal landlords, overseeing approximately 
450 State offices. Funding for commercial, Federal, and mobile State 
office rents are primarily driven by the members' desire for suitable 
office space which best meets the growing needs of their local 
constituencies. The State Office Liaison staff negotiated 22 new 
commercial leases, 20 commercial amendments, 3 commercial renewals, and 
4 new Federal office leases last year. Establishing a State office 
includes many activities: coordinating furniture and furnishings, 
negotiating the rate per square footage, and coordinating parking and 
office alterations. We continue to work closely with members' staff to 
ensure they understand the cost implications in relocating an office. 
We are committed to assisting members in negotiating the most 
comprehensive lease agreements that are both cost effective and 
competitive to the commercial market rates.
                           capitol operations
    Ensuring that our customers--both internal and external--can have 
access to the Senate and understand its work remains the focus of the 
SAA's Capitol Operations team. Over the past year, team members 
provided a range of services to Senators and their staffs, visitors to 
the Capitol, members of the news media who cover Congress, and the 
public. Capitol Operations continues to focus on providing timely, 
accurate, and useful information that promotes safety, increases 
transparency, and enhances the experience of those who work in and 
visit the Senate.
Senate Recording Studio
    In a time of instant communication and demands for transparency, 
the Senate Recording Studio helps ensure that the work of the Senate 
remains accessible to the public. During 2014, the Recording Studio 
provided 908 hours of gavel-to-gavel coverage of Senate Floor 
proceedings. For individuals who prefer to view Senate proceedings 
online, the Recording Studio also provides technical support for live-
streaming and archiving on the Senate's Web site, www.senate.gov. Last 
year, this online resource was viewed 1.34 million times by more than 
136,000 unique visitors. Another priority of the Recording Studio is to 
enable Senators working in DC to communicate with their constituents 
back home. During 2014, the Recording Studio produced 787 television 
and 901 radio productions for Senators.
Senate Media Galleries
    For members of the news media, the Senate remains one of the most 
open and accessible institutions of Government. On any given day, 
hundreds of reporters, producers, photographers, videographers, and 
technical support personnel can be found in hearing rooms, hallways, 
and in the Chamber bringing the news of the Senate to people across the 
country and around the world. Ensuring that the news media can conduct 
their business efficiently, safely, and in a manner consistent with 
Senate rules is the responsibility of the staff of the four Senate 
Media Galleries. The unique structure of the Media Galleries, dating 
back to the earliest days of the Senate, requires them to work closely 
and cooperatively with their respective Standing and Executive 
Correspondents' Committees, USCP, and press secretaries and 
communications staff of Senators and Senate committees. Media Gallery 
staff facilitate media credentials and arrangements for the 7,000 
members of the news media who can cover the Senate in a given year.
Daily Press Gallery
    Daily Press Gallery staff support reporters working for 
publications who publish on a daily or more frequent basis. Last year, 
the Daily Press Gallery issued credentials to approximately 1,800 
journalists. As custodians of the largest press complex on Capitol 
Hill, the Gallery staff serve more than 100 reporters who physically 
work in the Press Gallery on a regular basis. Gallery staff also help 
control access to the Press Gallery inside the Senate Chamber and 
ensure Gallery rules are followed.
Periodical Press Gallery
    The Periodical Press Gallery staff support the news media working 
for non-daily periodicals and their online publications. Last year, the 
Periodical Press Gallery approved credentials for more than 1,200 
journalists. Gallery staff remain focused on streamlining 
communications with Gallery members and Senate staff. For example, the 
number of followers on the Gallery's Twitter account (@SenatePPG) grew 
by nearly 40 percent, to 3,600, and staff continue to increase the use 
of Facebook and Instagram as well. These efforts help drive traffic to 
the Gallery's Web site, where information on Floor proceedings, the 
credentialing process, and other areas of interest is consolidated. The 
Gallery's Web site averages approximately 50,000 hits a year.
Press Photographers Gallery
    Press Photographers Gallery staff support photographers 
representing news organizations from across the United States and 
around the world. Last year, the Gallery credentialed approximately 300 
news photographers. Unlike the other three Media Galleries, which have 
counterparts in the House of Representatives, Press Photographers 
Gallery staff support the media at news events and hearings in both 
houses of Congress. During 2014, the Gallery launched a Twitter account 
(@USSenatePhoto) to keep photographers and Senate staff apprised of 
congressional events; the account has grown to more than 600 followers.
Radio and Television Gallery
    The task of ensuring that the broadcast media's needs are met while 
the Senate's rules are followed falls largely to the staff of the Radio 
and Television Gallery. The Gallery issued credentials to approximately 
3,600 television and radio reporters, producers, and technical 
personnel. The Gallery also maintains the studio that Senators use for 
news conferences. Staff continually look to enhance the appearance and 
functionality in the studio. Last year, the Gallery oversaw 
installation of a new background element consisting of a bookshelf and 
Senate seal, and additional renovations to the audio system and camera 
risers are currently under development. Gallery staff also oversee 
upgrades to the technical infrastructure supporting committee hearing 
rooms and other news event locations. To further enhance 
communications, the Radio-TV Gallery initiated a Twitter account 
(@SenateRadioTV) during 2014, with approximately 700 followers to date.
Senate Doorkeepers
    Senate Doorkeepers play a critical role in supporting the 
legislative process of the Senate. Doorkeepers provide access to those 
with Senate Floor privileges; enforce the rules of the Senate Floor; 
and facilitate the needs of Senators, Senate Floor staff, and Senate 
Pages. Doorkeepers also provide support for a number of special events 
attended by Senators, their families, and special guests. In addition 
to directly supporting Senators, Doorkeepers also ensure that all 
Americans can visit the Senate Gallery safely and efficiently. During 
2014, approximately 202,000 people visited the Senate, in person, with 
the help of Senate Doorkeepers. That corresponded to nearly 950 people 
a day, both when the Senate was in session and during scheduled 
recesses.
Senate Appointment Desk
    The Senate Appointment Desks are responsible for processing, in a 
safe and efficient manner, thousands of guests who enter the Capitol 
each year for business meetings or other purposes. During 2014, 
approximately 184,000 visitors were processed through our network of 
Appointment Desks located on the first floor of the Capitol, in the 
basements of the Russell and Hart Senate office buildings, and in the 
Capitol Visitor Center (CVC). Of these, 116,000 visitors were in the 
Capitol for official business or a direct meeting with a member, a 
member's office, or a committee. In addition, more than 2,500 
international visitors relied on the CVC Appointment Desk for Senate 
Gallery Passes and information.
Office of Internal Communications
    The Office of Internal Communications (OIC) streamlines 
communication within the SAA organization and to the rest of the Senate 
community through a combination of online, digital, and traditional 
print publications. Last year, the Office sent 468 Notices and 101 Dear 
Colleague messages electronically, saving resources and speeding 
delivery of important information. In addition, OIC manages two Web 
sites--one internal to the SAA and the other accessible to the Senate 
community--and maintains the electronic Notice system. During 2014, OIC 
staff edited and helped produce 175 publications, including safety 
bulletins, newsletters for both Senate and SAA staff, and procedural 
manuals. Finally, the OIC manages the SAA's use of social media to 
enhance communication with SAA employees, Senators, the Senate 
community, and the public. Recently, the SAA Twitter account 
(@SenateSAA) exceeded 7,400 followers and our Facebook page surpassed 
4,000 ``likes,'' both substantial increases from a year ago.
                          saa human resources
    The primary function of the SAA Office of Human Resources is to 
provide personnel services and advice to SAA managers and employees. 
The SAA Human Resources department also provides workers' compensation, 
ergonomic assessment, Americans with Disabilities Act (ADA) 
accommodation requests, and recruitment services to the broader Senate 
community.
Senate Placement Office
    During fiscal year 2014, Senate offices submitted 513 requests for 
recruitment assistance to the Senate Placement Office; 49,401 resumes 
were processed by the Placement Office in response to these requests. 
Since the start of fiscal year 2015, the Senate Placement Office 
provided 2,404 resumes for vacancies on the staffs of Senators-elect 
and processed an additional 1,044 resumes for vacancies in other Senate 
offices and committees.
                senate office of education and training
    The Office of Education and Training provides training for all 
Senate staff in Washington, DC, and in State offices. We provide 
performance skills training on topics such as management and leadership 
development, human resources management, legislative and staff 
information, and new staff and intern orientation. The office also 
provides much of the training for approved software and equipment used 
at the Senate. Our technical offerings include system administration, 
MS Office Suite, Photoshop, and digital photography, and Senate-
specific applications training. In addition, we coordinate and provide 
major training events for State and DC staff.
    Training is provided through a variety of methods. These include 
instructor-led classes, one-on-one coaching sessions, facilitation, 
computer-based training, online lessons, Webinars, videoconferencing, 
informal training, documentation, and self-paced training.
    The Office of Education and Training partners with other training 
providers, both inside and outside of the legislative branch, to ensure 
the Senate staff have the training and skills they need to perform 
their jobs. In 2014, these partnerships included the Library of 
Congress, Congressional Research Service, Senate Library, Government 
Accountability Office, Capitol.net, the SAA Office of Protective 
Services and Continuity, Senate Historian, Office of Attending 
Physician, Employee Assistance Program, Chief Counsel on Employment, 
Office of Congressional Accessibility, SAA Human Resources, Senate 
Disbursing Office, Senate Ethics Committee, and others.
    In 2014, the Office of Education and Training and its partners 
provided 735 instructor-led classes with a total attendance of over 
3,000 students. Education and Training staff taught over 250 of the 735 
instructor-led classes, at which over 1,900 staff attended. Education 
and Training provided customized training, facilitation services, and 
coaching to more than 150 Senate member, committee, and support 
offices, benefitting more than 1,400 staff. Our trainers spent 
approximately 600 hours performing training or facilitation in 
everything from 1-hour sessions to 2 to 4 day-long retreats. We also 
coordinate the Senate's Intern Program. We provide training for intern 
coordinators as well as eight orientation and training sessions 
throughout the year; approximately 1,500 interns attended in 2014.
    After every election, we coordinate the Aides to the Senators-elect 
orientation and new office Admin Directors training. This 2-day 
orientation consists of 10 different sessions with 20-30 attendees. 
After swearing-in, we coordinate another 10-12 sessions for the office 
management. Each session is attended by 10-15 staff.
Health Promotion
    Our Health Promotion office has been legislatively mandated to 
provide Health Promotion activities and events. Our Health Promotion 
branch coordinates and runs the 2-day Health and Wellness Fair for 
Senate staff. At this fair, Senate staff can meet vendors who promote 
healthy living choices and who provide screening and testing for things 
such as bone density, hearing, cholesterol, and others. In 2014, over 
500 staff participated in health promotion activities, which included 
lung function and kidney screenings, blood drives, and seminars on 
health-related topics. We also coordinate Weight Watchers, Yoga, and 
Pilates sessions using a revolving fund. We plan to increase our 
conference offerings to include one for State Schedulers and for member 
and committee management. These conferences will provide staff who do 
similar jobs a place and time to share what is working and get ideas 
from one another.
    We will continue to expand our online training options for Capitol 
Hill and State staff. We are rolling out an Online Leadership 
curriculum for Senate managers and continue to work with our training 
partners to provide just-in-time training. Our office also plans to 
bring in experts to conduct presentations and training on timely 
management and legislative topics to complement the training that is 
already offered. Some of these topics will include Appropriations and 
Authorizations, and Managing Remote Staff, among others.
                      employee assistance program
    Our Employee Assistance Program (EAP) offers a variety of 
emotional, behavioral and work-related support resources and services 
to staff, their family members, Senate Pages, and interns. In 2014, 
nearly 1 in 20 Senate employees utilized the services of an EAP 
counselor; 370 employees took an online mental health screening; 177 
managers requested a supervisory consultation; 3,277 employees attended 
an EAP training activity; and 1,946 employees accessed resources for 
personalized information and referrals addressing childcare, parenting, 
adult care, aging, education, legal concerns, and/or financial issues.
                               conclusion
    The Sergeant at Arms is composed of a diverse array of 
organizations. All of them exist to serve the Senate so that it can 
function as part of the legislative branch of our Government. To 
provide the checks and balances on any administration, it must be able 
to function efficiently in an effort to create and pass legislation. To 
do so, the Senate Sergeant at Arms must and will provide the needed 
services that allow it to function.

                               APPENDIX A

          Office of the Sergeant at Arms--United States Senate

                   FINANCIAL PLAN FOR FISCAL YEAR 2016
                         [Dollars in thousands]
------------------------------------------------------------------------
                                                Fiscal Year  Fiscal Year
                                                    2015         2016
                                                  Enacted      Request
------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries..................................      $69,000      $72,000
    Expenses..................................       73,267       66,262
                                               -------------------------
      Total General Operations & Maintenance..      142,267      138,262
 
Mandated Allowances & Allotments..............       47,141       46,858
Capital Investment............................        1,957       15,051
Nondiscretionary Items........................        5,935        5,803
                                               -------------------------
      Total...................................     $197,300     $205,974
                                               =========================
 
Staffing......................................          892          892
------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services, and equipment, we submit a fiscal year 2016 
budget request of $205,974,000, an increase of $8,674,000 or 4.4 
percent compared to fiscal year 2015. The salary budget request is 
$72,000,000, an increase of $3,000,000 or 4.3 percent, and the expense 
budget request is $133,974,000, an increase of $5,574,000 or 4.4 
percent. The staffing request remains at 892.
    There are four budget categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The general operations and maintenance salaries budget request is 
$72,000,000, an increase of $3,000,000 or 4.3 percent compared to 
fiscal year 2015.
    The general operations and maintenance expenses budget request for 
existing services is $66,262,000, a decrease of $7,005,000 or 9.6 
percent compared to fiscal year 2015.
    The mandated allowances and allotments budget request is 
$46,858,000. This budget supports State office rents, $19,691,000; 
purchase of computer and office equipment, $10,318,000; voice and data 
communications for Washington, DC, and State offices, $5,609,000; 
procurement and maintenance of member office constituent services 
systems, $5,500,000; RPC and DPC recording studios, $2,600,000; 
wireless services and equipment, $1,473,000; and State office security 
enhancements, $1,472,000.
    The capital investments budget request is $15,051,000, for DC 
network equipment upgrade, $6,290,000; storage area network, 
$3,726,000; Chamber audio upgrade, $1,900,000; and Network Management 
Equipment Upgrade, $1,840,000.
    The nondiscretionary items budget request is $5,803,000. The 
request funds projects that support the Secretary of the Senate: 
contract maintenance for the Financial Management Information System, 
$2,819,000; support for the payroll system, $2,359,000; and maintenance 
and necessary enhancements to the Legislative Information System, 
$625,000.

    Senator Capito. Thank you.
    Chief Dine.

                      UNITED STATES CAPITOL POLICE

STATEMENT OF HON. KIM C. DINE, CHIEF OF POLICE
ACCOMPANIED BY:
        DANIEL MALLOY, ASSISTANT CHIEF AND CHIEF OF OPERATIONS
        RICHARD BRADDOCK, CHIEF ADMINISTRATIVE OFFICER
        FAY F. ROPELLA, INSPECTOR GENERAL

    Chief Dine. Thank you and good morning.
    I would also ask that my full statement be accepted for the 
record.
    Chairman Capito, Ranking Member Schatz, and members of the 
subcommittee, I am honored to be here today and I appreciate 
the opportunity to present the United States Capitol Police 
budget request for fiscal year 2016.
    I am joined here today by Assistant Chief Daniel Malloy, 
our Chief of Operations, and Mr. Richard Braddock, our Chief 
Administrative Officer, as well as some members of my executive 
management team and our Inspector General.
    First, I would like to thank the subcommittee for its 
sustained and unwavering support for the United States Capitol 
Police. I would specifically like to express our appreciation 
to the subcommittee and the Congress for providing the 
necessary salaries and general expenses funding for fiscal year 
2015 to support our personnel and operations. The women and men 
of the Capitol Police work tirelessly to ensure that the 
legislative process of our Government functions without 
disruption or lapses in security or safety 24 hours a day, 365 
days a year. But none of this would be possible without your 
support and that of the Capitol Police Board.
    My management team and I are very proud of the close 
partnership that has evolved between us to make this possible. 
Your confidence in us and the support you have provided to the 
Capitol Police over the years has, indeed, been a remarkable 
contributor to our success in achieving our mission. You and 
your staff have taken the time to work closely with the 
department's leadership team and have shown a keen awareness of 
the complexity of our mission and the challenges we face.
    While our mission has not changed, the scope of the threats 
that we face is changing, and the ways in which we continue to 
adapt to those threats has to change. We will continue to meet 
our mission by finding ways to sharpen and adapt our 
capabilities while remaining true to our core values. Our 
ability to thwart attacks and safeguard the Capitol complex 
hinges on our flexibility to adapt operations and 
administrative capabilities to the changing environment.
    During fiscal year 2014, we were able to provide training 
to our officers in areas of active shooter and security 
screening, which are key skills that need to be constantly 
refreshed for our officers in this environment. In addition, 
the department was awarded the Gold Standard in Advanced Law 
Enforcement Accreditation, our fifth accreditation, from the 
Commission on Accreditation for Law Enforcement Agencies. The 
Gold Standard is awarded to law enforcement agencies that have 
exhibited strong organizational health and an absence of issues 
that detract from the professionalism of the agency. Assessors 
were on site validating policies and procedures, interviewing 
employees, and performing field observations.
    At this time, I would like to offer the subcommittee an 
overarching summary of our fiscal year 2016 request. I will 
follow this summary with a discussion of specific budget items 
of particular significance to you and the department.
    The department's fiscal year 2016 request totals nearly 
$379 million and represents an overall increase of 8.9 percent, 
or nearly $31 million over fiscal year 2015 enacted funding 
level of $348 million.
    As with other law enforcement agencies, personnel salaries 
and overtime represent the majority of our budget each year. As 
you know, we are a service organization, and we need dedicated 
and trained professionals to provide that service.
    Our fiscal year 2016 request, again, only includes funding 
for 1,775 sworn and 370 civilian positions. These are the 
staffing levels funded during fiscal year 2015. While the 
staffing levels remain static in the fiscal year 2016 request, 
the funding request represents an overall increase of 
approximately 7 percent over the fiscal year 2015 enacted 
level. This increase is necessary to address the natural salary 
increases incurred by the department and increased overtime 
costs to meet our needs, especially for the 2016 presidential 
conventions.
    The second area I want to cover in some detail is our 
requested general expenses budget, which includes protective 
travel; hiring, outfitting, and training of new sworn 
personnel; supplies and equipment; management systems; non-
personnel presidential convention support and other non-
personnel needs. We are requesting $71.4 million for general 
expenses, which is an increase of $10 million over the fiscal 
year 2015 enacted level. No new initiatives or program 
increases are included in this request. The increase results 
from normal increases in operating costs, convention costs, and 
cost to lifecycle key items and routine equipment and systems, 
and the restoration of annual levels reduced in previous fiscal 
years to meet regular needs.
    With resources provided to the department, our officers 
provide a safe environment for the facilities of Capitol Hill. 
For the U.S. Capitol Building alone, we provide a secure and 
open environment for well over 1.5 million square feet, over 
600 rooms, approximately 850 doorways, and miles of corridors, 
which speaks to the vast magnitude of our mission and how our 
ability to remain agile and prepared to respond is key to the 
accomplishment of our mission. In fiscal year 2014, the 
department performed over 9.6 million screenings of people 
entering congressional buildings, including over 1.4 million 
visitors to the Capitol Visitor Center. Outside the buildings, 
we kept the Capitol grounds safe by conducting more than 
125,000 K-9 vehicle sweeps and nearly 27,000 offsite vehicle 
inspections.
    Further, we continue to work to close audit recommendations 
and to address our material weaknesses from prior audits by 
working very closely with our Inspector General and the 
Government Accountability Office (GAO) to address identified 
issues and by providing evidence necessary to close findings. 
In particular, I am pleased to report the department received a 
fourth consecutive unqualified clean opinion on our financial 
statements. Also in fiscal year 2014, we worked closely with 
the Office of the Inspector General (OIG) to close 29 
recommendations and completed actions that we believe could 
lead to closure of another eight recommendations. Also, the 
department successfully closed all findings from outstanding 
GAO reports and closed four complete OIG audits that have been 
open since 2008. Further, we are working on the resolution of a 
number of other recommendations in order to achieve efficiency 
and effectiveness of our administrative programs. The long-term 
resolution of recommendations related to internal controls, 
business processes, and material weaknesses remains of the 
highest importance to our management team.
    I am very grateful for your time today. We will continue to 
work closely with you to make sure that we meet the needs of 
our mission in a reasonable and responsible manner. I want to 
thank the women and men of the United States Capitol Police 
(USCP) for their commitment to our mission and for their 
support. I appreciate the opportunity to appear before you 
today and we would be glad to answer any questions you may have 
at this time.
    [The statement follows:]
                 Prepared Statement of Hon. Kim C. Dine
    Chairman Capito, Ranking Member Schatz and members of the 
subcommittee, I am honored to be here today, and I appreciate the 
opportunity to present the United States Capitol Police budget request 
for fiscal year 2016. I am joined here today by Assistant Chief Daniel 
Malloy, our Chief of Operations, and Mr. Richard Braddock, our Chief 
Administrative Officer, as well as some of the members of my Executive 
Management Team and our Inspector General.
    First, I would like to thank the subcommittee for its sustained and 
unwavering support of the United States Capitol Police. I would 
specifically like to express our appreciation to the subcommittee and 
the Congress for providing the necessary salaries and general expenses 
funding for fiscal year 2015 to support our personnel and operations. 
The women and men of the Capitol Police work tirelessly to ensure that 
the legislative process of our Government functions without disruption 
or lapses in security or safety 24 hours a day, 365 days a year. But 
none of this would be possible without your support and that of the 
Capitol Police Board.
    My management team and I are very proud of the close partnership 
that has evolved between us to make this possible. Your confidence in 
us, and the support you have provided to the Capitol Police over the 
years, has indeed been a remarkable contributor to our success in 
achieving our mission. You and your staff have taken the time to work 
closely with the Department's leadership team and have shown a keen 
awareness of the complexity of our mission and the challenges we face.
    While our mission has not changed, the scope of the threats that we 
face is changing--and the ways in which we continue to adapt to those 
threats has to change. We will continue to meet our mission by finding 
ways to sharpen and adapt our capabilities while remaining true to our 
core values. Our ability to thwart attacks and safeguard the Capitol 
Complex hinges on our flexibility to adapt operations and 
administrative capabilities to the changing environment.
    Before I begin the specifics of my fiscal year 2016 budget request 
I would like to express again our appreciation to the subcommittee and 
the Congress for providing the essential salaries and general expenses 
funding for fiscal year 2015 to support our personnel and operations, 
which has ensured a high-level of capability and mission readiness.
    During fiscal year 2014, we were able to provide training to all of 
our officers in the areas of active shooter and security screening, 
which are key skills that need to be constantly refreshed for our 
officers in this environment. In addition, the Department was awarded 
the Gold Standard in Advanced Law Enforcement Accreditation, our fifth 
Accreditation, from the Commission on Accreditation for Law Enforcement 
Agencies. The Gold Standard is awarded to law enforcement agencies that 
have exhibited strong organizational health and an absence of issues 
that detract from the professionalism of the agency. Assessors were 
onsite validating policies and procedures, interviewing employees, and 
performing field observations.
    Our fiscal year 2016 mission-focused request is grounded in the 
framework of our Strategic Plan. To achieve our vision as a nationally 
recognized results-oriented law enforcement organization, the 
Department continues to reinforce a culture that supports effective 
planning, communication, accountability and employee empowerment. We 
are developing the internal framework to employ smart policing by 
taking a results-oriented, data-driven approach that effectively meets 
current and future threats and challenges. We will continue to deliver 
safety and security by deploying effective law enforcement services 
through collaboration, adaptability and innovation. We will strive for 
organizational excellence to maximize efficiency and effectiveness 
through best practices, while promoting accountability through employee 
engagement and a positive work environment. As we carry out these 
programs, employees are engaged through routine communications and are 
given an opportunity to provide feedback.
    At this time, I would like to offer the subcommittee an overarching 
summary of our fiscal year 2016 request. I will follow this summary 
with a discussion of specific budget items of particular significance 
to you and the Department.
    The Department's fiscal year 2016 request totals nearly $379 
million and represents an overall increase of 8.9 percent, or nearly 
$31 million over the fiscal year 2015 enacted funding level of $348 
million.
    As with other law enforcement agencies, personnel salaries and 
overtime represent the majority of our budget each year. As you know, 
we are a service organization, and we need dedicated and trained 
professionals to provide that service.
    The Department's fiscal year 2016 personnel request reflects our 
continuous efforts at all levels of management to effectively and 
prudently manage our existing resources to achieve the best possible 
balance of staff versus overtime to meet mission requirements. We are 
constantly analyzing our workforce to align job functions, assignments, 
workload, risk management, and organizational readiness along with the 
ever-changing threat assessments and mandatory mission requirements 
within a dynamic environment.
    In light of the fiscal constraints of the Department and the entire 
Federal Government, our fiscal year 2016 request again only includes 
funding for 1,775 sworn and 370 civilian positions. These are the 
staffing levels funded during fiscal year 2015. While the staffing 
levels remain static in the fiscal year 2016 request, the funding 
request represents an overall increase of approximately 7 percent over 
the fiscal year 2015 enacted level. This increase is necessary to 
addresses the natural salary increases incurred by the Department, and 
increased overtime costs to meet our needs, especially for the 2016 
presidential conventions.
    As you are aware, the Department's current sworn staffing levels do 
not entirely provide the necessary resources to meet all our mission 
requirements within the established sworn officer utility or the number 
of work-hours in a year that each officer is available to perform work. 
This ``utility'' number is used to determine overall staffing 
requirements, and balances the utility of available staff with annual 
salary and overtime funding along with known mission requirements such 
as post coverage, projected unscheduled events such as demonstrations, 
late sessions and holiday concerts, and unfunded requirements that 
occur after the budget is enacted, such as unforeseen critical 
emergency situations. Because of the need to fill the mission 
requirement gap through overtime, the Department has struggled to pull 
our sworn personnel offline to conduct training. In order to achieve 
mandatory training, we must utilize overtime to ensure that the 
officers may be offline for training, while meeting our daily mission 
requirements. There are flexibilities in other law enforcement agencies 
in offsetting or deferring daily requirements to allow for training 
that our unique mission does not afford.
    Thus, mission requirements in excess of available personnel must be 
addressed through the identification of efficiencies such as post 
realignment and/or reductions, technology, and cutbacks within the 
utility. Where necessary, we meet this requirement through the use of 
overtime. The Department is currently in the process of implementing an 
automated scheduling system to find more efficiency through 
information-based management, while developing training and guidance 
for supervisors on methods for reducing overtime. Once fully 
implemented, this will result in enhancements to a number of policies 
and procedures that have a direct and indirect impact on our overtime 
needs. At the requested funded staffing levels, the Department's fiscal 
year 2016 overtime projection is $30.9 million. This amount will cover 
base mission requirements, the conventions, our support of non-
reimbursable events at the Library of Congress and the ability for 
sworn employees to be backfilled while they attend necessary and 
mandatory training.
    The second area I want to cover in some detail is our requested 
general expenses budget, which includes protective travel; hiring, 
outfitting, and training of new sworn personnel; supplies and 
equipment; management systems; non-personnel presidential convention 
support and other non-personnel needs. We are requesting $71.4 million 
for general expenses, which is an increase of $10 million over the 
fiscal year 2015 enacted level. No new initiatives or program increases 
are included in this request. The increase results from normal 
increases in operating costs, convention costs, the cost to life cycle 
key items and routine equipment and systems, and the restoration of 
annual levels reduced in previous fiscal years to meet regular 
Department needs.
    With resources provided to the Department, our officers provide a 
safe environment for the facilities of Capitol Hill. For the U.S. 
Capitol Building alone, we provided a secure and open environment for 
well over 1.5 million square feet, over 600 rooms, approximately 850 
doorways, and miles of corridors; which speaks to the vast magnitude of 
our mission and how our ability to remain agile and prepared to respond 
is key to the accomplishment of our mission. In fiscal year 2014, the 
Department performed over 9.6 million screenings of people entering 
congressional buildings (including over 1.4 million visitors to the 
Capitol Visitor Center). Outside the buildings we kept the Capitol 
grounds safe by conducting more than 125,000 K-9 vehicle sweeps and 
nearly 27,000 offsite vehicle inspections.
    For the fifth year in a row, the Department has implemented uniform 
procedures to effectively measure and justify U.S. Capitol Police 
planning, program, and resource requirements through a comprehensive, 
standardized, and repeatable management process, which we call the 
``Force Development Business Process.'' It provides for a transparent 
decisionmaking process, including reviews and approvals by an 
Investment Review Board made up of key agency management, and provides 
a structure that is results-driven and based on meeting operational 
needs. In addition, in order to ensure the accuracy of our budget 
request, our fiscal year 2016 budget went through multiple layers of 
review and validation, and is traceable to supporting documentation for 
each budget element.
    Further, we continue our work to close audit recommendations and to 
address our material weaknesses from prior audits by working closely 
with our Inspector General and the Government Accountability Office to 
address identified issues and by providing the evidence necessary to 
close findings. In particular, I am pleased to report that the 
Department received a fourth consecutive unqualified ``clean'' opinion 
on our financial statements. Also in fiscal year 2014, we have worked 
closely with the Office of Inspector General to close 29 
recommendations and have completed actions that we believe could lead 
to closure of another eight recommendations. Also, the Department 
successfully closed all findings from outstanding GAO reports and 
closed four complete OIG audits that have been open since 2008. 
Further, we are working on the resolution of a number of other 
recommendations in order to achieve efficiency and effectiveness of our 
administrative programs. The long-term resolution of recommendations 
related to internal controls, business processes and material 
weaknesses remains of the highest importance to our management team.
    I am grateful for your time today. We will continue to work closely 
with you to make sure that we meet the needs of our mission in a 
reasonable and responsible manner. I want to thank the women and men of 
the USCP for their commitment to our mission and their support. I 
appreciate the opportunity to appear before you today and would be glad 
to answer any questions you may have at this time.

    Senator Capito. Thank you. I thank all three of you for 
your testimony, and I join the voice of my ranking member here 
in thanking you for what you do for us every day and the 
general public and really for the country. So I want to make 
sure I get that on the record as well.
    I want to begin with questions for the Secretary of the 
Senate. You have asked for a request to upgrade the Financial 
Management Information System (FMIS). But as I understand it, 
you are going to have 6 years of budget requests to get you 
fully up to speed. In my view, 6 years is a lifetime in any 
kind of computer programming or software, and my concern is--
and I am wondering if you have the same concern--is it possible 
by the time you get to full implementation, you are behind the 
curve again? What would your comments be on that?
    Ms. Adams. That is a good question. I think anytime a 6-
year project--certainly that does probably raise some eyebrows. 
But our team, our planners have really done a lot of their 
homework to put this plan into place. And the software that we 
will procure will be software that will still work when it is 
fully modernized. They will be purchasing the stuff that is in 
production. While we are moving through the phases, if they 
know that the third phase has gotten new software that we will 
need, they will make sure that it is the most current form that 
is available. And we will all be supported when we are done. 
But I understand. Six years does sound like a long time.
    The benefit of doing it over 6 years, though, is truly--I 
want to make sure all the stakeholders that use FMIS have a 
system that works in the end that truly works for them. And by 
jamming it in in a shorter period of time, my concern is that 
we will not meet all the needs of the Senate in that amount of 
time. The shortest amount of time that we could do this in 
would be 3 years, and that would really be pushing it. We would 
likely need to add some additional full-time equivalents 
(FTE's) to that in order to support it, and there would also be 
some stuff for them on the Sergeant at Arms side in terms of 
their support. Making sure that we have staff that is up to 
speed and that they can support it when it is done, the 6 years 
gives us the time to get staff up to speed so that when it is 
done, we are not having to use contractor support and we have 
more internal support.
    Senator Capito. So basically the 6-year timeline, if you 
were to squeeze it down--that was going to be my next question. 
Can you get it done in 3 years? Can you get it done in 1 year? 
Basically you are telling me that is not the advice that you 
are----
    Ms. Adams. It is not the advice that our folks that have 
done all the planning--they have looked at other Federal 
agencies that have systems to see how long do these sort of 
things take to implement. And, you know, 3 years is really 
pushing it. That would be the minimum number that we would be 
able to.
    Senator Capito. Well, maybe this time next year, when you 
have implemented the first year, we can return to this question 
because I think it is something that we want to make sure we 
are modernizing to the point where it actually is modern at the 
time that it concludes.
    Ms. Adams. I agree. I agree.
    Senator Capito. I would like to ask the Sergeant at Arms. 
You mentioned your priorities, safety and security, cyber 
health, customer relations, preparedness and partnerships. You 
know, just a general question about number one on the safety 
and security issue. Obviously, there are threats everywhere. 
What kind of coordination are you doing in terms of being able 
to assess what a terrorist threat to the Capitol is? I mean, I 
am probably the only one of the five of us--well, maybe Julie 
was here. I know you were in DC at the time on September the 
11th. And I understand you were in New York City. You know, as 
time has gone on here on the Capitol complex, I know we still 
have the heightened awareness of that. But are the threats 
more, less, or without being too specific, could you give us an 
idea of where you see these threats presently on the Capitol 
complex itself?
    Mr. Larkin. Absolutely, Chairman.
    The threat picture right now is very dynamic. And again, I 
think that you can look at the information that we are getting 
from the media and also from companion testimony from other 
Government leaders up here on the Hill recently. We are in an 
environment where we have a full spectrum of threat that not 
only encompasses what we have seen overseas associated with al 
Qaeda, ISIL, ISIS, and others, but then we are seeing more and 
more here on the domestic front where we are encountering self-
radicalized or self-motivated individuals. And some of these 
individuals are in communications with folks outside our 
domestic environment, again taking direction, somewhat 
supported either financially or with information resources. And 
then there are others that are fully independent, and they are 
the ones that remain the toughest target in the sense of 
identifying them in advance of some type of act that they would 
like to perform.
    The only way that we are going to be able to stay ahead of 
this is, as you alluded to, close communications and 
coordination with our Federal partners and in some cases with 
some of our trusted allies who, again, are dealing with much of 
the same challenge, both with their assets overseas and their 
own homelands. We are in daily contact with the intelligence 
community. We are in daily contact, again, both with the House 
Sergeant at Arms Office and the U.S. Capitol Police, with our 
law enforcement partners, the FBI, Secret Service, Park Police, 
the folks that are generic to the Capitol campus but we are 
also in touch with law enforcement agencies that have a nexus 
to each of the member offices in their respective States of 
jurisdiction.
    And again, as we see telltales or indicators that something 
is not right, we are very aggressive in pursuing and getting to 
the bottom of exactly what is taking place. And together with 
that is being able to get effective notifications out to 
members and staffs and so forth so that they have a level of 
awareness that we are working something, that we have got it 
contained, or its in motion and that they need to, along with 
our assets, increase their vigilance.
    Senator Capito. Thank you and thank you for that. I think 
the communication is much improved over what it has been, and I 
think that is something that we need to keep on top of.

                       U.S. CAPITOL POLICE MORALE

    To the Chief, we talked just briefly as I came in. We 
talked about the situation last night in Ferguson with two 
police officers being shot, and I do not know what the details 
of that are now but it certainly is a tragedy for everybody.
    And I know that there have been some morale questions for 
the Capitol Police. Certainly the greater question of law 
enforcement in general--you have been in this field for 
decades. We are having sort of a national discussion. Are you 
finding within the Capitol Police these same kind of pushes and 
pulls between the general public and law enforcement? What is 
your perspective on that? And how do you perceive the morale of 
the Capitol Police right now?
    Chief Dine. Well, to the first part, the pushes and pulls I 
think that law enforcement face across the country sort of 
highlight the uniqueness of the U.S. Capitol Police. We are 
essentially an amalgamation of multiple law enforcement 
agencies rolled into one. A lot is asked of our agency, and it 
highlights the importance that we maintain the nimbleness and 
ability to confront all types of threats and issues as we 
provide safety and security throughout the Capitol complex. 
That is very critical. We are kind of a combination of an urban 
department. We do investigations. We do a lot of intelligence 
work, and we have continued to raise the bar as it relates to 
intelligence. The challenge is pushing that type of information 
out to our entire agency so that we can continue to provide 
safety and security not only here but to member offices, deal 
with threats, and investigations. Obviously our checkpoints and 
our doors are critical, which is why the training is so 
important to our agency, and we appreciate the support you 
provided us.
    One of the unique challenges that we face is training. 
Unlike more traditional agencies, when we provide training to 
our officers, we have to take officers offline and then use 
overtime to fill those back positions. More traditional 
departments can significantly change the level of staffing out 
in the street from day-to-day and tour-to-tour. Part of that 
points then to my mission of making sure that our agency from 
top to bottom is cohesive, that we have a cohesive management 
team that understands the mission that we face and those 
nuances and the uniqueness of who we are and what we do. I 
think that relates often to the morale piece. It is imperative 
that we understand that we are one police organization that is 
more important than any one individual, that we understand what 
our roles and responsibilities are, and the more and better 
people understand that, which is my role as Chief of Police to 
make sure the management team and all of our leaders and 
managers and officials within the agency are a cohesive team. 
And in that way, we can best address the morale.
    Senator Capito. Thank you.

                     PERCENTAGE OF FEMALE OFFICERS

    Just a real quick question. Then I will ask my ranking 
member. I want to get on the record, Chief--I asked you when I 
was over at your headquarters what percent of your force is 
female. Could you put that on the record for us?
    Chief Dine. Yes, ma'am. We are proud of the fact that it is 
about 18 percent.
    Senator Capito. I think you are doing better than the 
Senate.
    Senator Schatz.

        POTENTIAL IMPACT OF SEQUESTER LEVELS IN FISCAL YEAR 2016

    Senator Schatz. Thank you, Madam Chair.
    The Budget Control Act imposes spending caps that were 
designed to limit discretionary spending. And I support and 
many others support adjusting those caps to a more responsible 
level, which would be closer in line with the request your 
agencies have made to the subcommittee.
    The cap in place for fiscal year 2016 would provide a .2 
percent increase over the 2015 level. Yet, today we are 
examining an increase of almost 9 percent for Capitol Police, 
4.4 percent for the Sergeant at Arms, and 9.6 percent for the 
Secretary of the Senate. And I should say I find these 
increases to be totally reasonable, but not fundable unless we 
deal with the sequester.
    Chief Dine, the adjustments in the Budget Control Act (BCA) 
caps in fiscal year 2014 and 2015 allowed your force to restore 
the number of sworn officers protecting the campus to pre-
sequester levels and allowed the force to reinstate training 
that had been canceled under sequester. And I understand you 
were able to put all of the officers through active shooter 
training. I am worried that these activities will be difficult, 
if not impossible, to afford if we go back to the sequester. 
Your budget request includes $17.4 million just to maintain the 
current number of officers, plus an additional $13.5 million 
for critical back-of-the-house support such as replacing 35 
computer servers that are past their warranty.
    So, Chief, if the budget for the Capitol Police was limited 
to the current sequester levels, would you have to reduce the 
number of officers on patrol, and what would happen to 
training?
    Chief Dine. Yes, sir. Thank you. I think there are several 
key points.
    Our fiscal year 2016 budget request includes approximately 
$5 million of a one-time costs for the protection we provide 
for the presidential conventions that was not part of the 
fiscal year 2015 budget. This is a longstanding function in 
which we engage every 4 years and does require additional funds 
primarily for overtime and travel costs. Nearly $2 million in 
overtime and $3 million in travel costs go to fund these 
activities.
    Secondly, the enacted level of the fiscal year 2015 budget 
for salaries is less than the amount needed to fund the fiscal 
year 2016 to fully fund, as you noted, the 1,775 sworn and 370 
civilians' overtime and training costs. There are increases in 
salaries due to normal salary increases for the existing staff, 
annualization of the 2015 living increase, increases in benefit 
costs, and also the additional day of pay due to leap year in 
fiscal year 2016 that are not matched over fiscal year 2015.
    If the funding levels for fiscal year 2016 are to be frozen 
at the fiscal year 2015 levels, it will require us to absorb 
the above increases in salaries and the one-time presidential 
convention costs. We projected that will force us to reduce our 
staff by approximately 250 people, which is significant. In 
addition, we would have to cancel necessary training for the 
planned officers and, as we discussed, training for our 
department is critical in all phases.
    This type of reduction in staff will force us to reduce--
curtail coverage in critical areas impacting the normal 
functioning of the Capitol complex such as reduction or 
elimination of mission support to minimal levels, reduce 
protection and coverage of the congressional leadership, reduce 
threat validation significantly, reduce post coverage, and an 
inability to potentially provide coverage for certain response 
capability and services. It may also affect our hazardous 
material and hazardous device responses.
    Obviously, what will be required and what we continually do 
is to work with our stakeholders to make sure the required 
reductions take place without creating significant security 
issues. These reductions will result in impacts to access and 
convenience areas throughout the complex, however.
    Senator Schatz. But there would be fewer officers on 
patrol, less money for training, if any money for training.
    Chief Dine. Yes, sir.
    Senator Schatz. And as a result, fewer doors and less 
training. That is just as a starting point.
    Chief Dine. Yes, sir.
    Senator Schatz. Thank you, Chief.
    Mr. Sergeant at Arms, assuming flat funding for 2016, would 
the Sergeant at Arms Office have to delay the requested 
upgrades for the IT systems, or would you be able to make 
adjustments in other places?
    Mr. Larkin. Senator, first of all, I think you have to look 
at your question in two prongs, at least from the Sergeant at 
Arms. One is the personnel and the other is non-personnel 
expense.
    With regard to personnel, we could probably absorb that 
strain internally, and part of that is due to the fact that we 
have an ongoing effort right now to look at our job tasks and 
our personnel that are matched against those job tasks to see 
if they are still relevant. And in some cases, we are re-
engineering and repurposing our personnel as we see evolutions 
in technology where the technology can take up for some of the 
FTE work, applying that, and balancing that, and it is an 
ongoing process.
    The other aspect of the personnel is that we are converting 
some of our contractor positions over to Government positions, 
which then yield savings to our bottom line.
    Now, on the equipment side--and they are both linked--is 
that we would have to prioritize our equipment investments and 
certainly our refresh and either extending our refresh out, 
which is sort of the situation that we were in here about 2 
months ago where because decisions were previously made to 
extend the refresh of equipment, we found ourselves challenged 
one night, as you are well aware. And we were able to quickly 
recover, but yet it certainly brought to everyone's--to the 
forefront what can happen when a critical component fails 
unexpectedly.
    Now, what I feel will suffer is--and again, this is about 
prioritization--extending those refreshes, potentially pushing 
other equipment change-out or software change-outs further out 
to other budget years. What I think would suffer would be 
innovation. And again, I go back to some of the technical 
advances that we see allow us to create a level of increase in 
efficiencies and savings that I think that would also suffer. 
So we would wind up in that do loop of trying to keep our lips 
above water and support the Senate effectively.
    Senator Schatz. Thank you.
    And, Ms. Adams, I assume under the BCA levels, you would 
have to delay the upgrade of your financial management system?
    Ms. Adams. Yes, Senator, we would.
    Senator Schatz. Thank you very much.

                   PREPARATION FOR POPE FRANCIS VISIT

    I have a quick question about the preparation for the visit 
of Pope Francis this September, and if you could just briefly 
talk, each of you, about how you are preparing for it just 
operationally. But the other question I have is do you bake in 
an assumption about visiting dignitaries, or is something on 
the order of magnitude of Pope Francis visiting--you are not 
able to kind of regularly account for it in your annual 
budgeting process? Is this going to be a hit to your budget, or 
can you absorb it? That is one question.
    The other question is what you are doing operationally to 
make sure it is smooth and safe. Maybe starting with the Chief.
    Chief Dine. Yes, sir, thank you.
    Our Office of Administration estimates the costs for these 
types of events, based on the requirements that are provided by 
our operations, and those costs and the planning around those 
costs is based on a risk/threat, available intelligence, and 
appropriate response and duration of those types of events 
obviously.
    Normally we project a certain number of hours to be used 
for these types of unscheduled events. Usually it is about 
20,000 hours. But that is based on the events that we know of, 
such as Congressional Delegation trips (CODEL's), known 
protests such as the annual national grass-roots organization 
of disability rights activists (ADAPT) type protests and other 
special events that normally occur during the year that cannot 
be projected for any type of pay period. The demonstrations and 
anticipated activity resulting--as you mentioned earlier, 
surrounding things like Ferguson, the Concert of Valor which 
took place right next to us this past summer, the Israeli prime 
minister visit, and the Pope visit later this year--those were 
not anticipated, and those are in excess of the 20,000 hours 
that we currently budget. It is a combination of fluidity in 
terms of us budgeting for those types of events which we know 
about and can foresee and project and those that are not.
    For example, the Ferguson west front event required the 
deployment of our civil disturbance unit, utilizing 
approximately 2,500 hours of overtime and associated 
enhancements and then we had to continue those. The papal visit 
will be significant in planning and scope, similar to an 
inauguration or perhaps even surpassing that. We anticipate 
very, very, large crowds all during that day, much earlier than 
prior to even before the Pope coming up to the Capitol, lining 
all the streets. It is a huge and very significant event.
    Now, we do a great job. Our officers do an outstanding job 
working with the law enforcement community both here in the 
region and across the country. We work in the field with them 
seamlessly, and as you know--you have been to our command 
center. During those major events, if one came to our command 
center, you would see all of our partner agencies there working 
with us. But that is a huge event that goes above and beyond 
our budget.
    Senator Schatz. Thank you.
    Mr. Larkin.
    Mr. Larkin. Thank you, Senator.
    For the events that we know that occur each year on the 
calendar, again, they are easy to forecast and provide a 
projection. It is for these events that, again, occur out of 
cycle from our budget cycle where, again, we can take a hit 
financially on the amount of resources that we have to apply to 
effect support for those visits, the papal visit being a good 
example.
    Right now, it appears that we are in a good place. However, 
we do not know what we do not know. They are actively planning. 
The State Department is working with the Vatican and also local 
resources here to really scope what that visit is going to 
entail. The Metropolitan Police Department, a great department, 
is one that we have a great relationship with them. But the 
fact is no one police department in DC can lift the strain of 
this visit alone. So it really requires a significant mutual 
aid effort that not only involves the departments here in the 
District of Columbia but also involve outside resources. And 
all those resources need to be coordinated, need to be 
supported in order to address what we fully expect to be a mass 
of humanity that will show up for this event. I have been 
involved in a number of papal events and have protected a 
number of Popes, and it is unlike any other--the closest 
comparison would be an inaugural. But this will go over and 
above an inaugural.
    In addition, depending on where he goes on the eastern 
seaboard, we could very well be asked to contribute personnel 
to other cities such as Philadelphia and New York just by 
virtue of the fact that our police officers here, our 
departments here are very familiar with these type of events, 
and as his events take place in other cities, there could be a 
mutual aid request to send and deploy forces there in support.
    Senator Schatz. Ms. Adams.
    Ms. Adams. We do not anticipate any new costs for the 
Secretary's Office. Our involvement in events--you know, so far 
I have only participated in a couple of these with the State of 
the Union and the most recent visit by Prime Minister 
Netanyahu. But our Office of Interparliamentary Services will 
work with the Sergeant at Arms Protocol Office, but there 
should not be any new costs that come to our office.
    Senator Schatz. Thank you.
    And we here want to make sure that this is successful and 
seamless and safe. And then on the budgeting side, on the 
appropriations side, maybe we can at least stay in touch to 
see--I know it is going to be a moving target, but I would sure 
hate for the chair to be surprised next year about a shortfall. 
But there is no reason to do anything less than everything that 
is necessary to make sure that everybody, including and 
especially the Pope, is safe.

                       DRONES AND DEFENSE TACTICS

    Chief Dine, I have a question about drones. Last month, 
drones were spotted flying all over Paris, hovering over the 
Eiffel Tower. We know that a hobbiest voluntarily admitted to 
flying over onto White House grounds. The Federal Aviation 
Administration (FAA) has released proposed drones regulations, 
setting some restrictions, but largely allowing private drone 
use. And without getting into a classified conversation or any 
of your operational plans, I would just like you to talk a 
little bit about how you are ensuring that the Capitol Police 
have the latest and best information on drone capabilities and 
potential defense tactics.
    Chief Dine. Yes, sir. Thank you.
    The Capitol Police actually has had an airspace coordinator 
for the past 12 years, and we actively work with other law 
enforcement partners on a variety of issues, including the 
challenges we face regarding the unmanned aerial vehicles, or 
UAVs. In fact, 2 weeks ago, U.S. Capitol Police facilitated a 
meeting with over 20 law enforcement agencies regarding drones, 
and the meeting focused on four key areas: the general issues 
and concerns with these types of UAVs, the current laws that 
each agency follows and would use to prosecute such types of 
events--and we actually had people from the U.S. Attorney's 
Office, local prosecutors at the meeting as well--the types of 
tools for responding to these kinds of challenges, and lastly, 
the development of a common and consistent message to the 
community because that is also important in terms of educating 
our community about these types of vehicles and what would be 
legal and not legal. Of course, we discussed a number of other 
related aspects.
    We do work with all of our law enforcement partners on a 
daily basis in coordination not only regarding UAVs but a 
variety of other airspace issues. We are very plugged into this 
issue because of the fact that we have had an airspace 
coordinator, and you are familiar with some of the capabilities 
we have in our command center. This unique challenge is 
something that we need to stay on top of consistently and be 
plugged in at the highest levels with all of our partner 
agencies to make sure that we have the capability and 
adaptability and nimbleness to respond.
    Obviously, as it relates to the specific tactics and 
approaches, I would be glad to meet with you in a private forum 
to discuss some of the capabilities and things that are being 
looked at more specifically to combat these types of things. We 
are very plugged into the issue and aware of the challenges 
that they bring.

                 PUBLIC ACCESS POLICIES AND PROCEDURES

    Senator Schatz. Chief Dine, I want to ask you about the 
unique mission that the Capitol Police have to contend with, 
arguably different than any other police force, which is the 
foundation of American democracy, access to citizens and staff 
and the press to the Capitol campus. And yet, you have an 
incredible obligation to protect the members and the staff and 
the citizens.
    And I understand almost 10 million people last year came 
through the doors, and these are a lot of different doors. Each 
entry point is unique and traffic volume fluctuates, and some 
are mostly visitors. Some are members. Others are staff and 
advocates. But it is an incredible challenge to balance those 
two things leaning heavily on the safety and the security side, 
but understanding that you still have to move people 
efficiently and that a lot of times this is someone from some 
other State and their only time in their life to really be in 
the midst of American style democracy in this particular 
fashion. So I recognize the challenge that the force has and 
that your officers have.
    How do you ensure what policies and procedures and what 
training do you have in place to make sure that you have alert 
officers at all times throughout their shifts?
    Chief Dine. We do a number of things. We rotate officers 
through their posts. We give them a number of breaks. One of 
the things that we have been doing much more aggressively, as I 
alluded to earlier, was pushing out key pieces of intelligence 
information. It keeps them focused and alert and cognizant of 
the various types of challenges that we face.
    As you mentioned and as I mentioned earlier, we are kind of 
an amalgamation of multiple types of agencies, and we take very 
seriously and are very proud of the fact that we are protectors 
literally of the democratic process, but we are also 
ambassadors. Our role as America's police department is such 
that when people come to the United States Capitol from all 
over the world, we want, when they see our officers who are 
often the first faces that they see when they come here and 
often the last face they see, that they have just encountered 
the best in American policing. That is what we want them to 
believe and feel and see when they see us.
    The alertness of our officers is critical. The various 
types of threats that we face as they are moving people around 
this very open campus, as we know, is quite a challenge, and 
obviously it is imperative that our officers are alert and on 
watch 24 hours a day, 7 days a week. We engage in all those 
types of activities to make sure that they are in that mode.

                           CELL PHONE POLICY

    Senator Schatz. What is your policy on cell phones?
    Chief Dine. We have a policy, obviously, that precludes 
folks from not paying full time and attention to their duties 
while they are on their posts.
    Senator Schatz. Is it a general prohibition on being 
distracted, or is there a specific reference to use of smart 
phones and cell phones?
    Chief Dine. Both, but we do give phones to our officials 
and some officers have phones, but we want them to refrain from 
using them while on post. As you know, we moved forward last 
year, thanks to your support, with our new radio system which 
is working splendidly. We want them to utilize a police radio 
if they need to call for relief or call for a supervisor or 
need to make an emergency phone call or deal with some type of 
thing where they need to go offline. Officers have the 
capability and adaptability to do that through our police 
radio, and then obviously, they can get a break and make a 
phone call. But it is imperative based on the significance of 
our role that they are paying full time and attention.
    Senator Schatz. Thank you very much.
    Thank you, Chairwoman.
    Senator Capito. Thank you.
    I would like to ask a few more questions if the panel will 
bear with me here.
    I would like to talk to the Sergeant at Arms on the IT 
upgrades. You mentioned just briefly--but we did have the 
outage in January where the Senate system--the whole network I 
think--went down. And you mentioned that the $13 million 
increase for this coming year would go a long way to help to 
prevent something like that happening again. Could you speak to 
what happened and what this upgrade would do to prevent 
something like that happening again?
    Mr. Larkin. Yes, Chairman. Essentially we had a significant 
switch failure at our primary computing facility that was due 
for an upgrade during the February recess. However, it failed 
in January. No other explanation other than that.
    Senator Capito. Was that upgrade in the budget for last 
year?
    Mr. Larkin. It had been considered for upgrade a number of 
years ago, but because of some of the budget pressures, a 
decision was made to push out the refresh, which goes back to 
Senator Schatz's question about the effects of squeezing our 
budgetary line.
    The source of the shutdown has been clearly identified. The 
new hardware has been installed and is currently being tested 
and is due for switch-over very shortly. And we expect that as 
far as this type of scenario occurring again, we have mitigated 
it with a high degree of confidence. In the event that we 
have--again, I do not want to say a similar incident, but an 
incident that challenges our systems the way we were challenged 
in January, we will have a seamless switch-over to our 
alternate computing facility without interruption to services.
    Senator Capito. Thank you.
    I am going to kind of wade into something here. Another 
topical question in front of us today is the use of official or 
personal email accounts to conduct business. I guess I am 
unclear as to who sets the policy here for the Senate and what 
policy exists. I mean, I think this is something that we need 
to clarify. Is that something that falls within your domain at 
the Sergeant at Arms?
    Mr. Larkin. Chairman, I will have to get back to you, 
again, with a clear answer on that. Again, obviously, with what 
has occurred recently in the news, it has drawn attention to 
this. There are policies in place. I would like to get back to 
you as to the source of those policies and how well they are 
defined.
    Senator Capito. Okay, because I am speculating, obviously, 
that if you are going to guarantee the security of the networks 
of the Senate.gov, that does call into question where is the 
security of personal emails. It is not an uncommon practice to 
have two accounts. So I would like to follow up on this. I 
think it is a discussion we should have here.

                            HEARING SECURITY

    And one other thing for you is--and you and I have talked 
about this. There was an occurrence in one of the subcommittee 
hearings right after you took the job, where there was a call 
to question as to the security that was provided to the 
Senators and the witnesses that were testifying because of some 
protestors in the room.
    I mean, having been in several meetings where this has 
occurred, many times folks who want to verbally protest or wave 
signs will prepare the panel and the Capitol Police and say 
this is what we plan to do. We want to have our protest. And 
normally you can contain that easily, and then most of them 
will then exit the room or sit quietly for the remainder of the 
committee hearing.
    But in this case, it sounded like it sort of got out of 
hand. The timeliness of the reaction was questionable. I know 
Senator McCain was very upset by what had happened in his 
committee.
    So I guess both of you would probably be appropriate to 
answer this, but I would like to give you as Sergeant at Arms, 
because you and I have talked about this, what kind of 
protocols you are putting into place to try to alleviate that 
situation.
    Mr. Larkin. First of all, Chairman, the McCain incident was 
underwhelming and ineffective response, which drew the 
attention to the fact that we have high profile hearings that 
occur almost daily on this campus. It motivated a look at our 
procedures. It also created an opportunity to get together with 
the new committees and ensure that everybody was in sync with 
the committee processes and how to deal with these scenarios, 
should they occur. The Capitol Police was very much involved in 
that effort, along with the Sergeant at Arms and the 
Secretary's Office, again, to ensure that everybody was 
operating on the same playing field and understood what the 
expectations were as far as conducting a committee hearing or, 
for that matter, conduct that would be inappropriate in a 
member's office by one of these groups that would show up 
unannounced to voice their opinion.
    There was significant focus on not obstructing their free 
speech. However, as you alluded to, we accomplished getting 
with these groups in advance of these hearings clearly 
outlining what was appropriate behavior and what was not 
appropriate behavior and then informing them as to what the 
consequences would be.
    Personally I directed the Capitol Police department as the 
Chairman of the Police Board that anyone that is to be removed 
from a hearing room for inappropriate behavior, whether it 
presented a safety issue or a security issue, would be 
arrested.
    Senator Capito. Is that a new policy?
    Mr. Larkin. That is a policy that had been exercised in the 
past. However, I clarified that policy so that there would be 
no misinterpretation as to when it would be enforced. And we, 
again, got together with the committees, informed them of that.
    Since these new processes have been in place, we have not 
had any problems. We have had incidents, but they have been 
quickly brought under control. Folks who have elected to voice 
their opinion about various subjects have been allowed to do 
so, but then when they have been warned, they either comply or 
they are removed from the hearing room.
    Senator Capito. Chief Dine, did you want to make a comment 
on that?
    Chief Dine. I can echo those remarks from the Sergeant at 
Arms. Our response that day was not acceptable and not up to 
our high standards. It did allow us to work with the Sergeant 
at Arms and his staff and all the committees to highlight 
further the communication between us, the Sergeant at Arms 
staff, and the committees so we know ahead of time the 
expectations of all parties.
    We generally do an outstanding job at liaisoning with these 
groups. Almost on a daily basis we protect the First Amendment 
and the people's right to be heard up here. As an agency we 
take that very, very seriously and, frankly, are very proud of 
the manner in which we do that. That being said, the work of 
the Congress must go on uninterrupted, and when we need to take 
action, we need to do that.
    It allowed us to formulate some better training, working 
with our General Counsel's office who provides us outstanding 
assistance. We actually are providing scenario-based training 
so our officers and officials are extremely confident when they 
are in these types of situations in terms of what actions to 
take and what different laws apply. As Mr. Larkin said, they do 
that on a daily basis very well generally. It allowed us to 
strengthen the communication, the training, and the clarity 
about which we want the officers to act.
    Senator Capito. Well, thank you.

                             USCP OVERTIME

    I am going to ask another budgetary question here. I 
understand that striking the best balance between the cost of 
on-board officers and the cost of overtime has been a 
persistent struggle for the Capitol Police. The projected 
overtime costs for fiscal year 2016 are $30.9 million, and the 
budget request maintains, as we have said, the current officer 
strength at 1,775.
    So I am curious to know from the leadership's perspective, 
both Chief Dine and Sergeant at Arms as chairman of the Capitol 
Police Board, where things stand today. Is this the best we can 
do? Is it possible to drive down overtime costs, or does 
maintaining the 1,775 officers mean that we will always have a 
$30 million cost of overtime? Chief Dine?
    Chief Dine. Yes, ma'am. Thank you. I think there are a 
couple key points that relate to this question.
    The first one being the mission requirements of the 
department significantly exceed the staffing levels we have. 
There will always be the necessity of overtime.
    Senator Capito. Could I ask just a quick question here? 
Because you and I talked about this. Your staffing level is at 
1,775. You are authorized for more officers. Correct? Or is 
that your statutory limit?
    Chief Dine. We are authorized 1,800 sworn positions.
    Senator Capito. 1,800?
    Chief Dine. Yes, ma'am.
    Senator Capito. Okay. Continue. Sorry.
    Chief Dine. What is asked of the agency has historically 
exceeded our ability to do that without overtime. Our 
requirements just exceed the staffing levels we have. There 
always will be some use of overtime in certain situations like 
this, and often it is more practical than having excess 
capacity. It frankly makes us more nimble in a lot of ways. 
However, there are additional fiscal year 2016 overtime costs 
related to the conventions.
    The other key point that I mentioned earlier was part of 
our overtime cost relates to training needs because we have to 
backfill people when we take them off line for training, which 
is a little bit different than most other departments would 
operate.
    We obviously work continually with the Capitol Police Board 
to determine that balance, to try to strike that correct 
balance between overtime and what we request in a given fiscal 
year. If we were to ask for more officers ever in the future, 
it would still not offset overtime for that year because of the 
time it takes to get officers on board. I mean, that is sort of 
a hypothetical answer. It takes about a year to get full 
utility from officers even when we hire them. I have obviously 
directed our COO and CAO to continually monitor overtime costs 
and strike that best balance between where we are fiscally with 
the use of overtime and the number of people we have on board.
    Right now, we are not at 1,775 either. We are always 
striving to get to that number.
    Senator Capito. Where are you right now?
    Chief Dine. Probably around 1,730 or----
    Senator Capito. Is that built into your budget that you are 
50 under?
    Chief Dine. Yes, ma'am. The budget is built to get to 
1,775.
    So it is a constant, I guess, striking that best balance 
between staffing and overtime. And as I mentioned, the overtime 
amount for what we are requesting is almost $2 million for the 
conventions and training is about $1.5 million.
    Senator Capito. Sergeant at Arms, do you have a comment on 
your overview? And I am curious to know, do you have overtime 
in your department? Do you pay overtime on your budget?
    Mr. Larkin. There is some overtime components, but it is 
for particular employees that are working in like our parking 
areas and some of the other, what I would say, ground support 
activities.
    Senator Capito. So what comment would you make in terms of 
the $30 million overtime at the Capitol Police?
    Mr. Larkin. Well, first of all, as chairman of the Police 
Board, it is incumbent upon me and the House Sergeant at Arms 
and the Architect who make up the Police Board to provide 
effective oversight on this overtime issue. Fortunately, my 
deputy with his extensive appropriations background has been 
invaluable in the examination of the police budget and the 
overtime factor.
    I think this is going to be an ongoing challenge as we try 
to adjust the force to the threat conditions that challenge the 
Capitol and also for the no-notice or those activities that are 
not planned for or budgeted for in advance.
    I will say, Chairman, that one of the things that continues 
to haunt the force and our staffing is the discussion about 
opening up doors. That does not come without a cost in human 
resources and a financial cost, let alone a security challenge 
that it presents to our armor, so to speak.
    Senator Capito. One of my colleagues just hit me the other 
day. They ought to reopen that door, the one down at the----
    Mr. Larkin. Well, I can understand. You know, security is a 
balance between what is effective against a threat, you know, 
applying some common sense and reality as to how we can 
effectively defend against a threat. And I am not talking about 
goal line defense. I am talking about getting out ahead of the 
threat, getting to it early so that we mitigate, minimize any 
destruction. But you got that dynamic tension between that and 
inconvenience. And there is also a factor of perception. In 
other words, does your perception of security and a secure 
environment match the functional security against that threat? 
And obviously, if you are close to an incident such as 9/11, 
then you have a high expectation for security. You kind of 
trade off a lot of the inconvenience that comes with security. 
The more you move away from that date, then you see that 
pressure. But you have to accept that you also potentially are 
putting yourselves more into a vulnerable position.
    Senator Capito. Right. Thank you.
    Senator.
    Senator Schatz. Thank you.
    Senator Capito. Well, I think I have no further questions. 
And this concludes the Legislative Branch Appropriations 
Subcommittee hearing regarding fiscal year 2016. I want to 
thank the Secretary of the Senate, the Sergeant at Arms, and 
the Chief of the Capitol Police. Thank you each for your 
testimony and your frankness in your answering questions.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for 7 days, allowing 
members to submit statements and/or questions for the record 
which should be sent to the subcommittee by close of business 
on Thursday, March 19th, 2015.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Frank J. Larkin
          Questions Submitted by Senator Shelley Moore Capito
    Question. Does the SAA currently utilize, or plan to implement, a 
cloud computing based information technology infrastructure to operate 
and deliver programs to the public?
    Answer. The SAA is not currently utilizing a specific cloud 
computing based IT infrastructure, however, the Senate is already 
utilizing multiple separate cloud services primarily focused on public 
access to information. We are taking advantage of cloud services where 
they make the most sense for our environment, including: Committee 
Video Streaming; Senate.Gov Website Serving; Web development tools/code 
repository, Application Platform as a Service, Document repository, 
Document Sharing; Office File Storage, Synchronization, & 
Collaboration; Social Media; Senate Floor Video Streaming; Live Video 
Streaming; Video Streaming; Social Media Archiving; Geographic 
Information Services.
    Cloud Computing is a very general term that encompasses a large 
number of service types that are frequently very complex. The SAA is 
continually researching and evaluating these services and taking 
advantage of them whenever the benefits to the Senate and/or the public 
are clear and measureable. The SAA fully expects to be utilizing more 
and more cloud services as we move forward.
    Question. Are there particular IT applications like e-mail, 
disaster recovery, analytics, or other programs that SAA would consider 
moving to cloud computing?
    Answer. The SAA has an ongoing Cloud Computing Research and 
Evaluation initiative with the goal of making recommendations regarding 
cloud computing strategies for the Senate. The scope of this initiative 
includes currently available public and private cloud services and will 
evaluate all IT services provided by the SAA with respect to them. 
Nothing is off the table from an IT perspective, however, there are 
many other considerations such as data custody, data security, cost, 
reliability, and performance, just to name a few.
    Question. With today's mobile workforce, how does SAA provide 
availability, while ensuring data governance and security?
    Answer. The SAA provides Mobile Device Management technologies and 
on-campus wireless network access to offices, which we use to apply 
fundamental security controls. Additional security controls are under 
the purview of the office system administrator. Although the SAA does 
not have authority to control or view the data transmitted, stored, or 
processed on these devices, we nonetheless offer training and guidance 
to offices on how they can best secure their information.
    Question. What are SAA's plans to leverage technologies like data 
or video analytics, to provide more proactive security measures on 
Capitol Hill?
    Answer. The SAA works with the U.S. Capitol Police and our Federal 
law enforcement partners to research and examine various forms of new 
technology that show potential for use as security multipliers on 
Capitol Hill and the member State offices. These forms include data or 
video analytics as well as other technical security methods. The SAA 
will continue to consider new technology, their associated deployment 
capabilities and costs, as they relate to mitigating current/relevant 
threats and risks.
                                 ______
                                 
                Questions Submitted to Hon. Kim C. Dine
          Questions Submitted by Senator Shelley Moore Capito
                            expenses account
    Question. The requested increase includes $1.4 million for 
Government support services from the National Finance Center and the 
creation of an in-house capability for applicant testing and background 
investigations. It appears as though you are proposing to contract out 
for something that could be handled within the Department's Office of 
Human Resources, while at the same time you are proposing to create an 
in-house capability that would make more sense to contract out. Please 
explain why the Capitol Police needs to purchase support services from 
the National Finance Center and create an in-house capability for 
background investigations.
    Answer. The $1.4 million budget request is intended to upgrade 
current HR processing functions with the National Finance Center (NFC) 
and the expansion of an in-house capability to conduct employee 
background investigations that were previously conducted by 
contractors.
    When the sequester took effect, the Department discontinued using 
an automated staffing tool with a performance management component that 
was very costly. The Department currently uses mainframe technology 
which is antiquated and inefficient to process personnel actions with 
NFC, which is our payroll system of record. This request will fund a 
one-time cost to upgrade to a new platform with the National Finance 
Center using technology that automates personnel action processing, 
managers self-service, position management and offers an add-on 
component called ePerformance. ePerformance is a self-service 
performance evaluation application for managers, employees and human 
resources administrators. This new platform also offers capability to 
interface with USAStaffing which is the Department's cost saving 
automated staffing tool that supports paperless onboarding to provide 
end to end processing throughout an employee's career lifecycle.
    Regarding the expansion of the Department's background 
investigation capability, recent current events had generated 
significant concerns surrounding the accountability and security of PII 
information and the rising costs of cases being investigated through 
contracted support. Due to such risk, we already are performing more 
in-house, and this funding will allow us to fully fund and stabilize 
that effort. Bringing the investigations in-house has minimized the 
risk of security breaches on Capitol Hill and has allowed for a more 
thorough investigation into each candidate to include subject 
interviews, and to interview key individuals in an applicant's sphere 
of contacts to insure the agency hires the right people who possess the 
qualities, values and character outlined in the Capitol Police Board's 
hiring standards. The Department will no longer rely completely on 
external support to conduct field investigations but will instead 
perform more of the investigative work and provide controlled oversight 
of personnel security. This initiative includes merger of the Badging 
and Credentials and Background Investigations Sections to ensure the 
integrity of PII, quality, timeliness and eventual cost effectiveness 
of investigations through internal continuity. This effort also 
improves the alignment of business processes and expertise with well-
defined roles and responsibilities to perform this critical work for 
the Department. The proposed expansion is designed to eliminate 
vulnerabilities and instill confidence in our stakeholders.
    Question. There are a multitude of requested increases throughout 
the general expenses budget that pertain to training. Will this funding 
level be a new baseline for training needs in future fiscal years?
    Answer. This is another area that has suffered due to the budgetary 
constraints of the last several years. Our increase for training is to 
restore us to training levels throughout the Department that existed 
about 5 years ago.
    There is training that occurs every year. The training of our new 
recruits is our most significant training effort and our request each 
year is based on the number of recruits we project to hire. This 
request is based on ensuring that we maintain our current funded 
staffing levels of 1,775 sworn officers. However, the on-going training 
of our sworn officers is the next most significant training effort. 
Training for our civilian personnel is also critical. This involves 
non-personnel costs and personnel costs, as we need to relieve the 
officers from their ongoing duties to take the training and that 
backfill costs results in projected overtime for the Department. The 
non-personnel costs involved in officer training is fairly static each 
year.
    Many of the increases in our request this year is for individual 
training for officers, officials and civilians, which is reflected in 
various places in our budget as it affects nearly every bureau and 
office, not just a targeted group within the Department. In tight 
fiscal situations this is the training that must be deferred first, as 
the previous two trainings have the highest priority. But we are asking 
to restore training for only the highest needs of the Department and 
are incurring the biggest increases in our most technological entities. 
The technical training, particular in security services, IT and cyber, 
are areas we want to keep as up to date as possible. We do see these 
increases as baseline increases and do not foresee significant 
increases after this.
    Question. The request includes $2.7 million for travel, rental of 
telecommunications equipment, and other purchases associated with the 
Republican and Democratic Presidential Conventions scheduled for the 
summer of 2016. Is this funding request based on actual expenditures 
from the Presidential Conventions in 2012? Knowing that those 
conventions are well covered by the Secret Service, the FBI and other 
law enforcement agencies, would it be possible for the Capitol Police 
to scale back its presence if the full amount of funding requested was 
not available?
    Answer. The funding request is based on actual expenditures with 
normal cost increases. There is no new functionality we plan to 
implement that was not performed at prior conventions. The United 
States Capitol Police has the primary responsibility for the protection 
of Members of Congress, Officers of Congress and immediate family 
members of Members and Officers throughout the entire United States, 
DC, Territories and Possessions. This, coupled with the scope of 
members attending this event and criticality of ensuring both the 
Continuation of Government and Continuation of Legislative Operations, 
makes the Democratic and Republican Conventions a unique challenge for 
the United States Capitol Police.
    At all events, but particularly events of this magnitude, the 
United States Capitol Police works collaboratively with all of our 
partner agencies in a broad array of general law enforcement functions 
to include, but not limited to, intelligence gathering, dignitary 
protection, law enforcement actions, and other broad measures of 
prevention and response capabilities. However, the Capitol Police 
focuses our resources to ensure that the Congressional Leadership and 
other members of Congress are safe and can participate in the 
convention process without fear of harm. This includes, amongst other 
functions:
  --Securing hotels and spaces for their use in much the same manner as 
        we secure buildings and spaces on the U.S. Capitol Grounds. 
        This is often daunting as often multiple hotels are used in the 
        Convention Cities for members;
  --Participating in a multi-agency response team to ensure our law 
        enforcement experts are available for action and analysis;
  --Analyzing intelligence information for a variety of sources to 
        anticipate and mitigate negative consequence events before they 
        occur; and most critical,
  --Implementing emergency action plans to include shelter-in-place, 
        internal relocation and full evacuation plans to ensure the 
        safety of members, the continuation of Government and the 
        continuity of legislative operations.
    The U.S. Capitol Police, at the direction of the Capitol Police 
Board and the authority of U.S. Code focuses on the congressional 
contingent and their safety. Our resources, which are technical, 
mechanical and human, are concentrated to the mission of the Agency. As 
such, it is not recommended that our funding is reduced. However, the 
U.S Capitol Police will work with our partner agencies, and under the 
direction of the Capitol Police Board will strive to reduce operational 
expenses at every opportunity.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question. What is the USCP policy regarding the use of personal 
cell phones, personal smart phones, or other personal electronic 
devices while on duty?
    Answer. The Department policy is that while personal cell phones 
may be carried on their person; officers can only use them in case of 
emergency. The Department does not tolerate neglect of duty by officers 
failing to pay full time and attention to their duties.
    The actual policy on attention to duty reads as follows:

    Directive 2053.013, Rules of Conduct: Rule B10

        Rule B10: Neglect of Duty

        Employees will devote their full time and attention to the 
        performance of their duties at all times while on duty.

    The applicable policy on carrying a cell phone on their person is 
found in Directive 1701.001, Uniforms and Equipment, Operational 
Directive UNF 1.1, Uniforms, Equipment and Personal Grooming:

        Personal Pagers/Phones/Communication Devices

        1.  When worn, personal pagers must be black or dark in color 
        to blend in with the web gear.
        2.  Personal cellular type phones that serve as pagers must be 
        permitted to the extent that they are used as pagers. These 
        phones must be black or dark in color to blend with the web 
        gear.
        3.  Employees are permitted to carry personal cellular phones, 
        that are black or another color but fully encased in a black 
        cover. Employees must not use personal cellular phones while on 
        duty, except in an emergency.

    Question. What is the discipline process and penalty for violations 
of this policy?
    Answer. The disciplinary process for rank and file officers is 
found in the Collective Bargaining Agreement (CBA) agreed to by the 
Department and the Fraternal Order of Police Labor Committee. Penalties 
for these types of violations can range from a written warning to 
termination based on a series of factors required to be considered in 
the CBA when determining disciplinary penalties.
    A typical process for a violation of this type is that once an 
employee is observed or otherwise found to be Neglecting Duty, which is 
defined as failing to devote full time and attention to duty, then 
discipline is initiated in one of two ways depending upon a number of 
factors.

    1.  Command Discipline Report is initiated.

       Command Discipline is lower level discipline that is initiated 
at the Division-level that can result in a written warning up to 3 days 
of forfeiture of accrued annual leave. A document is placed in the 
personnel file for up to 18 months and this can serve as the basis of 
future progressive discipline. The Chief of Police or Designee is the 
final adjudicator for this level of discipline.

    2.  Department-Level Discipline which results in a ``Request for 
Disciplinary Action'' which is a more serious type of disciplinary 
action can occur, typically as part of progressive discipline. The 
result can range from 1 day suspension (at a higher level) through 
termination. Disciplinary actions stemming from this more severe type 
of disciplinary action can be contested to the Assistant Chief of 
designee, or possibly contested to a Disciplinary Review Board, 
depending on the level of the recommended penalty. Ultimately, the 
Chief of Police is the final adjudicator of this type of discipline.

    Officers who have a disciplinary history can receive a much higher 
penalty for a repeated violation or continued various violations, based 
on their record.
    So based on this question, it would be appropriate to advise that 
for a Commander to determine the most appropriate level of discipline 
and assign an appropriate penalty recommendation for an officer who 
improperly uses a cell phone on duty, a Department manager may issue a 
penalty that can vary based on the required factors for consideration 
found in the CBA: (1) nature and seriousness of the violation, (2) the 
employee's record, (3) comparative penalties (within the last 2 years) 
and (4) any mitigating factors.
    Suffice it to say, there is an established process for 
accountability. Disciplinary actions are based on well-founded 
observations or evidence stemming from field observation or reports of 
investigation. These matters are reviewed at several managerial levels 
of management. Employees are fully aware of the charges made against 
them and they are permitted to be represented by their Union Stewards. 
There is due process in every case and employees are fully able to 
appeal or grieve disciplinary actions.
    The Department's disciplinary process employs the theory of 
progressive discipline, but there is nothing that stops the Department 
from assigning a penalty that the adjudicator believes to be 
appropriate in any instance in order to hold employees accountable for 
their actions. Responsibility for initiating disciplinary actions stems 
from field commanders who observe violations or from complaints made to 
the Office of Professional Responsibility. The Chief of Police is 
ultimately responsible for the overall discipline system.
    The Department's management approach to controlling use of personal 
cell phones has been to regularly emphasize the need for mission-focus 
to our employees and to provide unclassified intelligence bulletins and 
briefs on current threats, to employ field supervisor enforcement, and 
initiate disciplinary actions when appropriate. The importance of 
attentiveness to duty makes it of paramount importance for supervisors 
to instill an anti-complacency message in our workforce and this 
frequently a topic discussed at roll calls.

                          SUBCOMMITTEE RECESS

    The next hearing of this subcommittee will be held on 
Tuesday at 3 p.m. in Dirksen 138. At that time, we will hear 
testimony from the Library of Congress and the Architect of the 
Capitol regarding fiscal year 2016 budget requests.
    Until then, the subcommittee stands adjourned. Thank you.
    [Whereupon, at 11:01 a.m., Thursday, March 12, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                        TUESDAY, MARCH 17, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:05 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Shelley Moore Capito (chairman) 
presiding.
    Present: Senators Capito, Schatz, and Murphy.

                          LIBRARY OF CONGRESS

STATEMENT OF DR. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        DAVID MAO, DEPUTY LIBRARIAN OF CONGRESS
        ROBERT NEWLEN, CHIEF OF STAFF
        MARY KLUTTS, CHIEF FINANCIAL OFFICER
        MARK SWEENEY, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
        ELIZABETH SCHEFFLER, INTERIM CHIEF INFORMATION OFFICER AND 
            ASSOCIATE LIBRARIAN FOR STRATEGIC INITIATIVES
        DR. MARY MAZANEC, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        MARIA PALLANTE, REGISTER OF COPYRIGHTS
        LUCY SUDDRETH, DIRECTOR OF SUPPORT OPERATIONS
        KAREN KENINGER, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE 
            BLIND AND PHYSICALLY HANDICAPPED

           OPENING STATEMENT OF SENATOR SHELLEY MOORE CAPITO

    Senator Capito. Good afternoon. The subcommittee will come 
to order, and I would like to welcome everyone to the third of 
our fiscal year 2016 budget hearings for the Legislative Branch 
Subcommittee of the Committee on Appropriations.
    The ranking member, Senator Schatz, is in the Commerce, 
Justice, and Science (CJS) Appropriations hearing at the 
minute. He's in a holding pattern of 7 minutes before he gets 
to question, and I asked if he didn't mind--he actually 
encouraged me to go ahead and go forward with the testimony.
    So with that in mind, I just would like to welcome 
everybody. Today we will have two panels of witnesses. The 
first panel will be Dr. James Billington, the Librarian of 
Congress, accompanied by the Deputy Librarian, Mr. David Mao, 
and the Chief of Staff of the Library, Mr. Robert Newlen.
    At the completion of Dr. Billington's testimony and the 
subsequent question-and-answer session with the Library, we 
will then turn to the Architect of the Capitol, the Honorable 
Stephen Ayers, for our second panel.
    I would like to begin by welcoming Dr. Billington, who this 
past September marked his 27th year as the Librarian of 
Congress, quite an achievement. That's a wonderful 
accomplishment, and we thank you for your dedication to the 
Library and for your many years of public service.
    I would also like to welcome the newest members of Dr. 
Billington's team, your leadership team, who together with the 
combined 75 years of service to the Library of Congress bring a 
wealth of knowledge to these new leadership positions: Mr. 
David Mao, the Deputy Librarian of Congress; Mr. Robert Newlen, 
the Chief of Staff; and Mary Klutts, the Chief Financial 
Officer. We congratulate you on these new responsibilities and 
wish you all the best in helping to lead the Library through 
the next chapter of its life.
    I understand that there are several other members of the 
senior leadership team here today. I did get a chance to meet 
them all, so I appreciate all of you coming and I want to 
extend to you the subcommittee's appreciation for all the 
tremendous work that you do in supporting the Congress in 
keeping the Nation informed and maintaining the history of our 
Nation, as well as others around the world.
    So again, thank you all for being here with us today for 
this important discussion on how the Library is planning to 
move forward in the coming fiscal year.
    I note that the Library's total fiscal year 2016 budget 
request is $624.5 million, or a $33.5 million or 6 percent 
increase above the fiscal year 2015 enacted level. Given the 
continued budget constraints within which we must operate, it 
will be important to hear from you what the most critical 
priorities are for the Library because we may not be able to 
fund all of the requested increases.
    So now I would like to turn to my ranking member, but he's 
not here, so I'll turn to him in a few minutes.
    I would like to ask Dr. Billington to give a brief opening 
statement of approximately 5 minutes. The written testimony you 
submitted to the subcommittee will be printed in full in the 
hearing record.
    Dr. Billington.

              SUMMARY STATEMENT OF DR. JAMES H. BILLINGTON

    Dr. Billington. Thank you, Madam Chairman and members of 
the subcommittee. Thank you for the honor and pleasure of 
providing testimony in support of the fiscal year 2016 budget 
request of the Library of Congress. We're grateful for the 
support that this subcommittee has given to the Library, and we 
look forward to working with you as public servants, living in 
a time of both continuing budget constraints and an ongoing 
revolution in how knowledge is generated and communicated and 
used.
    You have already mentioned several of the new management 
colleagues appearing for the first time before the 
subcommittee. I would just mention in addition to the three you 
mentioned are Mark Sweeney, Associate Librarian for Library 
Services; Elizabeth Scheffler, Interim Chief Information 
Officer and Associate Librarian for Strategic Initiatives; Dr. 
Mary Mazanec, Director of the Congressional Research Service; 
Maria Pallante, the Register of Copyrights; and Lucy Suddreth, 
Director of Support Operations; and as well another member of 
the Library's management team, Karen Keninger, Director of the 
National Library Service for the Blind and Physically 
Handicapped.
    The Library of Congress fiscal year 2016 budget request is 
for approximately $660 million and represents a 5.7 percent 
increase over the Library's fiscal year 2015 funding level. 
Nearly two-thirds of this requested increase, $21.9 million, is 
needed to cover mandatory pay increases and unavoidable price 
level increases anticipated for fiscal year 2016. The 
remainder, $13.9 million, makes key investments in 
infrastructure of our aging physical plant and information 
technology and addresses gaps in critical areas of expertise 
that we've lost to attrition, a particularly acute need in the 
Congressional Research Service (CRS).
    In recent years, the Library has operated with 
progressively fewer resources. The total Library appropriation 
has decreased by more than $53 million--almost 8 percent--since 
fiscal year 2010. We're doing much more with many fewer 
employees. Since 1992, the Library has added its massive 
digital programs to its still growing traditional analog 
collections and services despite losing 1,429 full-time 
equivalents (FTEs). Our fiscal year 2016 budget request will 
further reduce the number of authorized FTEs across the Library 
by 405, or 11 percent, because we simply cannot support them 
with current funding.
    We are deeply concerned also about moving into fiscal year 
2016 with the prospect of another sequestration, which would 
require making additional cuts to our programs and would 
prevent us from making necessary investments in infrastructure 
and in staff with critically needed skills and expertise.
    The Library continues to serve the Congress and the 
American people in ways that no other institution anywhere can 
match. The Congressional Research Service is the research arm 
of the legislative and oversight work of the Congress, and we 
also serve Congress through the Nation's largest law library. 
As the de facto national library of the United States, the 
Library now acquires, preserves, and makes accessible free of 
charge the largest, most wide-ranging collection of humanity's 
recorded knowledge ever assembled anywhere in the world by any 
one institution.
    The U.S. Copyright Office encourages, protects, and 
preserves the work of America's innovative curators. The 
Copyright and Library Services staff work hand in hand to 
ensure that the copyright of intellectual culture of the 
American people is preserved, continuing to fulfill the 
original mandate of copyright when it was brought into the 
Library in 1870.
    The National Library Service for the Blind and Physically 
Handicapped provides the only free public library reading 
service for these Americans, wherever they live.
    We are taking steps to maximize efficiency, minimize the 
cost of the Library's services, and placing a much greater 
emphasis on shared services both within the Library and across 
the entire Legislative Branch, such as the Legislative Branch 
Financial Management System, which is hosted by the Library. We 
recognize that there is much congressional discussion at the 
moment about the important work of updating copyright law for 
the 21st century, and as the Act is updated, Congress' Library 
needs to be sure that the concept of building, preserving and 
protecting this key part of the national memory for the benefit 
of the American people is not lost.
    There are two unique characteristics of the Library of 
Congress that make it an increasingly valuable resource for 
sustaining American leadership in the information age. First, 
both our security and economic competitiveness globally are 
increasingly dependent on the acquisition and the use of the 
world's knowledge, for which the Library is the entire world's 
preeminent resource. Secondly, America's special capacity for 
creative innovation is sustained and advanced by America's only 
comprehensive storehouse of our citizens' copyrighted 
intellectual and cultural creativity.
    Madam Chairman, the Library of Congress is the world's 
largest reservoir of knowledge. The Library embodies and 
advances the distinctive American ideal of a knowledge-based 
democracy. We will be grateful for your consideration of our 
fiscal year 2016 funding request.
    To the subcommittee, Madam Chairman, all of you, I wish to 
thank you all again for your support of the Library.
    [The statements follow:]
             Prepared Statement of Dr. James H. Billington
    Madame Chairman, Ranking Member Schatz, and members of the 
subcommittee:

    Madame Chairman, thank you for the honor and pleasure of providing 
testimony in support of the mission and fiscal 2016 budget request of 
the Library of Congress.
    The Congress of the United States created in 1800, and has 
generously supported ever since, this amazing one-of-a-kind 
institution. We who work with and for you at the Library of Congress 
are deeply grateful for the annual appropriation you entrust to us. We 
are in continuing awe of the enduring mission you have shaped for us 
through a series of historic mandates. We are, at the same time, public 
servants living in a time of both continuing budget constraints and an 
ongoing revolution in how knowledge is generated, communicated, and 
used.
    I come before you today in the midst of an extraordinary year of 
unprecedented, purely internal, library-wide self-examination from the 
bottom up and top down. This collaborative process is preparing us to 
produce by the end of fiscal 2015 an altogether new strategic plan for 
fiscal years 2016-2020. It will be designed both to maximize efficiency 
and minimize cost. We will build on the Library's already proven 
strengths and make the Nation's oldest Federal cultural institution one 
of its most innovative.
    Congress's library now acquires, preserves, and makes accessible 
free-of-charge the largest and most wide-ranging collection of 
humanity's recorded knowledge ever assembled anywhere in the world by 
any one institution. We also house an unparalleled collection of the 
multi-media cultural and intellectual creativity of the American 
people.
    For fiscal 2016, we are asking for $666.629 million, a 5.7 percent 
increase over our 2015 budget. Because of the unique skills of so many 
of the Library's staff, we have kept to a minimum cuts in our pay 
budget. But irregular funding for mandatory pay raises and price 
increases, attrition in our aging workforce, and limitations on new 
hirings have already weakened key areas of our expertise, and they can 
no longer be replaced by redeployments from base funding. Therefore, 
the Library's budget request for fiscal 2016 is needed to cover a few 
critical resource additions ($13.9 million), but mostly just mandatory 
pay and price level increases ($21.9 million).
    The unique services performed by the Library's dedicated and multi-
talented staff include:
    1.  Our highest priority of providing all congressional members and 
committees with authoritative, timely, and non-partisan research and 
analysis to support the legislative and oversight work of both houses 
of Congress, through the Congressional Research Service (CRS) and the 
world's largest Law Library (LAW).
    2.  Encouraging, protecting, and preserving the work of America's 
innovative creators through the U.S. Copyright Office (COP), which 
registers these works, records copyright documents, and administers the 
Nation's copyright law.
    3.  Providing the only free public library reading service for 
blind and physically handicapped Americans wherever they live, thanks 
to the Library's National Service (NLS) and its home delivery of 
braille and talking books through local libraries.
    4.  As the de facto national library of the United States, 
providing multiple and unique services that almost invariably could not 
be done as well or better by any other existing institution. Library 
Services (LS) supports the entire library system of America through our 
cataloging standards and services and our multi-formatted preservation 
research and practices. And for 20 years the Library has been providing 
massive, curated, primary documents of American history and culture 
online for the education and inspiration of K-12 teachers and students 
and for life-long learners of all ages.
    Congress's Library is in many ways America's strategic information 
reserve: a unique multi-media resource of growing importance for 
America in the turbulent information age. At the beginning of the 
current fiscal year on October 1, 2014, the Library contained more than 
160 million analog items in virtually all languages and formats and 5 
petabytes of stored digital content. The Library also continues to 
receive, index, and store copies of half a billion Twitter messages a 
day.
    We have put in place an entirely new and collaborative top 
management team to bring our traditional analog and digital services 
closer together. We now have an outstanding new Deputy Librarian of 
Congress, Chief of Staff, and Associate Librarian for Library Services. 
All three have already successfully exercised multiple responsibilities 
within the Library of Congress and in the broader library community.
    We have also made four additional new appointments to assure the 
highest quality for future core Library services: a former Dean and 
President at two leading universities as the director of all of the 
Library's Scholarly Programs; two widely experienced technologists as 
the Interim Chief and Acting Deputy Chief Information Officers of the 
Library; and a deeply experienced new permanent head of the Library's 
financial services division, which also does work for other legislative 
branch services.
    This new leadership--as well as our year-long, staff-level Futures 
Program--has been added from within the Library without any additional 
expenses. We are doing much more work with far fewer employees. Since 
1992, the Library has added its massive digital programs to its still 
growing traditional analog collections and services despite losing 
1,429 FTE's, about 30 percent of our workforce.
    Last year, the Library provided reference services to more than 
467,000 individual researchers, recorded more than 78 million visits to 
our Web sites, and provided more than 23 million copies of braille and 
recorded books and magazines to more than 890,000 blind and physically 
handicapped reader accounts.
    In recent years, the Library has operated with progressively fewer 
resources. The total Federal appropriation has decreased in excess of 
7.8 percent: from $684.3 million in fiscal 2010 to $630.9 million in 
fiscal 2015.
    Our fiscal 2016 budget request will further reduce the number of 
authorized FTE positions across the Library by 405--11 percent--because 
we cannot support them with current funding. We have cut critical 
infrastructure, deferred important investments, consolidated broad 
program areas, and strengthened governance processes.
    We will need in the near future more flexibility in hiring an 
expert staff--not just for this Library, but for our country. The 
erosion of basic funding is already compromising our ability to deliver 
high-quality knowledge resources to the Congress and the American 
people. And we must make key new investments in the critical 
infrastructure of our aging physical plant and information technology.
    The following are some of the most pressing challenges that the 
Library faces if it is to avoid unintentionally slipping into a decline 
that might be easy to overlook but impossible to reverse.
    The Library's Congressional Research Service provides objective, 
nonpartisan information and analysis solely in support of the Congress. 
Last year, in the 100th year of its founding, CRS served 100 percent of 
Congressional Members and standing committees through tailored 
briefings, varied programs, and confidential memoranda. The Service 
supported Congress with a full range of written analyses and personal 
consultations for which the Director's testimony provides a detailed 
chronicle. CRS must often move quickly to marshal resources from a 
variety of disciplines across and beyond the Service to provide members 
and committees with legal and policy options to confront complex and 
fast-moving national and international problems.
    CRS has lost senior expertise in areas that cannot easily be back-
filled: trade, defense, natural resources, social policy, and public 
finance--and continues to need dynamically to reshape its workforce, to 
continue to provide the authoritative and objective research and 
analytical support that have been the Service's hallmark for the last 
100 years.
    Storage Space: Delays in executing the Ft. Meade master plan have 
left the Library's existing facilities functionally beyond capacity. 
Nearly a million books are currently stored on the floor or on book 
trucks in the Jefferson and Adams buildings, with more than 250,000 new 
volumes arriving every year. Continuous growth of the collections 
without a commensurate increase in acceptable storage space has led to 
a crisis of significant proportion, posing threats to the safety and 
well-being of Library staff; the preservation and security of 
collections; the ability to serve the Congress, researchers, and the 
Nation through free interlibrary loans; and preserving the structural 
integrity of the book stack areas of the Jefferson and Adams Buildings. 
We urgently seek $4.8 million to expand collections storage capacity 
through the installation of compact shelving and lease of interim 
collections storage space until planned Ft. Meade modules are 
available. We are grateful for fiscal 2014 funding for the construction 
of Ft. Meade Module 5; however, even when Module 5 is fully built and 
available in fiscal 2018, we will still be unable adequately to meet 
our storage needs and unable to mitigate the issues of overcrowding and 
safety violations. In the long run, completion of the storage modules 
at Ft. Meade will be vastly more cost effective.
    The Law Library is a small enterprise with a critical mission. The 
Law Library currently is unable to address fundamental collection needs 
after multiple years of unfunded pay increases and direct budget cuts. 
Additional funding is essential to ensure that the Law collections are 
cataloged in compliance with accessibility and classification standards 
widely accepted by all researchers. As of September 30, 2014, 
approximately 408,000 volumes remained unclassified.
    Skill Gaps: Over the last 5 years, the Library has developed 
significant skill gaps that have opened up serious holes in word-class 
expertise, many of which are caused by the Library's inability to back-
fill. Holding positions vacant is one of the few means available to 
accommodate mandatory pay raises in the absence of new funding. 
Identifying and filling skill gaps was one of the strongest 
recommendations of the staff in the Library's Futures Program.
    Library Services, the largest unit of the Library, recently lost 
the language and subject matter expertise and technical skills of its 
sole South Asian expert, seriously reducing the servicing of 
collections and reference questions about India. We also lost our 
Turkic language expert, radically diminishing our acquisitions and 
reference service for material from the many different Turkic-language-
speaking countries. The Manuscript Division now lacks high-level 
subject matter expertise in legal, military, science, and technology 
areas. And many Library Services divisions, as well as the Law Library, 
need more skilled technologists to work with our growing digital 
content.
    The U.S. Copyright Office: A Scholar in Residence recently 
delivered to the Register a comprehensive report with recommendations 
for transforming the operation of publicly recording copyright-related 
documents, including copyright assignments and licenses. It was the 
first substantive analysis of document recordation in several decades 
and will assist the Register in planning activities necessary to 
bringing recordation online in fiscal 2015 and 2016. The Copyright 
Office also recently published a major policy study on the current 
music licensing system, Copyright and the Music Marketplace, which one 
leading industry publication called a ``rare instance of government 
getting out in front of moving technology.'' The many challenges of 
copyright in the digital age are discussed in detail in the separate 
report of the Register of Copyrights to the committee.
    The Library recognizes there is much congressional discussion at 
the moment about updating the copyright law for the 21st century. This 
work could not be more important when the economic, social, and 
intellectual value of copyrighted works is so significant to America 
and the world. As the Act is updated, the Library wants to be sure that 
the concept of building, preserving, and protecting a ``national 
collection'' for the benefit of the American people is not lost.
    Fifty or 100 years from now, members and constituents will turn to 
the national collection to read, learn from, and build upon the 
creative output of American authors, composers, filmmakers, artists, 
and others--just as citizens today are reaping the value of creative 
works that were added to the collections in 1965 and in 1915.
    Copyright deposit built much of the national collection. Congress 
has made the Library the sole repository of copyrighted works. New 
works must continue to be added to the national collection at the 
Library--especially in the Internet age, when the nature of information 
itself undergoes so many changes. This is a commitment that the 
Congress, the patron of the national collection, and the Library, its 
steward, have made to current and future generations of Americans.
    Despite our many challenges, this is a time of great promise for 
the Library. Digital technology is transforming in all areas of our 
work to deliver services to the Congress and its constituents.
    We are asking for $2 million to fund the Digital Collections 
Center, to provide proper stewardship of the Library's rapidly growing 
digital content. Over the last 5 years, the Library's traditional 
analog collections have averaged 3.6 million added pieces per year. 
During this same period, archived Web content has grown exponentially 
from roughly 125 to 582 terabytes, an annual average increase of more 
than 73 percent. The development of a dedicated Digital Collections 
Center, with the capacity to manage and sustain all this digital 
content, is an essential investment to fulfill the Library's 
collections stewardship mission now and into the foreseeable future.
    The Library's strategic management of its information technology 
assets and operations is a significant issue addressed in the report 
language of this subcommittee last year and in recent findings of the 
GAO. Management of recommendations in strategic planning, enterprise 
architecture, human capital management, investment management, system 
acquisition and development, security, and service management are all 
challenges that our Interim Chief Information Officer and her Deputy 
are now moving aggressively to address; and the Library is conducting a 
national search for a permanent Chief Information Officer, whom we 
expect to have in place by the end of this year.
    Last year I spoke of the Futures Program that will inform the next 
strategic plan. Library staff from many different programs and levels 
below the Executive Committee suggested new 21st century approaches to 
fulfilling the Library's historic service missions. The Futures 
Program's recommendations have generally built on the Library's unique 
strengths and required minimal new resources. They reaffirmed the 
historical integrity and objectivity of all Library of Congress 
services--keeping the Library free from any commercial or political 
advocacy agendas and demonstrating the Library's importance for 
sustaining American leadership in an increasingly knowledge-dependent 
world, while launching new initiatives.
    The Library is also meeting the challenges of minimizing 
duplication in performing its services--placing a much greater emphasis 
on shared services both across the legislative branch and within the 
Library. Currently, the Legislative Branch Financial Management System 
(LBFMS) resides at the Library, which holds the financial system not 
only for the Library but also for four other legislative branch 
agencies. In fiscal 2016, the Architect of the Capitol will become the 
fifth cross-serviced agency.
    The Library collaborated with the House and Senate and other 
legislative branch agencies to more effectively exchange and present 
legislative information by adding new online features and data to 
Congress.gov and by contributing to the Speaker's Bulk Data Task Force. 
Internally, the Library is moving forward with a range of shared 
service initiatives, such as implementing a Library-wide geospatial 
information system to address the mutual needs of staff in CRS, Library 
Services, and the Law Library in responding to congressional requests. 
Other examples of service and economy-motivated joint opportunities are 
the execution of a Library-wide plan for the contract and use of mobile 
devices, development of a business case for Library-wide performance of 
IT security certification and accreditation requirements, and forming 
the requirements for a single authoring/publishing system for research 
performed at the Library.
    The Library's Veterans History Project (VHP), unanimously mandated 
by both houses of Congress, is now the largest oral history project in 
America. VHP will celebrate its 15th anniversary in October and will 
soon reach 100,000 recorded oral histories. Over the last year this 
program has collaborated with more than 150 congressional offices, 
providing constituent services, briefings, and volunteer training 
sessions for interviewing those who served in the military in all 
America's wars during the last century.
    In 2014, the Library continued its very popular evening services of 
Congressional Dialogues on Great American Presidents, provided 
exclusively for Members of Congress. The Library's new James Madison 
Council Chairman, David Rubenstein, skillfully interviewed renowned 
experts like David McCullough, Scott Berg, and Doris Kearns Goodwin 
about the challenges and accomplishments of seven iconic Presidents: 
George Washington, John Adams, Thomas Jefferson, James Madison, Abraham 
Lincoln, Theodore Roosevelt, and Woodrow Wilson. Members then asked 
questions and made off-the-record comments, having previously studied 
key original documents from each President's collections in the 
Library's vast holdings of early Americans. We are continuing this 
series into 2015, expanding it to include great Americans. These unique 
events regularly attract at least 120 Members of Congress, and this 
year's series opened on February 3 with a well-attended dinner and 
dialogue on Benjamin Franklin.
    The Library has presented a particularly rich array of public 
exhibitions and special events over the past year. More than 112,000 
visitors viewed the Magna Carta: Muse and Mentor exhibition at the 
Library from November 6, 2014 to January 19, 2015 in honor of the 800th 
anniversary of this document. The King John 1215 Magna Carta, loaned by 
the Lincoln Cathedral, was its centerpiece, and rare items from the 
Library's rich collections showed the Magna Carta's importance to the 
development of constitutional law in the United States. Seven United 
States Supreme Court Justices took part in the celebratory events along 
with a former Chief Justice of the United Kingdom, and HRH The Princess 
Royal, the only daughter of Queen Elizabeth II.
    Other new Library exhibitions last year included Mapping a New 
Nation: Abel Buell's Map of the United States, 1784; A Thousand Years 
of the Persian Book; and The Civil Rights Act of 1965: A Long Struggle 
to Freedom, including Martin Luther King, Jr.'s original copyrighted 
``I Have a Dream'' speech.
    The Library of Congress had an unusually rich year of free poetry 
readings and concerts. Particularly memorable was a program led by the 
great baritone Thomas Hampson celebrating the different historical 
stages and versions of our national anthem. A star-studded program at a 
packed Constitution Hall honored Billy Joel with the Library of 
Congress Gershwin Prize for Lifetime Achievement in American Popular 
Song. PBS extended the length of its nation-wide television broadcast 
from its customary hour to a first-ever 90 minutes.
    On February 4, 2015 the Library formally opened to researchers the 
Rosa Parks collection of approximately 7,500 manuscripts and 2,500 
photographs. On loan to the Library for 10 years from the Howard G. 
Buffett Foundation, the collection includes personal correspondence and 
photographs, and letters from Presidents. A small display of items from 
the collection will subsequently be on public exhibit.
    During March 4-7 we celebrated the 150th anniversary of Abraham 
Lincoln's great speech at his second inaugural with a rare public 
display of the President's original reading copy. The 15th annual 
National Book Festival will take place this September.
    The Library of Congress is the world's preeminent reservoir of 
knowledge. The Library embodies and advances the distinctly American 
ideal of a knowledge-based democracy. We will be grateful for your 
consideration of our fiscal 2016 funding request.
                                 ______
                                 
Prepared Statement of Mary B. Mazanec, Director, Congressional Research 
                                Service
    Madame Chairman, Senator Schatz and members of the subcommittee:

    As the Congressional Research Service (CRS) begins its second 
century of service to Congress, it is a pleasure to appear before you 
today to present our fiscal year 2016 budget request. Two thousand 
fourteen--our centennial year--was a time of celebration, reflection, 
and activities that drew our staff together. We also engaged present 
and former members in discussions concerning CRS, the evolution of the 
institution and its support for the Congress, and what the future may 
hold for both the Service and Congress.
    I hope you have had the opportunity to read the history we prepared 
of CRS's first one hundred years, ``CRS at 100: Informing the 
Legislative Debate Since 1914''. It not only highlights the 
accomplishments of CRS in support of the Congress but also shows the 
breadth and depth of expertise embodied in our staff and their 
commitment to our mission of helping provide for a more informed 
legislature.
    We are also very proud of another special centennial publication, 
the Senate Rules Committee Print, ``The Evolving Congress'', which 
features a series of essays analyzing important trends in the evolution 
of congressional organization and policy making over the last many 
decades. Next month, with support from the Hewlett Foundation, we are 
continuing that important discussion at a special event with E.J. 
Dionne, Michael Gerson, and Frances Lee. I hope you will be able to 
join us for what should be a fascinating evening delving into the 
history of Congress and its future development.
    Last year also marked the 100th anniversary of the Constitution of 
the United States of America Annotated, which we celebrated with a day-
long program in September. Popularly known as CONAN, this Senate 
Document is prepared by attorneys in the CRS American Law Division and 
tracks the jurisprudence of the Supreme Court of the United States. The 
program brought together prominent legal scholars and commentators and 
included a dialogue about the Supreme Court with Justice Ruth Bader 
Ginsburg.
    It was truly an honor to serve as the Director of CRS during this 
important milestone in our history.
                          support for congress
    While we celebrated our centennial, CRS also provided research and 
analysis, expert consultation, and an enhanced Web presence to support 
the full spectrum of congressional policy deliberations. In the last 
year, CRS experts worked with every member office and congressional 
committee to help you and your staffs navigate the wide range of 
complex and controversial issues that confronted Congress. We answered 
over 61,000 individual requests; had over 7,500 people attend CRS 
seminars, trainings, and briefings; and provided more than 3,500 new or 
refreshed CRS reports and other products. CRS.gov is now the repository 
for nearly 10,000 reports and other information that is accessible at 
all times.
    Two high-profile issues that were addressed by the 113th Congress 
help illustrate both the depth and flexibility of CRS work for 
Congress:
    The 2014 Farm Bill is a good case study of how the Service assists 
in the regular, deliberative process of reauthorizing major, complex 
legislative programs. From the very start of deliberations to replace 
the expiring 2008 Farm Bill, CRS food and agriculture policy analysts 
provided in-depth analysis of various legislative proposals across a 
broad spectrum of policy areas that included farm commodity support, 
conservation, trade, rural development, nutrition, credit, bio-energy, 
livestock, horticulture, and research.
    Authorizing committees, individual members, and congressional staff 
called on CRS to explain the intricacies of current farm and food 
policy and to help identify and analyze policy options for revamping 
the Federal farm safety net. As the legislation moved forward, CRS 
experts continued to provide individualized support, including 
preparing committee staff for legislative markup, analyzing proposed 
committee and floor amendments, briefing individual members and their 
senior policy staff, and evaluating a slate of legislative options.
    As a group, CRS analysts conducted several well-attended seminars 
for congressional staff on the various farm bill titles, with 
consideration of how farm bill spending is affected by pressures for 
deficit reduction. These seminars were so popular that CRS needed to 
schedule additional sessions to accommodate interested congressional 
staff.
    With many provisions of the 2008 Farm Bill expiring before the new 
legislation could be finalized, CRS also fielded many questions about 
the effects on issues of concern for members' districts. CRS staff 
responded with authoritative reports and tailored briefings to help 
members manage the evolving situation.
    The overall support to Congress was a testament to the 
interdisciplinary nature of contemporary policy deliberations, as 
agriculture and budget analysts at CRS collaborated with attorneys to 
provide comprehensive coverage of the issues.
    Of course, CRS support did not end with enactment of the 
legislation. After passage, Congress shifted to their oversight role, 
closely monitoring the Department of Agriculture's implementation of 
the new law. CRS analysts continue to play an integral role in the 
oversight process, responding to numerous requests on the implications 
of the new farm bill, and have conducted a number of ``Agriculture 
101'' briefings for member offices and committee staff about the law. 
In addition to multiple informative reports on the farm bill, CRS 
developed a side-by-side analysis of the new law compared to its 
predecessor and the Senate and House bills.
    The Ebola Virus Outbreak highlights the flexibility of the Service 
to provide in-depth research and analysis for the unanticipated, fast-
breaking global challenges that can suddenly find their way onto the 
legislative agenda.
    Last summer, reports of the rapidly spreading Ebola Virus Disease 
(EVD) raised serious concerns among U.S. and international government 
officials and lawmakers. At one point in early August, the Centers for 
Disease Control and Prevention estimated that there could be over one 
million cases of EVD globally by 2015 if the rate of transmission was 
not dramatically curbed. Those concerns, which became heightened and 
accelerated once the first U.S. case was reported, triggered a large 
number of inquiries from congressional offices, along with hearings on 
the public health, legal, and international implications of the 
disease, as well as the U.S. Government response to the crisis.
    The CRS response to this public health crisis was swift, 
thoughtful, multi-disciplinary, authoritative, and timely. CRS analysts 
from across the Service supported ongoing congressional hearings and 
investigations into the response to EVD. To provide a broad spectrum of 
information, CRS experts from multiple divisions used the full range of 
CRS products--from traditional reports to newer short-form documents, 
including Insights, Legal Sidebars, and FAQs--to examine the crisis 
from a variety of perspectives, including public health, legal, 
international health and relations, transportation and commerce, 
immigration, homeland security, and clinical research and product 
development.
    Analysts also conducted in-person briefings and hosted a ``Question 
and Answer'' event that was made available to all members and staff in 
person and through video on the CRS Web site.
    By having deep in-house expertise on a wide range of issues, and 
the ability for CRS experts to work collaboratively, the Service was 
able to quickly develop the information Congress needed on EVD. That in 
turn helped members and their staff develop appropriate courses of 
action to respond to a rapidly changing situation with broad health and 
national security implications for the country.
    Other Legislative Topics: While the Farm Bill and the Ebola 
outbreak provide a snapshot of how CRS works, over the last year, CRS 
provided similar support on the entire range of issues before Congress.
    CRS analyzed multiple economic, financial, and budget issues, 
including tax reform, oversight of the implementation of the Dodd-Frank 
Wall Street Reform and Consumer Protection Act, the Export-Import Bank 
reauthorization, and Bitcoin, just to name a few. Experts also helped 
congressional offices understand the impact of the Government shutdown 
and tracked and analyzed the fiscal year 2015 budget request and 
appropriations process throughout the year. Congress looked to CRS for 
support on many complex domestic issues, including unaccompanied 
immigrant children, veterans' health, human trafficking, child welfare, 
violence against women, and sexual assault in the military. CRS experts 
also supported the congressional debate on the Keystone XL pipeline, 
hydraulic fracturing, re-authorization of Federal highway and public 
transportation programs, and cybersecurity.
    On the foreign affairs front, CRS staff analyzed policy options to 
address the conflicts in Syria, Iraq, Iran, and the Ukraine; and 
relations with Russia, North Korea, and China. In addition, CRS 
supported the Congress on pending international free trade agreements 
and monitored the negotiations of the Trans-Pacific Partnership, and 
the U.S.-EU Transatlantic Trade and Investment Partnership.
    CRS also presented a symposium on Senate rules changes last year. 
CRS experts, a former parliamentarian, and past Secretaries of the 
Senate discussed the impact of these changes with senior Senate staff 
in attendance. The program was followed by numerous briefings and 
seminars tailored to member and staff needs.
                         budget considerations
    Over the last year, the Service has been able to fill some critical 
gaps in our analytical and information professional ranks. We also 
hired research assistants to support analysts and contribute to a 
broader mix of products and services and we continue to improve the CRS 
Web site and technical capabilities. With the additional staff, we have 
replaced about one-third of the decreases in personnel that occurred 
over the past few years due to budget reductions. While we are thinner 
than we would like in some areas, we are constantly monitoring our 
staffing across the service to ensure that we have the skill sets and 
expertise needed to support Congress.
    The CRS fiscal year 2016 budget request is $111,956,000 to fund 
mandatory pay and price level changes as well as a program increase to 
enhance research capacity on healthcare policy.
    Health Experts. The budget request includes a program increase of 
$1,087,000 and six FTEs to add six health policy analyst/attorney 
positions and $250,000 of contractor technical and programming support 
for large health data systems. This increased analytical capacity is 
needed to meet the high client demand and fully support the work of 
Congress on healthcare issues. As the healthcare industry is becoming 
increasingly complex, additional expertise is needed to analyze for 
Congress recent changes in the financing of health insurance and the 
delivery of healthcare services. Extra analytical support is also 
needed to support Congress as it confronts emerging issues under 
Medicare, Medicaid, the State Children's Health Insurance Program, and 
employer-based and private health insurance. In addition, the 
regulatory framework has become more complex, and provision of 
healthcare to veterans has come under recent scrutiny. That increase in 
demand and complexity is putting real pressure on CRS health experts, 
some of whom are shouldering two to three times the average number of 
requests as other CRS staff. The six requested staff positions would 
help relieve that pressure and add expertise in evaluating health 
industry trends and availability, tax and legal issues, veterans' care, 
and data evaluation.
    Workforce Initiatives. We are continuing to examine the composition 
of our workforce to ensure that we have the right mix of skill sets and 
expertise to best serve the Congress. Last year, we hired 11 research 
assistants to assist analysts and diversify areas of specialization. We 
also increased our editorial capacity to support authors in the 
preparation of products for Congress and have expanded our graphics 
capabilities to enhance the visual presentation of CRS research and 
analysis. Our information professionals utilize digital librarianship 
skills, and recent hires have reflected changes made to these 
positions. We plan to critically assess these initiatives to determine 
how these positions and skill sets best fit into the organization and 
what other modifications to our workforce may be needed.
    Product and Service Enhancements. CRS continues to seek new and 
innovative ways to deliver information and analysis to Congress. In 
fiscal 2014, CRS increased the diversity of its product line by 
establishing a new product type, the CRS Insight, a short, Web-only 
product designed to present timely information, research, data, and 
analysis in an easily accessible format. Along with the earlier 
launched Legal Sidebar, the Insight responds to client demand for 
succinct products that are published quickly in response to fast-moving 
public policy issues.
    CRS is participating in a Library-wide project to develop a 
geospatial infrastructure that will enable the Service to offer 
interactive maps to Congress. The goal is to make available to Congress 
fully interactive maps that allow clients to view details of interest 
and toggle data layers to visualize the resulting differences. We have 
a small team of geographic information system (GIS) analysts and 
information professionals that provide GIS services to congressional 
clients. GIS uses visualization for the focused analysis of complex 
concepts.
    CRS established an infographics working group in 2014 to consider 
methods to improve delivery of image-based content in our written 
products and on our Web site. The use of this content to convey 
information and analysis is widely recognized as an effective form of 
communication. Although image-based content (e.g., tables, graphs, 
maps) produced by CRS is typically embedded into written products, 
users of CRS products could benefit from the creation of a new product 
line devoted to stand-alone, high-quality ``infographics,'' which 
present complex information in a condensed visual form that may be 
easily understood without the need for an accompanying written product. 
A pilot study has begun with the goal of displaying infographics 
products on CRS.gov this year.
    CRS enhanced its Web site home page last year with a modern 
appearance with more space for content and for expanding product lines. 
The home page is also stylized to the modern user's preference for 
mobile access. Other new features of the website include graphic images 
to accompany highlighted reports and icons to help the user distinguish 
the different types of products. A video carousel at the foot of the 
home page highlights CRS videos, and a similar display on issue pages 
highlights CRS experts who have authored products on selected issues 
and who are available for consultation.
    As part of the Library's multi-departmental team, CRS contributed 
to continuing development and daily operations of the next generation 
legislative information system platform and services. Congress.gov will 
replace two legacy legislative information systems (LIS and THOMAS) 
with a single, modern one. CRS provided data analysis, subject matter 
expertise consultation, system testing, user testing, coordination of 
data partner relationships, and support for congressional users and 
data partners. CRS also continues to support the use of the Congress-
only LIS until equivalent capability is fully developed for the new 
Congress.gov. Since late September, 2014, Congress.gov has been the 
official website for U.S. Federal legislative information.
                               conclusion
    As CRS begins its second century, we remain committed to our core 
values and mission: providing comprehensive, authoritative, objective, 
timely and nonpartisan research and analysis on all legislative, 
oversight, and representational issues of interest to Congress.
    The entire CRS staff works hard every day to ensure that you, your 
staffs, and committees have the information, analysis, and support you 
need as you do your jobs.
    We are very proud of the work we do. But we know we could not have 
achieved all we have in our first 100 years without this subcommittee's 
support. I appreciate your continued support and look forward to 
working with you to ensure that CRS is a state-of-the-art research 
service responsive to the information and analytical needs of the 21st 
century Congress.
                                 ______
                                 
  Prepared Statement of Maria A. Pallante, Register of Copyrights and 
             Director of the United States Copyright Office
    Madame Chairman, Ranking Member Schatz, and members of the 
subcommittee:

    Thank you for the opportunity to present written testimony in 
support of the budgetary needs of the United States Copyright Office.
    As always, I am grateful to the Librarian for putting forward the 
request detailed below. While it does not reflect the entirety of 
Copyright Office needs, it is a reasonable request put forward in a 
difficult budget environment, and one of many that the Librarian has 
sought to balance. As stated in more detail in the Librarian's written 
request, the agency is also seeking funding for library acquisitions, 
storage, preservation, and staffing relating to the singularly 
important national collection.
    The Copyright Office is a congressionally-created department within 
the Library of Congress and is vested with the statutory responsibility 
of administering the Copyright Act and other provisions of title 17, 
including the national copyright registration and recordation systems 
and several statutory licenses. Today, the Copyright Office sits at the 
center of a complex and dynamic legal and regulatory system. Its work 
is vital to all types of businesses, the Congress, courts, and the 
digital economy.
    Copyright industries create jobs, invest in content, and bring to 
market important works of authorship, from films to video games to 
business software to books to musical works. The technology companies 
with whom they partner also create jobs, drive innovation, and bring to 
market a variety of platforms and mobile devices that have defined the 
digital economy. It is no surprise that copyright issues are so 
essential to trade agreements and the global marketplace.
    In past couple of years, the House Judiciary Committee has held 
extensive hearings on the copyright law, including, for example, the 
exclusive rights of authors, enforcement issues, fair use, and 
voluntary agreements. The Copyright Office has supported Congress in 
these efforts, including by testifying, assisting with interpretation 
of the law, and conducting major policy studies. Last year, the 
Copyright Office issued a major report recommending the creation of a 
small claims system. This year, the Copyright Office published a 
comprehensive report on the music marketplace and is finalizing 
additional reports on orphan works and the ``making available'' right.
    Congress is also reviewing the Copyright Office. On September 18, 
2014, the House Judiciary Committee held an oversight hearing on the 
Copyright Office, at which I testified. On February 26, 2015, it held a 
hearing entitled, ``The U.S. Copyright Office: Its Functions and 
Resources,'' at which external witnesses testified.\1\ During these 
hearings, Members of Congress covered a range of questions including 
budgetary and resource needs, efforts to upgrade and improve Copyright 
Office services, and the Copyright Office's current statutory and 
constitutional structure within the Library. We are respectful of these 
proceedings and are ready to respond to inquiries or otherwise 
participate, as appropriate.
---------------------------------------------------------------------------
    \1\ Witnesses included Keith Kupferschmid (General Counsel for the 
Software & Information Industry Association), Lisa Dunner (Partner at 
Dunner Law PLLC, on behalf of the American Bar Association's Section on 
Intellectual Property Law), Nancy Mertzel (Partner at Schoeman Updike 
Kaufman & Stern LLP, on behalf of the American Intellectual Property 
Law Association), and Robert Brauneis (Professor at the George 
Washington University Law School).
---------------------------------------------------------------------------
    Since I was appointed Register in June, 2011, I have focused the 
Copyright Office on projects that are self-evaluative, including how to 
upgrade our current practices and whether to create entirely new 
paradigms for certain processes. This might include, for example, the 
ways in which we register works of authorship or record documents such 
as assignments, licenses, security interests, and other forms of 
ownership. Most would agree that the Copyright Office must be more 
interoperable with the technology of its customers, and must offer 
timelier and more innovative services, including business-to-business 
data exchange and applications that work on mobile devices.
    As I explain further below, the Copyright Office has spent the past 
few years engrossed in foundational work, including rebuilding and 
rethinking staff positions, updating registration practices, assessing 
legal and business issues related to recordation, and conducting a 
variety of public-facing projects to engage our customers as to the 
future Copyright Office. We have undertaken this work to ensure that we 
make plans that will have a meaningful impact on our customers, and 
make IT and staffing investments that are both responsible and prudent. 
We are now at the point where we are compiling research, coordinating 
conclusions from reports, and engaging in cost and other business 
analysis. This work will proceed in accordance with available funding.
    This Committee--the Senate Subcommittee on Legislative Branch 
Appropriations--is also interested in the ability of the Copyright 
Office to evolve. In 2014, the Report language that accompanied the 
fiscal year 2015 appropriation stated:

        The Committee recognizes that the digital revolution has 
        transformed the copyright marketplace and, as a result, the 
        role of the Copyright Office in our economy. The Committee 
        finds that Copyright Office will also need to evolve and adapt 
        to the challenges of these new realities. In fact, the 
        Committee notes that public comments recently submitted by the 
        copyright community indicate that the Copyright Office is 
        currently in need of significant IT and related upgrades in 
        order to be fully interoperable with the digital economy it 
        serves.

    The Report also included a directive to the Government 
Accountability Office (GAO) ``to examine the Copyright Office's current 
information technology infrastructure and identify any deficiencies or 
obstacles to serving the copyright community in a modernized 
environment.'' We have responded to GAO's questions regarding IT 
management during the past several months and hope the subcommittee 
will find this information helpful.
    I would also note that on February 18, 2015, we released a report 
of the Technical Upgrades Special Project Team. This team was charged 
with assessing the concerns and suggestions of the Copyright Office's 
customers during the past few years, and has made a number of 
recommendations regarding future services that would require sound 
enterprise architecture and a robust IT infrastructure. I am grateful 
to the Project Team for this valuable contribution, which will serve as 
an important resource for the Copyright Office, the Library, and the 
Congress. The Report, notice of public inquiry, and public comments are 
available at http://copyright.gov/docs/technical_upgrades/.
    Thank you for your support of the Copyright Office and for 
considering the appropriations request put forward today.
                    fiscal year 2016 budget request
    The Copyright Office is funded through a combination of fees for 
services and dedicated appropriated dollars. The Copyright Office 
administers funds through three separate budgets or program areas: (1) 
Basic Budget, (2) Licensing Budget,\2\ and (3) Copyright Royalty Judges 
Budget.\3\ Together, the requests for these total $58.875 million for 
fiscal year 2016.
---------------------------------------------------------------------------
    \2\ The Licensing Budget request is $5.388 million, all of which 
derives from licensing royalty and filing fee collections paid by 
private parties (copyright owners as well as cable and satellite 
licensees) pursuant to statutory licenses administered by the Copyright 
Office. The requested increase is for mandatory pay and price-related 
increases.
    \3\ The Copyright Royalty Judges report by statute to the 
Librarian, but the Register administers their budget as an 
administrative courtesy. The budget request for the Copyright Royalty 
Judges is $1.584 million to support mandatory pay-related and price 
level increases, of which $389,000 (for non-personnel-related expenses) 
derives from licensing collections. The remainder, $1.195 million in 
appropriated dollars, is to cover the personnel-related expenses of the 
Judges and their staff.
---------------------------------------------------------------------------
    The focus of this statement, however, is the Basic Budget, which 
funds most of the Copyright Office's core work and operations. The 
Basic Budget request this year is $51.9 million. Approximately $30 
million of this is derived from fees for which the Copyright Office is 
seeking spending authority. The Copyright Office is also requesting 
$21.9 million in appropriated dollars.
    This request calls for an increase of $2.705 million dollars and 
the reinstatement of 25 FTEs. Fees would fund about $2.029 million of 
the total; we would use the fees to backfill 20 vacant positions in our 
registration program. As discussed below, the Copyright Office 
implemented a revised schedule of fees on May 1, 2014, following an 
extensive public process. Putting this money back into registration 
services is a fitting investment.
    The remaining $675,825 is a request for appropriated dollars; we 
would use this funding to add five new hires to our recordation staff.
    It should be understood that some of the Copyright Office's 
operational costs are offset by services provided by the Library of 
Congress through appropriations it receives as the parent agency. These 
costs are not itemized or tracked, and they are not taken into account 
when the Copyright Office analyzes and implements its fee schedules.
                    administering the copyright law
Registration
    If the subcommittee approves our request for additional spending 
authority, most of the 2 million dollars would go to strengthening the 
registration staff under the expert guidance of Robert Kasunic, 
Associate Register and Director of Registration Policy and Practice. In 
fiscal year 2014, the Copyright Office approved and registered claims 
in approximately 476,000 creative works, including 219,000 literary 
works and 65,000 sound recordings. Since fiscal year 2012, however, the 
Copyright Office has been experiencing an upward trend in the backlog 
of claims and average processing time for applications. In 2012, the 
average processing time for claims filed on paper applications was 4.8 
months; the current processing time is 13.5 months. The average 
processing time for claims filed online electronically has also 
increased, rising from 3.1 months to 4.4 months over the same period. 
These increases are mostly attributable to the loss of registration 
staff, which has declined by approximately 50 FTEs.\4\ (In the case of 
electronic claims, some of the delay stems from ongoing problems with 
technology systems, as well.)
---------------------------------------------------------------------------
    \4\ This number tracks losses since 2010. The Copyright Office 
today has 76 professionally trained examiners to handle approximately 
half a million copyright claims involving millions of works of 
authorship; we had close to 130 examiners in 2010. Assuming we can hire 
12-32 examiners in 2015 and 2016, the Copyright Office will still be 
below capacity, particularly given the increasing complexity of 
addressing digital works and new practices.
---------------------------------------------------------------------------
    As we hire new registration experts, the Copyright Office must 
train them in the copyright law, regulations and practices, and prepare 
them to address a constantly changing world of content and business 
models. The lengthy training schedule, coupled with the fact that the 
backlog continues to grow, provides a sense of urgency to reverse staff 
losses in this critical division. It is also the case that practices 
are becoming more complex than before, as authors, publishers, and 
producers continue to change the ways in which they create and 
disseminate works of authorship.
    In December 2014, we completed a major, multi-year special project 
by releasing the Compendium of Copyright Office Practices, Third 
Edition. The first major revision in two decades, the Compendium is a 
comprehensive guidebook regarding registration and other Copyright 
Office practices. It is relied upon by Copyright Office staff but also 
serves as a recognized authority consulted by copyright owners, legal 
practitioners, and the courts, which frequently give the Copyright 
Office deference in registration policy and related issues. This was an 
important and necessary accomplishment for the Copyright Office, and 
one that we announced publicly in our 2011-2013 work plan, entitled 
Priorities and Special Projects of the U.S. Copyright Office.
    Notably, the Compendium is just the beginning of a digital makeover 
for registration. It provides the necessary legal foundation by which 
the Copyright Office may now pursue regulations and practices that 
recognize and serve the digital economy. For example, the Copyright 
Office will need to determine the rules and standards by which it 
registers: works that change routinely (like news Web sites); works 
that are disseminated by streaming instead of copies (like on-demand 
film, television, and sports programming); works that contain valuable 
and proprietary source code (like business software); and works that 
contain copy controls and other anticircumvention measures (like video 
games).
Recording Assignments, Security Interests, and Other Copyright 
        Documents
    Regarding the recordation provisions of the Copyright Act, the 
Copyright Office also needs resources. The requested increase of 
$675,825 in appropriated dollars for fiscal 2016 would fund five new 
hires in the Recordation section. The Copyright Office has a very lean 
permanent staff of 13 dedicated to this function at the moment. In 
2014, this staff recorded 8,146 documents pertaining to copyright 
interests in more than 144,376 identified works. This function remains 
a paper process, however, in which staff manually index the materials 
received.
    In fiscal 2015, the Congress allocated $1.5 million to the 
Copyright Office to conduct planning and business analysis related to 
updating the recordation function. The long-term objective is to 
automate the document submission and review process to include an 
online filing capability for customers. Significant changes are also 
contemplated regarding service options and the content and format of 
the public record. As noted below, the business analysis we are now 
engaged in follows 2 years of research regarding the overall technology 
of the Copyright Office (relevant to its customer base) as well as the 
relevant legal and business issues related to recording documents in 
the online environment. The additional FTEs we are requesting for 
Recordation represent new positions with skills that will be more 
appropriate to an online function.
    The future of the document recordation function has been an intense 
focus of the Copyright Office for several years, and it too was 
publicly announced in the 2011-2013 Priorities work plan. In the past 2 
years, the Copyright Office engaged stakeholders through multiple 
public roundtables on potential changes to the legal and administrative 
aspects of document recordation and published a major report. We were 
able to staff this work by making targeted appointments and leveraging 
research partners.
    In 2014, with the Librarian's support, I established a dedicated 
Office of Public Records and Repositories. For the first time, as of 
March 2014, these functions are now headed by Ms. Elizabeth Scheffler, 
a senior level officer reporting directly to the Register. (As of 
January, 2015, Ms. Scheffler has been temporarily reassigned to the 
Librarian's Office where she is serving as the Interim CIO for the 
Library until a permanent CIO can be recruited.)
    I also appointed the first Abraham L. Kaminstein Scholar in 
Residence, Professor Robert Brauneis of George Washington University. 
In addition to his own independent research, Professor Brauneis 
completed an in-depth study of the relevant legal issues related to 
updating the business and legal issues related to recording copyright 
documents. Similarly, through Jacqueline Charlesworth, the Copyright 
Office General Counsel, the Copyright Office engaged with Stanford 
University Law School in an academic partnership. Working with 
Professor Paul Goldstein, the Copyright Office considered recordation 
questions from the perspective of students in Silicon Valley. In 
January 2015, we released the report of the Kaminstein Scholar, 
entitled Transforming Document Recordation at the U.S. Copyright 
Office, which in turn references the work of the Stanford students.
Statutory Licenses
    The Copyright Office administers several statutory licenses that 
require the Copyright Office to manage and distribute royalties, 
including those collected on behalf of copyright owners of broadcast 
television programming that is retransmitted by cable and satellite 
operators. The disposition of these private monies is determined by the 
Copyright Royalty Judges (together, the Copyright Royalty Board or 
``CRB'') in distribution proceedings. The work of the CRB is reviewable 
by the Register for legal error, but for constitutional reasons the CRB 
reports to the Librarian as head of the agency. In fiscal year 2014, 
the Copyright Office collected approximately $318 million in royalties 
and made disbursements in accordance with CRB's decisions.
    In fiscal 2014, the Copyright Office completed a second pilot of an 
electronic licensing system to facilitate its administration of 
statutory licenses. The end goal is to launch a system that supports 
online filing and processing of statements of account by statutory 
licensees. As with all Licensing Division operations, this 
administrative initiative is being funded by private funds collected 
under the relevant licenses.
              supporting the congress and federal agencies
Copyright Policy and the Digital Economy
    With respect to policy, the Copyright Office has been at the center 
of discussions regarding potential updates to the Copyright Act, 
working closely with Members of Congress and, in particular, the House 
Committee on the Judiciary. As mentioned above, the House Judiciary 
Chairman convened twenty copyright hearings in the past 2 years, with 
the clear mission of comprehensively reviewing the law to assess how 
well it is working in the digital age. As Register, I have both 
testified on these issues and lent the impartial expertise of my Office 
to assist the process. Associate Register Karyn Temple Claggett, and 
her policy and international affairs staff, were of particular 
assistance during these proceedings.
    It would be an understatement to say that the copyright law is 
complex. Indeed, in the context of the digital economy, the entire 
copyright ecosystem is in a state of ongoing transformation and 
innovation. While challenging, this is also an exciting development for 
the United States, which has long championed a strong but balanced 
intellectual property framework to the benefit of both the content and 
technology industries.
    In addition to its service to the Congress, the Copyright Office 
supports the work of the U.S. Trade Representative, the U.S. Department 
of Justice, the U.S. Department of State, and the U.S. Department of 
Commerce. This work involves major trade agreements, treaty 
negotiations, Supreme Court briefs, and other interagency and 
intergovernmental matters. The Copyright Office has relationships with 
copyright and other intellectual property offices around the world, and 
is frequently involved in intergovernmental and bilateral meetings, as 
well.
Policy Reports of the Copyright Office
    In February 2015, the Copyright Office published an in-depth study 
and legislative recommendations entitled Copyright and the Music 
Marketplace. This report, which analyzes the statutory framework and 
business environment of the music industry, is indicative of the 
Copyright Office's policy role. The report has been recognized by 
Members of Congress, songwriters and composers, music publishers, 
performing rights organizations, record labels, and digital delivery 
services. The expertise comes from the Copyright Office's daily role in 
administering the Copyright Act, and the legal and cultural 
significance of issues such as these is an important factor we use to 
recruit talented lawyers. Nonetheless, the lack of resources, including 
insufficient staff and travel budgets, makes for a challenging 
environment for even the most dedicated of public servants.
    In addition to the music study mentioned above, the Copyright 
Office is currently preparing to issue reports on orphan works and mass 
digitization issues, as well as the application of authors' ``making 
available'' rights in the online environment under U.S. law. Beyond 
studies, the Copyright Office works closely with congressional offices 
every day to provide assistance on complex issues.
    Through its work with the Intellectual Property Enforcement 
Coordinator, the Copyright Office is also nearing completion of an 
online index of fair use cases to serve as a resource for authors and 
others.
              challenges of the current fiscal environment
    The Copyright Office carries out a significant workload for the 
benefit of the Nation. It is doing so, however, with reduced staffing 
and technology deficiencies. These challenges are part of broader 
discussions throughout the Library, but I will note them here briefly.
Staffing and Appointments
    The Copyright Office's total staff is smaller than it should be to 
perform its complex and important statutory assignments. We currently 
have approximately 360 filled positions under the Copyright Basic 
Budget, a number that will improve somewhat if fees remain steady and 
we can make the 25 requested hires in Registration and Recordation in 
fiscal 2016. Internally, staff reductions are felt as a workload 
distribution increase on already over-burdened employees. And over time 
the Copyright Office will be at a disadvantage if it cannot attract and 
retain experts, particularly in the legal and technology fields.
    To compound the stress, our authorized FTE ceiling will be reduced 
to 411 (for the Copyright Basic Budget including the 25 FTEs mentioned 
above) following recent congressional direction to the Library to 
reconcile and eliminate unfunded positions. This is a considerable 
reduction at a time when the Copyright Office needs staff and would in 
fact hire them if it had funding. In 2005, by comparison, the FTE 
ceiling was 492 (again, for the Copyright Basic Budget).
    On a positive note, the Copyright Office completed the first phase 
of reorganizing its departments and resources in 2014 and has begun 
filling senior-level positions as a foundational step toward a fully 
modernized Copyright Office. Among other things, with the Librarian's 
support, I established the first Copyright Office Chief Information 
Officer (CIO). Doug Ament was appointed to the position in March 2014, 
after serving several years of heading the Copyright Office's small 
technology office. As CIO, Mr. Ament advises the Register on strategic 
IT issues and engages regularly with our customers, as well as 
technology experts in the government and private sector. He, in turn, 
appointed a new Director of the Copyright Technology Office, who 
reported for duty this January, and is responsible for managing day-to-
day activities of the Copyright Office's IT team and overseeing 
compliance issues with Federal law, regulations, information technology 
standards, and best practices.
    Although these are positive first steps, the reality is that 
Copyright Office has a very small technology office that as of this 
writing has approximately 23 FTEs. This office has always functioned as 
a liaison office to the parent agency, which manages the agency IT 
resources and has more than 200 IT staff. I believe that engaging in 
the kind of IT development activities the Copyright Office needs to 
achieve in the coming years--including building the next generation 
online registration system, achieving interoperability with private 
databases, accommodating mobile technologies, and more--will require 
the agency to reassess this management paradigm.
    The Copyright Office also has a new Office of Public Records and 
Repositories, headed by an experienced senior-level official who 
reports directly to the Register. Similarly, I appointed William 
Roberts, an experienced copyright lawyer and long-time public servant, 
as the first Associate Register and Director Public Information and 
Education. As with other positons mentioned here, this position carries 
out significant responsibilities, including managing the substantive 
content and protocols of www.copyright.gov, the portal through which 
customers access legal materials, participate in rulemakings, register 
claims to copyright, and record licenses and other copyright documents.
Government Accountability Office
    The agency's IT systems and infrastructure are of paramount concern 
for the Copyright Office, and it has been working with the Library, the 
public, and the Government Accountability Office (``GAO'') to assess 
IT-related issues in the past year. Last year, the House Appropriations 
Committee directed the GAO to conduct a Library-wide audit of IT 
management and governance. Copyright Office staff provided information 
for the audit and were interviewed by the auditors.
    Moreover, this subcommittee directed the GAO to review the 
technology issues relating specifically to the Copyright Office. GAO 
was instructed to identify ``any deficiencies or obstacles to serving 
the copyright community in a modernized environment.'' The subcommittee 
also directed the GAO to ``provide a legal and technical evaluation of 
the information technology infrastructure that the Copyright Office 
shares with the Library of Congress.'' These directives followed from 
the subcommittee's recognition that ``the digital revolution has 
transformed the copyright marketplace and, as a result, the role of the 
Copyright Office in our economy.'' The subcommittee report also cited 
comments and concerns submitted by a variety of actors throughout the 
copyright community indicating that the Copyright Office needs 
significant IT upgrades to become fully interoperable with the digital 
economy that it serves.
    Copyright Office staff has been responsive to GAO's team, which 
included some of the same auditors assigned to the Library audit. We 
appreciate the work of the auditors and look forward to their findings. 
Having completed several years of core foundational research, the 
Copyright Office remains extremely concerned about recommending major 
IT investments while continuing to utilize the singular enterprise 
architecture and IT infrastructure of the Library, which is under 
considerable strain. Service from the Library has been inconsistent at 
best, as the Library's IT staff manages multiple projects and systems 
from across the agency. Indeed, although the Library has more than two 
hundred IT staff, none are devoted exclusively to the Copyright Office. 
It is difficult to see how this kind of paradigm is sustainable. In 
short, the Library is faced with multiple missions and an array of 
equally important but competing concerns, in some ways adding up to an 
impossible job.
Technical Upgrades Special Project
    During the past few years, the Director of the Copyright Technology 
Office, who has served as the Copyright Office's first CIO since last 
February, chaired a special project designed to assess the areas in 
which the Copyright Office needs to modernize, which included 
soliciting the talent and expertise of the Copyright Office's customers 
and stakeholders. In February 2015, the project team delivered its 
findings and recommendations to me, and I have in turn released them to 
the public. This document, Report and Recommendations of the Technical 
Upgrade Special Project Team, will be a very helpful resource as we 
consider future strategies for the Copyright Office. The report 
acknowledges challenges with the current user experience and with 
access to the public record, while offering recommendations for 
improvement, such as developing a more dedicated IT infrastructure to 
support the registration and recordation functions, and deploying 
Application Programming Interfaces (``APIs'') to provide for data 
exchange with the rich data of private copyright databases. The Report 
is available on the Copyright Office Web site.
                    statutory authority to set fees
    The Copyright Office appreciates the subcommittee's dedicated 
appropriation in fiscal 2015 of $2.25 million, with $750,000 to fund 
backlog reduction in registration and $1.5 million for year one 
planning and analysis for the reengineering the document recordation 
process.
    More globally, as Register I have concluded that we should 
reconsider the funding process for the Copyright Office as it relates 
to fees. For business planning, including expenditures for IT and 
related issues involving multi-year contracts, the Copyright Office is 
constrained by the inability to spend across multi-year budget cycles. 
In addition, the Copyright Office would benefit from more flexibility 
in both its retention and spending of fee revenues, particularly in 
relation to longer-term capital improvements. This would require a 
review of the statutory provisions for fees in Chapter 7 of the 
Copyright Act.
    I would like to thank the subcommittee members for your support of 
the Copyright Office and national copyright system. Our fiscal 2016 
budget request, if approved, would address some immediate, high-
priority needs, primarily through the authority to hire staff and use 
fee revenues received for services rendered.

    Senator Capito. Thank you so much.
    I'm going to begin with a question about--and this will go 
to the posters, I believe, and thank you for visiting my office 
and helping me understand some of the challenges.
    In your budget request, you've asked for $4.8 million and 
nine new FTEs for the National Collection Stewardship Program 
to provide additional collections space. I understand this is 
an interim solution that consists of some additional compact 
shelving within the Library's existing buildings and the lease 
of additional storage space.
    Would you please explain why this is necessary and if and 
how the work would be phased out?

                NATIONAL COLLECTION STEWARDSHIP PROGRAM

    Dr. Billington. Well, I would just say that the Library 
adds approximately 2.5 million items to the collections each 
year, and of the 2.5 million analog items, 250,000 volumes are 
books which make up the largest component of our immediate 
space requirements.
    I'd like to turn to Mark Sweeney, who can provide you with 
more specific details on the emergency collection storage needs 
of the Library and answer your questions more fully.
    Mr. Sweeney.
    Mr. Sweeney. Collection storage is a critical need for the 
Library right now. As Dr. Billington said, we are growing at 
about 250,000 volumes per year. We have more than a million 
items that are stored on the floor or on book trucks in our 
Capitol Hill buildings. We have about a million volumes stored 
at our Landover Annex Complex that is in a less-than-desirable 
environment, and we're about 10 years behind in building Fort 
Meade preservation modules for the growth of our collection.
    So our plan right now is to be able to occupy Ft. Meade 
Module 5 when it becomes available in late 2017. At the same 
time, we are looking at space in our existing buildings here on 
Capitol Hill. This is primarily the Madison Building, where we 
can get greater collection density by installing compact 
shelving. We're limited in how much of that we can do, but it's 
based on the physical limitations of the building, what 
collection weight the building can handle.
    In addition to that, we're requesting an interim lease 
facility. This would be a 5-year lease with additional 5-year 
options.
    Senator Capito. Where is that lease? If I could just 
interrupt you quickly, where is that facility?
    Mr. Sweeney. At this time we're working with the Architect 
of the Capitol to identify a facility that can meet the 
requirements that we've already provided them.
    Senator Capito. Okay.
    Mr. Sweeney. The two posters that we have to the left over 
here, the first one, the one closest to me demonstrates the 
books that are on the floor, as well as book trucks. This 
arrangement inhibits our ability to retrieve material. It also 
puts the books at risk in terms of damage. And then the lower 
image, number 3, demonstrates a location in which we have a 
structural deficiency in one of our storage buildings.
    The poster to the left of that is our solutions. The first 
is a photograph of our high-density preservation storage 
facility at Fort Meade, a wonderful storage environment, that 
can not only hold an awful lot of material but also can 
increase the longevity of those collections; as well as image 
number 2, which is an example of using existing space and 
getting more density by shelving material by size. The third is 
an example of compact storage solutions that were installed in 
our Adams Building, which give us about a 40 percent increase 
in capacity in that space.
    Senator Capito. Well, following up on that, if you're 
collecting more than you've ever collected before, and part of 
your budget speaks to the digitization of certain items and 
certain other things in terms of the demands on your budget, 
what kind of prioritization is the Library doing in terms of 
reconfiguring what your collection priorities might be in terms 
of trying to balance the burgeoning collection that you're 
doing here, the digital you're doing here, and maybe meshing 
that with some sort of efficiencies?

                       DIGITAL COLLECTION CENTER

    Dr. Billington. Between the additional small elements, 
relatively, that we're adding to the digital collection center, 
and the priorities involved that Mr. Sweeney was able to speak 
to--adjudicating between digital and a hard-copy or analog 
version--qualitative judgments are made on the basis of what is 
the substance. There are qualitative judgments made throughout 
the process of collection building. But I think Mark can speak 
to that in more detail.
    Mr. Sweeney. Well, I would say that we live in an 
interesting time in which there is just an explosion of 
creativity. So we're living in a ``both'' world, both having to 
collect analog at scale, as well as emerging digital 
collections. To date, our digital conversion program has 
primarily been about access. That's taking an analog item 
already in our collection, putting it in digital form, and 
making it accessible on the Web. That doesn't mean that we no 
longer need the analog copy or that it shouldn't be part of our 
collection. We have taken some steps to reduce holdings. We are 
reducing our dependence on second copies of works in our 
collection so that we can get some efficiency there.
    Senator Capito. Right.
    Mr. Sweeney. However, this is not going to accommodate the 
volume of work that we anticipate will be available on the 
market that will be needed for Congress and the American 
people.
    Senator Capito. Let me ask you this. You mentioned in your 
opening statement that your FTEs are way down, yet in the 
budget you're asking for 15 more full-time equivalent positions 
for a new digital collections center. Help me understand how 
some people--their positions aren't being filled is probably 
how you're doing that, I would imagine, through attrition and 
other ways. Is that how you got down to that number, and are 
you ramping up for different skill sets, and are you cross-
training folks so that when the digital collection center is 
inventoried they can move into different parts of the Library?
    Dr. Billington. I think that maybe Mr. Sweeney and possibly 
the Deputy would want to add a few words on that.
    Mr. Sweeney. Of course, our level of staffing down is 
primarily through attrition. There is a different skill set 
that's required to work with digital content, and the staff 
that we have available, the diminished number of staff, are 
primarily preoccupied with dealing with the analog collections, 
which have also grown.
    So the DC2, the digital collection center, is an 
opportunity for us to meet an emerging demand that we have, and 
this is not about converting analog items into digital form. 
It's primarily about dealing with digital content that's newly 
being received by the Library, where there is no analog 
equivalent.
    Senator Capito. Okay. I wanted to compliment you on the 
Books for the Blind and Physically Handicapped. We talked about 
this when you were in my office, and you mentioned that West 
Virginians have chosen to access this as a service, and I think 
that it has been a great service for those folks. So I want to 
say thank you on that, and I was wondering, with the budget 
request there, is there enough there to cover these needs? 
Obviously, it's the only free access library in the country, is 
the way I understand it, for the blind and physically 
handicapped. If you could just give me hope for the future on 
that and where you see that going.

       FUNDING FOR BOOKS FOR THE BLIND AND PHYSICALLY HANDICAPPED

    Dr. Billington. Well, since 1931 the National Library 
Service has been addressing the needs of this important 
constituency. I think Karen Keninger, our excellent head of the 
National Library Service, can provide you with the details and 
answers to your questions. I know that there are five major 
distribution centers in West Virginia, but she'll give you more 
of the details.
    Ms. Keninger. Thank you, Senator. The budget that we have 
requested will be sufficient for the upcoming year. We are very 
fortunate in that regard at this point in time. So we are okay 
there.
    Senator Capito. Finding more people, becoming aware of the 
services, is your reach broadening?
    Ms. Keninger. We are actually in the process of launching a 
public education and information program that will, we believe, 
expand our reach and increase our service. We have a lot of 
things to offer people, and it's always been a challenge to let 
people know that we're there at the time that they are ready to 
take advantage of it. We share that responsibility with our 
partners in all of the States, and they do what they can. We're 
going to be doing a national program, as well as helping the 
states with some local and regional advertising and outreach as 
well. So we're hoping that we'll be able to expand our reach 
significantly in the next couple of years.
    Senator Capito. Thank you, thank you.
    Another question I had, you mentioned in your opening 
statement that you had a world reach, you're the world's 
resource, and we've been reading news reports of ISIS members 
destroying artifacts of ancient civilizations.
    I'm curious to know if the Library's overseas offices have 
been successful in salvaging any art relics or artifacts that 
may have been or may yet be targeted for destruction, and how 
has the Library's overseas operation been impacted, if at all, 
by any kind of ongoing terrorist activities in the Middle East? 
Because you have several offices in the Middle East.

               IMPACT OF TERRORISM ON OVERSEAS OPERATIONS

    Dr. Billington. Yes, we do. Of course, three-dimensional 
objects, the kinds of things that are in museums, are not part 
of the Library's collection policy. But the sort of paper-based 
things, archival things, books, maps, the things which record 
the knowledge and essential information about many of these 
countries, have been very much on our mind.
    We've played a role. We don't have a foreign aid budget, 
but we have expertise in dealing with fires and damage, which 
the State Department will fund trips for. We provide the 
expertise, which we have done in the case of the Iraq National 
Library to a very substantial degree.
    The damage that has been done in Egypt, where we have a 
Cairo office, and damage or real destruction of the historic 
laws of Afghanistan, where we have duplicate copies of some of 
this material and can restore some of the historical memory of 
Afghanistan in our Pakistani office, are examples of the kinds 
of damage, associated with fire or water, where restoration 
assistance has been provided working through our overseas 
bases. We had to move our Cairo office, which collects 
generally in the Arab world, when there was chaos there. The 
Cairo office was directed from Washington for a while.
    The overseas offices are directed by American employees, 
but there are multiple foreign service nationals who work on 
building the collections. In certain areas like Yemen most 
recently and in large parts of Syria, options have been 
limited. We still get some things from Damascus, but not much 
from Aleppo, for example.
    Our six overseas offices are mostly in danger spots. The 
one in Nairobi gave us additional background, for instance, on 
our first African American President. We also collect in these 
overseas offices for other research libraries in America that 
conduct research in these languages, who pay for the materials 
they receive.
    So the overseas offices are an enormous asset for America, 
a very important service that we're able to provide.
    Mark may want to add something to that since that's part of 
his immense domain as keeper of the National Collection. But it 
is also an international collection of great importance, and 
Mark may want to add a word.
    Mr. Sweeney. I would just say on the impact of terrorism on 
our operations, first we've had to contribute to capital cost 
sharing for improved security in embassies, because that's 
primarily where we operate out of. So that's had a budget 
impact on us. In Cairo and Islamabad, both of our directors 
have had to be out of country for periods of time because of 
security issues. We've also had the offices closed for periods 
of time so that the national staff weren't available to be able 
to work there.
    So it's a difficult situation, but we continue to work with 
our staff there, as well as with agents that we have in some of 
the problem countries in order to be able to acquire material. 
Sometimes they'll hold material for a period of time for us 
until it can be safely sent to Washington.
    Senator Capito. Okay. Well, I think that's an aspect of the 
Library of Congress that not many Americans really know about, 
and I wanted to highlight that because it's an interesting 
service. I think if we're going to learn the lessons of the 
past, we have to preserve the documentation and news and 
everything else that revolves around that.
    My last question will be around the Congressional Research 
Service, which every member of the House or Senate, has used. 
It is a vital resource to us as a non-partisan, very objective 
view of a variety of issues, obscure and not-so-obscure.

                      HEALTHCARE EXPERTISE IN CRS

    But the budget request is asking for six full-time 
equivalent positions for the expertise of healthcare. I 
understand the need for six more people for the expertise in 
healthcare with all of the various things that are moving 
around with the ACA and Medicare and Medicaid. It's very 
complicated and it needs to be examined as closely as possible.
    But I would ask, are there other areas where less expertise 
is needed where you can shift people? Or do you feel that 
healthcare is the premier need right now? Does that mean in 10 
years it will be something else? Do you have any feel for that 
on the CRS?
    Dr. Billington. Dr. Mary Mazanec, who is actually a medical 
doctor as well as a qualified lawyer, is the best person----
    Senator Capito. She must like school.
    Dr. Billington. I would just make this one quick comment, 
and that is that you need real expertise. I think they only 
have one expert working mainly in this field. She can specify 
exactly. But you can't spread them too thin or you don't have 
the kind of highly specialized expertise that for 100 years now 
the Congressional Research Service (CRS) within the Library has 
been providing to Congress. So I think this is the minimal 
request, and it's not solely, but it's mainly for healthcare.
    Dr. Mazanec can explain.
    Dr. Mazanec. Thank you. I would echo what Dr. Billington 
said. In the last 5 years, and that's about my tenure at CRS, 
our staffing numbers have come down, and we have looked at 
portfolios as people have retired and left CRS. We have 
reassigned issue areas. We're spread very thin, especially in 
the healthcare area. It's received the highest volume of 
requests across the Service. It receives about 10 percent of 
our targeted inquiries.
    On top of that, the capacity that we're seeking in these 
six FTEs really is not adequately represented in the current 
staffing. It requires academic study and professional 
experience that we don't sufficiently have; for example, a 
health tax policy expert, or an expert on the private insurance 
sector, the industry.
    As you stated, Chairman, the healthcare sector is becoming 
increasingly complex as it evolves. There is increased 
regulation. So I also think there are emerging issues every day 
in Medicare and Medicaid. I don't think that healthcare is 
going to become a quiescent issue area in the near term, or in 
the longer term, especially as the population ages and their 
health needs increase. Healthcare expenditures also represent a 
significant percentage of our national economy, and I am told 
by my experts, my health experts, that 40 percent-plus of 
Americans currently receive health benefits at least in part 
from various Federal programs.
    So I really do think that we need to build additional 
capacity in this area.
    Senator Capito. I said that was my last question, but this 
will be a short one.
    We've had testimony from the GAO and others that they're 
having difficulty finding the level of expertise they need 
mostly in the economics field. Do you share that same 
difficulty finding expertise, or do you rely mostly on, once 
folks get in the door, training them on how to research, et 
cetera?
    Dr. Mazanec. We do both, but there is a certain expertise 
that has to come in through the door, and I would agree with 
both Doug Elmendorf and Gene Dodaro that healthcare economists 
are very marketable. They're difficult to recruit because there 
is such demand today, and even more difficult to retain.
    Senator Capito. Right. Thank you.
    Senator Schatz.

                   STATEMENT OF SENATOR BRIAN SCHATZ

    Senator Schatz. Thank you, Chair Capito.
    I think it's important in the digital age to remember that 
books matter, libraries matter. I subscribe to the ``both/and'' 
approach. I support the Library's effort to incorporate digital 
material into its collections and make materials available 
online whenever possible, but I also support the Library in 
continuing to collect physical materials.
    It's important to recognize that search engines are not 
curated by experts. Libraries have not and cannot be replaced 
by the Internet.
    Funding for the Library of Congress, which we review today, 
supports the subject-matter experts and library scientists who 
curate and preserve American creativity and scholarship. It's 
this world-class knowledge and care that makes the Library of 
Congress the premiere repository of our Nation's historic works 
and original knowledge, and the largest, broadest-reaching 
library in the world. It's our responsibility to show this to 
our children. Libraries aren't dusty museums that the Internet 
left behind. They are living, breathing, and growing 
institutions that deserve our investment. This makes our job of 
ensuring that the Library has the resources it needs to curate, 
preserve, and store its collections especially important.

                    BUILDING THE DIGITAL COLLECTION

    My first question for the Library of Congress has to do 
with digital collections. Due to the rapid growth of digital 
technology and content, the rate of the Library's digital 
acquisitions now rivals that of its analog collections. You may 
not characterize it as analog. I'm interested to learn how the 
Library plans to build and improve upon its digital capacities 
to best fulfill its historic mission.
    So, what is your long-term vision on building the digital 
collection, and how is that reflected in the budget request?
    Dr. Billington. Well, I think I should perhaps turn that 
over to Liz Scheffler, our new interim chief information 
officer. She's been working to deal both with the 
infrastructure question, the status, and the outline of our 
future path and strategy in this area. But perhaps we should 
also call on Mark Sweeney, because the integration of the 
digital, the choice of prioritization of whether you take a 
digital or an analog object when both is available depends on 
the substance, because we're interested in the best substance.
    But I would just say, before I turn it over to my 
colleagues on this very important question, I appreciate your 
general statement as well as your focus on this, because 
integrating the digital with the analog so that we can answer 
the questions the Congress asks and the Nation requires a 
qualitative selection process for its national collection. So 
nothing could be more important.
    I'll begin with Liz Scheffler, who has a great deal of 
experience in this and is our interim chief information 
officer, and then I'll call on Mark Sweeney who will answer the 
other questions that she may not cover.
    Liz, go ahead.
    Ms. Scheffler. Thank you, Dr. Billington, and thank you so 
much for the question.
    My focus is primarily on the ability to accept what the 
Library decides it wants to collect on the digital side, and 
working alongside Library Services, the Law Library, and also 
Copyright, on how it will be stored and preserved for the 
future. My primary focus right now as part of the overall 
Library IT strategic planning that I'm leading is planning for 
the long-term storage needs on the technology side which, 
looking at the rapid growth we've had--and I should say it like 
this: last year it was triple what we had expected, and we do 
not expect that to end, as far as the growth levels grow, of 
receiving the digital materials.
    So we're looking forward to working alongside Mark Sweeney 
and the others as we plan what will be the needs.
    I'm going to turn it over to Mark because Mark is really 
the expert.
    Senator Schatz. Well, can I just ask a question? There are 
several questions. One of them is how, operationally, you're 
going to do this. Another is who makes the judgments and what 
judgments are to be made about either what comes in digitally 
and then gets archived or comes in in analog form and then gets 
digitized? But then the other question is, to what extent is 
this all reflected in the budget request? So, could you speak 
to those questions?
    Ms. Scheffler. Okay. Let me go first and say we look to the 
Library side, basically those who are in charge of the 
curatorial aspects, to be providing to the technology side what 
will be their needs and what they will be collecting and what 
will be digitized, and that we work as a partnership.
    Senator Schatz. But does the expertise, is it the same set 
of knowledge and expertise and all the rest of it on the 
Library side, so to speak, or is there a growing field of 
specialized expertise in the curating of digital materials? 
Because it seems to me that may not be the same expertise.
    Ms. Scheffler. There is a different expertise, and I'm 
going to rely on Mark Sweeney, who leads Library Service, to 
discuss what that program will look like.
    But what we do on the technology side is we work alongside 
them as they determine what they want to bring in, what will be 
digitally collected, which is born digital, will be digitized, 
and then how we'll be storing it, whether it will be in long-
term storage, how things will be presented to the public.
    Senator Schatz. So, in the interest of time, I'd actually 
like to maybe put these questions in the record----
    Ms. Scheffler. That would be fine.
    Senator Schatz [continuing]. And have you get back to me on 
the details. But here's sort of a more basic question.
    How far along, how mature are your processes and 
procedures? How mature are you in your hiring? I mean, are you 
all set and now you have to fund it and execute, or are you 
sort of boarding a moving train at this point?

                    STAFFING THE DIGITAL COLLECTION

    Ms. Scheffler. I would never say we're boarding a moving 
train. However, I would say that there is an upside to maturity 
and that we have been doing this for a number of years. We've 
learned a lot from what we have done. We know what we have to 
do to proceed to the future.
    Senator Schatz. Okay, thank you.
    Dr. Billington. Mark may be able to provide an answer on 
this.
    Senator Schatz. Sure, go ahead, and then we'll move on to 
the next question.
    Dr. Billington. Thank you.
    Mr. Sweeney. I think the heart of your question speaks to 
why we proposed the Digital Collection Center and the number of 
staff for that. We do have some experience with acquiring 
already born digital content, but we know that we have to scale 
that, and the expertise that is needed is both curatorial, 
identifying what is of value in digital and bring it in, but 
also requires skills that are unique to managing that content 
both from the moment it arrives at our institution, adding 
metadata to it, having preservation plans for it, and 
eventually making it accessible. So it's really the whole life-
cycle of it.
    Senator Schatz. Thank you.

            COPYRIGHT OFFICE WITHIN THE LIBRARY OF CONGRESS

    Dr. Billington, I have a question for you about the 
Copyright Office within the Library of Congress. This was based 
on the Library's need to build its collection by acquiring one 
copy for each registered work. So it made sense at the time for 
the two entities, the Copyright Office and the Library of 
Congress, to operate under one roof.
    My view is that the reality has changed, and now the 
Copyright Office has a staff of more than 400 who are 
responsible for processing nearly half-a-million copyright 
registrations each year, maintaining the national copyright 
recordation system, and administering all of our copyright 
laws.
    The work of the Copyright Office is vital to the Congress, 
the judicial system, copyright-related industries, 
international trade and the global marketplace. I'm worried 
that the Copyright Office may be out-growing its home within 
the Library of Congress and that it may no longer be the right 
fit. As we deliberate--and this isn't a decision that we would 
undertake precipitously, but I wanted to put this question on 
the table because I think that we need to reevaluate whether 
this fit which had a specific rationale a long time ago makes 
sense anymore.
    Dr. Billington. Well, as I said in my introductory 
statement, there are many questions about how copyright will 
function in the future. I think it's extremely important to 
remember that before 1870-1871, when the Congress decided to 
put Copyright inside, to function within the Library of 
Congress, that nothing copyrighted was preserved at all. So the 
question of determining what is important to have as 
permanently preserved and ultimately part of the national 
memory and the national collection was a basic reason for 
bringing it into the Library in the first place.
    Now, of course, things have changed. The problems have 
multiplied. We've requested 25 new FTEs, exactly what the 
Register requested for this year to address operational 
requirements.
    I think the most important thing to consider in the future, 
in how you modernize the Copyright Office from the point of 
view of the national collection, is that the record of the 
private-sector intellectual and cultural creativity, innovation 
and creativity has to be preserved for the future.
    Senator Schatz. Well, I agree.
    Dr. Billington. Prior to 1870, deposits were kept for the 
purpose of enforcing the copyright laws; the preservation of 
these records was not a consideration. So this is an important 
Library consideration that is very central because it's one of 
the two things that we are unique custodians of for the rapidly 
changing future: the world's knowledge and America's 
intellectual and cultural copyright activity, which would not 
be priorities of the Patent Office or other places that might 
be considered an appropriate location.
    I'll let the Register speak to this issue, Maria Pallante, 
our Register of Copyrights.

           RESOURCES AND ORGANIZATIONAL LOCATION OF COPYRIGHT

    Ms. Pallante. I appreciate the question very much, Ranking 
Member Schatz. I think, as Dr. Billington said, there have been 
a lot of long-term synergies between the Copyright Office and 
the Library. But as you stated, ultimately today they need to 
focus on acquisition preservation and making use of scholarly 
materials. For a variety of reasons, we need to focus on 
serving e-commerce, and we administer a Federal law that 
protects intellectual property rights.
    The reason that I think the tensions are becoming more 
apparent, or the challenges, to use a better word, is because 
of resources. So before, for example, I can ask you for capital 
funds to bring recordation online. Because it's still paper, I 
think the question is how do we make that investment. Do we do 
it in the current Library infrastructure for IT, or do we begin 
to make investments in a more strategic, targeted way? And 
that's without getting into some of the constitutional issues 
and other things that are pending before the Judiciary about 
the relationship. But there certainly are still some synergies.

                COPYRIGHT--LIBRARY OF CONGRESS SYNERGIES

    Senator Schatz. Can you give me an example of some of the 
synergies? I'm wondering if there are economies of scale 
operationally? Because it doesn't seem to me that you're 
actually operating together.
    Ms. Pallante. I think there were, but we're subordinate to 
the Library in terms of the organization.
    Senator Schatz. So what are the synergies?
    Ms. Pallante. The synergies are that to the extent we 
continue to request materials for the purpose of examining them 
for legal protection and preserving them for litigation, it's 
certainly possible that the Library could continue to be the 
repository for those materials.
    What we're finding, though, is that that has to be done 
according to a very careful regulatory scheme that can't simply 
just be made available to the public as though they're part of 
the Library's regular collection because people have given them 
to us because they want to protect their rights, not re-publish 
the work. Those are not things that I think we can't solve.
    The bigger question, though, is if we're going to re-think 
registration, period, do we need those kinds of preservation-
quality deposits. That has to be aired publicly and carefully 
and can't just be an agency decision.
    Senator Schatz. Thank you, and thanks, Chair Capito, for 
your indulgence. I'm done with the Library of Congress.
    Senator Capito. Senator Murphy.
    Senator Murphy. Thank you, Madam Chair. Just one question 
for Dr. Billington.

                      CAIRO, EGYPT OVERSEAS OFFICE

    Some years ago, on a trip to the Middle East, I had the 
opportunity to visit a Library of Congress facility in Cairo 
and was really blown away by the scope and the reach of a very 
small staff there. And it strikes me now more than ever that 
those efforts to collect information--pamphlets, propaganda, 
whatever it may be--that aren't published traditionally are 
more important to the United States now than ever.
    I, frankly, have not followed the progress of that work 
being done in and around the Middle East region, but I just 
would love to know whether the budget cuts that you've 
sustained over the course of years have affected that operation 
and what the plans and prospects are for that international 
effort, especially in that very volatile region, to collect 
information and publications that are not coming to you through 
other means, what the future of that looks like.
    Dr. Billington. Well, we've had to pay more to maintain 
these offices. They're more expensive. We've had to pay rent 
and different carrying costs to the State Department and 
others. It is extremely important that we maintain our overseas 
operations because they are the only means of acquiring and 
preserving a multitude of unique collection materials. If we're 
not going to be the repository, in effect, for the mandatory 
receipt of copyrighted materials for permanent retention as 
part of the national memory of American creativity, we will be 
in trouble. But we'll also be in trouble if we don't continue 
these overseas collections for the knowledge of the world.
    For instance, our Cairo office does remarkable things. All 
of these overseas offices travel widely. They have enormous 
knowledge of foreign languages, which is extremely important 
because more and more places are popping up with material that 
nobody else could decipher. We have somebody in our Cairo 
office, for instance, who speaks all three languages of the 
Kurds. Most people don't know that there's even one language of 
the Kurds. These are not dialects. These are separate 
languages. We have preserved the entire Coptic liturgical 
music, the oldest that relates to Christian history. The Copts 
are an important part of the Egyptian population. That's never 
been preserved before. It's now the official language of the 
Coptic Church.
    There is so much information that is in danger of not 
surviving, of not being part of the national memory. We're a 
part of the national memory and we're part of the world's 
knowledge. There's nothing equal to it. If we were to lose 
copyrighted knowledge or be dependent on some future 
arrangement that may not happen, you go back to the situation 
before 1870 when none of the copyrighted record was preserved.
    If our overseas offices don't function, we'll cease to be a 
place on the world's frontiers for preserving things that may 
be destroyed by extremists or terrorists or just fires that are 
never put out or water damage that's never repaired, which we 
are the best in the world at.

           SUSTAINING THE OLDEST FEDERAL CULTURAL INSTITUTION

    This is a unique, one-of-a-kind American institution that 
the Congress has created and sustained. It's the oldest Federal 
cultural institution, and it is I think capable of being one of 
the most innovative if its collections and staff are not 
diminished.
    We have a tremendous new leadership team. We've had a year-
long futures process that I have personally conducted with 
staff below this level. So from bottom-up and top-down, we 
offer you not something that we've created but something that 
Congress originated, created. But once it starts declining, 
once you miss 1 year, you double the problem in the following 
year, and the decline will be irreversible.
    I think we ought to hear a word from Robert Newlen who is 
my chief of staff, in conclusion so it's not just the old 
professor going on for 15 minutes.
    So, Robert Newlen and David Mao can just wrap things up 
very quickly for you and supplement my passion with a little 
more youthful vigor and energy.
    Mr. Newlen. Mr. Murphy, just to follow up on Dr. 
Billington's question about budget impact on our foreign 
office, one area of concern is the annual assessment that we 
have from the State Department for security for our facilities, 
many of which are located in American embassies. It's a very 
complex formula to determine our assessment. But this year I 
believe it ran in the neighborhood of over $2.5 million, and we 
anticipate that it will continue to grow in the future.
    But thank you for your comments about those offices. They 
are absolutely critical to our future acquisition policy. We 
are able to accumulate materials that we routinely use to 
service the Congress, so we continue to value them very much.
    Senator Murphy. I would just make a final note which I 
think, Dr. Billington, you're very right to note the fact that 
in many of these places you have regimes or entities, non-state 
actors, who are controlling large portions of territory that 
are in the business of destroying the historical record, 
destroying the cultural record. And when these communities and 
societies try to rebuild, if that record isn't preserved, and 
we are the only ones that have the resources to preserve it, it 
makes reconciliation much more difficult. So I appreciate the 
work of your overseas offices and I appreciate your comments. 
Thank you.
    Senator Capito. Thank you. I think this concludes our first 
panel of this hearing and I want to thank Dr. Billington, Mr. 
Mao, Mr. Newlen, and all the others who came forward to give 
their expertise on the Library of Congress, for your time 
today.
    The hearing record will remain open for seven days so that 
senators may submit any statements and/or questions for the 
record to the subcommittee by close of business Tuesday, March 
24, 2015.
    I would now like to ask Stephen Ayers, the Architect of the 
Capitol, to take a seat at the witness table for the second 
panel of the day.
    Thank you all.
    Are you ready, Mr. Ayers?
    I'd like to welcome the Honorable Stephen T. Ayers, the 
Architect of the Capitol, and the talented and dedicated 
members of his senior staff: Christine Merdon, who is the Chief 
Operating Officer; Tom Carroll, Chief Financial Officer; and 
Mamie Bittner, who has just joined the Architect's team this 
past December as the new Director of Communications and 
Congressional Relations.
    I understand that there are several superintendents of 
daily operations and maintenance of many of the buildings 
within the jurisdiction, that many of them are here today. So I 
want to thank you for your dedication and public service. I 
admire it every day. I feel honored and privileged to be 
working here in what is, I always say, the largest symbol of 
our freedom, the United States Capitol and associated 
buildings. It's a magnificent place, and we want to keep it 
that way, as you do too.
    So briefly, the budget is an increase of $61.5, or about 10 
percent, and I realize that there is a deferred maintenance 
backlog of about $1.4 billion, and you've had some very tough 
decisions that you've had to make. But it is an increase of 10 
percent, and if you heard me with Dr. Billington, I basically 
posited that it's highly probable that we'll be faced with a 
flat budget for 2016 and be unable to make some tough decisions 
ahead of us.
    I noticed the theme of exterior envelope repair needs in 
this building or your request, including significant roof and 
stone deterioration on several buildings. I thank you for the 
tour so we could see up close and personal, particularly in the 
Russell Building, Hart, and the Capitol itself.
    One of the questions I'm going to be asking later is how do 
we prevent that from accumulating to such great degrees in the 
future? Do we need more maintenance, more cleaning, different 
materials? We can get into that later.
    So now, for an opening statement, I'd like to turn to my 
ranking member, Senator Schatz, for any opening comments he may 
make.
    Senator Schatz. Thank you, Chair Capito. I'm ready to hear 
from Mr. Ayers.
    Senator Capito. Mr. Ayers, I'd like to ask you to give a 
brief opening statement of approximately 5 minutes. The written 
testimony you submitted will be printed in full as part of the 
hearing record.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF HON. STEPHEN T. AYERS, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY:
        CHRISTINE MERDON, CHIEF OPERATING OFFICER
        TOM CARROLL, CHIEF FINANCIAL OFFICER
        MAMIE BITTNER, DIRECTOR OF COMMUNICATIONS AND CONGRESSIONAL 
            RELATIONS
    Mr. Ayers. Thank you and good afternoon, Chairman Capito, 
Senator Schatz and members of the subcommittee. I'm delighted 
to be with you today, and thank you for the opportunity to 
testify.
    I'm pleased to present the Architect of the Capitol's (AOC) 
fiscal year 2016 budget. Our incredibly talented team of 
professionals has worked diligently to prioritize the 
challenges we face as our magnificent Capitol campus continues 
to age.
    Thanks to the outstanding support from you, we're hard at 
work at delivering our common mission of stewardship for the 
buildings and grounds of Capitol Hill. The start of the Dome 
Restoration Project in the fall of 2014 is a prime example of 
how we have worked together to reinvest the necessary resources 
on a project that will protect America's inspiring Capitol. I'm 
pleased to report today that we're nearly halfway through the 
exterior Dome restoration work. We currently anticipate 
completion of the exterior restoration this time next year.
    However, beyond the Capitol Dome, enormous challenges 
remain. From falling stone to aging infrastructure, coupled 
with safety and operational issues, the problems of Capitol 
Hill are continuing to get worse over time. This year's budget 
request addresses several critical projects across the Capitol 
campus, and I would like to highlight a few of them now for 
you.
    First, we continue to address the systemic problem of stone 
deterioration across the campus. To this end, we are seeking 
support for the third phase of the five-phase Russell Senate 
Office Building Exterior Envelope Repair and Restoration 
project. This will make repairs to the west facade of the 105-
year-old office building. Rehabilitating the Russell Building 
exterior will significantly reduce the risk of falling stone 
and will result in increased energy savings with the 
maintenance of the doors and windows.
    Another project that I think is critical to our success is 
the next phase of the West Refrigeration Plant Chiller System 
Replacement at the Capitol Power Plant. This project will 
replace two old, inefficient chillers and chilled water pumps 
that date back to the 1970s, with a new chiller and other 
essential equipment.
    The Capitol Power Plant plays an essential role in the 
Architect of the Capitol's (AOC) long-term energy conservation 
and cost reduction efforts. The existing chillers were 
installed in the 1970s and are far beyond their useful life 
expectancy.
    Lastly, we are seeking your support to fund the first of 
three phases of the Senate Underground Garage Restoration and 
Landscape Restoration project. Constructed in 1932, the Senate 
Underground Garage, plazas and fountains continue to 
deteriorate and are in need of renovation and restoration. The 
project will also improve the Senate fountain's water 
efficiency and save future maintenance costs.
    These projects, among others highlighted in our budget 
request, are indicative of the critical nature of the work 
necessary to maintain the Capitol campus. Every day when I walk 
around Capitol Hill I'm reminded that the AOC's work directly 
affects members of Congress, your staff and visitors, and 
allows you to conduct the important work of government. Rest 
assured that the proud men and women of the AOC are your 
partners and we will continue to work around the clock and 
dedicate ourselves to our mission, no matter the challenges 
that lie ahead. Thank you.
    [The statement follows:]
              Prepared Statement of Hon. Stephen T. Ayers
    Chairman Capito, Senator Schatz, and members of the subcommittee, 
thank you for the opportunity to testify today regarding the Architect 
of the Capitol's (AOC) fiscal year 2016 budget request.
    With the support of Congress, the AOC is a strong steward of the 
buildings and grounds that comprise Capitol Hill. The incredibly 
talented and skillful employees of the agency care for facilities that 
are decades and even centuries old--buildings that were constructed 
without the modern equipment and efficiencies we now take for granted.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     Safety canopy over the Rotunda in support of the Capitol Dome 
                              Restoration.

    In service to the U.S. Senate, the AOC achieved a number of major 
accomplishments in the past year. This work included moving 15 
committee offices and 7 Senator's offices as required by the majority 
transition. We also began work on the Hart Senate Office Building roof 
and skylights replacement, including an ongoing structural analysis of 
the Calder Clouds Mobile. We made critical life-safety systems upgrades 
to the historic Russell Senate Office Building Rotunda that also 
preserves its ornate features.
    Recognizing that AOC employees are among our most important assets, 
we continue to make investments to empower them. In 2014, we held more 
than 30 town halls, sharing critical information and soliciting 
feedback from our staff. In addition, we conducted an organizational 
assessment survey and are pleased that more than 80 percent of AOC 
employees participated. Based on this feedback, AOC was ranked 8th out 
of 25 mid-sized Federal agencies by the Partnership for Public 
Service's Best Places to Work in the Federal Government rankings.
    AOC is also working to strengthen our supervisors. We have launched 
a ``Supervisory Academy,'' a week of intense supervision, management 
and leadership theory and skills development to help our supervisors 
become extraordinary leaders. Beyond our supervisors, we have launched 
two programs to encourage our staff to further improve their abilities. 
This includes the Architect's Mobility Program that allows employees 
who lack qualifying experience to move into positions where they can 
gain a specialized skill set, enabling them to progress according to 
their abilities. And our Exchange of Critical Expertise and Learning 
(ExCEL) program serves to improve organizational productivity, enhance 
strategic efficiencies and increase employee knowledge.
    As strong as our employees are, our buildings are in need of 
additional help. Materials like stone, cast iron and bronze are key 
elements that provide the character and charm that thousands of Members 
of Congress, their staff and visitors have enjoyed throughout our 
Nation's history. Yet even these robust materials degrade over time. 
The maintenance needs of the Capitol campus continue to grow every 
year, allowing small problems to become major life-safety and 
infrastructure problems requiring significant investments and resources 
to remedy.
    Taking into account the emerging priorities and looming urgent 
repairs for fiscal year 2016, we are requesting $661.8 million--a 
decrease of 2.2 percent from our fiscal year 2015 budget request.
    To address capital projects categorized as urgent or immediate, we 
are requesting $144.5 million. This is a $12 million or 7.7 percent 
decrease from our fiscal year 2015 request, leaving $182.9 million of 
deferred maintenance work to be requested in future fiscal years. We 
recognize that not every project can be funded at the same time, and 
the deferred work will continue to be added to future funding requests. 
While we work to mitigate the risk of major failure by carefully 
monitoring and maintaining the facilities and systems, we know that 
delaying critical projects will inevitably result in increased fiscal 
demands on future budgets.
    Ongoing budget constraints mean we must carefully weigh competing 
demands and use our expertise to recommend investments in the most 
critical projects. Our Project Prioritization Process ranks every 
project based on its importance and urgency so that we can effectively 
recommend to Congress the investments most needed to ensure the Capitol 
campus remains safe, functional and protected for all who work and 
visit the buildings and grounds.
              aging buildings require critical investment
    Viewed from a distance, the buildings of Capitol Hill are inspiring 
and impressive, but up close, the buildings are more distressing than 
impressive, as weather, age and deferred maintenance are destroying 
many of the finer details of these awe-inspiring stone edifices.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Deteriorating stone on the Russell Senate Office Building exterior.

    When stone is properly maintained, it is one of the world's most 
enduring materials; but when exterior stone deteriorates, major 
problems such as water infiltration, rusting of steel structures, mold 
and energy loss can occur within the building.
    While our dedicated employees perform the work necessary to 
maintain our buildings and grounds, they can only ensure the integrity 
of the materials when they are given adequate resources and support. 
Years of austere budgets have already resulted in the loss of many 
irreplaceable heritage assets.
    Stone preservation continues to emerge as one of our most important 
priorities. The condition of the exterior stone on most, if not all, of 
the buildings on Capitol Hill is rapidly deteriorating. The AOC's 
historic preservationists, structural engineers and stonemasons are in 
a race against time as the infrastructure ages and deferred maintenance 
projects accumulate.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       AOC stonemason makes repairs to the Olmsted Terrace Walls.

    Stonemasons from our Construction Division have been hard at work 
making repairs to the Olmsted Terrace--the first in more than a 
century. Designed by Frederick Law Olmsted in 1874, considered the 
founder of American landscape architecture, the terrace walls provide a 
strong visible base to the Capitol and a heightened sense of grandeur 
and scale. Unfortunately, the terrace conditions have deteriorated over 
time. But through the expertise of our Historic Preservation Officer 
and our stonemasons--funded from Capitol Construction and Operations--
we are able to make the critical repairs needed to save these assets 
and restore the Olmsted Terrace to its former splendor.
    The longer these stone buildings are left to the destructive 
effects of time and the elements, the more the problems compound. 
Instances of cracking and spalling stone grow more serious and more 
costly to repair every year, and the temporary fixes the AOC undertakes 
to prevent catastrophic failures are not enough to prevent conditions 
from worsening. Investing in stonework projects will pay long-term 
dividends and preserve these historic buildings for decades to come.
    At the U.S. Capitol Building, an investment in the rehabilitation 
of the exterior stone will prolong the building's life expectancy and 
preserve its historic features. The U.S. Capitol South Extension 
Exterior Stone and Metal Preservation work will include mortar 
replacement, fabrication and installation of Dutchman repairs, and 
stone cleaning. This work will help stem the water infiltration that 
has been destroying the existing historic fabric of the building.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


              Spalling stone on the U.S. Capitol Building.

    The third phase of the five-phase Russell Senate Office Building 
Exterior Envelope Repair and Restoration project will address the west 
facade of the 105-year-old office building. The work will repair the 
facade, windows and doors; repoint the masonry; restore and refinish 
the exterior metals and make structural repairs to the balustrades. 
Rehabilitating the Russell Building exterior will significantly reduce 
the risk of falling stone and will result in increased energy savings 
with the maintenance of the doors and windows.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Stone sugaring on the Russell Senate Office Building balustrade.

    The Summerhouse, a favorite Capitol Grounds respite during the hot 
summer months, is rapidly deteriorating and requires intervention to 
restore the structure to its former grand condition. In particular, the 
terra cotta roof and bricks are crumbling, leading to an increase in 
life-safety issues, and the center fountain and grotto lack a 
recirculating water system, which is an inefficient use of resources. 
If the Summerhouse Restoration project is completed, it will ensure 
that this Capitol Grounds treasure is preserved for generations.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Olmsted's Summerhouse is an American historic treasure.

    In future fiscal years, stone preservation will continue to be the 
AOC's main focus, as nearly every building on Capitol Hill is built 
from stone and nearly all are in need of repair. Scaffolding already 
surrounds parts of the U.S. Capitol Building and will soon be visible 
around the Russell Senate Office Building and Cannon House Office 
Building as well. These critical stone restoration efforts will ensure 
that the work of Congress can continue for decades to come.
                           critical projects
    In our fiscal year 2016 budget request, we are requesting funding 
for projects that will ensure necessary investments are made in our 
historic infrastructure and increase the safety and security of those 
who work or visit Capitol Hill. Providing superior service to our 
customers and executing numerous large-scale and highly visible multi-
year construction projects is a formidable challenge that we are 
addressing by managing risk and transparently communicating with 
Congress and the American public.
    AOC is responsible for meeting a wide range of fire, life safety, 
accessibility and performance standards, while also balancing 
operational needs and challenging working conditions that are unique to 
Capitol Hill and our aging buildings. In particular, we are focused on 
energy efficiency, addressing safety deficiencies and repairing crucial 
building infrastructure.
    The Capitol Power Plant (CPP) will continue to play an essential 
role in the AOC's long-term energy conservation and cost reduction 
efforts. The CPP's existing chillers, located in the West Refrigeration 
Plant (WRP), were installed in the 1970s and are rapidly approaching 
the end of their useful life expectancy. The risk of chiller failure 
increases as we continue to rely on this equipment to provide 
environmental control to the buildings on Capitol Hill. The next phase 
of the WRP Chiller System Replacement will replace two old, inefficient 
chillers and primary chilled water pumps with a new chiller, in 
addition to making other essential upgrades and repairs. The chiller 
replacement will reduce the Capitol Power Plant's energy consumption, 
increasing efficiency and simultaneously providing a significant 
electrical cost savings.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            Chiller reaching the end of its life expectancy.

    To mitigate Office of Compliance citations across the Capitol 
campus, we are requesting funding for the second phase of the Library 
of Congress Thomas Jefferson Building North Exit Stair B, which will 
address important egress deficiencies in the building. The AOC will 
construct a new self-supporting masonry exit stair in the northeast 
stacks that extends from the cellar to the top floor of the building, 
in addition to constructing new fire-rated exit passageways. The 
project will ensure that occupants of the Jefferson Building will be 
able to efficiently and rapidly exit the building during an emergency 
evacuation.
    Constructed in 1932, the Senate Underground Garage, plazas and 
fountains continue to deteriorate and are in need of renovation and 
restoration. Our request to fully fund the first of three phases of the 
Senate Underground Garage Renovations and Landscape Restoration will 
waterproof the upper and middle plaza fountains and surrounding 
stonework, restore the walkways and waterproof part of the garage ramp. 
The project will improve both of the fountain's water efficiency and 
save future maintenance costs for stonework repair.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                Deteriorated Senate Underground Garage.

    The longer these projects are delayed, the more the conditions of 
the buildings will decline. Proper investment is needed to ensure the 
historic fabric of these buildings is not lost to the ravages of time.
                               conclusion
    Chairman Capito, Senator Schatz and members of the subcommittee, 
funding our recommended capital projects in fiscal year 2016 ensures 
that necessary investments are made in our aged infrastructure, and 
maintains the unique and historic buildings that serve Congress and the 
American people.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    We appreciate the previous investments, support and trust Congress 
has placed in us to address critical construction projects across the 
Capitol campus. The investments made in the AOC have enabled us to 
preserve history and ensure Congress can accomplish its daily 
functions.
    The buildings of the Capitol campus are well cared for by the 
dedicated men and women of the AOC who use their incredible talents and 
skills to maintain the buildings and grounds. Day after day, our 
employees deliver inspiring and professional service to our customers. 
Each employee's contribution is vital to our success as an 
organization.
    There is much work to be done, but we believe that there is no 
greater mission than upholding the historic buildings entrusted to our 
care. The American people and future generations are counting on us to 
work together to invest the necessary resources to sustain the 
treasures of Capitol Hill.

                 ARCHITECT OF THE CAPITOL POSTER BOARDS
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                     U.S. CAPITOL DOME RESTORATION

    Senator Capito. I want to thank you, and I'll go right to 
questioning.
    The Dome, obviously, is the most prominent demonstration of 
the work of the Architect of the Capitol, the rehabilitation 
work which you toured for us, probably on the coldest day of 
the year. Thank you very much for that.
    I understand you mentioned that it is on budget and on 
schedule. I'd just like a reaffirmation of that because 
obviously I have concern about the inauguration of 2016. Do you 
have full confidence that you'll have this completed in time 
for that?
    Mr. Ayers. Yes, I do. This is a three-phase project. We're 
executing the exterior now, and we expect that to be finished 
this time next year. So that's well in advance of the 2017 
presidential inauguration. And the final two phases, the 
interstitial space and the Rotunda space, are both awarded, and 
work and planning is well under way. We're pretty confident 
that we'll make that date.

                     PROJECT PRIORITIZATION PROCESS

    Senator Capito. Good, that's good news.
    On your request, you have line-item construction projects 
in priority order. I noticed that you mentioned Phase 3 of the 
Russell Building exterior envelope. We also looked at that as 
well and concur that it's in need of restoration and repair.
    But as we're looking through the budget, if we flat fund 
you, we're not even going to get to that project. Do you 
anticipate that you will be reconfiguring some of your top 
projects or phases? The $29 million for the West Refrigeration 
Plant, is that the final phase of that project?
    Mr. Ayers. It is not the final phase. I think the total 
expenditure on that program is about $180 million.
    Senator Capito. Wow.
    Mr. Ayers. We've already broken it down into about six 
phases. I think there's potential that we can certainly work 
with the subcommittee to move those projects up and down the 
priority list as funding is available, and we're well poised to 
work with the subcommittee to do that.
    It's interesting, as I look through that list, nearly all 
of them are immediate priorities. The difference in priorities 
is rather small between them, and moving one above the other 
will have fairly low consequences. We would welcome the 
opportunity to do that.

                          STONE DETERIORATION

    Senator Capito. What about the question I asked in my 
opening statement in terms of the large projects, and you 
mentioned in your opening statement the deterioration of the 
Capitol Plant in and of itself. Do you have a side part of your 
vast responsibilities where you're looking at ways to do better 
maintenance or prevent the grand deterioration? When we looked 
out at the park over by the Russell Building, I think it was 
mentioned that these stones had been moving for decades, and I 
know you tried to address them, but couldn't address them.
    What do you say about that? Because certainly that would 
help with cost issues.
    Mr. Ayers. First let me show you an image or two of the 
stone restoration.
    Senator Capito. Okay.
    Mr. Ayers. I think you have some photographs at the dais, 
and let me just refer you to images 1, 2, 3 and 4. Image 1 is a 
great example of stone deterioration. This comes from water, 
and you can see the base of the wall that has pulled away from 
its structural system, and the severe deterioration at the 
bottom.
    Similarly, if you look at photographs 1, 2, 3 and 4, you'll 
see very similar deterioration there.
    To answer your question, the work that we do and our 
maintenance is not out of the ordinary. I think it's in line 
with industry best practices.
    What's different is we are managing historic buildings that 
are 100 to well over 200 years old, and we are dealing with the 
materials and methods of construction from that time. Keeping 
those buildings maintained is the issue that causes us the most 
difficulty.
    Take stone, for example. We are using the latest 
technology. Thirty or forty years ago, cleaning stone would 
have been done with high-pressure power washers or sand 
blasting, and today we're doing that with water misting and the 
newest technology of hand-held laser cleaning of stone that is 
making incredible efficiencies in our projects, and costs as 
well.
    We are abreast of the latest technologies and are using 
those in the work that we do today.

              UNION SQUARE AND GRANT MEMORIAL CONSERVATION

    Senator Capito. My last question will be about the Union 
Square and Grant Memorial conservation. My understanding was 
that in the 2012 budget you took over the responsibilities for 
Union Square and the Grant Memorial conservation without really 
any additional funding provided to you.
    It is a beautiful area as you're walking down from the 
Capitol, a lot of visitors walk through there. I understand 
you're going to be refurbishing the Grant Statue and all of the 
walkways and the pumping system for the Reflecting Pool there.
    How are you putting this into your budget, and what do you 
see for that area of the Capitol?
    Mr. Ayers. What an important space that is for this grand 
city of Washington, DC, and what an important memorial to Grant 
this is. It is in a significant state of disrepair, and we were 
delighted that the Congress acquired that property, and we are 
working hard to be good stewards.
    I have another image or two, if I may, of that. If you can 
look at image 5 and 6, a great example is image 6. This is the 
current state of that statue. You can see the military officer 
here with his hand raised in victory with his sword, only that 
the sword is missing, and this is just one of probably 100 
pieces of the statue that have been removed and deteriorated.
    Similarly, you see the deteriorating condition of the 
bronze statue and the staining of the marble of this stone, and 
we're eager to undertake that work and get it looking the way 
it should be looking.
    The first thing that we've done at Union Square is to 
stabilize it and make it safe by removing the tripping hazards 
and making sure people can safely traverse through Union 
Square. We have expended about $1 million doing that work.
    Secondly, we've spent or will spend about $1 million in the 
short term conserving the bronze, conserving the marble, and 
getting this piece of important statuary collection back to the 
way it should be.
    Thirdly, we have undertaken a series of studies to help us 
understand the cultural importance of this piece of property 
and what needs to be done long term to the infrastructure. When 
we acquired the property, the pumping room was completely 
submerged in nearly 10 feet of water and had been that way for 
a very, very long time. We've now drained it and are beginning 
to understand what needs to happen to get this Reflecting Pool 
functioning the way it needs to function.
    Senator Capito. Senator Schatz.
    Senator Schatz. Senator Murphy.
    Senator Capito. Senator Murphy.
    Senator Murphy. I'm going to leap over Senator Schatz. I 
just have one quick question, so I appreciate Senator Schatz 
allowing me to ask it.

                    HART ATRIUM AND CALDER SCULPTURE

    Thank you for the work that's going on right now in the 
Hart Atrium regarding a structural assessment of the Calder 
Statue. Calder is a Connecticut-based sculptor, someone that 
we're very proud to be associated with. Of course, that statue 
has not been operating according to Calder's wishes for some 
time. I know that this is going to be a lengthy analysis 
because you're looking at whether there is the structural 
ability to re-mechanize the clouds portion of the statue while 
also just trying to understand whether it's financially 
feasible as well. I was able to take a quick tour of the work, 
and I think there's great progress being made. But I'd love an 
update on that analysis as it stands today.
    Mr. Ayers. Thank you, Senator. We are certainly concerned 
about that. The roof of the Hart Building and the skylights 
were leaking significantly, and we came to the Congress seeking 
money to replace the roof and replace a significant number of 
skylights. As part of that project, we had to scaffold the 
Atrium. It presented a wonderful opportunity to analyze the 
Calder sculpture and understand why the clouds haven't been 
rotating since 1992, I think it was. We're in the process of 
doing that analysis.
    You may have seen a notice we've sent out to member offices 
just within the last few days that we're about to undertake the 
x-ray portion of that analysis. We will be looking very 
carefully at all of the welded joints in the clouds themselves 
and the connecting devices of the clouds to see if there are 
cracks and understand the depth of the welds. That process will 
happen over a number of weekends over the course of the next 
several weeks.
    We expect to have that report this summer and come back to 
the Congress with our recommendation on how we should proceed 
with getting it repaired and whether or not it can continue to 
spin and function as it was originally intended to.
    Senator Murphy. Well, we have about three feet of snow on 
the ground in Connecticut, so we've seen a lot of clouds over 
the course of the last few months. It's nice to see occasional 
cloudless skies, but we're hopeful to have that structure back 
up and operating as it was originally intended to.
    Thank you, Senator Schatz, for allowing me to jump in.
    Senator Capito. Senator Schatz.

                           CONTRACT OVERSIGHT

    Senator Schatz. Thank you, Chair Capito.
    I have a few questions, Mr. Ayers.
    I know the Architect relies on contractors for a number of 
your major construction contracts, and I think that makes 
sense, especially when you lack the specialized expertise. I'm 
interested in how you do your contract oversight, and I'm 
particularly focused in on whether you're following GAO's best 
practices for contract oversight.
    Mr. Ayers. To answer the second question first, we believe 
that we are. We had a recent GAO audit of our cost estimating 
and risk assessment practices within the last year, and we are 
following those practices and have done five cost and risk 
assessments on our major capital projects, and all of them seem 
to be in line with our expectations. We are achieving an 80 
percent confidence rate, both in cost and schedule, and in many 
of our projects we are exceeding that 80 percent confidence 
rate in both cost and schedule. So we think we're following the 
best practices.
    Secondly, we take a very comprehensive approach to contract 
management. We treat our contractors as our partners. Our 
success and the success of the Congress in these endeavors are 
related to the success of our contractors. We partner with them 
and perform rigorous oversight of our contractors. We are 
engaged with them at so many different levels, starting with a 
contracting officer and a contracting officer's technical 
representative, a project executive, a project manager, a 
project inspector, a construction manager, and on down the 
line.
    A great example of that is we recently had about 15 of our 
construction managers certified as certified construction 
managers through the Construction Management Association of 
America. So making sure the folks that are on the ground 
working with contractors are the best they can be is important 
to us, and we're investing in that.
    Senator Schatz. Are you adhering to your existing internal 
policies and standards? Is this an improvement that you've made 
over the last couple of years?
    Mr. Ayers. It's only been in recent years that we've 
actually captured our project management practices in a written 
manual. All of those procedures, just within the last 5 years, 
have been written and codified both in a manual and guidance 
and policy that I've signed and directed all of the members of 
our organization to follow these procedures as we perform 
contractor oversight.

                       PROJECT SCHEDULE AND COST

    Senator Schatz. Speaking of contract management, Chair 
Capito asked about the Capitol Dome restoration being finished 
before inauguration, made reference to the Grant Statue in 
Union Square, and also the exterior stone work I believe. Can 
you just confirm for the subcommittee that all of those 
projects and any other projects will be completed before the 
inauguration?
    Mr. Ayers. I'd be happy to, and I can confirm that. Every 
member of this organization understands how important the 
presidential inauguration is and knows that we are front and 
center on every television screen across the world on that day.
    Senator Schatz. And who bears the cost if something 
unforeseen happens? Let's say you had to take down scaffolding 
to conduct the inauguration and then re-start one of those 
projects. Would it depend on the reason for the delay and the 
way the contract is written, or is there some way this goes 
every time?
    Mr. Ayers. I think all of those things are situationally 
dependent. If it's some force majeure, then we have to pay for 
that. If it's delayed because of the contractor's fault, then 
we would insist that the contractor pay for that.
    The scaffolding and everything else is going to come down 
by the time the presidential inauguration happens, and we will 
ensure that the West Front and the East Front of the Capitol 
look terrific.

                               FORT MEADE

    Senator Schatz. Thank you. And my final question on the 
Fort Meade acquisition, my understanding is that there is 100 
acres, the total number of acres, and then there's seven acres 
or so that were part of an old railroad owned by the State of 
Maryland. Have you made your arrangement with the State of 
Maryland, gotten your easements, and is there any thought given 
to not acquiring that last seven acres because of the potential 
environmental mitigation that may be required and the cost 
associated with it?
    Mr. Ayers. We did submit legislative language in our budget 
request, and the purpose of that is to allow us to begin 
negotiating with the State of Maryland to acquire that piece of 
property. I think all of that will be determined in the 
negotiations.
    Today, what's in front of us is the construction of Fort 
Meade Module 5, and we have negotiated and signed a Right of 
Entry with the State of Maryland allowing us to proceed with 
construction of Module 5.
    Senator Schatz. Module 5 is not on those seven acres. You 
just need an easement through the seven acres to do the 
construction?
    Mr. Ayers. Correct. We have to run utilities through the 
easement to feed Module 5.
    Senator Schatz. Okay. I would just ask you to stay nimble 
on this one because we're obviously nowhere near having built 
out all 93 acres, which are by all accounts free and clear. So 
it would be great to acquire those last seven acres. But if it 
proves to be difficult, as sometimes is the case with parcels 
of property that may have environmental requirements, I think 
we should all be prepared to just work with the first 93 acres 
and not get into a long and potentially expensive process, 
especially if it's not necessary. So let's all stay nimble on 
this.
    I don't have a dog in that hunt, except that I don't want 
to see you wasting your time, and I certainly don't want to see 
us using taxpayer dollars to have to do environmental 
mitigation on land that we went out of our way to acquire.
    Mr. Ayers. I understand, and we certainly will. Thank you.
    Senator Schatz. Thank you.
    Senator Capito. Any further questions?
    Senator Schatz. No. Thank you.
    Senator Capito. Thank you, Mr. Ayers. I have no further 
questions.
    I want to thank the staff, too, of the Architect's Office 
for your time here today.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for seven days, 
allowing members to submit statements and/or questions for the 
record, which will be sent to the subcommittee by close of 
business on Tuesday, March 24th, 2015.
    [The following questions were not asked at the hearing, but 
were submitted to the agency for response subsequent to the 
hearing:]
             Questions Submitted to Dr. James H. Billington
              Questions Submitted by Senator Brian Schatz
                    building the digital collection
    Question. What is your long term vision on building the digital 
collection?
    Answer. The vision for digital collections at the Library of 
Congress is anchored in the Library's mission to support the Congress 
in fulfilling its constitutional duties and to further the progress of 
knowledge and creativity for the benefit of the American people. It is 
also part of the larger vision that covers both analog and digital 
collections. The Library strives toward:
  --A universal collection of knowledge, unmatched in the world, analog 
        and digital;
  --Routine and easy acquisition of analog and digital materials by 
        deposit, purchase, gift, and exchange, in pursuit of serving 
        our patrons in the present and preserving a national patrimony 
        for the future;
  --Collections moving quickly to the hands and screens of on-site 
        scholars and users of the public Web site;
  --Serving patrons and the public with the tools and skills needed to 
        access and analyze digital collections;
  --A digital and analog collection that is universal, well organized, 
        and easy to use, enabling authoritative research and analysis 
        for Congress; and,
  --The Library of Congress continuing as a center of excellence in the 
        practices of acquiring, describing, managing, preserving, and 
        providing cultural heritage material and as a world leader in 
        the handling of digital material.
    Question. How is that reflected in your budget?
    Answer. The Library has requested fiscal year 2016 funding of 
$2.005 million (15 full-time equivalents (FTE)) to establish a Digital 
Collections Center, which will provide an essential increase in the 
institution's capacity to ingest, process, manage, preserve, and 
provide access to digital material. As a centralized team, this 
operation will collaborate with technical staff elsewhere in the 
Library. It also will assist other staff members who work with digital 
collections, increase standardization of the work, engage underserved 
curatorial divisions, and provide training across the Library.
    Question. Who makes the judgments and what judgments are to be made 
about either what comes in digitally and then gets archived or what 
comes in in analog form and then gets digitized?
    Answer. In general, subject specialists make such judgments under a 
framework of existing policies. The Library has a set of more than 70 
Collections Policy Statements and Supplementary Guidelines documents 
(see http://www.loc.gov/acq/devpol/cpsstate.html) that guide the 
institution's acquisitions and selection operations for both analog and 
born digital materials. The policies provide a plan for developing the 
collections and maintaining their existing strengths. They set forth 
the scope, level of collecting intensity, and goals sought by the 
Library to fulfill its service mission. Proposals to digitize analog 
materials are prepared by specialists and submitted to the Digital 
Library Content Group (DLCG), a committee with Library-wide 
representation. Proposals are evaluated by the DLCG using these 
criteria:
  --Value to Congress
  --Scholarly research value
  --General audience interest
  --Educational value
  --Historical or cultural significance
  --Extent to which it fills in major gaps in subjects covered
  --Extent to which it augments/complements existing collections 
        presented on the Library's Web site
  --Extent to which it represents ``star'' materials in LC collections 
        (top treasures, extraordinary items)
  --Extent to which it reduces wear and tear on fragile and/or valuable 
        physical materials
  --Potential to engage new audiences
  --Relationship to a planned event
  --Relationship to a planned exhibit
  --Extent to which it provides an opportunity to collaborate with 
        outside communities
    Question. Is there a growing field of specialized expertise in the 
curating of digital materials?
    Answer. Yes, specialized expertise is required on the technical 
side. The Library already has limited resident expertise in digital 
curation. The establishment of the Digital Collections Center will 
allow for an expansion of that expertise base in the Library and result 
in the ability to greatly expand our digital collecting program.
    Question. Are you all set to bring on this expertise, and now you 
just have to fund it and execute?
    Answer. The Library is prepared to expeditiously establish and 
staff the Digital Collections Center.

                         CONCLUSION OF HEARINGS

    This concludes the Legislative Branch Appropriations 
Subcommittee hearings regarding the budget request for fiscal 
year 2016.
    The subcommittee stands adjourned.
    [Whereupon, at 4:20 p.m., Tuesday, March 17, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]



         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                         DEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee did not hold formal 
hearings for the Government Publishing Office and the Office of 
Compliance. Following are the statements submitted by them:]

                      GOVERNMENT PUBLISHING OFFICE

           Prepared Statement of Davita Vance-Cooks, Director
    Chairwoman Capito, Ranking Member Schatz, and Members of the 
Subcommittee on Legislative Branch Appropriations, it is an honor to 
present the appropriations request of the Government Publishing Office 
(GPO) for fiscal year 2016. As background, my prepared statement 
provides an overview of GPO's functions and operations.
                      government publishing office
    The Government Publishing Office (GPO) is the OFFICIAL, DIGITAL, 
SECURE resource for producing, procuring, cataloging, indexing, 
authenticating, disseminating, and preserving the official information 
products of the Federal Government.
    Under Title 44 of the U.S. Code, GPO is responsible for the 
production and distribution of information products for all three 
branches of the Government, including the official publications of 
Congress and the White House, U.S. passports for the Department of 
State, and the official publications of other Federal agencies and the 
courts. Once primarily a printing operation, we are now an integrated 
publishing operation and carry out our mission using an expanding range 
of digital as well as conventional formats. Congress and the President 
recognized this change in our operations in the Consolidated and 
Continuing Appropriations Act of Fiscal Year 2015 (Public Law 113-235), 
which contains a provision redesignating GPO's official name as the 
Government Publishing Office. GPO currently employs about 1,700 
workers.
    Along with sales of publications in digital and tangible formats to 
the public, GPO supports openness and transparency in Government by 
providing permanent public access to Federal Government information at 
no charge through our Federal Digital System (FDsys, at www.fdsys.gov), 
which today makes more than 1 million Federal titles available online 
from both GPO and links to servers in other agencies. In fiscal year 
2014 FDsys averaged 38.1 million retrievals per month, with a spike up 
to 47.5 million during the Government shutdown of October 2013. We also 
provide public access to Government information through partnerships 
with approximately 1,200 libraries nationwide participating in the 
Federal Depository Library Program.
    In addition to GPO's Web site, www.gpo.gov, we communicate with the 
public routinely via Facebook http://www.facebook.com/USGPO, Twitter 
twitter.com/USGPO, YouTube http://www.youtube.com/user/gpoprinter, and 
Pinterest http://pinterest.com
/usgpo/.
History
    From the Mayflower Compact to the Declaration of Independence and 
the papers leading to the creation and ratification of the 
Constitution, America is a nation based on documents, and our 
governmental tradition since then has reflected that fact. Article I, 
section 5 of the Constitution requires that ``each House shall keep a 
journal of its proceedings and from time to time publish the same.'' 
After years of struggling with various systems of contracting for 
printed documents that were beset with scandal and corruption, in 1860 
Congress created the Government Printing Office as its official 
printer. GPO first opened its doors for business on March 4, 1861, the 
same day Abraham Lincoln was inaugurated as the 16th President.
    Since that time, GPO has produced and distributed the official 
version of every great American state paper and an uncounted number of 
other Government publications, documents, and forms. These documents 
include the Emancipation Proclamation, the legislative publications and 
acts of Congress, Social Security cards, Medicare and Medicaid 
information, census forms, tax forms, citizenship forms, passports, 
military histories ranging from the Official Records of the War of the 
Rebellion to the latest accounts of our forces in Afghanistan, the 9/11 
Commission Report, Presidential inaugural addresses, and Supreme Court 
opinions. This work goes on today, in both digital as well as print 
forms.
Strategic Vision and Plan
    GPO is transforming from a print-centric to a content-centric 
publishing operation. In fiscal year 2016 and the years ahead, GPO will 
continue to develop an integrated, diversified product and services 
portfolio that focuses primarily on digital. Although industry experts 
predict tangible print will continue to be required because of official 
use, archival purposes, authenticity, specific industry requirements, 
and segments of the population that either have limited or no access to 
digital formats, we recognize that the volume of tangible print that is 
requisitioned from GPO is declining and will continue to decline.
    GPO's strategic plan, which is available for public review at 
http://www.gpo.gov/about/, is built around four goals: satisfying our 
stakeholders, offering products and services, strengthening our 
organizational foundation, and engaging our workforce. The plan 
provides the blueprint for how GPO will continue to achieve its mission 
of Keeping America Informed with an emphasis on being OFFICIAL, 
DIGITAL, SECURE. GPO's senior managers convene at the beginning of the 
fiscal year to review the plan and approve it before it is issued.
Technology Transformation
    GPO has continually transformed itself throughout its history by 
adapting to changing technologies. In the ink-on-paper era, this meant 
moving from hand-set to machine typesetting, from slower to high-speed 
presses, and from hand to automated bookbinding. These changes were 
significant for their time.
    Yet they pale by comparison with the transformation that 
accompanied our incorporation of electronic information technologies, 
which began over 50 years ago in 1962 when the Joint Committee on 
Printing directed the agency to develop a new system of computer-based 
composition. That order led to the development of GPO's first 
electronic photocomposition system, which by the early 1980's had 
completely supplanted machine-based hot metal typesetting. Following 
the enactment of the GPO Electronic Information Access Enhancement Act 
in 1993, the databases generated by our composition system were 
uploaded to the Internet via GPO's first Web site, GPO Access, vastly 
expanding the agency's information dissemination capabilities. Those 
functions continue today with FDsys on a more complex and comprehensive 
scale.
    While transforming to an increasingly digital footing, GPO 
continues to provide an array of printing services to support the needs 
of Congress, Federal agencies, and the public. GPO is retooling its 
print operations to utilize a smaller, more flexible, more digitally-
based equipment profile than previously. In fiscal year 2014 we took 
delivery of a new zero make-ready press to support congressional and 
Federal agency publishing requirements, which will replace two aging 
presses that have been in place since 1979. We are continually 
reviewing product and equipment options to ensure that our publishing 
activities are conducted with the most efficient, effective 
technologies available.
    As a result of these sweeping technology changes--digital products, 
equipment, and processes GPO is now fundamentally different from what 
it was as recently as a generation ago. It is smaller, leaner, and 
equipped with digital production capabilities that are the bedrock of 
the information systems relied upon daily by Congress, Federal 
agencies, and the public to ensure open and transparent Government in 
the digital era. As we prepare GPO for the Government information 
environment and technology challenges of the future, our transformation 
is continuing with the development of new ways of delivering Government 
information, including apps and bulk data download files.
                            gpo and congress
    For the Clerk of the House, the Secretary of the Senate, and the 
committees of the House and the Senate, GPO publishes the documents and 
publications required by the legislative and oversight processes of 
Congress in digital and tangible formats. This includes the daily 
Congressional Record, bills, reports, legislative calendars, hearings, 
committee prints, and documents, as well as stationery, franked 
envelopes, memorials and condolence books, programs and invitations, 
phone books, and the other products needed to conduct the business of 
Congress. We also detail expert staff to support the publishing 
requirements of House and Senate committees and congressional offices 
such as the House and Senate Offices of Legislative Counsel. We work 
with Congress to ensure the provision of these services under any 
circumstances.
    Today the activities associated with creating congressional 
information databases comprise the majority of the work funded by our 
annual Congressional Publishing Appropriation (formerly known as the 
Congressional Printing and Binding Appropriation). Our advanced digital 
authentication system, supported by public key infrastructure (PKI), is 
an essential component for assuring the digital security of 
congressional publications. The databases we build are made available 
for providing access to congressional publications in digital formats 
as well as their production in tangible formats.
    GPO's congressional information databases also form the building 
blocks of other information systems supporting Congress. For example, 
they are provided directly to the Library of Congress to support its 
Congress.gov system as well as the legislative information systems the 
Library makes available to House and Senate offices. We work with the 
Library to prepare summaries and status information for House and 
Senate bills in XML bulk data format. We are also collaborating with 
the Library on the digitization of historical printed documents, such 
as the Congressional Record, to make them more broadly available to 
Congress and the public.
GPO Cuts the Cost of Congressional Work
    The use of electronic information technologies by GPO has been a 
principal contributor to lowering the cost, in real economic terms, of 
congressional information products. In fiscal year 1980, as we replaced 
hot metal typesetting with electronic photocomposition, the 
appropriation for Congressional Publishing was $91.6 million, the 
equivalent in today's dollars of $263 million. By comparison, our 
approved funding for fiscal year 2015 is $79.7 million, a reduction of 
more than two-thirds in constant dollar terms.
    Productivity increases resulting from technology have enabled us to 
make substantial reductions in staffing requirements while continuing 
to improve services for Congress. In 1980, GPO employment was 6,450. 
Today, we have 1,695 employees on board, representing a reduction of 
4,755, or more than 70 percent. This is the smallest GPO workforce of 
any time in the past century.
Highlights of Fiscal Year 2014 Congressional Work
    In fiscal year 2014, essential staff from GPO remained on duty 
during the Government shutdown in October 2013 to meet the publishing 
requirements of Congress throughout the shutdown period without any 
interruption or reduction in service. During the year, we published the 
Congressional Directory for the 113th Congress under the direction of 
the Joint Committee on Printing, and late in the year we released the 
New Member Pictorial Directory for the 114th Congress as prepared by 
the Committee on House Administration. We also worked with the Office 
of the Clerk of the House to prepare an eBook version of Hispanic 
Americans in Congress 1822-2012.
    At the direction of the House Appropriations Committee, and in 
support of the House's task force on bulk data, in 2014 we began work 
with the Library of Congress to make House bill status information 
prepared by the Congressional Research Service available in XML bulk 
data format. Late in the year our work in making legislative 
information available in XML bulk data format was expanded to include 
Senate bills, at the request of the Secretary of the Senate.
                        gpo and federal agencies
    Federal agencies are major generators of information in the United 
States, and GPO produces their information products for official use 
and public access. Federal agencies and the public also rely on a 
growing variety of secure credentials produced by GPO, including 
travelers holding U.S. passports, members of the public who cross our 
borders frequently, and other users. Our digital systems support key 
Federal agency publications, including the annual Budget of the U.S. 
Government and, most importantly, the Federal Register and associated 
products. As it does for congressional documents, our digital 
authentication system, supported by public key infrastructure (PKI), 
assures the digital security of agency documents. GPO does not receive 
appropriations to produce work for Federal agencies. Instead, we 
provide products and services on a reimbursable basis.
Highlights of Fiscal Year 2014 Agency Operations
    For the past 3 years we have made the Budget of the U.S. Government 
available as a mobile app.
    One of GPO's major agency customers is the Office of the Federal 
Register (OFR), which produces the daily Federal Register and related 
publications such as the Code of Federal Regulations, and other key 
information products like the Daily Compilation of Presidential 
Documents and the Public Papers of the President. GPO produces these 
publications in both digital and tangible formats.
    Since 1926 GPO has been responsible for producing the U.S. 
passports for the Department of State. At one time, no more than a 
conventionally printed document, the U.S. passport since 2005 has 
incorporated a digital chip and antenna array capable of carrying 
biometric identification data. With other security printing features, 
this document--that we produce in Washington, DC, as well as a secure 
remote facility in Mississippi--is now the most secure identification 
credential obtainable. In fiscal year 2014, we made changes to our 
facilities to begin installing equipment that will be used to produce 
the next generation passport.
    Since 2008, we have served as an integrator of secure 
identification smart cards to support the credentialing requirements of 
Federal agencies and other Government entities. Our secure credential 
unit has been certified by the General Services Administration (GSA) as 
the only government-to-government provider of credentials meeting the 
requirements of Homeland Security Presidential Directive 12 (HSPD-12).
    We anticipated that the sequester implemented during fiscal year 
2013 would impact funding for printing and other information products 
ordered through GPO. In response, we implemented increased controls on 
spending, reprioritized capital investment plans, and closely monitored 
costs. GPO was able to continue its support of Federal agency 
publishing and information product requirements without any 
interruption or reduction in service. During the October 2013 
Government shutdown, GPO initially scaled back support of Federal 
agency requirements consistent with Office of Management and Budget and 
related requirements for a lapse in funding. However, as the shutdown 
continued and some agencies returned to business (such as the 
Department of Defense), GPO responded to their essential requirements. 
Additionally, GPO provided public access via FDsys to health and safety 
regulatory information issued by the Office of the Federal Register 
during the shutdown.
    During fiscal year 2014, GPO reported positive results on a 
customer satisfaction survey of approximately 500 Federal agencies. The 
survey focused on GPO's products, services, and programs, the cost-
effectiveness of services, and satisfaction with GPO's Web site and 
customer service. Some of the results included:
  --91 percent of customers are satisfied with overall service from 
        their primary GPO location
  --90 percent are likely to recommend GPO to a colleague
  --90 percent say they do not believe they can beat or match GPO 
        pricing
    The survey was conducted in support of GPO's Strategic Plan, that 
emphasizes a customer-centric approach through agency-wide procedures, 
policies, and activities implemented to ensure GPO is meeting 
customers' needs and exceeding their expectations.
Partnership With Industry
    Other than congressional and inherently governmental work such as 
the Federal Register, the Budget, and secure and intelligent documents, 
we produce virtually all other Federal agency information products via 
contracts with the private sector printing and information product 
industry issued by our central office and regional GPO offices around 
the country. In fiscal year 2014, this work amounted to approximately 
$289.3 million. Approximately 16,000 individual firms are registered to 
do business with GPO, the vast majority of whom are small businesses 
averaging 20 employees per firm. Contracts are awarded on a purely 
competitive basis; there are no set-asides or preferences in 
contracting other than what is specified in law and regulation, 
including a requirement for Buy American. This partnership provides 
great economic opportunity for the private sector.
                  gpo and open, transparent government
    Producing and distributing the official publications and 
information products of the Government fulfills an informing role 
originally envisioned by the Founders, as James Madison once said:

        ``A popular Government without popular information, or the 
        means of acquiring it, is but a Prologue to a Farce or a 
        Tragedy, or perhaps both. Knowledge will forever govern 
        ignorance, and a people who mean to be their own Governors, 
        must arm themselves with the power which knowledge gives.''

    GPO operates a variety of programs that provide the public with 
``the means of acquiring'' Government information that Madison spoke 
of. These programs include the Federal Depository Library program 
(FDLP), Federal Digital System (FDsys), Publications Sales, and Social 
Media.
Federal Depository Library Program
    The FDLP has legislative antecedents that date back 200 years, to 
1813. Across those years, depository libraries have served as critical 
links between ``We the People'' and the information made available by 
the Federal Government. GPO provides the libraries with information 
products in digital and, in some cases, tangible formats, and the 
libraries in turn make these available to the public at no charge while 
providing additional help and assistance to depository library users. 
The program today serves millions of Americans through a network of 
approximately 1,200 public, academic, law, and other libraries located 
across the Nation, averaging nearly three per congressional district. 
Once limited to the distribution of printed and microfiche products, 
the FDLP today is primarily digital, supported by FDsys and other 
digital resources. This overwhelming reliance on digital content 
allowed for the first digital-only Federal depository library 
designation in fiscal year 2014, with others to follow.
    In fiscal year 2014, GPO completed work on our FDLP Forecast Study, 
a collaborative research project between GPO and depository libraries, 
that surveyed all depository libraries to assess the current conditions 
of the program. Primary issues identified in the survey include budget 
constraints, use of physical space, staffing, and collection scope 
changes. Results from this initiative will serve as a blueprint for 
developing a new National Plan for Access to Federal Government 
Information.
    Also supporting the Federal depository libraries and the public 
nationwide is the work GPO does under its statutory mandate to catalog 
a comprehensive index of public documents issued or published by the 
Federal Government that are not confidential in character. The public 
interface for accessing these cataloging records is GPO's Catalog of 
U.S. Government Publications (CGP). In fiscal year 2014, there were 
25.6 million successful searches of the CGP, an increase of 10.5 
million over fiscal year 2013. Also during this period, more than 
13,800 new cataloging records were added to the CGP, of which 60 
percent contained direct online links to the cataloged content. 
Additionally, more than 150 free Federal Government eBooks from various 
agencies are now available via the CGP, with more being added 
continuously. Thanks to a partnership we forged with the Digital Public 
Library of America (DPLA), more than 150,000 records from GPO's digital 
Catalog of Government Publications are now also available to the public 
through the DPLA's Web site.
Federal Digital System
    GPO has been providing access to digital congressional and Federal 
agency documents since 1994. Today, FDsys provides the majority of 
congressional and Federal agency content to the FDLP as well as other 
online users. This system has reduced the cost of providing public 
access to Government information significantly when compared with 
print, while expanding public access dramatically through the Internet. 
Public utilization of FDsys has increased substantially. In 2014, 
FYFDsys recorded its 1 billionth document retrieval since replacing our 
original online Web site, GPO Access. Currently, FDsys serves as a 
secure preservation repository for more than 1 million individual 
titles from all three branches of the Government, the only system of 
its kind in operation today. In fiscal year 2014, FDsys averaged 38.1 
million retrievals per month, with a spike of up to 47.5 million during 
the October 2013 Government shutdown.
    GPO is continually adding collections to FDsys to provide increased 
public access to Government information. In fiscal year 2014, new 
collections were added ranging from audio books to digital editions of 
historic publications like the Warren Report on the assassination of 
President Kennedy and the Civil Rights Act of 1964. At the end of the 
year, we were one of 5 institutions named by the Library of Congress 
and the National Institute of Museum and Library Services to be part of 
the National Digital Stewardship Residency program, under which we are 
now preparing to become the first Federal agency certified as a 
Trustworthy Digital Depository for Government information.
    During the October 2013 Government shutdown, the FDsys 
congressional and regulatory information collections were continually 
updated as an essential function in order to provide public access to 
this essential information. The other collections on FDsys were not 
updated but were still accessible. All other information on gpo.gov 
(concerning our Online Bookstore, FDLP.gov, Contractor Connect, etc.) 
remained static during the shutdown.
FDsys Improvements Planned for Fiscal Year 2016
    As GPO's enterprise information management system for digital 
information dissemination and preservation, FDsys is a critical 
component of our integrated publishing operation. Continued investment 
in this cornerstone system is needed in order to ensure FDsys 
technology, features, and functionality supports GPO's mission and 
meets the needs of key stakeholders, including Congress, Federal 
agencies, and the American public.
    In fiscal year 2016, the Next Generation FDsys public website 
(NextGen) will officially launch and the legacy site will be retired. 
NextGen functionality will greatly enhance the way stakeholders can 
interact with FDsys, including a responsive user interface, replacement 
of the current search engine with an Open Source search engine, the 
implementation of linking between related publications, and user 
interface improvements based on extensive stakeholder engagement.
    Along with the launch of NextGen, other initiatives are crucial for 
managing Federal Government content in FDsys, including developing new 
content collections, increasing content in existing collections, 
enhancing the accessibility of content, and increasing the 
discoverability of information within the system. GPO also has begun 
the initial process to seek certification for FDsys as a Trustworthy 
Digital Repository in compliance with the International Organization 
for Standardization (ISO 16363). This certification will validate that 
FDsys, its infrastructure, and its supporting organization are reliable 
and sustainable, in order to ensure the highest level of service now 
and into the future.
    With the planned updates to the FDsys search, content management, 
and preservation components and along with certification of FDsys as a 
Trusted Digital Repository, it is also critical to invest in the IT 
infrastructure supporting the system. This includes bandwidth, storage, 
and servers needed for the Production, COOP, Test, and Development 
environments. In fiscal year 2016, GPO will also explore how to migrate 
FDsys to the Cloud to reduce reliance on on-site physical 
infrastructure.
GPO Achieves Savings in Information Dissemination
    Since fiscal year 1995, the first full year of our online 
operations, the cost of producing and distributing millions of copies 
of printed publications to Federal depository libraries nationwide was 
funded at $17.6 million, the equivalent of $27.3 million in constant 
dollars. For fiscal year 2016, we are proposing to fund this function 
at $8.2 million, a reduction of nearly 70 percent in constant dollar 
terms. Along with appropriations to GPO's Revolving Fund, we have used 
the savings from reduced printing and distribution costs to pay for the 
establishment and operation of our digital information dissemination 
operations, achieving additional savings for the taxpayers and vastly 
expanding public access to Government information.
Publication and Information Sales Program
    Along with the FDLP and FDsys, which are no-fee public access 
programs, GPO provides public access to official Federal information 
through public sales featuring secure ordering through an online 
bookstore, a bookstore at GPO headquarters in Washington, DC, and 
partnerships with the private sector that offer Federal publications as 
eBooks. As a one-stop shop for eBook design, conversion, and 
dissemination, our presence in the eBook market continues to grow. We 
now have agreements with Apple, Google's eBookstore, Barnes & Noble, 
OverDrive, Ingram, Zinio, and other online vendors to make popular 
Government titles such as the Public Papers of the President-Barack 
Obama, the Financial Crisis Inquiry Report, and Ponzimonium: How Scam 
Artists are Ripping Off America available as eBooks. Additionally, in 
fiscal year 2014 we worked with Congress to make Hispanic Americans in 
Congress available as an eBook.
Reimbursable Distribution Program
    We operate distribution programs for the information products of 
other Federal agencies on a reimbursable basis, including General 
Services Administration (GSA) Consumer Information Center publications, 
from warehouses in Pueblo, CO, and Laurel, MD.
GPO and Social Media
    We use Facebook, Twitter, YouTube, and a book blog to share 
information about GPO news and events and to promote specific 
publications and products. By the end of fiscal year 2014, we had 3,932 
likes on Facebook, 5,372 followers on Twitter, and 120,000 views across 
66 videos on YouTube. On Pinterest, we had 422 followers pinning on 15 
boards of Federal Government information. Our book blog, Government 
Book Talk, focuses on increasing the awareness of new and classic 
Federal publications through reviews and discussions.
                             gpo's finances
Business Operations Revolving Fund
    All GPO activities are financed through our Business Operations 
Revolving Fund. This business-like fund is used to pay all of GPO's 
costs in performing congressional and agency publishing, information 
product procurement, and publications dissemination activities. It is 
reimbursed from payments from customer agencies, sales to the public, 
and transfers from GPO's two annual appropriations: the Congressional 
Publishing Appropriation and the Public Information Programs of the 
Superintendent of Documents Appropriation.
    The Business Operations Revolving Fund functions as GPO's checking 
account with the U.S. Treasury. GPO pays its expenses from this account 
either with electronic transfer or check. The fund is reimbursed when 
the Treasury Department transfers money from agency appropriations 
accounts to the fund when agencies pay GPO invoices. This procedure 
also applies to the payment of transfers from the Congressional 
Publishing and Public Information Programs appropriations, and to 
deposits of funds collected from sales to the public.
    GPO maintains a cash balance in the Business Operations Revolving 
Fund that is used to pay all expenses. The cash balance fluctuates 
daily as payments are received from agency reimbursements, customer 
payments, and transfers from GPO appropriations.
Retained Earnings
    Under GPO's system of accrual accounting, annual earnings generated 
since the inception of the Business Operations Revolving Fund have been 
accumulated as retained earnings. Retained earnings make it possible 
for GPO to fund a significant amount of technology modernization. 
However, appropriations for essential investments in technology and 
plant upgrades are also necessary and are requested annually.
Appropriated Funds
    GPO's Congressional Publishing Appropriation is used to reimburse 
the Business Operations Revolving Fund for costs of publishing the 
documents required for the use of Congress in digital and tangible 
formats, as authorized by the provisions of chapters 7 and 9 of Title 
44, U.S.C. The Public Information Programs of the Superintendent of 
Documents Appropriation is used to pay for costs associated with 
providing online access to, and the distribution of, publications to 
Federal depository libraries, cataloging and indexing, statutory 
distribution, and international exchange distribution. The 
reimbursements from these appropriations are included in the Business 
Operations Revolving Fund as revenue for work performed. Money is also 
appropriated to GPO's Business Operations Revolving Fund to increase 
working capital for necessary investments in information technology and 
facilities maintenance and repair.
Fiscal Year 2014 Financial Results
    Revenue totaled $696.3 million while expenses charged against GPO's 
budget were $672.3 million, for an overall net income of $24 million 
from operations. Included in both GPO's revenue and net income is 
approximately $15.1 million in funds set aside for passport-related 
capital investments, as agreed to by GPO and the Department of State, 
and $2.1 million in funds resulting from an adjustment to GPO's long-
term workers' compensation liability under the Federal Employees 
Compensation Act (FECA). Apart from these funds, GPO's net operating 
income from fiscal year 2014 was $6.8 million. GPO's financial 
statements are audited annually by an independent third party 
contracted for by our Office of Inspector General, and we routinely 
receive a clean, or as it is now called, ``unmodified,'' opinion.
                fiscal year 2016 appropriations request
    We are requesting a total of $120,000,000 for fiscal year 2016, 
which is essentially flat compared to the level of funding, 
$119,993,000, approved for fiscal year 2015 in Public Law 113-235. 
Continuing overhead cost-cutting actions undertaken since fiscal year 
2011, in addition to a buyout successfully conducted in the first 
quarter of fiscal year 2015 that reduced GPO's workforce by 103 
positions, have helped make this flat funding request possible. 
Additionally, with the approval of the House and Senate appropriations 
committees, each year we have transferred any unspent prior year 
balances from our appropriations to GPO's business operation revolving 
fund, where they are available for the uses for which they were 
originally appropriated. This also has made it possible for us to 
reduce the need for new funding.
    Our fiscal year 2016 request will enable us to:
  --meet projected requirements for congressional publishing;
  --fund the operation of the public information programs of the 
        Superintendent of Documents; and
  --develop information technology and perform facilities maintenance 
        and repair.
Congressional Publishing Appropriation
    We are requesting $79,736,000 for this account, the same level 
approved for fiscal year 2015 in Public Law 113-235. Unspent prior year 
balances from this account that have been transferred to GPO's business 
operations revolving fund are available for the purposes of this 
account for fiscal year 2015 and fiscal year 2016.
    House Report 112-148, accompanying the Legislative Branch 
Appropriations bill for fiscal year 2012, requires the presentation of 
budget requirements from a zero base. However, GPO has no control over 
the workload requirements of the Congressional Publishing 
Appropriation. These are determined by the legislative activities and 
requirements of the House of Representatives and the Senate as 
authorized by the applicable provisions of Title 44, U.S.C. GPO 
utilizes historical data incorporating other relevant factors to 
develop estimates of likely congressional publishing requirements. 
These requirements are used as the basis of the budget presentation for 
this account.
    For fiscal year 2015, we estimate that total congressional 
publishing requirements will be $82,669,000, using projections based on 
prior year data. We plan to use $2,933,000 of transfers from the 
unexpended balances of prior year appropriations to help offset these 
requirements. This reduced our need for new funding to $79,736,000, the 
level that has been approved for this year.
    For fiscal year 2016, we estimate that total congressional 
publishing requirements will be $85,750,000, using projections based on 
prior year data. We plan to use $6,014,000 that is available in 
unexpended prior funds to offset part of these requirements, resulting 
in our request for $79,736,000 in new funding. Additionally, we plan to 
set aside $7,478,000 in transferred unspent prior year funds to finance 
the continuing development of our Composition System Replacement 
project, which will implement an XML-based composition system in place 
of our 30-year old Microcomp system. This year, we plan to request 
approval for the transfer of approximately $540,000 in unspent prior 
year funds to our Business Operations Revolving Fund, to help cover 
future congressional publishing requirements.
    The estimated requirements for fiscal year 2016 include a projected 
price level increase of $1,881,000, primarily to cover employee pay 
increases equivalent with those paid government wide. Additionally, 
there is a $1,200,000 increase to cover anticipated volume requirements 
as derived from historical data, principally for the Congressional 
Record, calendars, and hearings. Partially offsetting these increases 
are volume decreases projected primarily for documents, bills, and 
committee prints.
Public Information Programs of the Superintendent of Documents
    We are requesting $30,500,000 for this account, representing a 
decrease of $1,000,000 or 3.2 percent from the amount approved for 
fiscal year 2015 in Public Law 113-235. As with our Congressional 
Publishing Appropriation, unspent prior year balances from this account 
that have been transferred to GPO's business operations revolving fund 
are available for the purposes of this account for fiscal year 2015 and 
fiscal year 2016. The requested amount is based on the outcome of using 
zero-based budgeting to determine the proper levels of funding needed 
to perform program activities at minimum levels, as directed by House 
Report 112-148.
    The funding we are requesting for fiscal year 2016 will cover 
mandatory pay and related cost increases of $342,000. Merit and other 
pay increases are included for 94 FTE's, the same as for fiscal year 
2015. In addition, the requested funding covers projected price level 
increases of $175,000, including ongoing systems maintenance and FDsys 
operating expenses.
    Unspent prior year appropriations balances that have been 
transferred with the approval of the Appropriations Committees to our 
Business Operations Revolving Fund, totaling $1,517,000 will be used to 
fund the continuation of cataloging and indexing efforts to harvest and 
catalog historical publication for digital preservation. In 2015, we 
plan to request approval for the transfer of an additional $6,000,000 
in unspent prior year funds to support GPO's digitization efforts to 
expand and develop new digital content and maintain the integrity of 
the system as a trusted digital repository.
Business Operations Revolving Fund
    We are requesting $9,764,000 for this account, to remain available 
until expended, for continued information technology projects and 
necessary facilities projects. This compares with $8,757,000 that has 
been appropriated for fiscal year 2015.
Information Technology Projects $5,532,000
    FDsys Projects--$4,000,000
      -- General Development ($3,050,000)--Development of new FDsys 
            features to support identified needs of key stakeholders, 
            including developing new content collections, increasing 
            content in existing collections, enhancing the 
            accessibility of content, and increasing the 
            discoverability of information in FDsys.
      -- NextGen FDsys Public Website ($450,000)--Completion of 
            development and launch of FDsys NextGen to support a 
            responsive user interface, search engine replacement, 
            public ation linking, user interface improvements, and 
            content curation.
      -- Certification of FDsys as a Trustworthy Digital Repository 
            ($250,000)--Development to support the certification of the 
            FDsys Preservation Repository as a Trustworthy Digital 
            Repository.
      -- FDsys Infrastructure ($250,000)--Infrastructure for the 
            hardware, storage, and infrastructure environments to 
            manage system performance as FDsys content and usage 
            continues to grow, including support for GPO efforts to 
            migrate FDsys infrastructure components to the Cloud.
    Enterprise System Upgrades--$1,532,000
      -- Core Router/Switch Replacements ($400,000)--Replacement and 
            upgrade for segments of GPO's existing core routing 
            infrastructure that have reached end of life.
      -- Itanium Servers ($400,000)--Replacement and upgrade of the 
            servers that support GPO's publishing and printing 
            capabilities.
      -- Enterprise Storage ($300,000)--Infrastructure funding is 
            necessary to ensure that GPO's IT storage capacity 
            continues to grow to support the agency's application and 
            data storage requirements.
      -- Data Communications Equipment ($232,000)--Replacement and 
            upgrade of core communications equipment that has reached 
            end of life.
      -- Web Filtering ($200,000)--Replacement and upgrade of the web 
            filtering equipment that protects GPO users from accessing 
            malicious and/or inappropriate Internet sites.
Facilities Projects $4,232,000
  --Upgrade Electrical Substation ($3,500,000)--There is only one 480V 
        substation in all of GPO's Buildings A, B and C. New, more 
        efficient equipment is 480V by standard (including elevators as 
        well as production equipment). Without upgrading our 
        substation, we risk running out of power to produce essential 
        work for Congress and Federal agencies.
  --Structural Evaluations and Remedy Actions ($400,000)--We have areas 
        of concrete floors that are degrading to the point where they 
        may fail. This funding is to continue any third party 
        structural analysis and for ongoing repairs on the areas in the 
        worst shape.
  --Roof replacement ($332,000)--This represents the remaining phase of 
        our multi-year roof upgrade to improve energy efficiency and 
        reduce the potential for damage and health and safety concerns 
        that can result from leaks in areas that are currently 
        compromised.
    Chairwoman Capito, Ranking Member Schatz, and members of the 
subcommittee, this concludes my prepared statement and I look forward 
to working with you and members of your staff as you consider our 
appropriations request for fiscal year 2016.

                          OFFICE OF COMPLIANCE

   Prepared Statement of Barbara J. Sapin, Executive Director of the 
                          Office of Compliance
    Madam Chairwoman Capito, Ranking Member Schatz, and Members of the 
Legislative Branch Subcommittee, thank you for allowing me the 
opportunity to submit for the record, this statement regarding the 
budget request for fiscal year 2016 for the Congressional Office of 
Compliance (OOC).
    In its 2016 budget request, the OOC seeks an appropriation of 
$4,020,000 for fiscal year 2016, the same amount as the fiscal year 
2015 budget request and an additional $61,000, or 1.5 percent over the 
fiscal year 2015 enacted amount. This increase will allow us to make 
necessary improvements to protect our Web site www.compliance.gov to 
comply with existing cybersecurity standards and to build into the site 
the capacity to host on-demand on-line interactive training modules 
that we are developing for Congressional employees. The Congressional 
Accountability Act (CAA) requires the OOC to carry out a program of 
education for Members of Congress and other employing authorities of 
the legislative branch. As approximately half of congressional staff 
members are working in district and State offices instead of on Capitol 
Hill, our focus has shifted to e-learning as a means of carrying out 
our statutory educational mandate.\1\ We recently completed our first 
on-line module, on sexual harassment, and plan for more on other 
employment issues, such as the Family Medical Leave Act (FMLA) and the 
Americans with Disabilities Act (ADA). A comprehensive training 
program, as envisioned in the CAA, continues to be one of the most 
effective investments an employer can make in reducing complaints and 
improving worker productivity and reducing absenteeism and employee 
turn-over. With readily available, user-friendly training modules, we 
expect to reach more employees.
---------------------------------------------------------------------------
    \1\ Public Law 104-1, Section 301(h)(1).
---------------------------------------------------------------------------
    Looking forward to fiscal year 2016, we will continue to cross-
train our small staff of 22 full-time equivalent (FTE) positions and 
leverage our already lean operations with short term contracts for 
services. For example, we have used our occupational health and safety 
(OSH) specialists to conduct our ADA inspections to identify barriers 
to access for persons with disabilities. We have also used contractors 
to supplement those inspections so we could cover more areas and 
buildings. Following enactment of the Office of Compliance 
Administrative and Technical Corrections Act of 2015, we have increased 
our use of outside mediators, who are reimbursed with a flat fee per 
mediation. This request contains sufficient funds to maintain a new 
case management system that we developed with fiscal year 2015 funds. 
We are working to add an e-filing component to the system. We are also 
enhancing our video teleconference equipment to save money on hearing 
officer travel for cases in district and State offices, and for 
providing technical assistance and training. The balance of our 1.5 
percent budget increase is for cross-servicing providers (Library of 
Congress, National Finance Center) and other equipment, services, and 
supplies needed to operate the OOC.
    For 20 years now, the OOC has served Congress as a third party 
neutral for disputes and as an educator for workplace rights. The OOC 
has made significant contributions to the safety of congressional 
workplaces through its OSH biennial inspections and OSH case work, and 
it has used its ADA inspections and ADA case work to eliminate barriers 
to access to congressional facilities and programs for persons with 
disabilities. Each of the OOC's five Board members received new 2-year 
terms in fiscal year 2015.\2\ They have an ambitious agenda for their 
remaining time, including but not limited to, publishing new ADA, Fair 
Labor Standards Act (FLSA), and FMLA regulations for approval by 
Congress. The OOC staff will act on those initiatives as well as 
continuing to provide quality services to the congressional community 
on a day to day basis.
---------------------------------------------------------------------------
    \2\ The Board members count as one FTE and are paid by OOC on a 
``while-actually-employed'' basis.
---------------------------------------------------------------------------
    I am available to answer any questions or address any concerns the 
Chairwoman, the Ranking Member, or any of the Legislative Branch 
Subcommittee Members may have.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee did not hold formal 
hearings for nondepartmental witnesses. The statements of those 
submitting written testimony are as follows:]
    Prepared Statement of the American Association of Law Libraries

  [Testimony on behalf of the American Association of Law Libraries, 
  Association of Academic Health Sciences Libraries, Medical Library 
            Association, and Special Libraries Association.]

    Dear Chairwoman Capito, Ranking Member Schatz, and members of the 
subcommittee:

    Thank you for the opportunity to submit testimony for the record in 
support of the fiscal year 2016 funding requests of the Government 
Publishing Office (GPO) and the Library of Congress (LC). We 
congratulate Chairwoman Capito on her selection as chair of the 
Legislative Branch Subcommittee and Ranking Member Schatz on his 
selection as ranking member. We appreciate the supportive comments both 
of you made during the March 17 hearing on the Library of Congress.
    The American Association of Law Libraries (AALL), the Association 
of Academic Health Sciences Libraries (AAHSL), the Medical Library 
Association (MLA), and the Special Libraries Association (SLA) 
represent more than 18,000 librarians and information specialists in 
the United States and around the world. We serve researchers, students, 
professionals, businesses, and members of the public with their 
information needs. Our members rely on GPO for permanent public access 
to official, authentic Government information and on LC for access to 
unique collections and authoritative resources. GPO and LC also provide 
leadership on many critical information policy issues, such as 
authentication, digitization, and preservation. Therefore, advocating 
for adequate funding for these agencies is a high priority for our 
associations.
                      government publishing office
    Access to Government information is the bedrock of a strong 
democracy. For more than 150 years, GPO has ``kept America informed'' 
by providing access to official, authentic Government information. 
Today, GPO provides cost-effective access to Government information 
from all three branches in tangible and electronic formats primarily 
through the 200-year-old Federal Depository Library Program (FDLP) and 
FDsys.
    We are pleased that Congress recognized GPO's place in the twenty-
first century by approving a name change for the agency in the 
Consolidated and Continuing Appropriations Act of Fiscal Year 2015, 
Public Law 113-235. The new name, which changed GPO from the Government 
Printing Office to the Government Publishing Office, reflects GPO's 
essential role in publishing and providing access to print and 
electronic information in the digital age.
    Our associations strongly support GPO's request of $120 million, 
essentially a flat funding request. We urge the subcommittee to fully 
fund each account within the request, including Congressional 
Publishing, Public Information Programs of the Superintendent of 
Documents, and the Revolving Fund.
    Our associations support GPO's request of $79,736,000 for the 
Congressional Publishing account. Legislative information--the daily 
and bound Congressional Record, congressional bills, full committee 
hearings, reports, prints and documents, as well as other materials--is 
among the most highly used Government material. While our members value 
the ability to access many of these materials electronically through 
FDsys, they continue to rely on print distribution of congressional and 
other materials to depository libraries. In part, this is because not 
all collections on FDsys are complete; for example, GPO recently 
conducted a study that revealed that thirty percent of distributed 
hearings are not available on FDsys. In addition, many users, including 
members of the public, law students, and faculty, still prefer to use 
the print. Therefore, it is essential that GPO continue to produce some 
materials in tangible form.
    We also urge you to approve the requested $30,500,000 for the 
Public Information Programs of the Superintendent of Documents, which 
supports cataloging, indexing, and distribution of Federal publications 
to depository libraries. As indicated in the Superintendent of 
Documents' National Plan for the Future of the FDLP, support for a 
strong cataloguing and indexing program is essential to ensuring 
continued discovery and access to Government information.
    For more than 200 years, the FDLP has provided geographically 
convenient access to Government information through a network of 
libraries around the country. Today, your constituents have access to 
congressional and other important Government publications and 
information products through the FDLP, with the assistance of trained 
librarians. The FDLP is undergoing a transformation to an increasingly 
electronic program. A key component of the National Plan is the Federal 
Information Preservation Network, which we believe will ensure 
continued access to Government information, now and for future 
generations.
    Our associations also support GPO's request of $9,764,000 for the 
Revolving Fund. Particularly important to our associations is funding 
for the next generation of FDsys. FDsys launched in 2009 as the source 
for no-fee access to official, authentic Government information and 
today includes more than one million individual titles from all three 
branches of Government. Members of our associations contributed to the 
development of the first generation of FDsys. For example, AALL members 
suggested the ``search by citation'' feature, which was implemented by 
GPO. It is very important that GPO has adequate funding to increase 
FDsys content, improve search functionality, and pursue certification 
as a Trustworthy Digital Repository.
                          library of congress
    For 215 years, the Library of Congress has been dedicated to its 
mission to support the Congress in fulfilling its constitutional duties 
and to further the progress of knowledge and creativity for the benefit 
of the American people. LC has the unique role of acquiring, 
cataloguing, preserving, and making accessible a vast array of books, 
recordings, photographs, maps, and manuscripts.
    The Law Library of Congress is the world's largest law library, 
with a collection of nearly three million volumes spanning the ages and 
covering virtually every jurisdiction in the world. The Law Library is 
a world leader in providing access to reliable legal materials in print 
and electronic formats. We strongly support the Library's priority 
initiatives, including the classification of the remaining volumes to 
Class K Law Classification and the hiring of dedicated staff to 
complete this work. Additional staff will allow the Law Library to 
complete this challenging work in a timely manner and improve the 
discoverability and accessibility of these materials.
    We also support the Library's $4,814,000 request for its National 
Collection Stewardship Program to protect its collections by expanding 
storage on its Capitol Hill campus through the installation of compact 
shelving and the lease of interim collections storage space until 
construction of Fort Meade modules, including Module 5, is complete. 
The Library's one-of-a-kind collection must be protected.
    As information is increasingly produced, acquired and preserved 
electronically, the Library faces monumental challenges in its quest to 
provide access to knowledge. Therefore, we support the Library's 
decision to hire a Chief Information Officer (CIO) and Deputy CIO. We 
believe the CIO and Deputy CIO will help the Library update its 
infrastructure and better respond to the growing needs of the 
institution.
    We commend LC and GPO for working together, along with the National 
Archives and Records Administration, to form the Federal Web Archiving 
Working Group. Preserving born-digital Government information and 
making it accessible will benefit librarians, researchers, historians, 
and all Americans. Without this collaboration, publicly available born 
digital materials are at risk of being lost forever.
                               conclusion
    GPO and LC play a critical role in ensuring permanent public access 
to Government information in all formats and preserving our cultural 
heritage. GPO and LC ensure that the American people have continued 
access to the information that supports a strong democracy.
    AALL, AAHSL, MLA, and SLA respectfully urge you to fully fund the 
appropriations requests of the Government Publishing Office and the 
Library of Congress.
            Sincerely,
                                   Holly M. Riccio,
                                                 President,
                             American Association of Law Libraries.

                         ABOUT THE ASSOCIATIONS

    AALL.--The American Association of Law Libraries (AALL) was founded 
in 1906 to promote law libraries' value to the legal and public 
communities, foster the law librarianship profession, and provide 
leadership in the legal information field. With nearly 5,000 members, 
AALL represents law librarians and related professionals who are 
affiliated with law firms; law schools; corporate legal departments; 
courts; and local, state, and Federal Government agencies.
    AAHSL.--The Association of Academic Health Sciences Libraries 
(AAHSL) supports academic health sciences libraries and directors in 
advancing the patient care, research, education and community service 
missions of academic health centers through visionary executive 
leadership and expertise in health information, scholarly 
communication, and knowledge management. AAHSL membership is composed 
of 166 academic health sciences libraries whose medical schools hold 
member or associate member status in the Association of American 
Medical Colleges.
    MLA.--The Medical Library Association (MLA) is a nonprofit, 
educational organization with 3,700 health sciences information 
professional and institutional members worldwide. Founded in 1898, MLA 
provides lifelong educational opportunities, supports a knowledgebase 
of health information research, and works with a global network of 
partners to promote the importance of quality information for improved 
health to the healthcare community and the public.
    SLA.--The Special Libraries Association (SLA) is a nonprofit global 
organization for innovative information professionals and their 
strategic partners. SLA serves about 8,000 members in 75 countries in 
the information profession, including corporate, academic, and 
Government information specialists. SLA promotes and strengthens its 
members through learning, advocacy, and networking initiatives.
                                 ______
                                 
         Prepared Statement of the Congressional Data Coalition
    Dear Chairman Capito, Ranking Member Schatz, and Senators Kirk, 
Moran, and Murphy:

    Thank you for the opportunity to submit testimony on legislative 
branch funding priorities for fiscal year 2016. Our recommendations 
focus on improving efficiency within and transparency concerning 
offices and agencies of the legislative branch, with an emphasis on 
better use of information technology.
                                about us
    The Congressional Data Coalition is a coalition of citizens, public 
interest groups, trade associations, and businesses that champion 
greater Government transparency through improved public access to and 
long-term preservation of congressional information.\1\
---------------------------------------------------------------------------
    \1\ For more information, visit http://congressionaldata.org/.
---------------------------------------------------------------------------
                recognition of ongoing senate activities
    We commend the United States Senate for its recent commitment to 
publish bill status and summary information--soon to be joined by 
legislative text--online and in a structured data format. We also 
appreciate the quarterly public meetings hosted by the invaluable Bulk 
Data Task Force, of which delegates from the Senate often participate. 
We remain hopeful that progress will be made on the Joint Committee on 
Printing's directive to digitize volumes of the Congressional Record 
from 1873 to 1998.
                          summary of requests
  --Extend and broaden the Bulk Data Task Force
  --Publish the Congressional Record in XML and eliminate electronic 
        publication gaps
  --Publish a complete and auditable archive of bill text, in a 
        structured electronic format
  --Instantiate a Senate-wide committee record publishing system
  --Publish a contemporaneous list of widely-distributed CRS reports 
        that contains the report name, publication/revision/withdrawal 
        date, and report ID number
  --Release widely-distributed CRS reports to the public
  --Publish Bioguide in XML with a change log
  --Publish the Constitution Annotated in a machine-readable format
  --Publish Senate office and support agency reports online
  --Publish Senate Expenditure Reports in a machine-readable format
              extend and broaden the bulk data task force
    One of the greatest successes of the efforts to modernize 
legislative information was the creation of the Bulk Data Task 
Force,\2\ the recommendations of which led to the online publication of 
bill summaries and text in a structured data format and the commitment 
to add bill status information this year, as well as other 
improvements. While the Task Force issued its final report in the 113th 
Congress, many of its participants continue to meet. The Task Force is 
a unique forum for congressional content creators and publishers to 
work together and interact with the public. We hope the Senate will 
deepen its participation as it continues to send delegates from its 
Senate and legislative support offices to participate in deliberations.
---------------------------------------------------------------------------
    \2\ House Report 112-511, available at http://www.gpo.gov/fdsys/
pkg/CRPT-112hrpt511/pdf/CRPT-112hrpt511.pdf.
---------------------------------------------------------------------------
    We urge the subcommittee to formally reestablish the Task Force on 
a permanent basis and expand its mission to broadening availability of 
congressional information in machine readable formats. There is 
precedent for this, with the XML Working Group that was created in the 
1990s to establish document type definitions for use in creating 
legislative documents in XML.\3\ Its scope should include legislative 
information and records held by committees, offices, and legislative 
branch agencies as well as other information concerning the operation 
of Congress.
---------------------------------------------------------------------------
    \3\ See http://xml.house.gov/.
---------------------------------------------------------------------------
                      congressional record in xml
    The Congressional Record, as the official record of the proceedings 
and debates of the Congress, is central to understanding congressional 
activities. Many of the resources we have come to rely upon, such as 
Congress.gov, republish just a fraction of its contents. Unfortunately, 
the Congressional Record is not published in bulk in a structured data 
format, but instead as plain text, and, in some cases, as less 
versatile PDFs. In addition, the Congressional Record is available 
online only from 1994 forward and prior to 1873. The Joint Committee on 
Printing authorized GPO to fill in the 100-plus-year gap in 2011,\4\ 
although it is unclear whether online publication would be as 
structured data or in a less flexible format (such as PDF).
---------------------------------------------------------------------------
    \4\ See http://www.scribd.com/doc/48672433/Constitution-Annotated-
Congressional-Record-and-Statutes-at-Large.
---------------------------------------------------------------------------
    While there had been efforts by the public to scrape the version of 
the Congressional Record on the old THOMAS.gov,\5\ the results were 
incomplete and the same scrapable information no longer exists on 
Congress.gov. Moreover, there is no substitute for official publication 
in a structured data format like XML. We urge the committee to inquire 
into GPO's efforts to fill the online publication gap and to require 
future publication of the Congressional Record in XML.\6\
---------------------------------------------------------------------------
    \5\ https://sunlightfoundation.com/blog/2014/02/20/sample-the-new-
a-la-carte-congressional-record-parser/.
    \6\ In the meanwhile, publication of the Congressional Record in 
locator code format along with GPO's locator code-to-PDF conversion 
software, in source code form, may suffice in the interim.
---------------------------------------------------------------------------
                    complete and auditable bill text
    The Government Publishing Office is charged to accurately and 
authentically print the bills before Congress, yet there are gaps in 
GPO's archive--as seen on FDSys--without any explanation. In addition, 
public access to the text of bills in the 101st and 102nd Congresses 
are being removed as a part of the retirement of THOMAS.gov. 
Furthermore, GPO holds structured data for bills prior to the 111th 
Congress (when both House and Senate legislation were first published 
in XML) that it does not make available to the public at all (i.e., in 
locator code format). We ask that GPO publicly report on the presence 
or absence of public access to all prints of bills starting with the 
101st Congress, including access to the prints in a structured data 
format, with a public audit log in CSV format. This would build trust 
in GPO's authenticity and accuracy processes.
      instantiate a senate-wide committee record publishing system
    Committee documents are vital records of congressional activity, 
but they often are hard to find or search, and are subject to removal 
from a committee website when leadership turns over or Web sites are 
updated. We urge the Senate to institute a chamber-wide committee 
publishing system that serves as a comprehensive repository across 
committees and congresses.
    To address this problem, the House of Representatives created 
Docs.house.gov, which ``provides access to committee documents and text 
of legislation being considered in committee . . .'' dating back to the 
112th Congress in XML formats where available. It includes meeting 
notices, witness lists, witness and member statements, legislative and 
amendment text, and more. The Clerk of the House administers the site 
to ensure it is viewed as nonpartisan. Docs.house.gov guarantees that 
public access to committee records is maintained even as leadership 
changes and committee websites are updated. We urge the Senate to 
provide the same level of access to its committee documents.
                              crs reports
    CRS reports often inform public debate. Its analyses are routinely 
cited in news reports, by the courts, in congressional debate, and by 
government watchdogs. However, unlike its sister legislative branch 
agencies, CRS reports are not released to the public by CRS even though 
CRS routinely shares them with the media upon request and with 
officials in the executive branches. In addition, public access often 
is through third parties that routinely charge a fee for access. We 
believe all Americans should have an equal opportunity to be educated 
about important legislative issues--including knowing which reports 
have recently been released and having free access to them.
    We request the subcommittee require CRS to contemporaneously 
publish online a list of the names, report numbers, and publication/
revision/withdrawal dates for CRS reports. We do not include CRS 
memoranda, which are confidential. In this way, members of the public 
may contact their Senators if they see a report they are interested in 
upon its publication or revision. CRS already provides an annual report 
to the Committee, published on CRS's Web site, which lists the total 
number of reports issued or updated. In fiscal year 2012, for example, 
534 new reports were prepared and 2,702 reports were updated.\7\ This 
accounting should be expanded to include an index of the reports and be 
updated on a daily basis in a machine-readable format.
---------------------------------------------------------------------------
    \7\ Annual Report of the Congressional Research Service of the 
Library of Congress for Fiscal Year 2012, p. 2, available at http://
www.loc.gov/crsinfo/about/crs12_annrpt.pdf.
---------------------------------------------------------------------------
    We further request the public be provided direct online access to 
the recent Congressional Research Service reports, which we have 
discussed in prior testimony to the Committee.\8\
---------------------------------------------------------------------------
    \8\ See Comments of the Sunlight Foundation, May 24, 2013, 
available at https://s3.amazonaws.com/assets.sunlightfoundation.com/
policy/testimony/Sunlight%20Foundation%20
Leg%20Branch%20Approps%20Testimony%202013-05-24.pdf.
---------------------------------------------------------------------------
               publish bioguide in xml with a change log
    The Biographical Directory of the United States Congress (or 
Bioguide) is an excellent source of information about current and 
former Members of Congress. Since 1998, the online version of the 
Bioguide has been maintained by staff in the Office of the Clerk's 
Office of History and Preservation and the Office of the Historian of 
the United States Senate at http://bioguide.congress.gov. Since at 
least 2007, the underlying data structures for Bioguide data have been 
provided by the House at its XML Web site. Unfortunately for those who 
wish to programmatically make use of the information, the Web site's 
data is published only in HTML. In addition, the Bioguide Web site 
provides up to three HTML files for each Member: a biography, extended 
bibliography, and research collection, which can triple the amount of 
work required to fully scrape the Web site. We recommend Bioguide 
information be published in XML. In addition, a change log for the 
Bioguide Web site through Twitter or an RSS/Atom feed would be helpful 
to keep the public apprised of updates/changes.
                         constitution annotated
    The Constitution Annotated (or CONAN) is a continuously-updated 
century-old legal treatise that explains the Constitution as it has 
been interpreted by Supreme Court. While the Joint Committee on 
Printing required in November 2010 that GPO and CRS to publish CONAN 
online, with new features, and with updates as soon as they are 
prepared, it did not require publication in a machine-readable 
format.\9\ This is an important omission, as the document is prepared 
in XML yet published online as a PDF, even while it is internally 
available to Congress as a series of HTML pages. This issue is ripe for 
resolution. At a minimum, publication of either the XML source or the 
HTML pages would address many of our concerns.
---------------------------------------------------------------------------
    \9\ See http://www.scribd.com/doc/48672433/Constitution-Annotated-
Congressional-Record-and-Statutes-at-Large.
---------------------------------------------------------------------------
                senate office and support agency reports
    The legislative offices and agencies that support the work of the 
United States Senate issue annual or semi-annual reports on their work. 
These reports are of interest to the public as they help explain 
legislative operations and often can help ensure public accountability. 
While some offices routinely publish their reports online, others do 
not, or do not do so in a timely fashion. We urge that the subcommittee 
to require all legislative support offices and agencies that regularly 
issue reports that summarize their activities to publish those reports 
online in a timely fashion, including back issues.
         semi-annual senate report on receipts and expenditures
    The semi-annual Senate report on Receipts and Expenditures contain 
all spending by the U.S. Senate and are currently published online as a 
PDF. They should be published as data files, such as CSV, to allow for 
the public to easily analyze the information. The online publication 
that started in 2011 was a significant step forward, but the data 
should be available in a more flexible format.
    We appreciate your attention to these issues.

            Sincerely yours,

        Congressional Data Coalition
        Data Transparency Coalition
        Demand Progress
        Free Government Information
    GovTrack.us
    OpenTheGovernment.org
    R Street Institute
    Sunlight Foundation

    [This statement was submitted by Daniel Schuman, Demand Progress 
Policy Director.]
                                 ______
                                 
   Prepared Statement of the Library of Congress Professional Guild, 
                           AFSCME Local 2910
    Chairwoman Capito, Ranking Member Schatz, and members of the 
subcommittee:

    Thank you for providing us with this opportunity to comment on the 
fiscal year 2016 budget request for the Library of Congress submitted 
by the Librarian, Dr. James H. Billington. Our organization--the 
Library of Congress Professional Guild, AFSCME Local 2910--represents 
over 1250 professional employees throughout the Library of Congress 
including Library Services, the Copyright Office, the Law Library, 
Information Technology Services and the Office of Strategic 
Initiatives, and all of the Library's Support Operations.
    The American economy is a knowledge-based economy which demands 
high levels of education and innovation. The ability to leverage the 
intellectual capital in our society is becoming as important as the 
utilization of our natural resources or the production of commodities. 
Advances in medicine, science, energy, literature and the arts, 
telecommunications and information technology are being transformed 
into economic prosperity for our Nation.
    The Library of Congress has a pivotal role to play in this 
unfolding drama. We thank you for your support of the Library's 
programs in fiscal year 2015 and we urge you to support the Librarian's 
current budget request of $666.6 million.

    Staffing.--Sequestration and flat funding in recent years have 
taken a toll. It can be debated whether the Library is experiencing a 
``retirement tsunami.'' But one thing is certain--talented, seasoned 
Library veterans are leaving the workforce at an alarming rate, taking 
with them their institutional knowledge and often a life-time of 
experience. This exodus of career employees poses a growing threat 
which is undermining the Library's ability to fulfill its' mission.
    Hiring staff to fill critical vacancies is imperative to stem the 
erosion of the Library's mission-critical functions. As statistical 
information the Guild recently compiled shows, two of the Library's 
core functions have suffered crippling shortages. In 2004 there were 
506 staff members in the Acquisitions and Bibliographic Access (ABA) 
unit of Library Services. Ten years later--in 2014--these cataloging 
and acquisition librarians saw their numbers reduced to 238, a roughly 
50 percent decrease. Similarly, reference services in the Library's 
Collections Services (CS) unit were supported by 313 staff members in 
2004. But by 2014 their numbers were reduced to 238, almost a 25 
percent reduction in the staff who directly serve our users. 
Congressional support is essential if the Library is to sustain its' 
staff many of whom have highly specialized subject matter and foreign 
language expertise.
    I am pleased to report to the subcommittee one small, but important 
initiative at the Library, a 1 year Phased Retirement Pilot program 
that was negotiated with the Library's three unions.
    On August 8, 2014 the Office of Personnel Management (OPM) 
published the final rules for its' phased retirement program and, soon 
thereafter, the Library proposed the establishment of a Phased 
Retirement Pilot. Although the Library's pilot is a modest one, we are 
pleased to note that it is the first one implemented in the Federal 
Government; we hope it will assist the Library with the transfer of 
knowledge from veteran staff to the next generation of employees.

    Stewardship.--The Library of Congress is well-known for having the 
largest and most comprehensive collection of intellectual and cultural 
materials in the world. But where is it going to house all of these 
collections? Even digital resources must be housed.
    Members of the subcommittee may have heard stories of the hundreds 
of thousands of books on the floor or on book trucks in the Jefferson 
and Adams buildings. It may be hard for subcommittee members to 
visualize, but this overcrowding of the stacks also creates and 
magnifies the fire safety and life safety hazards present in those book 
stacks, putting the collections at greater risk as well as the 
employees who work in the stacks.
    Our book stacks are housed on a metal grid of flooring that is very 
old. Unlike the regular floors in these historic buildings, the stacks 
provide no good barriers to the spread of fire and smoke. An old book 
conveyor system cuts through the floors making a path for the spread of 
fire. In addition, the weight of all of these books is nearing the peak 
load sustainable by the metal grid of flooring. These areas have no 
protected exit path for staff and some even lack fire doors.
    As far back as 2000-2001, the Office of Compliance cited the 
Library and the Architect of the Capitol for these life safety and fire 
safety hazards and while some corrections have been made, overloading 
the stacks and piling books on the floor makes conditions worse. At 
least, the overcrowding can be alleviated with funds for offsite 
storage. And please support the Architect's request for funding to 
build protected exits for the Adams and Jefferson buildings.
    Like Gutenberg's printing press seven centuries ago, advances in 
information technology have triggered another information revolution 
that affects every part of American society. Just like traditional 
print materials, acquiring, maintaining, providing access and 
preserving digital materials and digital collections present unique 
problems and challenges. For the past 30 years, the Library's programs 
to collect and manage digital materials in its special collections have 
been based in different Library units without an adequate central 
location to provide coordination and communication, but with your 
support that is about to change.
    The Guild seeks your support for the Library's request for funding 
to establish and staff a Digital Collections Center. The Library's 
collection of digital materials doubles in size every few years and 
this rapid growth shows no sign of abating in the years to come. Both 
for the Library itself and the wider American and world library 
community, there needs to be a centralized platform for managing the 
vast array of digital materials that the Library collects.

    The National Library Service for the Blind and Physically 
Handicapped.--The National Library Service for the Blind and Physically 
Handicapped (NLS) administers a free library service to U.S. citizens 
who, due to organic dysfunction, are unable to read conventionally 
printed materials. This includes persons with blindness, low vision, 
macular degeneration, as well as those with physical disabilities, such 
as Parkinson's Disease, Muscular Dystrophy, Cerebral Palsy, spinal cord 
injuries--in other words, anyone with a condition that inhibits the 
handling of printed material. NLS administers this national library 
system for persons with print disabilities and supplies audio and 
braille books, magazines, and music-instructional materials via a 
network of libraries that includes 55 regional, 39 sub-regional 
libraries and 14 advisory and outreach centers serving over 500,000 
patrons. Books and magazines are available in accessible audio and 
braille formats; books are sent on flash memory cartridges to patrons 
or can be downloaded directly from the BARD Web site and a free digital 
player is provided for audio titles. Over 23 million books and 
magazines are circulated annually by NLS.
    Due to the rapid changes in accessible technologies and 
improvements in delivery mechanisms, access to materials by the print 
disabled community is improving. To that end, the Guild supported the 
staff of NLS by advocating for the Marrakesh Treaty to Facilitate 
Access to Published Works for Persons Who Are Blind, Visually Impaired 
or Otherwise Print Disabled. NLS rightly enjoys a reputation as a 
global leader in the provision of library service for persons with 
print disabilities and serves a diverse patron base that includes 
veterans, children, the elderly, and an ever-growing Spanish-speaking 
population. We thank the committee for its continued support of this 
vital service for many persons with disabilities across the United 
States.

    The U.S. Copyright Office.--The creativity of authors in the United 
States is available everywhere one looks--in ebooks and print, in songs 
on streaming Internet radio, in motion pictures, and in smartphone apps 
hidden in our pockets. It is no understatement to say that American 
creativity brings cultural and economic riches.
    As the agency administering Copyright Law, the U. S. Copyright 
Office plays a critical role in the life of our Nation. Today, elected 
officials, academics, and others are examining how the Copyright Office 
can better serve the public; strengthen its technology infrastructure, 
and broaden its external mission. Such a review is important and long 
overdue. Behind this big picture, we wish to highlight the Copyright 
Office's Registration Program, whose employees work directly with small 
authors and the large copyright industry.
    Copyright owners rely on registration because the Copyright Office 
uses it to establish a public record of copyright ownership. These 
public records represent a stable foundation of copyright facts that 
enable parties to resolve problems without litigation. Of the 476,000 
copyright claims that were registered by the Office in 2014, less than 
1 percent ended up in U.S. Federal court. The copyright registration 
system hums because of 79 registration specialists and 7 problem 
resolution specialists. These individuals are the unflagging engine of 
the Copyright Office.
    Unfortunately, the number of registration staff has diminished 
substantially over the last 4 years (there were 130 registration 
specialists in 2010). For this reason, the Guild strongly supports the 
budget request for increased funding to the Copyright Office. The 
addition of 20 Registration Specialists comes at a critical time; work-
on-hand is increasing and the electronic system remains inadequate and 
unfinished.
    The Guild also supports the Library's request to add 5 full-time 
equivalents (FTEs) in Recordation to direct the business process 
reengineering in that area. The office must continue its transition 
from a labor-intensive paper process to an effective electronic one.

    Office of Inclusiveness, Opportunity and Compliance.--Resources for 
the Library's Office of Inclusiveness, Opportunity and Compliance (OIC) 
are at its lowest ebb. OIC implements the Library's Equal Employment 
Opportunity Program. It is responsible for the internal resolution of 
complaints and charges of discrimination and for assisting managers, 
supervisors, and employees with the resolution of other workplace 
disputes through mediation. The Office is a resource for identifying 
effective accommodations under the Americans with Disabilities Act and 
it provides interpreting services for deaf and hard of hearing 
employees and members of the public. It provides training and analysis 
on diversity issues. But insufficient staffing and stature within the 
Library has resulted in significant delays in mediation services, 
providing effective accommodations, and discrimination complaint 
processing.

    Information Technology.--This past year the Government 
Accountability Office (GAO) has been at the Library studying the 
Library's technology infrastructure. And on January 23, 2015 Dr. 
Billington announced that the Library will be conducting a national 
search for a Chief Information Officer and a Deputy Chief Information 
Officer. The forthcoming GAO report and the selection of a CIO is big 
news.
    We assure the members of the subcommittee that whatever 
recommendations or changes may be implemented as a result of these 
initiatives, they can depend upon the IT specialists at the Library of 
Congress to move forward with dedication, expertise and skill. While 
there is an air of uncertainty about the future of the Library's IT 
management structure, we know that the employees who provide direct, 
in-house technology services and digital planning will be there for us 
on the front lines, thinking forward to the next challenge.
    In conclusion, thank you for your continuing support for the 
programs and staff of The Library of Congress.
                                  Saul Schniderman,
                                                 President,
         Library of Congress Professional Guild, AFSCME Local 2910.





       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Adams, Hon. Julie E., Secretary of the Senate, Office of the 
  Secretary:
    Prepared Statement of........................................    43
    Statement of.................................................    39
    Summary Statement of.........................................    41
American Association of Law Libraries, Prepared Statement of the:
    Testimony on behalf of the American Association of Law 
      Libraries, Association of Academic Health Sciences 
      Libraries, Medical Library Association, and Special 
      Libraries Association......................................   162
Ayers, Hon. Stephen T., Architect of the Capitol:
    Prepared Statement of........................................   126
    Statement of.................................................   125

Billington, Dr. James H., Librarian of Congress, Library of 
  Congress:
    Prepared Statement of........................................    98
    Questions Submitted to.......................................   147
    Statement of.................................................    95
    Summary Statement of.........................................    96
Bittner, Mamie, Director of Communications and Congressional 
  Relations, Architect of the Capitol............................   125
Braddock, Richard, Chief Administrative Officer, United States 
  Capitol Police.................................................    72

Capito, Senator Shelley Moore, U.S. Senator From West Virginia:
    Opening Statements of 




    Questions Submitted by 




Carroll, Tom, Chief Financial Officer, Architect of the Capitol..   125
Congressional Data Coalition, Prepared Statement of the..........   164

Dine, Hon. Kim C., Chief of Police, United States Capitol Police:
    Prepared Statement of........................................    74
    Questions Submitted to.......................................    91
    Statement of.................................................    72
Dodaro, Hon. Gene L., Comptroller General of the United States 
  Government Accountability Office:
    Prepared Statement of........................................    10
    Statement of.................................................     9

Elmendorf, Dr. Douglas W., Director of the Congressional Budget 
  Office:
    Prepared Statement of........................................     5
    Questions Submitted to.......................................    36
    Statement of.................................................     1
    Summary Statement of.........................................     3

Garcia, Ileana, Financial Clerk at the U.S. Senate, Office of the 
  Secretary......................................................    39

Jones, Mary Suit, Assistant Secretary of the U.S. Senate, Office 
  of the Secretary...............................................    39

Keninger, Karen, Director, National Library Service for the Blind 
  and Physically Handicapped, Library of Congress................    95
Klutts, Mary, Chief Financial Officer, Library of Congress.......    95
Larkin, Hon. Frank J., Sergeant at Arms and Doorkeeper, U.S. 
  Senate:
    Prepared Statement of........................................    60
    Questions Submitted to.......................................    90
    Statement of.................................................    59
Library of Congress Professional Guild, AFSCME Local 2910, 
  Prepared Statement of the......................................   167

Malloy, Daniel, Assistant Chief and Chief of Operations, United 
  States Capitol Police..........................................    72
Mao, David, Deputy Librarian of Congress, Library of Congress....    95
Mazanec, Dr. Mary B., Director, Congressional Research Service, 
  Library of Congress............................................    95
    Prepared Statement of........................................   102
Merdon, Christine, Chief Operating Officer, Architect of the 
  Capitol........................................................   125
Morhard, Jim, Deputy Sergeant at Arms, U.S. Senate...............    59

Newlen, Robert, Chief of Staff, Library of Congress..............    95

Pallante, Maria A., Register of Copyrights and Director of the 
  United States Copyright Office, Library of Congress............    95
    Prepared Statement of........................................   106

Ropella, Fay F., Inspector General, United States Capitol Police.    72

Sapin, Barbara J., Executive Director of the Office of 
  Compliance, Prepared Statement of..............................   160
Schatz, Senator Brian, U.S. Senator From Hawaii:
    Questions Submitted by 



    Statements of 




Scheffler, Elizabeth, Interim Chief Information Officer and 
  Associate Librarian for Strategic Initiatives, Library of 
  Congress.......................................................    95
Suddreth, Lucy, Director of Support Operations, Library of 
  Congress.......................................................    95
Sweeney, Mark, Associate Librarian for Library Services, Library 
  of Congress....................................................    95

Vance-Cooks, Davita, Director, Government Publishing Office, 
  Prepared Statement of..........................................   151




                             SUBJECT INDEX

                              ----------                              

                                                                   Page

                        ARCHITECT OF THE CAPITOL

Additional Committee Questions...................................   147
Aging Buildings Require Critical Investment......................   127
Architect of the Capitol Poster Boards (Photos 1-15).............   134
Contract Oversight...............................................   145
Critical Projects................................................   131
Fort Meade.......................................................   146
Hart Atrium and Calder Sculpture.................................   144
Photos:
    Architect of the Capitol Stonemason Makes Repairs to the 
      Olmsted Terrace Walls......................................   129
    Chiller Reaching the End of Its Life Expectancy..............   132
    Deteriorated Senate Underground Garage.......................   132
    Deteriorating Stone on the Russell Senate Office Building 
      Exterior...................................................   128
    Olmsted's Summerhouse is an American Historic Treasure.......   131
    Safety Canopy Over the Rotunda in Support of the Capitol Dome 
      Restoration................................................   126
    Spalling Stone on the U.S. Capitol Building..................   130
    Stone Sugaring on the Russell Senate Office Building 
      Balustrade.................................................   130
Project:
    Prioritization Process.......................................   142
    Schedule and Cost............................................   146
Stone Deterioration..............................................   143
U.S. Capitol Dome Restoration....................................   142
Union Square and Grant Memorial Conservation.....................   144
                               __________

                      CONGRESSIONAL BUDGET OFFICE

Additional Committee Questions...................................    36
CBO's Funding:
    History and Its Effects on Staffing and Output...............     5
    Request and Its Consequences for Staffing and Output.........     7
Dynamic Scoring..................................................    31
    Impact on CBO's Staff........................................    33
    Uncertainty of CBO's Estimates...............................    35
Energy Savings Performance Contracts (ESPCs) and Utility Energy 
  Service Contracts (UESCs)......................................    26
Explanation for Three New Full-time Equivalent Positions.........    24
FTEs Authorized for Fiscal Years 2002 Through 2016--Figure 1.....     6
Funding for Fiscal Years 2011 Through 2016--Figure 2.............     6
Hiring Employees With Non-Immigrant Visas........................    24
King v. Burwell..................................................    28
Twenty Percent Reduction in Affordable Care Act Subsidies........    30
Use of Contractors at CBO........................................    24
                               __________

                    GOVERNMENT ACCOUNTABILITY OFFICE

Appendix I: GAO's 2015 High Risk List............................    21
    Assessing the Efficiency and Effectiveness of Tax Law 
      Administration.............................................    21
    Ensuring Public Safety and Security..........................    21
    Managing Federal Contracting More Effectively................    21
    Modernizing and Safeguarding Insurance and Benefit Programs..    22
    Strengthening the Foundation for Efficiency and Effectiveness    21
    Transforming DOD Program Management..........................    21
Appendix II: GAO's Strategic Plan Framework......................    23
Assisting Congress and the Nation................................    12
    Examples of Fiscal Year 2014 Testimonies By Goal--Figure 1...    15
        Goal 1: Address Current and Emerging Challenges to the 
          Well-being and Financial Security of the American 
          People.................................................    15
        Goal 2: Respond to Changing Security Threats and the 
          Challenges of Global Interdependence...................    15
    Fragmentation, Overlap, and Duplication......................    17
    GAO Contribution to a Wide Range of Key Appropriations and 
      Authorization Legislation..................................    12
        Cost Savings and Efficiencies............................    13
        Improvements to Federal Acquisitions.....................    13
        Increasing Government Transparency.......................    13
        Protecting Workers and Consumers.........................    14
        Responding to Emerging Security Issues...................    13
        Services for Veterans....................................    13
    GAO's Work Helps Congress Avoid Sequestration................    12
    High Risk Program............................................    16
    Legal Work...................................................    17
    Program and Operational Benefits Due to GAO's Work...........    14
    Testimonies..................................................    15
Background.......................................................    11
Center for Audit Excellence 



Fiscal Year 2010 Baseline and Fiscal Year 2014 to Fiscal Year 
  2016 Summary of Resources......................................    19
Fiscal Year 2016:
    Performance Budget...........................................    11
    Requirements.................................................    18
GAO:
    2015 High Risk List--Appendix I..............................    21
        Assessing the Efficiency and Effectiveness of Tax Law 
          Administration.........................................    21
        Ensuring Public Safety and Security......................    21
        Managing Federal Contracting More Effectively............    21
        Modernizing and Safeguarding Insurance and Benefit 
          Programs...............................................    22
        Strengthening the Foundation for Efficiency and 
          Effectiveness..........................................    21
        Transforming DOD Program Management......................    21
    Budget.......................................................     9
    Education Demographic........................................    25
    Highlights...................................................    11
    Recognized as One of the ``Best Places to Work''.............    20
    Reports and Recommendations..................................    33
    Return on Investment.........................................     9
    Strategic Plan Framework.....................................    23
    Workforce....................................................    10
Improper Payments................................................    34
Managing Workload by Focusing Resources on Congressional 
  Priorities.....................................................    18
Operational Efficiencies.........................................    19
    Building and Security........................................    20
    Information Technology.......................................    20
    Telework/Workspace-Sharing Pilots Reduce Costs and Improve 
      Operational Efficiency.....................................    20
Staff Capacity...................................................    19
    Priority Areas for Increased Staffing........................    19
Strategic Plan for Serving Congress..............................    18
Tax Gap..........................................................    34

                      GOVERNMENT PUBLISHING OFFICE

About............................................................   151
Fiscal Year 2016 Appropriations Request..........................   157
    Business Operations Revolving Fund...........................   159
    Congressional Publishing Appropriation.......................   158
    Facilities Projects..........................................   159
    Information Technology Projects..............................   159
        Enterprise System Upgrades...............................   159
        FDsys Projects...........................................   159
    Public Information Programs of the Superintendent of 
      Documents..................................................   158
GPO:
    And:
        Congress.................................................   153
            GPO Cuts the Cost of Congressional Work..............   153
            Highlights of Fiscal Year 2014 Congressional Work....   153
        Federal Agencies.........................................   153
            Highlights of Fiscal Year 2014 Agency Operations.....   154
            Partnership With Industry............................   154
        Open, Transparent Government.............................   155
            Federal:
                Depository Library Program.......................   155
                Digital System...................................   155
            FDsys Improvements Planned for Fiscal Year 2016......   156
            GPO:
                Achieves Savings in Information Dissemination....   156
                And Social Media.................................   157
            Publication and Information Sales Program............   156
            Reimbursable Distribution Program....................   156
    Finances.....................................................   157
        Appropriated Funds.......................................   157
        Business Operations Revolving Fund.......................   157
        Fiscal Year 2014 Financial Results.......................   157
        Retained Earnings........................................   157
History..........................................................   151
Strategic Vision and Plan........................................   152
Technology Transformation........................................   152
                               __________

                          LIBRARY OF CONGRESS

Building the Digital Collection 



Cairo, Egypt Overseas Office.....................................   121
Congressional Research Service:
    Budget Considerations........................................   104
        Health Experts...........................................   104
        Product and Service Enhancements.........................   105
        Workforce Initiatives....................................   105
    Centennial Publication, the Senate Rules Committee Print 
      ``The Evolving Congress''..................................   102
    Constitution of the Unted States of America Annotated........   102
    Healthcare Expertise in CRS..................................   116
    Senate Rules Committee Print ``The Evolving Congress''.......   102
    Support for Congress.........................................   103
        2014 Farm Bill...........................................   103
        Ebola Virus Outbreak.....................................   103
        Other Legislative Topics of Support......................   104
Copyright:
    Library of Congress Synergies................................   121
    Office Within the Library of Congress........................   119
Digital:.........................................................
    Collection Center 



    Library Content Group (DLCG) Criteria for Evaluating 
      Proposals to Digitize Analog Materials Prepared by 
      Specialists................................................   148
Evening Services of Congressional Dialogues on Great American 
  Presidents.....................................................   101
Exhibitions and Special Events...................................   102
Fiscal Year 2016 Budget Request 



Funding for Books for the Blind and Physically Handicapped.......   114
Futures Program..................................................   101
Healthcare Expertise in CRS......................................   116
Impact of Terrorism on Overseas Operations.......................   115
Law Library......................................................   100
Legislative Branch Financial Management System (LBFMS)...........   101
Library's:
    Congressional Research Service...............................    99
    Services.....................................................   100
    Veterans History Project (VHP)...............................   101
Members of Congress' Evening Services of Congressional Dialogues 
  on Great American Presidents...................................   101
National Collection Stewardship Program..........................   112
Resources and Organizational Location of Copyright...............   120
Services Performed by the Library's Dedicated and Multi-Talented 
  Staff 




Skill Gaps.......................................................   100
Staffing the Digital Collection..................................   119
Storage Space....................................................   100
Sustaining the Oldest Federal Cultural Institution...............   122
U.S. Copyright Office 



    Administering the Copyright Law..............................   108
        Recording Assignments, Security Interests, and Other 
          Copyright Documents....................................   108
        Registration.............................................   108
        Statutory Licenses.......................................   109
    Challenges of the Current Fiscal Environment.................   110
        Government Accountability Office.........................   111
        Staffing and Appointments................................   110
        Technical Upgrades Special Project.......................   111
    Copyright Office Within the Library of Congress..............   119
    Fiscal Year 2016 Budget Request..............................   107
    Library of Congress Synergies................................   121
    Resources and Organizational Location of Copyright...........   120
    Statutory Authority to Set Fees..............................   111
    Supporting the Congress and Federal Agencies.................   109
        Copyright Policy and the Digital Economy.................   109
        Policy Reports of the Copyright Office...................   110
Veterans History Project (VHP)...................................   101
                               __________

                          OFFICE OF COMPLIANCE

2016 Budget Request..............................................   160
Americans With Disabilities Act (ADA)............................   160
Board Members Agenda.............................................   160
Congressional Accountability Act (CAA)...........................   160
Contributions to the Safety of Congressional Workplaces Through 
  Its OSH Biennial Inspections and OSH Case Work.................   160
Fair Labor Standards Act (FLSA)..................................   160
Family Medical Leave Act (FMLA)..................................   160
Full-time Equivalents............................................   160
Occupational Health and Safety (OSH) Specialists.................   160
Program of Education for Members of Congress and Other Employing 
  Authorities of the Legislative Branch..........................   160
                               __________

                      UNITED STATES CAPITOL POLICE

Additional Committee Questions...................................    90
Cell Phone Policy................................................    85
Drones and Defense Tactics.......................................    83
Expenses Account.................................................    91
Hearing Security.................................................    86
Overtime.........................................................    88
Percentage of Female Officers....................................    79
Policy Regarding the Use of Personal Cell Phones, Personal Smart 
  Phones, or Other Personal Electronic Devices While on Duty.....    92
    Directive 1701.001, Uniforms and Equipment, Operational 
      Directive UNF 1.1, Uniforms, Equipment and Personal 
      Grooming...................................................    93
        Personal Pagers/Phones/Communication Devices.............    93
            Discipline Process for Rank and File Officers........    93
                Example of a Typical Process for a Violation.....    93
    Directive 2053.013. Rules of Conduct: Rule B10...............    92
        Rule B10: Neglect of Duty................................    92
Potential Impact of Sequester Levels In Fiscal Year 2016.........    79
Preparation for Pope Francis Visit...............................    82
Public Access Policies and Procedures............................    84
U.S. Capitol Police Morale.......................................    78
USCP Policy Regarding the Use of Personal Cell Phones, Personal 
  Smart Phones, or Other Personal Electronic Devices While on 
  Duty...........................................................    92
    Directive 1701.001, Uniforms and Equipment, Operational 
      Directive UNF 1.1, Uniforms, Equipment and Personal 
      Grooming...................................................    93
        Personal Pagers/Phones/Communication Devices.............    93
            Discipline Process for Rank and File Officers........    93
                Example of a Typical Process for a Violation.....    93
    Directive 2053.013. Rules of Conduct: Rule B10...............    92
        Rule B10: Neglect of Duty................................    92
                               __________

                              U.S. SENATE

                        Office of the Secretary

Additional Committee Questions...................................    90
Administrative and Executive Operations..........................    51
    Conservation and Preservation................................    51
    Curator......................................................    52
    Education and Training.......................................    52
    Gift Shop....................................................    53
    Historical Office............................................    53
    Human Resources..............................................    54
    Information Systems..........................................    54
    Interparliamentary Services..................................    54
    Legislative Information System (LIS) Project Office..........    54
    Library......................................................    55
    Page School..................................................    55
    Printing and Document Services...............................    56
    Public Records...............................................    56
    Senate Chief Counsel for Employment..........................    51
    Stationery Room..............................................    57
    Web Technology...............................................    57
Budget Request...................................................    43
    Office of the Secretary Apportionment Schedule--Table........    43
    Project Request--FMIS Modernization Project..................    44
Emergency Preparedness and Continuity Planning...................    58
Financial:
    Management Information System (FMIS) Modernization Project...    44
        Additional Funding Required for Software and 
          Implementation Services................................    45
        Major Phases and Timeline of the Proposed Modernization 
          Effort--Table 



    Operations...................................................    51
        Disbursing Office........................................    51
Implementing Mandated Systems....................................    46
    Update on Current Status of:
        Financial Management Information System (FMIS)...........    46
        Legislative Information System (LIS) Project.............    46
Legislative Services.............................................    47
    Bill Clerk...................................................    48
    Captioning Services..........................................    48
    Daily Digest.................................................    48
    Enrolling Clerk..............................................    48
    Executive Clerk..............................................    49
    Journal Clerk................................................    49
    Legislative Clerk............................................    49
    Official Reporters of Debates................................    50
    Parliamentarian..............................................    50

                    Sergeant at Arms and Doorkeeper

Additional Committee Questions...................................    90
Appendix A.......................................................    70
    Financial Plan for Fiscal Year 2016--Table...................    70
Capitol Operations...............................................    67
    Daily Press Gallery..........................................    68
    Office of Internal Communications............................    69
    Periodical Press Gallery.....................................    68
    Press Photographers Gallery..................................    68
    Radio and Television Gallery.................................    68
    Senate:
        Appointment Desk.........................................    68
        Doorkeepers..............................................    68
        Media Galleries..........................................    67
        Recording Studio.........................................    67
Employee Assistance Program......................................    70
Financial Plan for Fiscal Year 2016--Table.......................    70
Information Technology...........................................    62
    Active Directory--ID System Integration and Photo Display....    64
    Constituent Correspondence Services..........................    65
    Data Center Management.......................................    63
    Evaluating New Technologies..................................    63
    Microsoft Lync 2013..........................................    64
    Network Operations...........................................    63
    Office Application Manager...................................    64
    Replacing Switches...........................................    63
    Senate:
        IT Network Security and Response.........................    62
        Messaging and Authentication Services (SMAS).............    64
        Payroll System (SPS).....................................    63
    Systems Management Service (SMS).............................    64
    Telecommunications...........................................    65
    TransSAAct--Our Platform for Doing Business Online...........    64
Office of the Sergeant at Arms--United States Senate.............    70
Operations.......................................................    65
    Capitol Facilities...........................................    67
    Central Operations...........................................    65
    Office Support Services......................................    67
    Parking Operations...........................................    65
    Photography Studio...........................................    66
    Printing, Graphics, and Direct Mail..........................    66
    Senate Post Office...........................................    66
    Transportation and Fleet Operations..........................    66
Protective Services and Continuity...............................    61
    Contingency Programs.........................................    62
    Emergency Preparedness.......................................    61
    Security Planning and Police Operations......................    62
SAA Human Resources..............................................    69
    Senate Placement Office......................................    69
Senate Office of Education and Training..........................    69
    Health Promotion.............................................    70

                                   - 
</pre></body></html>
